<html>
<title> - REVIEW OF THE FISCAL YEAR 2017 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 114-792]
[From the U.S. Government Publishing Office]


 

                                                        S. Hrg. 114-792
 
      REVIEW OF THE FISCAL YEAR 2017 STATE DEPARTMENT 
                             BUDGET REQUEST

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                           FEBRUARY 23, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
               U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-927 PDF             WASHINGTON : 2018                              
                         
                          


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3


Kerry, John F., U.S. Secretary of State, Washington, DC..........     5

    Prepared statement...........................................     9


              Additional Material Submitted for the Record

Nuclear Proliferation--Preliminary Observations on IAEA's Role in 
  Verifying the Iran Agreement, a Report to Members of Congress 
  Prepared by the GAO............................................    53

Responses to Additional Questions for the Record Submitted to 
  U.S. Secretary of State John F. Kerry by Members of the 
  Committee

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Cardin.............................................    81

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Rubio..............................................   100

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Boxer..............................................   114

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Flake..............................................   117

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Shaheen............................................   119

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Perdue.............................................   122

    Responses to Questions Submitted to Secretary Kerry by 
      Senator Barrasso...........................................   145




                              (iii)        

  


     REVIEW OF THE FISCAL YEAR 2017 STATE DEPARTMENT BUDGET REQUEST

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Gardner, Perdue, Paul, Barrasso, Cardin, Boxer, Menendez, 
Shaheen, Udall, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The meeting of the Foreign Relations 
Committee will come to order.
    We welcome everybody here. I know that many of us had a 
chance to talk to some of those in the audience in the hallway, 
and while we have had great discussions, we know that you will 
honor the committee by keeping comments to yourself while we 
are proceeding.
    I want to thank everybody here on the committee for being 
here today. And I want to thank our Secretary for his service. 
I do not know of many Secretaries of State that have put out as 
much effort in trying to solve the many problems that exist 
around the world. For that, I thank him.
    Thank you for coming today. And I thank you for, typically 
when we have a budget hearing, the testimony that is put forth 
is only about the budget. I think you know, having been 
chairman of the committee, you are probably not going to be 
asked many questions about the budget. Therefore, I think you 
gave a narrative of your view of the world, which I appreciate.
    I think all of us understand that the reason the State 
Department exists, really, and the reason that we fund it, is 
to do everything we can through diplomacy to solve the many 
problems that exist around the world and to do everything we 
can to keep our men and women in uniform from being utilized 
more than they are today because of our diplomacy.
    That is why you are here, and I think that is one of the 
reasons you went into the narrative in your written testimony 
about things happening around the world. So I just wanted to, 
again, thank you. I appreciate you being here.
    My opening comments are going to center around things 
happening around the world. We saw you in Munich last week. We 
had quite a candid conversation. I know you gave a talk there 
at the conference.
    My observation is, and I know that Senator Perdue was there 
and others, I do not think I have seen Europe so unsettled ever 
in my lifetime. I think their confidence level is at an all-
time low. I think they are concerned about what Russia is doing 
to destabilize the area, using refugees as a weapon of war. 
Again, I do not think I have seen that at that level before.
    So they are looking for U.S. leadership, no question.
    In Syria, I know we had a very frank and off-the-record 
discussion regarding--you had just entered into the agreement 
relative to cessation in Syria. I know there were concerns at 
that time, relative to what Russia would actually do. And I 
think many people thought they would do what they have done, 
and that is to further solidify gains, kill more people, move 
into Aleppo, as they have.
    I know that you have negotiated another one, and I realize 
that, again, what you have at your disposal is negotiation. I 
think that many of us have been asking what happens if, in 
fact, the ceasefire does not hold. I do not think Russia 
believes that anything is going to happen. I think that is why 
they continue to make the gains. And at some point, they will 
have all the gains they need and be willing for a cessation.
    They are also right now selling or announced that they are 
going to sell to Iran Su-30s, which is in strict violation of 
the U.N. Security Council agreement that put the JCPOA into 
place.
    It is my understanding that they can, in fact, come to the 
U.N. Security Council and ask for permission. I would love to 
understand whether you expect that to happen.
    China today is beginning to militarize, if you will, the 
gains they have made in the South China Sea, building very 
sophisticated radar facilities. We understand through 
announcements--we do not have this verified--they are even 
developing missile systems on these ``islands'' that are 
basically underwater at high tide but are now being utilized in 
that regard.
    North Korea, we passed something here in the Senate and 
House last week. The President, thankfully, has signed it, to 
push back against them. I understand there were some peace 
overtures toward them prior to that occurring. I hope you will 
expand a little bit about what that was about and where you see 
that going.
    And then in Libya, we have 5,000 ISIS members there. I know 
we took some hits against them in the outskirts of Sirte last 
week.
    But I think many people had thought that maybe what the 
administration was going to do was going to assess a much 
greater effort there, so that instead of it being incremental, 
as it appears it might be, there would be something done on a 
far more shock-and-awe basis to really set them back while we 
have the ability to do so.
    So I look forward to you talking about and sharing with us 
your thoughts on all of these issues. Again, I thank you for 
your narrative on the front end. I thank you for your service.
    And I certainly thank Senator Cardin for his distinguished 
ranking member leadership on this committee and will now turn 
to him.

                 STATEMENT OF HON. BEN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you for convening 
this hearing. It is always a pleasure to work with you.
    And, Secretary Kerry, it is really a pleasure to have you 
before your former committee.
    I first start by acknowledging this is the last budget that 
President Obama and his administration will be submitting to 
us, so I just really want to reflect for a moment on your 
extraordinary leadership in advancing America's soft power 
through the effective use of diplomacy and development 
assistance.
    Secretary Kerry, you understand more than anyone else, as a 
former chair of this committee, the importance of diplomacy and 
development assistance to our national security. For that, I 
just congratulate you on an incredible record of accomplishment 
as Secretary of State. [Applause.]
    Senator Cardin. You understand that military must be our 
last resort, and you have carried that out through developing 
partnerships with other countries and coalitions, so that we 
can be effective with our soft power.
    The most recent is the hope that we have in Syria through 
the ceasefire to stop the killings and to allow humanitarian 
access, which is a critically important first step to resolving 
the conflict within Syria, so that we can focus on ISIL without 
the fighting going on between the Assad regime and the 
opposition. And you did it in a way that does not compromise 
our position in regard to President Assad's future and his 
accountability for war crimes that he has committed.
    I also want to thank your staff. They have been incredibly 
accessible to us in providing information that I think is vital 
to our needs. So to Julia Frifield and to the entire team, 
thank you for what you have been able to do.
    I generally support the President's budget. I think it 
speaks to the right priorities, in regard to the State 
Department. It deals with the threat emanating from ISIL in the 
Middle East and North Africa, the $4 billion to counter violent 
extremism. It supports the rebalance to Asia and recognizes the 
challenges that we have in Asia, relative to China's 
provocative actions in the South China Sea, and North Korea's 
nuclear ambitions.
    I was pleased to see that we have enacted, as the chairman 
pointed out, the North Korea sanctions bill. The President 
signed it into law. We are always stronger when the Congress 
and the administration work together to advance American 
foreign policy.
    The budget deals with challenges in our own hemisphere. I 
particularly mentioned Central America's Northern Triangle. We 
still have the problems of unaccompanied children coming to our 
borders.
    I was in Honduras and El Salvador, saw firsthand the 
violence in the communities through the gang-controlled areas. 
We must do more in order to make that country safe. The 
President's $1 billion request, I hope we will support that, 
dealing with good governance and protection of communities, as 
well as the security issues in Central America.
    The budget deals with Russia's aggression in East and 
Central Europe. I particularly support the $953 million to 
improve democracy and good governance and anticorruption and 
promote European integration. I think that is critically 
important.
    It is the first anniversary of the Minsk II agreement. We 
know Russia has not complied with the military aspects, but it 
is incumbent upon Ukraine to comply with the good governance 
aspects, if there is going to be lasting peace in Ukraine. This 
budget allows us to advance to those challenges.
    The budget provides for the continued support of Israel, 
for its QME, $3.1 billion of security assistance, recognizing 
we are in the process of negotiating the next chapter in the 
memorandum of understanding.
    And it provides U.S. leadership on climate change. I was 
pleased to be part of 10 members who were in Paris for COP21. 
We saw firsthand America's leadership, your leadership, and the 
international community coming together. This budget carries 
out our commitments.
    I am going to refer a couple times to a visit under CODEL 
flight. We were just in the southern part of Africa, and we saw 
firsthand the impact of continued drought on the survivability 
of those countries in the southern part of Africa.
    Their way of life is in jeopardy today, because we were 
there during the rainy season, and we saw no rain. This is the 
second year in a row that they have had this impact.
    The New York Times today points out that research teams 
report fastest sea rise in 28 centuries--28 centuries. The 
budget does deal with carrying out our commitments on climate 
change, so that we can continue to provide leadership needed 
globally to deal with this crisis of our times.
    The budget deals with Africa, carrying out Africa Leaders 
Summit commitments that were made there on Power Africa, Trade 
Africa, Young African Leaders. I think that is all very 
important.
    And it carries out our values, from providing international 
leadership on the refugees, humanitarian needs that are global, 
to maternal and child health, to Feed the Future. It deals with 
the Zika virus in Latin America. And it deals with AIDS-free 
generation.
    Mr. Secretary, when we were in Namibia, we had a chance to 
visit an AIDS site and see it firsthand. Senator Coons and I 
had a chance to interview with about 30 or 40 AIDS patients. 
One asked that we relay to the leaders of our country their 
thanks because, literally, they are alive today because of U.S. 
efforts. There is a whole generation alive today, working in 
their economies and on the future, as a result of U.S. 
leadership on PEPFAR.
    It makes a huge difference, what we do on development 
assistance around the world. We now have a stable country in 
Namibia that wants to work with the United States, and it is a 
direct result of our involvement.
    I want to also thank you for including $60 million for 
trafficking in humans. Senator Corker has been one of our great 
leaders on the trafficking issue, to end modern-day slavery. 
And we appreciate the funds that are put in.
    So I am positive on the budget that has been submitted, but 
I want to conclude on two points that I am not as pleased 
about.
    First, there is not enough allocation in good governance 
and democracy in this budget. The small amount of monies that 
we put into democracy-building, we saw that in the four 
countries we visited--Mozambique, Namibia, Zimbabwe, and 
Botswana. The small dollars that are available are having 
incredible results. It is what America stands for, and we need 
to do a better job in providing resources to promote democracy 
globally.
    Then, secondly, I am very concerned about the OCO funding 
versus the baseline funding. I think we need to talk about 
that. The budget provides $50.1 billion in allocation for 
foreign assistance, but only $35.2 billion is in baseline 
funding, as this chart points out. That is a declining sum that 
is in the baseline.
    The reality of our world is that this budget provides our 
national security, and it needs to be grounded and sustainable 
and ongoing for the safety of our Nation. I am concerned, by 
not having the baseline high enough, we run a risk in the 
future.
    Now, I know the realities and the politics of the budget 
here. This is not the administration's doing. But we need to 
make it clear that on national security, soft power, that we 
are committed not only to this year, but to the sustained 
growth of America's presence globally. And I would hope that we 
would get a larger sum in the baseline.
    I look forward to your comments, and I thank you again for 
your leadership.
    The Chairman. If I could, prior to you starting, I could 
not agree more. It is the budget process, on both sides of the 
aisle. It is nothing but a political document. It serves no 
purpose. And our inability to focus on our fiscal issues will 
weaken our Nation while we are having this hearing.
    The fact that so much of it is funded through OCO, both, by 
the way, here and at DOD, just speaks to the fact that we are 
not willing to make the tough decisions that are necessary on a 
permanent basis to put our country on solid footing. I know, on 
this particular issue, that is not what the administration 
proposed, and I do appreciate you bringing that up.
    I would ask the audience, I know there was a degree of 
clapping and cheering. Again, we like the fact that everybody 
is here. I know you will all be very respectful, as the 
Secretary makes his comments.
    If you will, please begin.

     STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE, 
           U.S. DEPARTMENT OF STATE, WASHINGTON, D.C.

    Secretary Kerry. Well, Mr. Chairman, thank you. Senator 
Cardin, all my former colleagues and friends on the committee, 
I am really happy to be here. I think we have a chance to have 
a very important conversation, and I appreciate both of your 
opening comments very, very much, both in tone and tenor.
    And I want to begin just by thanking all of you. I know it 
has been very, very difficult. I know the committee has worked 
incredibly hard to fill our positions at the State Department 
and our overseas posts. And I also know this committee has a 
very special appreciation for the vital work of diplomacy.
    Both of your comments just now underscore how vital it is 
for America to have our senior diplomats, particularly our 
career diplomats, who just do not deserve to be waiting a year 
or 2 years or a year and a half to be put in position.
    And I know this committee believes that, and you worked 
extremely hard, Mr. Chairman. Thank you for your diligence, and 
Senator Cardin, likewise, and all the members of the committee.
    This is the way we advance the objectives of U.S. policy, 
whether it is for our businesses that are trying to create 
jobs, or travelers, Americans abroad. So I thank you again for 
really pushing obviously complicated politics.
    And I ask your favorable and prompt effort on the other 
nominations. There are still some hanging out there, and 
particularly Roberta Jacobson, who is a professional civil 
servant, career, has done a diligent job. She does not make the 
choices about policy, and she should not be the prisoner of 
those choices. She does what she is instructed to do, and she 
does it very, very well.
    So, Mr. Chairman, you have my prepared statement. I am not 
going to give you all of that, but I do want to do just some 
initial comments in summary.
    First, you mentioned the number $50 billion, a little bit 
over. It is equal to about 1 percent of the entire budget of 
the United States. And that 1 percent, Mr. Chairman, I am just 
convinced more and more after these last years, even after 
serving on the committee, is the minimum price of the 
leadership role that the United States of America plays on a 
global basis, and particularly at a time when we are engaged 
diplomatically more deeply in more places simultaneously, on 
more significant issues simultaneously, than at any time in our 
history.
    And the scope of that engagement, I am also convinced, is 
absolutely essential to protect the interests of our Nation and 
to keep our citizens safe. And I think it is even growing more 
so with the numbers of failed and failing states, where the 
governance money that Senator Cardin just referred to is so 
critical. We can talk about that a little bit today.
    We are confronted today by perils that are as old as 
nationalist aggression and as new as cyber warfare, by 
dictators who run roughshod over global norms, and by violent 
extremists who combine modern media with medieval thinking to 
wage war on civilization itself.
    The last century was marked by state actors and states 
going to war with each other--World War I and II, Vietnam, 
Korea, so forth. This century is defined much more by nonstate 
actors taking actions against states and against, as I said, 
the broad norms of society.
    And I would emphasize today in coming here, despite the 
dangers, despite the turmoil, we Americans have many reasons 
for confidence. In recent years, our economy has added more 
jobs than the rest of the industrialized world combined. Our 
Armed Forces are second to none. It is not even close. Our 
alliances in Europe and Asia are vigilant and strong. And our 
citizens are unmatched in the generosity of their commitment to 
humanitarian causes and civil society. We are the largest donor 
in the world to the crisis of Syrian refugees, over $5.1 
billion.
    I see, we see, all of us, and hear a lot of handwringing 
nowadays. But I, for one, with all my affection and respect for 
all my colleagues around the world that I work with, I would 
not switch places with the foreign minister of any country, and 
nor do I yearn to retreat to some illusionary golden age of the 
past.
    Here and now, we have enormous opportunities and we are 
trying to seize them. In the past year, we reached a historic 
multilateral accord with Iran that you all played a critical 
role in. And it has cut off that country's pathways to a 
nuclear weapon, thereby making the world safer for us and our 
allies.
    And if you doubt that, read the speech by General Eizenkot, 
the head of the IDF forces of Israel, who recently, at a 
security conference in Israel, said that now, because of this 
agreement, there is no longer an existential threat to Israel 
from Iran with respect to the nuclear threat. That is from 
their security in Israel.
    In Paris, in December, we joined governments from more than 
190 nations in approving a comprehensive agreement to curb 
greenhouse gases, and you have mentioned the effects that we 
are seeing in the world today. We are trying to limit the most 
harmful consequences of climate change, and we are determined 
to implement that accord by meeting our targets here at home 
and helping friends abroad to reduce carbon pollution and move 
their economies forward at the same time.
    Just this month, we officially signed the Trans-Pacific 
Partnership to ensure a level playing field for American 
businesses and workers, to open up job opportunity and 40 
percent of the global GDP, and also to strengthen America's 
leadership within the entire Pacific. We are asking Congress to 
approve that pact this year, and we can accrue its benefits as 
quickly as possible when we do.
    In Europe, we are sharply upgrading our Security 
Reassurance Initiative with a fourfold increase in support and 
giving Russia a clear choice between continued sanctions or 
meeting its obligations to a sovereign and democratic Ukraine.
    In our hemisphere, we are helping Colombia to end the 
globe's longest running civil conflict, and we are aiding our 
partners in Central America to implement reforms that will 
reduce the pressure for illegal migration. We are also seeking 
supplemental funds to minimize the danger to public health 
created by the Zika virus.
    In Asia, we are standing with our allies in opposition to 
threats posed by a belligerent North Korea. We are helping 
Afghanistan and Pakistan to counter violent extremism; 
deepening our strategic dialogue with India; supporting 
democratic gains in Sri Lanka and Burma; and encouraging the 
peaceful resolution of competing maritime claims in the South 
China Sea, a goal that is definitely not helped by the 
militarization of facilities in that region.
    So with friends in fast-growing Africa--and we are very 
grateful for the interest of this committee, Senator Coons, 
Senator Flake and others who have really been very focused on 
it--we have embarked on initiatives to combat hunger, increase 
connectivity, empower women, train future leaders, and fight 
back against such terrorist groups as al-Shabab and Boko Haram.
    Now, of course, this administration recognizes that the 
threat posed by violent extremism extends far beyond any one 
region, and it is not going to be addressed solely, or even 
primarily, by military means. So the approach that we have 
adopted is comprehensive, and it is long-term.
    Diplomatically, we are striving to end conflicts that fuel 
extremism, such as those in Libya and Yemen. We also work with 
partners more broadly to share intelligence, tighten border 
security, improve governance, expand access to education, and 
promote job training and development.
    And I might add the coalition we have put together, 66 
countries strong now, is gaining traction in many sectors where 
it has not previously worked on these kinds of things as 
jointly as we are now.
    As you all know, we have forged that coalition of 66 
countries to defeat Daesh. Just a quick word on our strategy. 
We are combining our power with that of our partners to degrade 
Daesh's command structure, shrink its territory, curb its 
financing, hammer its economic assets, discredit its lies, slow 
its recruitment, and block any attempt to expand its networks. 
Militarily, we are intensifying pressure through coalition 
airstrikes, more advisers, stepped-up training, improved 
targeting, and the systematic disruption of enemy supply lines. 
And we can go into greater detail, I am sure, in your 
questions.
    To consolidate territorial gains, we are stressing the 
importance of stabilizing communities freed from Daesh in Syria 
and Iraq. We are helping the government in Baghdad as it seeks 
to broaden and professionalize its security forces. And we 
continue to strengthen our regional partners, Lebanon and 
Jordan.
    And we are supporting a broad-based diplomatic effort, 
which I know we will talk about today, on the Syria war.
    Two weeks ago, we announced a plan to ensure access to 
humanitarian supplies for all Syrians in need. I am pleased to 
tell you that 114 trucks have gone in. At least 80,000 people 
who have not had supplies in years now have supplies for the 
next month, at least. And we have results in food and medicine 
reaching places that have been under siege for months. We will 
continue to work closely with the U.N. to see that future 
requests are honored and that humanitarian supplies are 
available throughout the country.
    The United States and Russia are co-chairing the 
International Syria Support Group Ceasefire Task Force. 
Yesterday, President Obama and President Putin agreed that the 
cessation of hostilities should begin on Saturday morning and 
include all groups willing to participate, with the exception 
of Daesh and al-Nusra, and any other terrorist groups 
designated by the U.N. Security Council.
    We are reminded each day in Syria that every attack, every 
casualty, every loss, every loved one that is bombed from the 
air by barrel bombs or otherwise, provides fresh grounds for 
the conflict. As long as the killing goes on, this devastating 
cycle will feed on itself.
    And that is why we have urged all parties to support the 
cessation of hostilities now, and it is why we have argued 
repeatedly there must be a diplomatic solution. As difficult as 
it is to get there, there must be a diplomatic solution to this 
war.
    The only way forward that preserves a unified Syria is the 
path envisioned by the Syria Support Group, ratified by the 
U.N. Security Council and endorsed by the responsible 
opposition. And that requires a de-escalation of the conflict, 
a transition to a new system of governance, a new constitution, 
an election, and hopefully a Syria that could be committed to 
peace and stability with its neighbors and within itself.
    Mr. Chairman, the success of our leadership on terrorism 
and other security threats is linked to whether or not America 
is leading the fight to protect what we care about. And the 
truth is, we are in arena after arena. In all the years I sat 
on this committee, I never saw us having to deal with quite as 
many fronts, quite as many challenges as we are today.
    So this year, we seek your support to stay at the forefront 
of international humanitarian response, including the worldwide 
refugee crisis; to strike a blow for global health through 
PEPFAR--and you talked about it, Senator Cardin--and the 
President's malaria initiative; and to carry out important 
programs on behalf of democracy, freedom of the press, human 
rights, and the rule of law; and to launch a new strategy 
focused on the equitable treatment of adolescent girls; and to 
adequately fund the people and the platforms that enable us to 
serve America effectively around the world.
    So my colleagues, as the chairman said, this is the last 
budget the Obama administration will submit on behalf of the 
foreign policy and national security of the United States. And 
I ask for its fair consideration, welcome your questions, 
appreciate your counsel, and I seek your backing.
    But above all, I want to say how privileged I feel to have 
had the chance to work with all of you in support of an agenda 
that reflects not only the most fundamental interests and 
values of the American people, but also carries with it, I am 
absolutely convinced, the hopes of the world.
    Thank you.
    [Secretary Kerry's prepared statement follows:]


          Prepared Statement of Secretary of State John Kerry

    Mr. Chairman and members of the committee; I appreciate the chance 
to testify on behalf of the administration's budget request for the 
State Department and related agencies for Fiscal Year 2017.
    Our request this year is roughly level with last year's--right 
around fifty billion dollars. That amount, though substantial, is equal 
to only about one percent of the federal budget. We seek these 
resources to sustain America's international engagement, which is 
deeper and more wide-ranging today than ever before in our history.
    The unprecedented scope of our leadership is warranted by the mix 
of opportunities and challenges we face. We are confronted by dangers 
as old as excessive nationalism and as new as cyber warfare, by 
dictators who run roughshod over international norms, by failing and 
fragile states, by infectious disease and by violent extremists who 
combine modern media with medieval thinking to murder, enslave, and 
wage war on civilization itself.
    In the face of such challenges, the United States and its citizens 
remain firmly committed to the pursuit of international peace, 
prosperity, and the rule of law. The administration's Fiscal Year 2017 
budget request embodies every aspect of that commitment. It is a 
reflection of our country's wide-ranging interests, of what we are 
against--and most important--what we are for.
    There's a reason why most people in most places still turn to the 
United States when important work needs to be done. It's not because 
anyone expects or wants us to shoulder the full burden--but because we 
can be counted on to lead in the right direction and toward the right 
goals.
    Make no mistake, we live at a moment filled with peril and 
complexity, but we Americans also have ample grounds for confidence. In 
recent years, our economy has added more jobs than the rest of the 
industrialized world combined. Our armed forces are by far the world's 
strongest and best. Our alliances in Europe and Asia are energized. We 
have reached historic multilateral accords on Iran's nuclear program, 
climate change, and trans-Pacific trade. We have witnessed important 
democratic gains in, among other places, Sri Lanka, Nigeria, and Burma. 
We helped facilitate what we hope will be a landmark peace agreement in 
Colombia. We have enhanced our position throughout the hemisphere by 
resuming diplomatic relations with Cuba. We marshalled a global 
campaign to save lives by containing the Ebola virus; and we are the 
leader in championing the empowerment of women and respect for the full 
range of internationally recognized human rights. We have also taken 
the lead in mobilizing international solidarity in the fight against 
such terrorist groups as Daesh, al-Qa'ida, Boko Haram, and al-Shabab--
groups that have absolutely nothing to offer anyone except destruction 
and death.
    From the vantage point of America's national security, we begin 
2016 with a long agenda focused on key priorities but understanding the 
potential for emergencies to arise at any moment. We think it essential 
to make full use of every available foreign policy tool--from carrots 
to coercion--but with an emphasis on persuading governments overseas 
not just to do what we want, but to want what we want. We will act 
alone when we must, but with allies, partners and friends when possible 
on every continent and in every situation where our interests are at 
risk. We will respond to immediate needs, but with long term 
requirements in mind. And we will always be conscious that the State 
Department's principal responsibility is not to interpret and justify 
foreign perspectives to the United States, but to defend and advance 
America's well-being in a fast-changing world.
    I will turn now to the specifics of the administration's budget 
request for the coming fiscal year.
    The funding we seek is in two parts; the first consists of a base 
amount of $35.2 billion. These resources will deepen cooperation with 
our allies and regional partners and bolster American leadership at the 
U.N. and other multilateral organizations. They will protect U.S. 
diplomatic personnel, platforms, and information, while also helping us 
to mitigate the harmful consequences of climate change, promote human 
rights, combat trafficking in persons, and continue valuable 
educational exchanges. Worldwide, they will furnish life-saving 
humanitarian assistance, foster growth, reduce poverty, increase access 
to education, combat disease, and promote democratic governance and the 
rule of law.
    The Overseas Contingency Operations portion of our budget is $14.9 
billion and will improve our ability to prevent, respond to, and 
recover from crises abroad; contribute to new and ongoing peacekeeping 
and U.N. special political missions; help allies and partners such as 
Afghanistan and Pakistan counter threats; step up our efforts to 
counter terrorist organizations; and sustain security programs and 
embassy construction at high risk posts.
    The number one goal of U.S. foreign policy is to keep Americans 
safe. To that end, this year's budget seeks resources to enhance our 
nation's leadership of the 65-member global coalition to degrade and 
destroy the terrorist group Daesh. Our strategy is to combine our 
power--and the power of our partners--to degrade Daesh's command 
structure, shrink the territory under its control, curb its financing, 
hammer its economic assets, discredit its lies, slow its 
recruitment,and block any attempt to expand its networks. As President 
Obama has made clear, the murderous conduct that Daesh is trying to 
foment must be opposed with unity, strength, and a determination on our 
part to persist until we prevail. That determination has several 
dimensions:


   Militarily, we are intensifying pressure through coalition air 
        strikes backed by local partners on the ground, a stepped-up 
        training and supply effort, the deployment of Special Forces 
        advisers, improved targeting, the systematic disruption of 
        enemy supply lines, and coordinated planning of future actions.

   To consolidate the important territorial gains made thus far, we 
        are stressing the importance of stabilizing communities freed 
        from Daesh in Syria and Iraq.

   We are helping the government in Baghdad as it seeks to broaden and 
        professionalize its security forces and to liberate portions of 
        the country still occupied by Daesh.

   We continue to strengthen our regional partners, including Jordan 
        and Lebanon, and to provide humanitarian assistance to people 
        impacted by the conflict inside Syria, in neighboring 
        countries, and beyond.

   We are supporting a broad-based diplomatic initiative, chaired by 
        U.N. Special Envoy Staffan de Mistura, and aimed at achieving a 
        political solution to the Syrian civil war that will de-
        escalate the conflict, isolate the terrorists, provide for a 
        transition in governance, and make possible the kind of 
        peaceful, inclusive, pluralist, and fully sovereign country 
        that most Syrians want. To that end, on February 11, we 
        announced a plan to ensure access to humanitarian supplies for 
        all Syrians in need, and to arrange a cessation of hostilities 
        that we hope will evolve into a durable and nationwide 
        ceasefire. The full and good faith implementation of these 
        measures--to ensure humanitarian access and end violence 
        against civilians in Syria--is a top foreign policy priority of 
        the United States.

   Finally, we believe it essential that America speak with a single 
        voice in its resolve to defeat Daesh. Congressional approval of 
        a new and more specific authorization to use military force 
        against that terrorist organization would be welcomed by the 
        administration and help to demonstrate our unity and 
        commitment.


    In the seventeen months since the Counter-Daesh coalition was 
formed, its aircraft have launched more than 10,000 air strikes. The 
combination of air support and ground assaults by local partners has 
reversed Daesh's momentum; driven the terrorists from such key cities 
as Kobani, Tikrit, and Ramadi; and weakened their position on the 
Syria-Turkish border. All told, Daesh has been forced to abandon almost 
a third of the populated territory it had previously controlled in 
these countries, and many of their fighters--faced by a deep cut in 
wages and no new towns to plunder--have either deserted or been 
executed trying to escape.
    The threat posed by violent extremism extends far beyond the Middle 
East and the particular dangers spawned by Daesh. Those threats cannot 
effectively be addressed solely--or even primarily--by military means. 
Our approach, therefore, is comprehensive, long term, and designed to 
enhance the capacity of countries and communities to defeat terrorist 
groups and prevent new ones from arising. To that end, our new Center 
for Global Engagement is helping partner nations to promote better 
governance, strengthen democratic institutions, expand access to a 
quality education, and foster development, especially in the most 
vulnerable parts of the world. On the diplomatic side, we are striving 
with the U.N. and our allies to solidify a new Government of National 
Accord in Libya, and to bring an end to the violence and political 
unrest that has plagued Yemen.
    Last year, with our P5+1 partners, we negotiated the Joint 
Comprehensive Plan of Action, cutting off each of Iran's potential 
pathways to a nuclear weapons capability, requiring it to take 
thousands of centrifuges offline, pour concrete into the core of its 
heavy water reactor, and ship abroad 98 percent of its stockpile of 
enriched uranium. Because of these steps and the rigorous inspection 
and verification measures to which Tehran has also agreed, the threat 
of a nuclear-armed Iran has receded, our allies are safer, and so are 
we. In months to come, we will continue our close consultations with 
Congress as we monitor Iran's compliance with the Joint Plan, and as we 
stand with our allies and friends against Iran's destabilizing policies 
and actions in the region.
    In part because of the challenges posed by Iran and other threats, 
we continue to engage in a record level of military, intelligence, and 
security cooperation with Israel. We remain committed to helping our 
ally confront its complex security environment and to ensure its 
qualitative military edge. Each day, we work with Israel to enforce 
sanctions and prevent terrorist organizations such as Hamas and 
Hizballah from obtaining the financing and weapons they seek. Since 
2009, we have provided more than $23 billion in foreign military 
financing to Israel, which constitutes the majority of what we have 
given to nations worldwide. Diplomatically, our support for Israel also 
remains rock solid as we continue to oppose efforts to delegitimize the 
Jewish state or to pass biased resolutions against it in international 
bodies.The Transatlantic partnership remains a cornerstone of American 
security and prosperity. We are in constant communication with our NATO 
and EU Allies and partners about a vast array of issues, including our 
steadfast backing for a democratic Ukraine, full implementation by 
every side of the Minsk protocols, and an increase in European 
Reassurance Initiative funding that will support the persistent 
presence of a brigade's combat team for 12 months out of the year and 
allow us to preposition warfighting equipment for a division 
headquarters and other enablers in Europe. This year's budget includes 
$953 million to enhance stability, prosperity, energy independence, and 
good governance in Ukraine and other partner countries facing direct 
pressure from Russia, in addition to fighting HIV/AIDS and countering 
violent extremism in the region.
    Closer to home, the Fiscal Year 2017 budget will continue our 
investment in Central America to fight corruption and crime and to 
attack the root economic causes of illegal migration to the United 
States, including by unaccompanied minors. Our Strategy for Engagement 
in Central America, with its whole-of-government approach, emphasis on 
building effective and accountable institutions and leveraging of 
private capital, will make it easier for our regional neighbors to live 
securely and with steadily increasing prosperity in their own 
countries.
    In addition, we are supporting Colombia as it seeks to finalize an 
agreement that will end the world's longest ongoing civil conflict. 
During President Santos's visit to Washington earlier this month, 
President Obama announced his intention to seek support for ``Peace 
Colombia,'' a successor to Plan Colombia that will spur recovery in 
communities ravaged by the many years of fighting. This project will 
highlight assistance to the victims of conflict, and aid in reinforcing 
security gains, clearing mines, demobilizing rebel fighters, and 
curbing trade in illegal narcotics. Our citizens may be proud that, in 
his remarks at the White House, President Santos attributed many of his 
country's advances ``to the fact that 15 years ago, when we were in 
serious straits, the Colombians received a friendly hand. That friendly 
hand came from here in Washington, from both sides of the aisle, 
Democrats and Republicans.''
    In Cuba, we have resumed diplomatic relations after 54 years. 
Although we continue to have sharp differences with the government in 
Havana regarding human rights, political prisoners, and other issues; 
we remain determined to support the aspirations of the Cuban people to 
plug into the global economy and live in greater freedom. We call on 
Cuban authorities to remove obstacles to participation by their 
citizens online and in commercial enterprises; and we urge Congress to 
lift the economic embargo, which has for decades been used as an excuse 
by the Castro regime to dodge blame for its own ill-advised policies.
    As evidenced by last week's ASEAN Summit hosted by President Obama 
at Sunnylands in California, the United States is an indispensable 
contributor to stability, prosperity, and peace in the Asia Pacific. 
Dangers in that region include North Korea's provocative nuclear and 
ballistic missile programs and tensions stemming from contested 
maritime claims in the South China Sea. United States policy is to 
encourage security cooperation and dialogue aimed at building 
confidence and ensuring that disputes are settled in keeping with 
international obligations and law. Our modernizing alliances with 
Japan, the Republic of Korea, Australia, and the Philippines--in 
addition to our partnership with New Zealand and close ties with 
ASEAN--provide a firm foundation for our strategy, as does our multi-
dimensional relationship with China. Our diplomatic priorities include 
support for human rights and the continued evolution of an open and 
democratic political process in Burma, where a freely-elected 
parliament has been seated for the first time, and where we have called 
for an end to discrimination and violence directed at the Rohingya 
Muslim minority.
    Our FY 2017 budget includes $1.25 billion in assistance to the 
national unity government of Afghanistan to strengthen its 
institutions, bolster its security capabilities, repel attacks by 
violent extremists, implement economic reforms, preserve gains made 
over the last decade (including for women and girls), and move forward 
with a wide range of social programs. We are requesting $742 million in 
aid to Pakistan to support its citizens as they seek security, build 
democracy and sustain economic growth and development--even as the 
country continues to suffer from terrorist attacks. Last October, I 
traveled to every state in Central Asia to reaffirm America's 
friendship with the people in that part of the world and to discuss 
shared concerns in such areas as security, energy policy, development, 
and human rights. Also in 2015, we strongly endorsed democratic 
progress in Sri Lanka, while elevating our important strategic dialogue 
with India to include a commercial component, reflecting the five-fold 
increase in bilateral trade over the last decade.
    In Africa, our budget request reflects our emphasis on 
partnership--with civil society, with the private sector and with key 
allies. Our request of $7.1 billion will support democratic 
institutions, spur growth, promote gender equity, and protect human 
rights through such mechanisms as the Africa Growth and Opportunity 
Act, the Feed the Future initiative, Power Africa, and the President's 
``Stand with Civil Society Initiative.'' Our assistance also undergirds 
regional stability through the African Peacekeeping Rapid Response 
Partnership, the Security Governance Initiative, and strategically 
important international peace operations in, among other countries, the 
Central African Republic, the Democratic Republic of Congo, Mali, South 
Sudan, Sudan, and Somalia. Diplomatically, the United States continues 
to work closely with regional leaders to prevent crises--whether caused 
by outbreaks of disease, the threat of famine, or political 
controversy, as has recently been the cause of urgent concern in 
Burundi.
    American leadership is on display and making a positive difference 
in every part of the world including the far north, where the United 
States last year assumed chairmanship of the Arctic Council, a platform 
we are using to forge united action on the environment, fisheries 
conservation, and economic opportunity for local populations. But in 
addition to bilateral and regional issues, the United States is at the 
forefront of a host of efforts that address global challenges and 
uphold universal ideals.
    For example, the administration's FY 2017 budget request reaffirms 
our country's premier role in the world economy. Each day, the men and 
women in our embassies and consulates work closely with representatives 
of the American private sector to identify new markets for our goods 
and services, ensure fair competition for foreign contracts, protect 
intellectual property, and advocate for U.S. interests under the law. 
This budget will advance U.S. engagement on global information and 
communications technology policy, encourage innovation, and protect the 
interests of our citizens in Internet freedom and digital privacy. 
Through our contributions to international financial institutions like 
the World Bank, we help to lift the economies of low-income countries 
and expand the global middle class.
    With the Trade Representative and others in the administration, the 
State Department works to conclude forward-looking agreements such as 
the recently signed Trans-Pacific Partnership (TPP) to ensure a level 
playing field for American businesses and workers and raise labor and 
environmental standards. The TPP is a landmark twelve nation pact that 
will lower trade barriers and advance American leadership in the Asia 
Pacific region, ensuring that the rules of the road for trade in this 
critical region are written by the United States and our partners, 
rather than others who do not share our interests and values. In asking 
Congress to approve the agreement, President Obama has pointed out that 
the TPP will cut 18,000 taxes on products that are made in America, 
boost U.S. exports, and support high-paying jobs, and he has expressed 
his interest in working closely with Congress to get the agreement 
approved as soon as possible. We are also working with USTR to pursue a 
similar high-standard approach to trade with Europe in the 
Transatlantic Trade and Investment Partnership, which is still being 
negotiated.
    In Paris last December, the United States joined governments from 
more than 190 nations in approving a comprehensive agreement to curb 
greenhouse gas emissions and limit the most harmful consequences of 
climate change. This historic pact represents the first time the world 
has declared that all countries have a responsibility to join in what 
must truly be a global commitment--through arrangements marked by 
transparency, a mandatory standard of review, and the flexibility a 
framework for successive and ambitious nationally determined climate 
targets. Our budget request of $983.9 million for the Global Climate 
Change Initiative and includes $500 million for the Green Climate Fund, 
which will help low income countries leverage public and private 
financing to reduce carbon pollution and bolster resilience to climate 
change.
    Our request for Fiscal Year 2017 allocates $4.7 billion for 
assessed dues and voluntary contributions to international 
organizations and peacekeeping efforts and to help other countries 
participate in such missions. The request includes contingency funding 
for new or expanded peace operations that may emerge outside the 
regular budget cycle. Tragically, the demand for peacekeeping 
assistance remains at an all-time high; and the United States neither 
can, nor should, take the lead in most cases. It serves both our 
interests and our values when U.N. agencies and regional organizations 
are able--with our encouragement and support--to quell violence, shield 
civilians from harm, promote reconciliation among rival groups, and 
ensure that women are fairly represented in all aspects of peacemaking 
and recovery projects.
    In FY 2017, we are requesting $8.6 billion for bilateral and 
multilateral health programs. These funds support the President's 
Emergency Plan for AIDS Relief (PEPFAR); the Global Fund to Fight AIDS, 
TB, & Malaria; Gavi, the Vaccine Alliance and other critical maternal 
and child health programs; the Global Health Security Agenda; and an 
intensified campaign, launched by the White House, to end the scourge 
of malaria. We have also sought emergency funding to aid in an 
international effort to minimize the public health threat posed by the 
Zika virus.
    This year, we are asking for $6.2 billion to address humanitarian 
imperatives, including support for internally displaced persons, 
refugees, those affected by conflict or natural hazards and communities 
working to increase preparedness and resilience to disasters.
    To date, with backing from Congress, the United States has provided 
over $4.5 billion in humanitarian assistance--more than any other 
country--to assist victims of the catastrophic civil war in Syria. In 
London, earlier this month, I announced a further pledge of $600 
million in humanitarian aid as well as $325 million in development 
funds that includes support for the education of 300,000 refugee youth 
in Jordan and Lebanon. In September, at the U.N., President Obama will 
host a summit on the global refugee crisis. This will be the 
culmination of a vigorous diplomatic effort to rally the world 
community to increase the global response to humanitarian funding 
appeals by at least 30 percent, and to add significantly to the number 
of countries that donate regularly to these appeals or that are willing 
to accept refugees for admission within their borders.
    Our budget request allocates $2.7 billion for Democracy, Human 
Rights and Governance--a modest amount compared to the steep costs of 
the civil strife and political extremism that often thrive in the 
absence of effective and democratic governing institutions. Programs 
carried out by the State Department and USAID can play a pivotal role 
in enabling countries to make governance more accountable, electoral 
systems more professional, and judicial systems more independent. By 
supporting civil society and the rule of law, these programs contribute 
to a range of important goals, among them freedom of speech, religion 
and the press; respect for the rights of persons with disabilities; 
equitable treatment for members of the LGBTQ community; and an end to 
human trafficking.
    In addition, I am pleased to announce that the administration, led 
by the Department of State and in cooperation with USAID, the Peace 
Corps, and the Millennium Challenge Corporation, will soon launch a 
strategy to advance the empowerment of adolescent girls. This strategy 
will be holistic in nature and address key issues facing adolescent 
girls today, including equal access to secondary education and cultural 
practices that deny girls a fair chance to participate in the economic 
and political life of their societies. Our budget also underscores the 
State Department's decades-long commitment to scholarship programs and 
educational exchanges that help Americans to learn about the world and 
young leaders from around the world to learn about America. Meanwhile, 
our energetic and innovative activities in the field of public 
diplomacy are essential to convey the truth about U.S. policies and 
actions at a time when some--including terrorist organizations--lie 
continually about what Americans believe and do.
    To achieve our country's international objectives, we must give 
State Department and USAID employees the tools and resources they need 
to do their jobs well. That's why our request includes a $169 million 
net increase for Diplomatic and Consular Programs, reflecting 
heightened requirements in such areas as Freedom of Information Act 
processing, cyber security, counterterrorism, intelligence, and 
research. This proposal will support increased diversity through 
expanded recruitment and fellowship opportunities, and will provide 
more competitive wages for the locally employed personnel who make up 
the majority of our overseas workforce. I also ask you to support the 
restoration of full Overseas Comparability Pay for State Department 
personnel who are deployed abroad. This reform is essential to our 
effort to retain highly-skilled individuals in a competitive 
international jobs market, and to ensure fair treatment for those 
serving our country in relatively high-risk locations. The Budget also 
includes a $122 million increase for USAID's Operating Expense account 
to maintain the Agency's workforce and sustain on-going global 
operations to meet foreign policy objectives, implement Presidential 
initiatives, and expand global engagement.
    Finally, we are asking $3.7 billion to ensure the security of our 
diplomatic platforms, protect our IT network and infrastructure, meet 
special medical needs at select posts, and carry out emergency planning 
and preparedness. Our $2.4 billion request for diplomatic facility 
construction and maintenance will be used for repairs at our overseas 
assets, and to continue implementing the security recommendations of 
the Benghazi Accountability Review Board.
    My colleagues, a little more than a quarter century ago, when the 
Berlin Wall fell, there were those who suggested that we Americans 
could now relax because our core ideas had prevailed and our enemy had 
been defeated. But we have long since learned that although the 
particular demands on our leadership may vary from one decade to the 
next; our overall responsibilities neither vanish nor diminish.
    The challenge for today's generation is to forge a new security 
framework that will keep our country strong and our people safe. We are 
under no illusions about how difficult that task is. We face determined 
adversaries and many governments whose priorities do not match our own. 
The old plagues of excessive nationalism and tribalism retain their 
grip in many regions. Technology is a two-edged sword, simultaneously 
bringing the world closer and driving it apart. Non-state actors have 
arisen, often for the best, but others are at war with all we have ever 
stood for--and with the modern world itself.
    In this complex environment, some setbacks are inevitable. 
Persistent and creative engagement will be required on all fronts. But 
we are guided by the same values and supported by the same democratic 
institutions that enabled our predecessors to succeed. We are bolstered 
by a citizenry that is earning respect for our country every day 
through its contributions to technological innovation and global 
prosperity; through its activism on behalf of humanitarian causes and 
civil society; through its brave service on the battlefield, in air and 
on sea; and through its commitment to a system of governance that will 
allow our country this year to elect a president--peacefully and 
fairly--for the 58th time. We are sustained, as well, by one of the 
true touchstones of America's greatness--the willingness on the part of 
Congress and the Executive branch to work together for the common good.
    Thank you, and now I would be pleased to respond to your questions.


    The Chairman. Mr. Chairman, thank you. I could not agree 
more that the hopes of the world very much depend upon us. 
Again, I thank you for your testimony.
    Before we get into other longer discussions, you did not 
mention Afghanistan. I was there a couple months ago and 
witnessed that continued duplicity on Pakistan's part, 
outright, blatant duplicity, where they continue to support the 
Taliban, the Haqqani network, and give safe haven to Al Qaeda.
    Most of us have been to the Waziristans and seen the 
tremendous amount of taxpayer money that has gone into changing 
the context of those areas. But they continue to give them safe 
haven.
    So recently, they have asked to be able to purchase F-16s. 
I would rather they purchase them from a U.S. company than some 
other company, but they also want U.S. taxpayers to subsidize 
more than half of that purchase over time.
    Do you agree with my position that that should not occur 
until they stop the duplicity that has continued now for 14 
years while we have been in Afghanistan?
    Secretary Kerry. Well, Mr. Chairman, we are evaluating all 
aspects of the counterterrorism efforts with respect to 
Pakistan's impact on Afghanistan, obviously.
    I just met with Nawaz Sharif, Prime Minister Sharif, a few 
weeks ago, and we discussed our concerns about the need to rein 
in particular terrorist groups that are either homegrown in 
Pakistan or are using Pakistan as a sanctuary. We have been 
very, very clear that they have to target all militant groups.
    The Chairman. If I could, we do know that they know exactly 
where these people are living, not in the FATA region, right in 
Pakistan in neighborhoods that they could interdict while we 
are having this hearing, and they are not.
    So I do not want to go into a long discussion about our 
relationship with Pakistan. I do hope that, ultimately, you 
will support the position that I have laid out in my capacity 
as chairman that zero U.S. taxpayer dollars will go to 
subsidize Pakistan's purchase until such a time that they do 
the things that we know they could do to stop helping to 
destabilize Afghanistan, where men and women in U.S. uniforms 
have lost their limbs and lives, and huge amounts of taxpayer 
monies have gone to support a country as it evolves in 
democracy and anticorruption and other ways.
    Secretary Kerry. It is a very complicated mix, Mr. 
Chairman. I know you know this. The government itself, the 
military, has been very cooperative, very engaged in the fight 
against terrorism. They have lost tens of thousands of people 
themselves, and they have had 160,000 to 180,000 troops out in 
the western part of the country conducting a sweep, a major 
operation, in North Waziristan and elsewhere. They drove the 
Haqqani network into new locations. And it is an ongoing 
process.
    But there are, obviously--and we should deal with this, I 
think, in a classified session--entities that complicate our 
efforts very significantly. We have had those conversations. I 
am happy to go into it in greater depth.
    I understand your reservations about it, but their military 
has been deeply engaged in the fight against terrorism. They 
have several groups there that are of concern. And we should 
talk in a classified session about what we are trying to do 
about it.
    The Chairman. They are partially helping. They are hedging 
their bets, and they are continuing a long line of duplicity, 
which is the greatest threat to U.S. soldiers right now in 
Afghanistan. I know you know that. I agree that the 
relationship is complex.
    How should we look at a relationship, speaking of 
complexity, with Russia? They have done more for a country that 
has very little economic resources to break Europe apart. In 
the modern era, it has never occurred, like it is right now 
with what they have done in Ukraine, what they continue to do 
in delaying the implementation of the Minsk III. I know part of 
that is on Ukraine's side, too. What they have done to threaten 
the Baltics. What they have done to exacerbate the refugee 
issue and really use them now, in many ways, as weapons of war. 
And Syria, I do not think anyone can say that their role has 
been constructive as they continue--continue--to kill the folks 
that are our friends and allies.
    Now, in Iran, after this agreement has been negotiated, in 
strict violation of the U.N. resolution that put it in place, 
is now getting ready to sell Russian fighter jets to Iran in 
strict violation of that.
    So what is our relationship today with Russia?
    Secretary Kerry. Well, our relationship is one that is also 
complicated, because, obviously, we have different positions 
with respect to Ukraine, different positions with respect to 
Syria, at least as to the support of Assad. And the question 
remains to be tested whether or not they are at all serious 
about the political process.
    On the other hand, Russia cooperated quite significantly in 
the Iran negotiations. Russia joined with us in helping to 
remove the chemical weapons, the declared chemical weapons, 
under the Chemical Weapons treaty from Syria. Russia has 
cooperated with us in a U.N. resolution bringing to a head this 
effort diplomatically. Russia cooperated with us in the Vienna 
meetings that could not have happened without Russia's input. 
In fact, without Russia's cooperation, I am not sure we would 
have been able to have achieved the agreement we have now, or 
at least get the humanitarian assistance in.
    In the last days, Russia has sent its special envoy on the 
Syria issue to Syria to talk to the Assad regime and to make 
sure that they are in agreement to move forward in the 
diplomatic process, as well as to honor the humanitarian 
requirements. And they sent their defense minister to Iran to 
do the same.
    So it is step-by-step. There are no illusions. Eyes are 
open. And nobody on this committee should have any illusions. 
Russia made it clear years ago that they support Assad. This is 
not a surprise to us. It is not a surprise that they are 
following through on their support for Assad.
    And they are also threatened by terrorists. There are maybe 
2,000 to 2,500 to 3,000 Chechens who are fighting in Syria, and 
the Russians have a serious concern about the return of those 
Chechens to Russian soil or places of interest, and stirring up 
their Muslim population and/or other objectives they may have.
    So the bottom line, Mr. Chairman, is that we are proceeding 
on a step-by-step process by which the delivery of actions is 
what speaks. We will meet again in Geneva in the next few days 
to work on the modalities of the cooperation, so that it is 
Nusra that is attacked and not the moderate opposition, and so 
that we are both understanding how we are proceeding against 
ISIL.
    There could be a significant benefit in that we wind up 
having greater effort against ISIL and can speed up the 
destruction of Daesh. But the proof will be in the actions that 
come in the next days.
    May I say, I really appreciate your comments about Europe. 
I could not agree with you more. Europe is deeply threatened by 
what is happening. They are talking about different border 
measures that may be taken. I think it is imperative for the 
United States to be prepared to help Europe as much as 
necessary in every way possible in order to address what is 
happening and the pressures being put on them. But in the next 
days, we will know more.
    Now, when I met with President Putin, I said to him very 
directly that the test here is not a test that is going to be 
proven in 6 months or 1.5 years, when the election is 
supposedly scheduled. We are going to know in a month or two 
whether or not this transition process is really serious--or 
three, whatever. We will have a sense of that.
    Assad himself is going to have to make some real decisions 
about the formation of a transitional governance process that 
is real. If there is not, as you have read in the newspapers 
and are probably hearing, there are, certainly, plan B options 
being considered.
    The Chairman. I do not think they think plan B is 
realistic, and I think that makes it very difficult for you in 
your efforts.
    I, again, want to thank you for your efforts on our behalf. 
I do think the breakthrough on the humanitarian side was a good 
thing, but I think you have a very tough hand of cards that you 
are dealing with. Again, we appreciate you being here today and 
for your service to our country.
    Secretary Kerry. Thank you, Mr. Chairman.
    The Chairman. With that, Ranking Member Cardin?
    Senator Cardin. Once again, Secretary, thank you for your 
service to our country. Thank you for sharing with us today.
    Let me follow up a little bit on Syria. Obviously, the 
first challenge was to stop the shootings between the 
government and the opposition, supported by Russia and the 
government, and to allow humanitarian access, so that the 
humanitarian crisis can be eased. At least it will, hopefully, 
stop some of the flow of the refugees, and it will take some of 
the internal pressure, in order to be able to get a negotiation 
as to the future of Syria itself. That is the objective here. I 
strongly support that.
    You have alluded to this, but I hope you could be a little 
bit clearer as to what comes next. There seems to be a 
fundamental disagreement between the United States and Russia 
as to the future of President Assad. There has been silence as 
to the accountability of the Assad regime for its war crimes. 
And a lot of us are determined that when leaders commit war 
crimes, they must be held accountable for their actions. I 
understand there will be a process.
    At the end of the day, there needs to be a government in 
Syria has the confidence of all of its people, otherwise we 
will be back fighting again, and we are not going to be able to 
concentrate against ISIL forces, which is the objective here.
    Can you just share with us briefly how you see the next 
step unfolding, where we can get to a result where there is 
truly a government in Syria that has the confidence of all the 
population?
    Secretary Kerry. So let me try to lay this out as clearly 
as I can, and, certainly, how we see the options here.
    Russia, the United States, and Iran, and our allies, all 
say that we want a united Syria. The vast preponderance of the 
players say they want a nonsectarian, even secular, Syria, 
status quo ante, in which all minorities are protected, in 
which the people of Syria have the right to choose their 
leadership and their future.
    The Russians agree to that. The Iranians agree to that. All 
of our allies agree to that fundamental precept. So we are 
united on sort of this vision of where we want Syria to be. The 
question is getting there.
    We believe deeply, and we have argued this to the Russians 
and to the Iranians and others, that even if you wanted to, 
even if someone did strike an unholy alliance and suggested 
Assad could be part of that future, the war will not stop.
    As long as Assad is there, you cannot stop the war, because 
of the grievous events that have transpired over the course of 
the last years. People do not see how someone who has gassed 
his own people, driven so many of them into refugee status and 
displaced, tortured them, starved them, barrel-bombed them--how 
he somehow is going to be the glue that brings the place 
together is beyond anybody's understanding. And there are 
forces out there that will never stop fighting him.
    So if you want peace, by definition, we believe it has to 
be without Assad.
    What the Russians and others have said is the Syrian people 
have to decide that. But this political process that we have 
created is what they say is the mechanism by which that 
decision could begin to be made.
    Senator Cardin. What timing do you see? Are we talking 
months? Are we talking years?
    Secretary Kerry. No, we are talking months, because there 
is no way that people will be patient enough, obviously. First 
of all, there is a 6-month period that has been basically laid 
out for the political transition to try to be put in place. 
Now, if it is real and really happening, that could move. If it 
is not, as I said earlier, we will know.
    If they are stalling, if there is an absolute stonewall, if 
there is no progress, if nothing happens, it would be very hard 
to keep people at the table. I have no illusions about that. 
There are people who will say this is a farce, and they will 
walk away.
    So I think we are going to see very quickly whether or not 
countries are serious about this transition and whether or not 
Assad is serious about it.
    Now, President Putin said and has said publicly, and Prime 
Minister Lavrov has said and said publicly, that they are 
committed to this process and that their support for Assad is 
an important component of his need to take part in it.
    Senator Cardin. As far as holding President Assad 
accountable for the crimes that he has committed, has there 
been any understanding reached either for impunity or for 
actions?
    Secretary Kerry. No. No, there has been no discussion, no 
determination of it. I mean, I have said several times 
publicly, we have talked about the crimes that have been 
committed. Using gas against your own people is a war crime. 
Starvation as a tool of war is a war crime. So these are pretty 
clear things.
    Senator Cardin. Thank you.
    Let me turn to the area I said in my opening comments about 
democracy funding, anticorruption, et cetera, which, to me, is 
critically important. I do think that you have showcased the 
importance of anticorruption activities. We have talked about 
the Ukraine.
    If we get Russia to leave Ukraine alone, Ukraine's survival 
depends upon the internal reforms in its own country, where the 
people have an honest government. That was one of the major 
reasons for the protests that occurred in Ukraine.
    When we look at countries we are dealing with in Asia, 
including in TPP, we fight countries that have serious 
corruption problems within their government, and we have tried 
to take steps in the TPP to deal with some of those issues. And 
we go through country after country--the impunity in Central 
America of people who commit crimes without any accountability.
    I would hope, this year, we could work together, this 
committee and your leadership, to develop a protocol where we 
make it clear that we will not tolerate a government that does 
not move to deal with the corruption problems.
    We are talking about developing an index similar to what we 
do in trafficking in persons for corruption. There has been 
transparency evaluations done of countries.
    Can you just share with us steps that you are taking to 
provide a more permanent structure within the State Department 
to deal with the problems of corruption and good governance?
    Secretary Kerry. Well, Senator, I am glad you bring that 
up, because I gave a speech in Davos just a few weeks ago in 
which I talked about the challenge of global corruption. It is 
one of the most difficult challenges that we face in trying to 
deal with extremism, trying to deal with counternarcotics, with 
trafficking in persons. And the levels of corruption, I have to 
say, are greater in impact than I had perceived previously in 
my years on the committee and otherwise.
    It is having a profound impact. It steals the future from 
young people.
    In a sense, the Tunisian uprising and the Arab Spring was 
born not out of anything religious motivated. It came about as 
a result of corruption. A police officer was refusing to allow 
that Tunisian fruit vendor to sell his wares and wanted a 
bribe, and so forth. So when he got slapped around, it was one 
slap too many, and he self-immolated. That is what ignited the 
revolution that saw change sweep through the region.
    I see that in other countries incipiently. In Nigeria, it 
was reported that former generals stole some $50 billion, some 
extraordinary amount of money taken out of the country. In 
Yemen, we know enormous amounts were taken out of the country. 
There are many other countries. We know this is happening.
    So we are very, very focused on this issue and the 
standard. In the State Department, this effort is led by the 
Bureau of International Narcotics and Enforcement Affairs, but 
it is really an all-department effort. And we promote standards 
in many, many different ways. We model our proposals to 
countries on our best practices.
    I might add, with respect to Ukraine, the IMF has put a 
very strong 10-point program in front of the government in Kiev 
that they need to address in full in order to get further 
support from the IMF. That has a very significant reform 
package in it.
    In the last weeks, the Vice President and I met with 
President Poroshenko. We have been very clear about steps that 
need to be taken. We are working very closely with them.
    That is really the best way to do this. I know there is an 
instinct people want to put hard lines in place legislatively, 
sort of a draconian ``do this or else'' kind of message. That 
often winds up in severing our capacity to have an impact. What 
I have found that we are able to do in working with countries 
is actually get them to move on things and make changes. We are 
working. We are co-chair of the G-20 anticorruption working 
group, and we have advanced standards internationally on 
transparency, on integrity, on countering impunity.
    So this is an ongoing effort. It is not going to be 
resolved overnight, obviously. But the more we focus on it, the 
greater the prospects are that it is going to have an impact, 
and it will make a difference. And we are making a difference 
in a lot of places.
    Senator Cardin. Thank you.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for coming here and testifying. 
Thanks for your service.
    I have to take this opportunity, though. I have to put on 
my chairman of Homeland Security and Government Affairs hat. As 
you are aware, my committee has jurisdiction over national 
security procedures and Federal records. I have joined in 
letters with Chairman Corker and Chairman Burr and Chairman 
Grassley. We have sent you a number of letters. You have been 
responsive, in part. I appreciate that.
    I want to go through a series of questions. I do not need 
real long answers, but I just want to establish that, so I can 
hopefully get to putting my Foreign Relations hat on as well.
    First of all, as Secretary of State, you send and receive 
classified material, correct?
    Secretary Kerry. Yes. I mean, I do not send it personally, 
directly. It is sent through the Executive Office.
    Senator Johnson. Okay. So you never use your email system 
to actually create classified materials?
    Secretary Kerry. No, I do not.
    Senator Johnson. You never do that.
    Secretary Kerry. I have never actually opened my computer 
on my desk. [Laughter.]
    Senator Johnson. Okay. So, members of your staff do. I 
understand. I have white hair, too.
    Senator Kerry. It is not because I do not know how. I want 
it separated from me, and I do not do it.
    Senator Johnson. Good. So members of your staff do, 
correct?
    Secretary Kerry. Yes, of course.
    Senator Johnson. Okay. Then they use a system called 
ClassNet, correct?
    Secretary Kerry. Yes.
    Senator Johnson. Okay. You are fully aware of our enemies' 
capabilities, in terms of hacking into----
    Secretary Kerry. Indeed.
    Senator Johnson. Okay. Would you allow--so you do not use--
you do not allow yourself to use a private server. Would you 
allow any members of your staff to use a nonofficial, nonsecure 
server for transmitting classified information?
    Secretary Kerry. Look----
    Senator Johnson. Just yes or no.
    Secretary Kerry. Senator, I understand----
    Senator Johnson. Just yes or no.
    Secretary Kerry. We have very specific procedures in place 
in the department. I brought in an Inspector General. I wrote a 
letter to the Inspector General, asking him to review our 
entire process. And so in today's world, given all that we have 
learned and what we understand about the vulnerability of our 
system, we do not do that.
    Senator Johnson. So the answer is no.
    For every classified piece of information that is 
transmitted, there is a log kept at the State Department, 
correct?
    Secretary Kerry. Yes. There is a log kept on everything. 
Everything is kept, period, not just the log but the substance 
of the message is kept and filed.
    Senator Johnson. I would think that is a relatively 
condensed log though, I mean, pretty easily accessible.
    Secretary Kerry. I do not know the answer to that.
    Senator Johnson. There is a finite number of classified 
materials back and forth.
    Secretary Kerry. Well, we have 275 posts, and we are 
sending classified material every single day. I cannot tell you 
how many millions of----
    Senator Johnson. Are the logs differentiated by individual, 
though?
    Secretary Kerry. I do not know precisely.
    Senator Johnson. We will find that out.
    Secretary Kerry. I do not believe so.
    Senator Johnson. In a September 21st letter of 2015, one of 
our questions was: Did Secretary Clinton have an official State 
Department email account assigned to her for accessing 
classified emails during her time in the State Department? We 
did receive, and I appreciate, this response from Julia 
Frifield. This states: To answer question five, Secretary 
Clinton did not use a classified email account at the State 
Department. An account was set up on ClassNet for her calendar, 
but it was not used.
    Another question we asked, which has not been responded to, 
is, I would like access--our committee would like access to 
those logs in the State Department of all the classified 
material that was transferred between the administration, other 
members of the administration, within the State Department, and 
Secretary Clinton.
    You have not responded to that yet. It has been about 5 
months. Is there a reason why we have not had access to those 
logs?
    Secretary Kerry. I do not know the specific reason, because 
it has not been discussed with me.
    Senator Johnson. Is there any reason I cannot get access to 
those logs?
    Secretary Kerry. Well, I do not know the answer to that, 
Senator.
    Senator Johnson. So I will put that for questions for the 
record. I will continue to want a response to that.
    Secretary Kerry. Right. But let me, so you understand, I 
appointed a transparency coordinator, an experienced 
ambassador, Janice Jacobs, to assist us to make sure we respond 
rapidly to all requests.
    We have more than 50 simultaneous investigations going on. 
And we have an unprecedented number of FOIA requests. I have 
had to cannibalize bureaus to get people to go spend their time 
responding to these requests.
    Senator Johnson. Which is my next question. Do you know how 
much money you have spent and what kind of manpower you put on, 
because you have been really evaluating these emails since 
March 2015? Do you know how much money the State Department has 
spent just reviewing--because, again, I think we have to assume 
that every piece of information that passed over Secretary 
Clinton's nonofficial, nonsecure private server is in the hands 
of our enemy. We have to assume that. It is prudent to do so.
    So you have been reviewing that for almost a year. Do you 
know how much you have spent and the manpower associated with 
cleaning up that mess?
    Secretary Kerry. Well, I would have to look. As I said to 
you, we have over 50 investigations, nine different committees, 
involving hundreds of specific requests for literally----
    Senator Johnson. Well, I will----
    Secretary Kerry [continuing]. Wait, wait--hundreds of 
thousands of pages of documents.
    Senator Johnson. Again, I am not concerned about the other 
investigations. I am asking a question on the one with Hillary 
Clinton's emails.
    Secretary Kerry. I am concerned about it because this is--
--
    Senator Johnson. Good. I am glad you are.
    Secretary Kerry [continuing]. Tying up professional 
diplomats.
    Senator Johnson. Are you aware, has the FBI recovered any 
of the 55,000 emails that were supposedly wiped from the 
server?
    Secretary Kerry. I have no knowledge of what the--you have 
to ask the FBI. We do not touch or know anything about----
    Senator Johnson. Have you, in the emails----
    Secretary Kerry. You allocated $2.4 million in years 2015 
and 2016 in order to help us respond to you, and we have been 
able to step up the level of our delivery as result of that. We 
are still greatly overburdened.
    Senator Johnson. So based on what you have reviewed, the 
classified material, because we are up to--what?--1,700 
different emails that have some variation of some level of 
classified material in them.
    Secretary Kerry. I do not know.
    Senator Johnson. Is the State Department aware of anything 
that you have had to mitigate the damage from? Have you taken 
any actions in the State Department? Do you know if the 
intelligence community has taken any actions to mitigate the 
harm by the potential fact or the potential that our enemies 
might have access to that classified material on Secretary 
Clinton's server?
    Secretary Kerry. I would not be able to discuss that in an 
open session, but I can tell you that the department, we have. 
I do not know what the other agencies have done or not done.
    By the way, that is one of the reasons why it has taken a 
while. If we have anything in an email, when one of our 
professional reads the email, that involves another agency, 
then every agency has to have a chance to read that to see if 
their interests are, in fact, at risk. So that takes a long 
time, and that is one of the reasons why----
    Senator Johnson. Right. Secretary Clinton's actions have 
cost the Federal Government an awful lot of money and caused 
you an awful lot of headache.
    Secretary Kerry. Senator, it remains to be seen whether or 
not it is the 50 investigations by nine different committees 
that have created more heartburn.
    Senator Johnson. So what I would like are answers to these 
questions. You said you cannot do it in an open committee. 
Would you commit to coming in a secure setting before my 
committee to answer some of these questions?
    Secretary Kerry. Would I what?
    Senator Johnson. Would you come before my committee in a 
secured setting, the Homeland Security and Governmental Affairs 
Committee, to answer some of these questions based on national 
security procedures and Federal records?
    Secretary Kerry. I am not the appropriate person to discuss 
those issues in that context.
    Senator Johnson. Would you send a representative, then?
    Secretary Kerry. Well, I will evaluate with others in the 
administration through the appropriate interagency process who 
the appropriate person is to do that. Of course, someone 
appropriately responsible will always respond to any committee 
of the Congress.
    Senator Johnson. Again, it has been 5 months that we have 
been asking for the logs of the classified materials sent. So I 
would ask for those logs, as well.
    Secretary Kerry. Again, I am not sure whether that is even 
authorized or capable of being done, but we will take a look at 
it.
    Senator Johnson. Okay. Appreciate it.
    Thank you, Mr. Chairman.
    Secretary Kerry. It is the first I have heard of it. Thank 
you.
    The Chairman. Senator Boxer?
    Senator Boxer. I just want to say, before I welcome you, 
the Senator is injecting presidential politics into this. I 
resent it, and I would like to say for the record that we know 
that Secretaries Rice and Powell used their own private email. 
And I know of no Senator that has not sent emails about the 
work of this subject matter and other subject matters on their 
personal emails. So let us be clear.
    Now, I am really disappointed in this. I think we should be 
working together on the subject of today's hearing.
    Senators Corker and Cardin, I thank you so much for this 
hearing, and I thank you both for your leadership. It is 
extraordinary, the way you work together. As a ranking member 
myself working with Senator Inhofe, it is so important that we 
do that to restore faith, frankly, in this government.
    Secretary Kerry, I just want to say how much I appreciate 
your accomplishments, especially in these very difficult times 
and, as you point out, so many hotspots all over the world. I 
want to be specific about what I am talking about when I 
compliment you.
    First of all, your work on the Iran nuclear agreement, I 
know it is controversial, but I also know how hard it was. 
While you are doing that, also your continued support for 
Israel in this budget, it is so important. And thirdly, your 
opening relations with Cuba. And fourth, the global climate 
change negotiations. And fifth, your efforts to bring Russia to 
an agreement regarding Syria.
    It was way back 3 or 4 years ago that Senator Dick Durbin 
called a bunch of us together to meet with the Russian 
Ambassador to say, can we work together so that there could be 
a peaceful transition in Syria? And there was the Russian 
Ambassador.
    That was the most brutal meeting I have ever been to. It 
was horrible. And all we said was, let us work together for the 
future of the world, for the future of the Syrian people. And 
he was impossible.
    So, frankly--I am not being diplomatic, you have to be, but 
I do not--I blame Russia and Iran for what is happening there, 
for the quarter of a million deaths since we had that meeting 
of innocent women and children. It is horrible.
    So I am going to ask you, if I have time, I have two 
subject matters I want to cover with you. One is Cuba, and one 
is Syria. So I will start off with Cuba.
    I am a strong supporter of the President's decision to 
reestablish diplomatic relations with Cuba, another very 
difficult issue on this committee. I was proud to join you at 
the reopening of the U.S. Embassy in Havana last August.
    It was so emotional to see and speak with the same Marines, 
Mr. Secretary, who took down the flag 50 years ago who raised 
the flag again, and to see how excited they were to be there 
and to do that.
    To me, it is through engagement that we have the best 
chance to support the Cuban people. How do I know this? And I 
respect my friends on both sides of the aisle who disagree with 
me vehemently and disagree with you vehemently and disagree 
with the President vehemently. But really, we tried isolation 
for 50 years, and how did that go?
    So I think we have to move forward and get past it. People 
have a right to believe what they want to, and I have no 
animosity toward them. There are reasons they put forward that 
are deeply held. But I think those folks are living in the 
past.
    Walking through the Embassy last August, I did feel like I 
had traveled through time. The building, which has not been 
upgraded in over 30 years, was clearly in disrepair and 
understaffed. I see that the administration requested $3.8 
million for upgrades to our Embassy in Cuba in its fiscal year 
2017 budget.
    So whether or not one agrees with the new policy, could you 
tell us, because I know so many Americans are traveling to 
Cuba--and there are not enough hotel rooms. That is why Airbnb 
is doing so well there. That is where people are staying.
    Could you comment on why we really need these funds to 
rebuild the Embassy?
    Secondly, what are your priorities with respect to Cuba for 
the remainder of the administration? What does the President 
hope to achieve with his upcoming historic visit in March?
    Secretary Kerry. Thank you very much, Senator Boxer.
    The current staffing in Havana is inadequate to support our 
objectives of being able to do the diplomacy, the normal 
diplomacy. We were able to negotiate with the Cubans 
successfully a 50 percent increase in staffing, so we are very 
eager to reverse this shortfall, which will be helpful in terms 
of helping business, helping travelers, helping Americans. We 
have not increased any direct hire staff since 2014.
    Our Embassy there has hosted over 40 congressional and 
executive branch official delegations just in the year since 
the President announced the opening of diplomatic relations. So 
we also negotiated greater freedom for our diplomats to travel 
within Cuba and better monitor developments. And the ability to 
travel outside Havana and interact with Cubans outside the 
capital is obviously important to our relationship and 
security, and support of the Cuban people.
    We also were able to negotiate a number of containers going 
down there in order to help refurbish some of the Embassy, 
which, you are right, has not had any care in a long period of 
time.
    So we have concerns still. I am not going to pretend to 
anybody--I think the President said at the beginning that not 
everything is going to change overnight. There are still human 
rights issues. In fact, I may be down there in the next week or 
two to have a human rights dialogue specifically.
    Senator Boxer. Good. And what does the President hope to 
achieve?
    Secretary Kerry. The President hopes to press forward on 
the agenda of speaking to the people of Cuba about the future. 
Obviously, he is anxious to press on the rights of people to be 
able to demonstrate, to have democracy, to be free, to be able 
to speak and hang a sign in their window without being put in 
jail for several years.
    Senator Boxer. So just to sum it up, because I have one 
more question for you, he is going to speak directly to the 
Cuban people, and that is really good.
    My last question is, as the person who has perhaps engaged 
the most with the Russians, and I talked about the frustration 
Senators felt when we met years ago with the Russians, do you 
believe they are truly willing to commit to a cessation of 
hostilities in the Syrian area and a peace process that allows 
for the eventual removal of Assad? What is your assessment?
    Secretary Kerry. My assessment is that we have an 
opportunity to put to test the proposition that they are 
committed to a political solution. If, indeed, the only outcome 
that anybody believes can occur is a political solution, we 
have no choice but to try to get the modalities in place to be 
able to get to the table and argue about it.
    So as Senator Corker has said, my tools are the tools of 
diplomacy, the tools of trying to reach an agreement, trying to 
use whatever leverage we have to get an outcome. The outcome we 
have gotten is to have everybody who is a stakeholder at the 
same table, all of them agreeing in this process to have Russia 
joining us with China and France and Britain, as the five 
permanent members of the Security Council, going to the 
Security Council with Germany and others, in order to get a 
U.N. Security Council resolution outlining a framework for a 
political settlement, and Russia voting for it.
    So if we are going to test whether the words mean anything, 
we have to put in place a process like we have here.
    Now, Senator Corker mentioned Aleppo and what they have 
been doing in the ensuing weeks. Yes, they have been bombing. 
Imagine what would happen if we did not even have an agreement 
to end in 2 weeks or 1 week? They would still be bombing.
    You have to begin a ceasefire sometime. But you cannot 
begin it on day 1 without working out modalities of it. You 
have to sit there and say, okay, what are the rules? Who is 
going to live by what? And in this case, that was particularly 
difficult because of the different players that you have 
involved in this.
    Senator Boxer. Well, if I could just reclaim my time 
because I have gone over, I just hope it is not a rope-a-dope 
deal. I just hope.
    Secretary Kerry. Well, it may be. I am not going to sit 
here----
    Senator Boxer. Not that you have another option. I am not 
suggesting----
    Secretary Kerry. If humanitarian assistance flows, if the 
guns do silence, with the exception of the effort against Daesh 
and Nusra, on Saturday--if they do--and lives are saved, then 
that is to the benefit--and it does not mean that is 
automatically going to have a positive outcome in the political 
process, folks.
    In fact, let me say this, because Senator Corker raised an 
important issue. He said Russia has sort of been accomplishing 
its ends in the meantime. Well, folks, even if Russia took 
Aleppo, even if Russia is sitting there, holding territory has 
always been difficult. If the war does not end, if the Turks 
and Qataris and Saudis and others continue to support the 
opposition, and we are supporting the opposition, and the 
opposition continues to fight, this can get a lot uglier. 
Russia has to be sitting there evaluating that, too.
    So the question is, at some point in time, someday, someone 
is going to have to sit down at a table and arrive at an 
understanding about what Syria is going to be.
    But it may be too late to keep it as a whole Syria, if we 
wait much longer. So that is what is at issue here.
    I am not going to vouch for this. I am not going to say 
this process is sure to work, because I do not know. But I know 
that this is the best way to try to end the war, and it is the 
only alternative available to us, if, indeed, we are going to 
have a political settlement.
    Senator Boxer. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Flake?
    Senator Flake. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I appreciate the testimony so 
far.
    I share the concerns that Senator Cardin raised with regard 
to OCO, the shift. This is something all of us have been 
concerned with, the chairman and others, over the years, the 
shift from baseline funding to OCO funding. It is just not an 
honest way to budget. And I am not blaming the administration 
anymore than I am blaming Congress here, but we have to get 
away from it.
    Let me talk a little bit about the trip that Senator Cardin 
mentioned that he and I and Senator Coons from this committee 
and two other Members of Congress took to southern Africa, 
mostly to look at wildlife trafficking and poaching, and to 
provide some oversight for some of the programs that our 
government has with various governments there.
    It is a challenge. We have seen a decline in the elephant 
population in Africa over the past 10 years of about 40 to 50 
percent. Rhinos are being poached in just one part, Kruger in 
South Africa, to the tune of about 1,200 just last year.
    When we were in Namibia, we went into a vault where they 
held illegal seizures of rhino horn and ivory. I held two horns 
from one white rhino that on the black market was worth about 
$600,000, one set of rhino horns. It goes for about $60,000 a 
k, more expensive than any precious metal or anything else, 
cocaine or drugs.
    Those countries are very worried that criminal networks 
will come in that will fund conflicts and instability like they 
have in Central Africa and elsewhere. So I would just say that 
the programs that we have going in those countries, to help 
these countries actually respond to this threat, are important 
and we ought to keep going with that.
    Also, Senator Cardin mentioned the issue of trafficking in 
people, TIP, the report that we have. Senator Cardin raised 
that just about everywhere we went. That is an important lever 
that we have to induce these governments to help more in this 
area. But it is concerning in some areas.
    In Namibia, when it was raised, the government responded, 
hey, we have tried to respond. After we left, there were 
newspaper articles expressing some confusion about where they 
were and where they are. It is not just the Namibian 
Government. Some of the other governments have expressed some 
confusion about how they respond.
    When you look at what we are trying induce these 
governments to do, one of the things is the government of the 
country should make a serious and sustained effort to eliminate 
severe forms of trafficking in persons.
    Those items are maybe a little too subjective. And if we 
want to use this as an effective lever to push these countries 
to more where we want them to be, I would suggest that maybe we 
need to work on some of these measures to make them more 
concrete and precise.
    Do you have any thoughts on that? I know this is an area 
that is of concern to you, and you have been working with these 
governments.
    Secretary Kerry. Well, thank you, Senator. I know this is 
not on everybody's mind, obviously, but I will tell you, it 
should be. I wish it were something that we were able to do 
more about, and we should be able to.
    The same criminal networks that engage in wildlife 
trafficking also, by the way, engage in trafficking in human 
persons and narcotics trafficking. It is a multi-billion-dollar 
criminal enterprise. And it is destroying the future for lots 
of countries that could rely on ecotourism or other things. But 
it is also eliminating species from the planet.
    I think there is one rhino, I saw the other day, I think 
there is one white rhino in one country left. That is all.
    When I was in Kenya recently, I visited the David Sheldrick 
preserve there, where there were a bunch of orphaned baby 
elephants, because the parents had been killed. And the 
poaching has been reduced significantly because they now have 
wardens out there armed, and there is a price you pay if you 
are caught.
    That is the only way--it has to be stopped by enforcement. 
You cannot have impunity in the system.
    When it is part of a criminal enterprise in what has become 
a klepto-country of one kind or another, it is extremely hard 
to do anything about this.
    So we need to galvanize countries together. Unfortunately, 
this also is one of those things that takes resources. You have 
to be able to provide the shelter, the refuge. You have to be 
able to provide the enforcement mechanism, train people, make 
sure that there is no impunity with respect to this. Until this 
moment, there has not been a significant enough effort.
    I know you and Senator Coons are contemplating legislation 
on this. We welcome talking to you about it. The one concern 
that we have goes back to what I was talking about earlier. We 
are cooperating now with a lot of countries, and they are 
cooperating with us. We are worried about the prospect that, if 
there is sort of a frontal assault on them, we may lose the 
cooperation rather than be able to make the progress we are 
making. It is something that we should talk about. So what is 
the best way to get the return on investment here?
    Senator Flake. Thank you. I have one last question.
    I just want to commend the administration for what they 
have done on Cuba, as was mentioned before. I have said to the 
President and others that there are still, obviously, big 
concerns with the Cuban Government in the area of human rights, 
for example. But it should not be lost on anyone, the 
improvement in the condition of the Cuban people, since many 
changes have been made.
    For example, few years ago, when the President lifted 
restrictions on Cuban-American travel and lifted caps on 
remittances, that in combination with some changes made in Cuba 
have meant that nearly 25 percent of the Cuban work force is 
now outside of government, whether they are running private 
hotels or Airbnb with a bed-and-breakfast, a private auto 
repair shop, or a beauty salon.
    These people, who have that ability now, are separate as 
much you can be in Cuba from government and are enjoying 
richer, fuller, more free lives than they would have otherwise. 
We still have a long way to go, but we are moving in the right 
direction. And I commend the administration for the steps that 
have been taken, and I wish the President well on his visit 
there. I think it is an important step.
    Secretary Kerry. Thank you very much, Senator. I appreciate 
it. We appreciate your support.
    The Chairman. Before moving to Senator Menendez, this is 
slavery and trafficking awareness week. We have a hearing 
tomorrow on this very topic. I very much appreciate you 
bringing it up.
    And I want to thank the State Department for working with 
us. This committee passed unanimously, under Senator Menendez's 
leadership, the End Modern Slavery Act. We had a down payment 
on that, that we are working closely with the State Department 
to get to the right places. But this has to be a global effort, 
when there are 27 million people today enslaved. I know you 
know that. This committee knows that, and we look forward to 
continuing to work with you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman. I appreciate 
your drive and leadership on that issue.
    Let me join the chair and the ranking member in saluting 
you, Secretary Kerry, for your service. While I may have 
disagreements at times on policy, I never doubt your commitment 
to America's virtues and promoting those virtues abroad.
    And let me make a comment or two, which I did not intend in 
my preparation today. I guess it is the political hunting 
season, but if you keep shooting and you do not land anything, 
maybe there is nothing to shoot at. I think the global needs 
that we have, that we would be far better off if the State 
Department focused on that.
    And on Cuba, I would just say to my dear friend from 
California, I wish he was here, that human rights and democracy 
are never about the past. They are eternal, from my 
perspective. And yet, all I can say is that there is a 
difference between the President traveling to Cuba and when he 
traveled to Burma, for example.
    When he traveled to Burma, we had Aung San Suu Kyi released 
from house arrest. We had elections, however flawed. We had the 
11 commitments to release political prisoners. We got the Red 
Cross access to prisons and so forth. There were concrete and 
tangible progress on political reform and human rights.
    If anything, we are going backwards here. Some of the 
people who were released under the original deal have already 
been rearrested and are serving long terms in prison. So much 
for good faith.
    We had 1,400 arrests this year alone in the first 2 months. 
That is progress? Fourteen hundred arrests. Not because I say 
it, but because the Cuban Commission on Human Rights, which is 
inside of Cuba, says it.
    When we do business with the Castro regime, which is what 
we are doing--we are not doing business with the Cuban people. 
We are dealing with Castro's son and son-in-law, who head the 
two major entities, the only way you can do business inside of 
Cuba, both heads of the Cuban military. We are going to have a 
transitional and generational change from one set of Castros to 
another.
    So I am going to continue to speak out on that issue, 
because I think that human rights and democracy in Cuba is 
incredibly important, as I have viewed it elsewhere in the 
world. And I concerned that what we have done is neutered our 
programs there.
    But let me get to the heart of what I really wanted to talk 
about, and that is Iran.
    I want to ask you, Mr. Secretary, invoking sanctions 
against Iranian activities unrelated to its nuclear portfolio--
let us say items of proliferation, of ballistic missile 
technology, or support for terrorism--they do not violate the 
terms of the JCPOA, correct?
    Secretary Kerry. They do not what?
    Senator Menendez. That pursuing sanctions and other actions 
on proliferation of missile technology and support for 
terrorism, they do not violate the terms of the JCPOA?
    Secretary Kerry. That is accurate.
    Senator Menendez. Okay. Now, I look at what has transpired 
since our agreement. We have seen two ballistic tests in 
violation of the U.N. Security Council. We have seen missiles 
tested in the vicinity of U.S. naval vessels. We have seen 
American sailors detained. We have seen the barter of four 
innocent Americans held hostage for the freedom of 21 Iranian 
criminals, including those convicted of conspiracy and material 
support to a state sponsor of terrorism, shipping sensitive 
dual-use technology, money, and other materials in violation of 
standing U.S. sanctions. We have seen clemency for another 14. 
We have awarded the Iranian Government $1.7 billion, 
admittedly, for some type of contractor service that we did not 
provide.
    But that was never, ever talked about, not when I was 
chairman, not when I was the ranking member, not as a member of 
this committee. I never heard about that at all. And it was 
done so quickly, and the payment was made so rapidly, that even 
the victims of terrorism who have judgments in the United 
States did not have the wherewithal to try to attach it.
    So I look at that, and then I see the challenges that we 
have with Iran outside of its nuclear portfolio, support to a 
Houthi insurgency that helped topple the internationally 
recognized Government of Yemen, support to Shia militias in 
Iraq that exercise profound control over the democratically 
elected Iraqi Government, support to the Syrian regime of Assad 
with the devastating war that we all know about, financing 
billions of dollars to Lebanese Hezbollah and Hamas.
    And so I look at that and I just do not see where the 
counterweight is. And I look at that and say, I have a sense we 
are creating a permissive environment.
    Why do I say that? When we look at Iran's ballistic missile 
launches, which violated U.N. Security Council resolutions, we 
waited an inordinate amount of time, knowing that the United 
Nations ultimately was not going to ask act, and did not. And 
when we finally did provide some sanctionable action, well 
after all the elements of implementation day took place, we 
have 11 entities that were sanctioned.
    But instead of sanctioning the banks that were financing 
those entities, so that we have a more far-reaching 
consequence, we are playing whack-a-mole.
    So we have the ability to be far more aggressive against 
the Iranians on those things that we care about. And I know 
there is this desire to try to create space for the moderates 
inside of Iran, even though they were just blocked by the 
Guardian Council in a way in which there are virtually no 
moderates who are being allowed to run in the legislative 
elections.
    So I look at that, and I say, why is it that we are not 
being far more aggressive with the tools that we have?
    Finally, Mr. Chairman, I would like to introduce into the 
record a GAO report that I had commissioned with Senator Kirk.
    The Chairman. Without objection.


    [The information referred to above can be found in the 
``Additional Material Submitted for the Record'' section of 
this transcript.]


    Senator Menendez. It talks about the entity in which we are 
putting all the marbles, the International Atomic Energy 
Administration. Now, I think they do good work, but let me just 
say that some of the preliminary findings cause concern for me 
about what the IAEA is capable of.
    So let me read some of them. GAO's preliminary observations 
point directly to future problems with monitoring, verifying, 
and meeting requirements of the JCPOA. It talks about its 
limitation, a limited budget from irregular funding sources, 
human resource shortfalls, important equipment operating at 
capacity already not being able to go beyond that. Limited 
analytical capabilities that will be tested by the new mandates 
of the JCPOA. A lack of authorities. Obviously, the IAEA 
activities will depend a significant degree on the cooperation 
of the Iranian state. Thirdly, while they have focused 
virtually all of their resources to pursue the JCPOA, they are 
going to have very little resources. They turn away from other 
proliferators and potential proliferators. And, finally, among 
other items, the IAEA's own estimates identified the need for 
approximately $10 million per year, for 15 years, over and 
above its present budget.
    So it is an agency that is understaffed for its purposes, 
losing technical assistance--people are leaving; has now a 
singular focus, which I applaud the focus, but I want them to 
also pursue other proliferators; and a budget that does not 
have the wherewithal to sustain it just for the focus of the 
JCPOA.
    So should Iran, who violated international norm and 
international law, ultimately be the entity to pay, since they 
are now flush with money that we have given them or returned to 
them? Should they be the ones to pay for the very essence of 
the verification and monitoring that they caused the need for 
in the first place?
    Secretary Kerry. Senator, you raise a lot, obviously.
    Let me just try to quickly say, on Cuba, first of all, I 
really appreciate your personal comments, and I am grateful for 
that. I also respect enormously your commitment. You are 
dedicated when it comes to the issue of human rights and 
freedom, and you have always been very clear about it, with 
respect to Cuba. We have a difference maybe in the tactics 
about how to get there, but we do not have a difference in the 
goal.
    It is our sense that we have already seen some improvement 
in empowerment of the Cuban people in the private sector now 
employing one in four Cubans. It has grown significantly and is 
growing. And as the flights come in, and more and more people 
are there, there is a transformation taking place.
    Anybody who has been down there and had been there 
previously has observed this change that is taking place. 
People in the United States can now send unlimited remittances 
in support of private business investment.
    Senator Menendez. And 1,400 arrests.
    Secretary Kerry. I agree. It is not perfect.
    Senator Menendez. I did not really ask you for comments on 
Cuba, which I appreciate. I just want to let you know, for the 
record, how I felt.
    I would like responses to the question of Iran, though.
    Secretary Kerry. Sure.
    With respect to Iran, we believe we are being more than 
vigilant, actually. On January 17, we designated three entities 
and eight individuals who had provided materials for Iran's 
ballistic missile program. So we sanctioned people, and we cut 
them off from the U.S. financial system.
    We have continually been tracking the implementation with 
great impact. We had a couple questions about one thing or 
another. We raised them with the Iranians, and we resolved them 
in a way that kept faith with exactly what should happen. They 
were not malicious. They were just normal kinds of things that 
had arisen in the course of the process. We are happy to brief 
Congress. I am sure you will be fully briefed on every aspect 
of that.
    Yes, the IAEA does need more money. We know that. There are 
additional inspectors, however, under our agreement, who will 
be in there, 130 of them.
    And as you know, our Intelligence Community and our Energy 
Department remain absolutely clear that they have the ability 
to be able to verify and track this agreement.
    So the GAO is helpful. I think anybody's scrutiny that adds 
some choices for what can be done to make sure we are doing 
this correctly can do so.
    But the bottom line is, we know that they took out--from 
19,000 centrifuges down to 5,060. We know that they took the 
calandria out of the plutonium reactor and destroyed it, 
filling it with cement. It can never be used again. We know 
there is no enrichment taking place in Fordow, and so forth.
    Senator Menendez. My time is over, well over, so I 
appreciate the chairman's courtesy.
    My focus was not about the implementation of the JCPOA. It 
is about Iran's malign activities within the region that----
    Secretary Kerry. Let me come to that. We are also extremely 
focused on that. I had a meeting with the GCC a few weeks ago. 
We are meeting again somewhere in the next few weeks. I think 
we have plussed-up our assistance in the billions of dollars in 
terms of sales to them for their ability to be able to push 
back against Iranian activities.
    We have engaged with Iranians on their activities, 
specifically in Yemen.
    And we have high hopes that, over the course of the Syria 
process, we can begin to deal with the flow of weapons that 
have been coming out of Iran through Damascus into Lebanon and 
threatening Israel. We are very clear about that, and the 
threat of Hezbollah, and the IRGC's engagement in various ways. 
Again, some of that should be taken up in a classified session.
    But we believe that the amount of money that has flowed to 
Iran thus far, not because we have interfered with it or 
something, but because it just has not materialized as 
significantly as a lot of people alleged, is not winding up in 
some great imbalance in support for activities that we object 
to.
    So there are things going on, obviously. That is why we 
left in place the sanctions on human rights, the sanctions on 
arms, the sanctions on missiles, the sanctions on state 
sponsors of terror. They are all still there, extant, and 
subject to enforcement. We have made that clear, which is why 
we did designate people because of the missile test that took 
place.
    So we are very focused on it, Senator, together with our 
allies and, I might add, with Israel. We are constantly sharing 
information, and I can assure you every country in the region 
will be as diligent as we are in tracking what they are doing.
    The Chairman. So I get an F on being a traffic cop. I am 
going to try to be better, for the remainder of the time here. 
I do appreciate the fulsome answers and questions. If we could, 
we will try to stay closer to our time frame.
    With that, Senator Perdue?
    Senator Perdue. I will try to honor the time, Mr. Chairman. 
Thank you.
    Mr. Secretary, thank you for your energy and effort. We may 
have disagreed on some of the details of some of the efforts, 
but I respect your effort to represent us diplomatically and 
solve some of these really tough problems around the world. It 
is a very dangerous world.
    With regard to the budget, which is primarily what I 
thought we were supposed to be talking about today, next week, 
Senator Kaine and I, I will chair and he is ranking member of 
the subcommittee where we will have some of your staff talk 
about a few more details of the State Department's budget 
request.
    But I want to note for the record today, the State 
Department, while it is up 25 percent since 2008, some $12 
billion, I recognize it is still 1 percent of our total 
spending.
    I also recognize that the world is a lot more dangerous 
today. In fact, I think we see the world as having two real 
major crises. One is this global security crisis that continues 
to grow every day. But I think when we look at the State 
Department budget, as well as the defense budget, we would be 
well-positioned to consider it in its full perspective. I know 
you mentioned this in Munich last week, where you represented 
the United States very well, I thought.
    But it seems to me that we have interlocking two crises. 
One is the global security crisis on several levels.
    One is the rise of traditional states. China and Russia are 
ever more aggressive. We have these asymmetric threats and 
terrorists from Indonesia now to Algeria, and here at home. We 
also see nuclear proliferation threats, and honestly 
cooperation between North Korea and Iran, even that continues 
to date. On top of that, we have the cyber warfare dimension 
that our military is trying to adapt to, and I know you 
organization is trying to adapt to. And what we do not talk a 
lot about is the growing arms race in space.
    So, I mean, this is a very complicated world right now.
    Interlocked with that, though, is our own debt crisis, our 
own intransigence here threatens our ability to fund the needs 
that we have. I am coming to a specific question about Europe.
    Before I get to that, I would just like to ask you a quick 
question about Iran.
    Originally, we were told the number that they would be 
given over a period of time was somewhere between $100 billion 
and $150 billion. Then the administration came back and said, 
well, we think it is closer to $50 billion in terms of what 
they can get. There are some balance sheet issues that they 
have access to, but cash is about $50 billion. We have heard 
Iranian officials talk recently about it being an excess of 
$100 billion.
    Do we have an update on what that number is, quickly?
    Secretary Kerry. It is below the $50 billion.
    Senator Perdue. Do we have any intelligence on how they are 
using it to date?
    Secretary Kerry. We can talk about that in a classified 
setting.
    Senator Perdue. Thank you.
    The next question is, General Breedlove in Munich just last 
week described the refugee situation, the migrant situation in 
Europe, as the refugees being weaponized. I know you were 
there, and I know you commented on that. I would love to get 
your comments, though, relative to defense spending in Europe 
as well under 2 percent. I think for a generation, Europe has 
looked to the United States to be the big brother. And now we 
see Putin seeing that underspending in the military.
    Our spending right now is about 3 percent of our GDP. It is 
about 100 basis points less than our 30-year average or, in 
today's terms, about $200 billion. I am not suggesting that we 
need to spend $200 billion more.
    But I would like to know what the State Department and your 
strategy is, the administration strategy is, to deal with 
Putin, in light of these growing dangers from this immigration 
issue in Europe, particularly in the very susceptible states of 
Eastern Europe that used to be satellites of the Soviet Union 
all the way up through the Baltics. But starting in Greece and 
go up the refugee pipeline, these are very vulnerable states 
right now.
    What is our strategy to offset Putin and deal with the 
growing threat to these very fragile governments?
    Secretary Kerry. Our strategy is to support them to a much 
greater degree. We have the NATO assurance program that is in 
place. We have put very significant effort into larger numbers 
of rotating training and troops and equipment in the region.
    In addition, as I mentioned in my opening statement, I 
think our expenditure last year was about $700 million or 
something. We are taking it up to $3.4 billion or $3.5 billion 
in assistance to the frontline states, in order to make it 
very, very clear that we are there, and to support Ukraine, in 
addition to that. It is a very significant amount. It is about 
$1.6 billion, I think it is.
    So we are making it very clear that we are there to help.
    Now, the weaponization issue is a serious one. I think we 
have seen the dial get turned up and turned out, I might add, 
not only by Russia. So, again, in a classified session, I would 
be happy to talk about that a little bit.
    But I think it is imperative for us, as I said earlier, to 
be prepared to do more with respect to helping Europe be able 
to withstand this onslaught. You really cannot overstate the 
impact politically of the potential of another million 
refugees.
    Senator Perdue. Do you think Europe can take another 
million?
    Secretary Kerry. No. I think it is not doable. I think that 
would have profoundly negative, dramatic----
    Senator Perdue. I know you also heard people in Munich just 
last week talk about the growing refugee crisis from the sub-
Saharan area as well, and the crisis in Egypt right now.
    Secretary Kerry. Well, 50 percent of the people going in 
are not from Syria. They are coming from Bangladesh. They are 
coming from Pakistan, Afghanistan. They are coming from Africa. 
So it is a major challenge to the very nature of the European 
Union.
    Senator Perdue. Some of us visited Serbia, and about 60 
percent coming in through that pipeline are male, young male 
under 35, and only about 17 percent women, and the balance, 20 
percent or so, were children. A good number of those were from 
Afghanistan, coming through the Greece and Macedonia pipeline.
    Secretary Kerry. Right.
    Senator Perdue. Let me ask one other question. I am about 
out of time, but I would like to go back to North Korea.
    Director of National Intelligence Clapper just this year 
commented that, and I will quote this, ``Pyongyang's export of 
ballistic missiles and associated materials to several 
countries, including Iran and Syria, and its assistance to 
Syrian construction of a nuclear reactor, illustrate North 
Korea's willingness to proliferate dangerous technology.''
    We know that, in 2006, 2009, 2013, Iranian officials 
reportedly participated and were there during those nuclear 
tests.
    Do you have anything you can tell us about what the State 
Department is doing and the administration is doing to monitor 
that cooperation, and any potential violations of the JCPOA in 
terms of nuclear cooperation between those two countries?
    Secretary Kerry. Yes. At this point in time, we do not 
assess that there is a violation. But we have in place 
restrictions under the U.N. Security Council resolutions to be 
able to act, if there are.
    Director Clapper is on target, and he is accurate. We agree 
with that assessment, and we are working very closely to 
address that.
    I think we are on the verge of having an agreement, 
hopefully, with China. In fact, I am meeting with the Chinese 
Foreign Minister this afternoon. We are very hopeful. We know 
we have made progress in the negotiations in New York in coming 
up with a substantial and improved U.N. Security Council 
resolution with respect to what we will do as a result of these 
activities.
    So we are taking both national steps and multilateral 
steps. We have entered conversations with South Korea on the 
THAAD missile deployment, THAAD defensive system deployment. 
And we obviously have other options available to us.
    But this does not interfere with the JCPOA. It is separate 
from it. But we are nevertheless going to take these actions.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    Secretary Kerry, let me echo what others have said about 
your excellent service around the world, and all you are doing 
to try to bring peace to many of these difficult regions.
    I am glad you mentioned Roberta Jacobson in your opening. I 
think other Senators have mentioned her here. I have worked 
with her extensively. I think she is a very capable career 
State Department person. As you said, she does not make the 
policy about Cuba, so if you are objecting to the policy, it 
does not make any sense to hold up her nomination. I went down 
last week to the Senate floor to offer her name in consent, and 
it was objected to.
    I can just tell you, she is nominated for Mexico, to be 
Ambassador to Mexico. This has a real impact on my State. The 
State of New Mexico borders with Mexico. We have dramatic trade 
that is going on, in the last 15 years. It started at about 
$7.5 million. Now it is up to about $1.2 billion. We have all 
sorts of cooperative kinds of things we work with Mexico on at 
the State level.
    So I am just wondering, from your perspective, what is the 
impact of not having an ambassador to Mexico and recognizing 
that, Secretary Kerry, this has been vacant for 6 months. This 
is one of our very, very strong trading partners. Could you 
speak to that?
    Secretary Kerry. Well, Senator, thank you. And thank you 
for your support of that effort.
    Look, everybody here knows you all interact with our 
ambassadors when you go over to these other countries. They 
spend a lifetime in service to our country, gaining skills over 
20 and 30 years, and there is a reason we send them to the 
countries we send them to. It is because they are particularly 
suited to helping us advance America's interests, to build a 
relationship, to help to explain our values and choices.
    But in this world right now, particularly, notwithstanding 
instant communication, and email, and the way in which we can 
communicate directly Foreign Minister to Foreign Minister, 
having an ambassador on the ground who builds relationships, 
who knows the people in the government, who understands their 
difficulties, who has a sense of the politics of that 
particular country, helps us to be able to get our policy 
implemented.
    Here we are. We just had a North American security dialogue 
in Canada the other day, with the Foreign Minister of Mexico, 
the Foreign Minister of Canada, and myself. We have a huge 
North American interest. We have energy challenges. We have 
border challenges. We have narcotics trafficking. We have 
violence. We have the challenge of Mexico's help to help us 
prevent the flow of those children coming out of Honduras, 
Guatemala, El Salvador, coming up through Mexico into the 
United States last year, and so forth. I mean, you can run a 
long list. Counterterrorism.
    The need we have on a daily basis to have our Nation 
properly represented by an ambassador is absolutely critical.
    We are just hurting ourselves, and we make ourselves look 
silly, frankly.
    And we insult the country that does not get the person. 
They are sitting there saying, what is this? Punishment for 
something we did or did not do? And they do not sort of 
understand this process.
    So I spent years and years up here, as you all know. We 
usually got to the point where we could have a vote. Not one 
Senator or two Senators or rolling holds between three Senators 
preventing the country from doing what the country needs to do.
    I would hope that we just have a vote, and let democracy 
decide whether or not the Senate will say that Roberta Jacobson 
should go to Mexico and help us with all these issues.
    Senator Udall. Thank you, Mr. Secretary.
    I would applaud Senator Corker. He has tried to move these 
nominees forward. What has ended up happening is they get 
bogged down on the floor.
    I would like to shift to another area that you just 
mentioned, because it is an area that we also work with Mexico 
on, and that is the vexing and problematic situation in Central 
America.
    This is having an impact on my State of New Mexico, because 
we have many unaccompanied minors who are staying at Holloman 
Air Force Base. The real central question here is, with these 
three countries in Central America--you have drug-fueled 
violence, you have corrupt governments, you have very weak 
governments--how are we going to move ourselves into a better 
situation so that migration does not happen? That is what I am 
very concerned about.
    We, in this budget deal, as you are very aware, helped 
significantly in terms of State Department funding for Central 
America and for these three countries.
    So I would like you to discuss any progress that has been 
made to date with respect to implementing the U.S. strategy for 
engagement in Central America. Has there been any change in 
migration patterns that could be attributed to this effort, 
which we are undertaking? Would the funding requested for 2017 
be used differently from previously appropriated funds for the 
region? And how long do you think we are going to have to work 
on this to really make an impact?
    Secretary Kerry. Well, we are going to have to work for a 
fair number of years, Senator. As you recall, we just were able 
to celebrate 15 years of Plan Colombia.
    I remember in this room when we passed Plan Colombia, $1 
billion, and a lot of people were wondering, for one country, 
over a 10-year period, what that was going to do. I think it 
saved the country, together with the country's commitment 
itself and its leaders to try to stand up to the 
narcotraffickers who back then were destroying the nation.
    Today, Colombia is one of the strongest countries in all of 
Latin America, and doing an amazing job, in many, many 
respects.
    So these investments are critical. That is what the 
administration has decided to do and is doing with respect to a 
number of countries, not just El Salvador, Guatemala, and 
Honduras, but also Belize, Costa Rica, Nicaragua, Panama. We 
are working with all of them to try to address the causes of 
these folks sending their kids into danger and trying to come 
into the United States.
    It has to do violence, violence against young people. It 
has to do with narcotics trafficking. It has to do with lack of 
opportunity, education, health, and other ingredients.
    So we have found that what really does make a difference is 
to help these countries to be able to help themselves, and that 
helps us. So we are engaged in a major effort to try to 
professionalize the law enforcement, to reduce the illicit 
trafficking, to reduce the smuggling, the transnational 
organized crime, the gangs.
    I think we have $750 million we have asked for. It is a 
down payment on the full $1 billion-plus we want to put into 
this. And $359 million of that is for bilateral assistance, and 
$390 million is regional assistance for the things that I just 
talked about.
    I am convinced, if we follow through on that, this is going 
to reduce the numbers of people trying to come to the United 
States, cross the border. And it will significantly, in the 
long term, strengthen those countries and our relationships 
with them.
    Senator Udall. Thank you.
    The Chairman. Thank you.
    Senator Paul?
    Senator Paul. Thank you for your testimony.
    I continue to believe that one of the greatest threats our 
country faces is the accumulation of debt. We borrow about $1 
million a minute. We have given away over $300 billion in 
foreign aid over the last 10 years. During those 10 years, we 
have accumulated over $10 trillion in debt.
    Now, some would say, well, it is only 1 percent of the 
budget. It is not a big deal. Actually, if you cut 1 percent of 
the budget each year over about a 5 year-period, you actually 
balance your budget within 5 years, so the savings does add up.
    The other thing I think in thinking about this is that most 
of us give privately to charities or to our church. And most of 
us would think it would be absurd to go to the bank and borrow 
money to give to your church. You give out of your surplus or 
out of your earnings, but you do not give out of borrowed 
money.
    I think it is equally absurd for a country to borrow money 
from China to send to Pakistan. It sort of defies any common 
sense.
    The other argument, though, is whether or not it actually 
works, whether the money, if you say, ``Gosh, it is so 
valuable. We borrowed this money and we are going further into 
debt, but it works.'' But there is quite a bit of evidence that 
maybe it does not work.
    We plowed $1 trillion into Iraq, and Iraq has treated their 
liberation that we granted them with falling into the arms of 
Iran. You could make the argument they are closer allies with 
Iran than they are with us. They do not seem to do what we ask 
them to do with regard to making their army more national and 
less sectarian. They brought some of the Sunni uprising upon 
themselves, against our wishes.
    In Egypt over the last 10 years, we have given them $60 
billion. Some estimate as much as half of that was stolen by 
the Mubarak family. Even liberal institutions such as the New 
York Times have reported as much as 50 percent to 70 percent of 
foreign aid is stolen.
    Chairman Corker has mentioned the duplicitous nature of 
Pakistan, who I think at best can be described as a frenemy, 
sometimes friend, sometimes enemy, but really ``duplicitous'' 
is probably the best way to put it. We have given them $15 
billion over the last 10 years.
    I do not think I will convince you, but I think the 
American people are convinced, that we do not have the money to 
be sending money all around the world when our infrastructure 
here is falling down, our country is struggling. We just simply 
do not have the money, and it makes no sense to borrow it.
    I do not think I will convince you on any of those points, 
so I would rather ask you a specific question about Syria.
    Do you think it would make any difference if, instead of 
demanding as a precondition Assad leaving, the demand were 
something more like an internationally monitored election 
within a certain period of time? Is that something that has 
already been offered up as a possibility? And what is your best 
guess as to whether Russia or Syria might treat that as more of 
a possibility of a starting point, if it were an election at 
some sort of predetermined date?
    Secretary Kerry. Senator, thanks for your comment on the 
general issue of aid. I would like to come back to it, just for 
a moment, but let me answer your specific question.
    Russia and Iran have accepted the idea of an 
internationally monitored, highest standard election in which 
even the diaspora can vote. So they are already there. That is, 
in fact, part of the laydown in the United Nations Security 
Council and in the agreement.
    The problem is that the opposition will not accept the idea 
of Assad running in an election, because they just do not have 
confidence it will----
    Senator Paul. Can I just make one quick interjection?
    The opposition is going to have to accept something. With 
Russia's backing, Assad is not going anywhere. He has the upper 
hand now.
    So we are the ones supplying the opposition. We need to 
tell them they are going to have to accept something.
    Secretary Kerry. Well, we will see. A negotiated settlement 
of a war requires compromise by everybody. The opposition has 
already compromised in significant ways to come to the table.
    But if you cannot end the war with Assad running, is it 
really worth destroying an entire country and region over one 
man who simply thinks his being there is more important than 
anything else? The question is whether or not, over the course 
of this process, people will come to their senses and 
understand--I mean, four words, could end this war. ``I will 
not run.'' You could immediately move to resolve all of the 
other issues in a very significant way.
    So I think the opposition and everybody believes Assad 
cannot unite the country. You cannot end the war. I said this 
earlier----
    Senator Paul. I know, but do you not think the opposition's 
position has greatly weakened over the last year, and they 
really do not have the strength? They are one of 1,500 groups. 
The opposition we support will not exist without our support, 
basically. They are being overrun as we speak in the areas 
north of Aleppo.
    Secretary Kerry. The opposition has fought fiercely, and 
they continue to fight. And they continue to push back against 
the odds of aircraft bombing them, and so forth.
    I think that President Putin has to understand what 
everybody in the region understands, which is that this war 
cannot end if Russia wants to sit there and fight the jihadis. 
That can be, obviously, their choice. I do not think that is 
what they want to do.
    Senator Paul. But I think, if you were to think about it, 
the whole disaster of this war and the mass migration and the 
killing and all that has gone on, if you could accept the end 
of the war with an election in a year and Assad might or might 
not run in the year, that to me is a victory to end the war.
    I mean, sure, he is a terrible guy, but the Middle East is 
full of them, you know? Half the countries over there have 
despots, you know? So the thing is that I do not have any love 
lost for him, but there are also 2 million Christians that 
would choose Assad over the opposition probably, you know?
    So the thing is that I think if you could negotiate 
something--negotiating is giving. If our position and the rest 
of the world's position is that Assad has to go, you have seen 
where it is going. It is not going anywhere.
    Secretary Kerry. The United States cannot impose on people 
who have lived there under these bonds and starvation and 
torture. You cannot impose on them the notion that they have to 
live with the guy who did all these things to them. That is the 
fight.
    We do not have the ability, nor should we, to impose it on 
them. This has to be a Syrian-resolved process.
    Senator Paul. But they only exist with our support.
    Secretary Kerry. I do not think so. I think that they would 
exist otherwise. They exist to greater degree, but we did not 
create them out of whole cloth. This revolution in Syria began 
when Assad attacked young kids who went out into the square to 
demonstrate for jobs and for a future. When their parents went 
out, he attacked them. That was the beginning of this, and 
everybody knows it.
    So we are where we are, and we have to try to find it.
    Let me come back just to the point you made. You know, we 
would not disagree on everything you said, because there are 
places where money has been stolen. There are places where it 
has not been well-spent. Our job is, obviously, always to find 
out why that has happened and to prevent it from ever happening 
again.
    But all in all, if you look at the vast majority of 
countries that we are engaged with, and the nature of the world 
today, Senator, I just have to tell you that if we were not 
doing the development work we are doing, if we were not helping 
kids to get educated, if we were not providing some support for 
the development of health care capacity, apart from the 
humanitarian notion of that, there is enormous developmental 
return on that investment.
    For the United States, I am convinced more than ever--I 
have seen this now for the 3-years-plus I have been Secretary--
it makes a difference, a huge difference to the standards of 
behavior, to the values that those people adopt, to the 
willingness of countries to join together to fight Ebola, to 
deal with AIDS, to fight----
    Senator Paul. I guess you could also make the argument that 
our support for someone like Mubarak leads to a reaction of 
anti-Americanism. When they see teargas shells made in 
Pennsylvania that we buy that he suppresses his crowds with, 
you can see that the reaction is not always a pleasant one for 
America.
    Secretary Kerry. That is correct, and there have always 
been imbalances and difficulties in some of the choices that we 
have made. I do not disagree with you about Iraq. There are a 
lot of problems in Iraq.
    But right now, we have a challenge, which is to try to save 
Iraq and help Iraq save itself from Daesh. And it is in 
everybody's interest. Every country in the region wants to 
destroy Daesh. So we need to do that.
    I think there are a lot of ways. We are still the richest 
country in the world. We still have the strongest economy in 
the world, and we will for some years to come, hopefully 
forever, but, certainly, as we see a rising China, there is a 
time when automatically, by virtue of size and people, its 
economy will be larger. Whether it is stronger is a different 
question.
    But I would say to you that we have a huge imperative here 
to remain deeply engaged, because if we do not, there are too 
many young people out there, too many countries with a 
population under the age of 30 to 35 where you have 60 percent 
and 70 percent of the country under that age, and if they do 
not get educated and if they do not get job opportunities in 
this world in which everybody is connected and knows what 
everybody has and does not have, then I fear the evil that will 
fill their heads and the way in which they could get co-opted 
into enterprises and efforts that are very, very dangerous for 
all of us.
    So we all have a responsibility here to see that and try to 
do something about it, because that is a national security 
threat to the United States of America, as well as to all of 
our friends and allies.
    The Chairman. Senator Murphy, is there a timer on your 
side?
    Senator Murphy. I do not know.
    The Chairman. If the former chairman would help the current 
chairman, when it gets toward the end of the time, have less 
expansive answers.
    Secretary Kerry. I would be delighted, because I have 
another meeting.
    The Chairman. Senator Murphy, thank you.
    Senator Murphy. Thank you very much, Mr. Chairman. I will 
try to do my part as well.
    Just quickly, one follow-up on this analogy that Senator 
Paul was making, regarding how a family may not borrow money in 
order to make a charitable contribution to their church. I 
think for a lot of us that is not what we view these 
investments in foreign aid. We view them as integral to our 
national security policy as the investments we are making in 
the submarines and jet engines and helicopters that we produce 
in Connecticut. So this is not something that we are doing out 
of goodwill. This is part and parcel of a broader national 
security strategy.
    Second, the overview that you began with, the U.S. and the 
State Department engaged in more places in the world than ever 
before, squares with the reality that a lot of people believe 
exists, which is a world that is more chaotic than ever before. 
The truth of the matter is, as you have pointed out, the number 
of people across the world who are dying from acts of violence, 
who are dying as a result of war, is actually declining and has 
been declining for a long time.
    It speaks to our ability to find ways out of conflicts 
other than war, something we have not been so good at in the 
past that we are much better at today. So I just say that as a 
means of congratulating you on a number of seminal diplomatic 
achievements that are important in and of themselves, the text 
in the agreements, whether it be the Iran nuclear agreement, 
the climate change agreement, or the ceasefire. But they also 
remind people all around the world of the gains that the been 
achieved, the lives that have been saved, because we figured 
out over time that, as important as it is to have a strong 
military, it is much more important to take chances, to take 
risks on diplomacy. More of them pan out than do not pan out, 
which brings me to a question.
    You have, in this budget, a near doubling of funding for 
CVE, for countering violent extremism. That is a smart 
investment. I know you would want to spend more, if you could, 
because we are cutting off the roots of extremism before it 
gets to the branches. A smart strategy.
    But here is my worry. My worry is that the impact of these 
funding increases are going to be blotted out by the advantage 
that accrues to extremist groups by virtue of this widening 
proxy war between Iran and Saudi Arabia in the region and, 
certainly, playing out, to an extent, in Syria. But I want to 
ask you about our policy in Yemen today.
    There is a BBC story today that says, ``Yemen conflict: Al 
Qaeda joins coalition battle for Taiz.'' The underlying 
analysis is that, increasingly, there is some pretty deep 
integration between elements of Al Qaeda and elements of the 
coalition, a coalition that does include the United States, not 
on the ground, but in terms of support that we have given for 
the Saudi air campaign.
    And as I read the conflict in Yemen, I have a hard time 
figuring out what the U.S. national security interests are, 
given the fact that the result of the coalition campaign has 
been to kill a lot of civilians, has been to sow the seeds of 
humanitarian crisis, and to create space for these groups, 
these very extremist groups that we claim to be our priority in 
the region, to grow, whether it be ISIS or Al Qaeda in Yemen.
    So I just wanted to ask about the future of the U.S. 
involvement on the Saudi side of this conflict in Yemen, and 
just talk to us about why we should continue to fund munition 
requests from the Saudi Government that end up in that fight?
    Secretary Kerry. Senator, a good question. The answer is 
very straightforward. The Saudis are part of our coalition, 
part of our GCC link to pushing back against nefarious 
activities in the region. And the Saudis were threatened very, 
very directly by the combination of the Houthi and some Iranian 
input. As a result, they felt they had to defend themselves, 
and we supported their right to do that.
    Now, we are urging them very strongly to get to the table 
and to negotiate a resolution to this. We believe that there is 
a certain ripeness to that, and it would be better for 
everybody if we were able to achieve that.
    Now, there are some complications with it, obviously. You 
have former President Saleh, who has made life difficult in 
this whole process. We are working with the Omanis, the Saudis, 
and with the Emiratis, and other friends in the region, to try 
to see if we can now get back to the table. The U.N. is 
engaged, as you know. There are supposed to be talks that will 
take place shortly. Our hope is that this can end.
    A lot of civilians have, unfortunately, been impacted, as a 
consequence of what has been going on.
    I think the heart of the matter is that we are urging 
diplomacy at this moment to try to see if we can bring this to 
a close. I think it would be in everybody's interest if that 
were to happen. It would also provide a capacity to be able to 
focus more on Daesh and get the forces that are there that have 
been distracted from the Daesh effort realigned and refocused.
    Senator Murphy. I think at the root of your answer is that 
the alliance between the United States and Saudi Arabia 
requires us to come to their aid when they feel threatened. I 
guess my pitch is that I hope that that would not be the 
default proposition, if this proxy war widens in the region. I 
think it, frankly, provides incentive and impotence for the 
proxy war to widen, if the Saudis know that wherever they go, 
the U.S. is very close behind. And the more this proxy war 
cedes, the more room there is for these groups to grow.
    Secretary Kerry. There is a distinction between a proxy 
war, as you describe it, and the threat that the Saudis faced 
as a consequence of what was happening right in their 
neighborhood, right on their border, and across their border.
    So we chose to support that. We would not be supporting a 
longer sort of proxy kind of effort. That is one of the reasons 
why I say to you we think it is important now to get to the 
table and negotiate.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Secretary, it is nice to see you again.
    The American people are facing significant issues here at 
home, a tight budgetary environment. And you are requesting 
$1.3 billion for the Global Climate Change Initiative.
    As legislators, we are constantly searching to find the 
resources to help many people around the country, communities 
who are dealing with unemployment, with aging water systems, 
with poor roads, substandard hospitals, failing schools. So how 
do we talk to people at home and say that the real priority of 
the administration is sending 1.3 billion taxpayer dollars 
overseas to international bureaucrats in the name of climate 
change, rather than dealing with these issues at home?
    Secretary Kerry. Very simple answer. The American people 
are extremely practical, enormous common sense about things 
that affect them. You pick up the newspaper today, and you read 
about the flooding that people are suffering directly as a 
result of climate change. That flooding costs those taxpayers 
money.
    We spent billions of dollars last year. It was $8 billion, 
I think, in reaction to storms in the United States, which are 
of greater intensity as a result, according to the scientists, 
of the impacts of climate change. We are actually----
    Senator Barrasso. So Barbara Boxer, a member of this 
committee, would agree with that. But I am saying, why are we 
not spending the money here? She says climate change is an 
issue related to wildfire and drought, storms. So it is $1.3 
billion----
    Secretary Kerry. We are spending some of it here.
    Senator Barrasso. The question is, why are we not spending 
it here rather than sending it overseas to bureaucrats?
    Secretary Kerry. Because there are 20 major nations in the 
world that account for the vast majority--the majority, put it 
that way, because less-developed countries are now growing in 
their emissions as a result of their own developing practices.
    But the result is, if we do not help some of these 
countries that have no money, that are burning coal without any 
kind of restraint on how they burn it, we, regrettably, are 
also going to suffer. So it is in our self-interest to help 
these countries to make better choices about what they their 
energy future is going to be.
    It also, by the way, opens up jobs for Americans, because 
we are the most advanced, with respect to most of those energy 
technologies. So we could be actually creating more jobs for 
Americans, as a result of getting countries to invest more 
thoughtfully in their energy future.
    But they cannot afford to do it on their own. So what we 
are doing is actually helping people to make a transition to a 
clean-energy future, which is good for everybody.
    There will be $50 trillion, Senator, spent on the whole 
gamut of energy choices in the next 20 to 30 years. Those are 
jobs for people all over the world. This is going to be the 
single biggest market the world has ever seen.
    So I think this is an extremely smart investment in our 
security, as well as in our economy. And I think when Americans 
are presented that choice, Americans are--in fact, they already 
are--overwhelmingly in support of our doing something about 
climate change.
    Senator Barrasso. I want to switch to Syria.
    During your confirmation hearing in January 2013, you were 
asked about the situation in Syria. You stated, every day that 
goes by, it gets worse.
    I specifically asked you about Putin's support of Assad in 
Syria. At the time of your confirmation hearing, there were 
more than 60,000 individuals estimated to have been killed in 
the crisis in Syria. The estimate this past weekend is that it 
is now up to 470,000 Syrians killed in the crisis in Syria. So 
that is since the day of your confirmation hearings to now. The 
numbers were in The Economist and international surveys on 
this. That is about 300 more killed every day over the last 3 
years.
    So Russia continues to support the Assad regime. It is now 
bombing civilians and opposition groups in Syria. Putin is 
attempting to change the battlefield dynamic to bolster the 
Assad regime, to weaken the opposition, in terms of anything 
related to peace. His support of the Assad regime includes 
bombing civilians, bombing opposition groups.
    The current edition of The Economist article is entitled, 
``Vladimir Putin's war in Syria: Why would he stop now?'' It 
says, both of Aleppo's main hospitals were systematically 
destroyed by Russian airstrikes last year. Nobody should be 
surprised that, despite signing the agreement, Russia would 
continue its airstrikes against those it regards as terrorists, 
which they then point out is an elastic term for President 
Putin.
    Today's New York Times editorial, ``Relying Again on an 
Unreliable Mr. Putin.'' It says with Putin, a ceasefire to him 
is a tactic, even a smokescreen, not a goal. The Economist says 
the only puzzle is what John Kerry, America's Secretary of 
State, thought he could achieve through his agreement with Mr. 
Lavrov.
    So, I would say, after decimating opponents of the Assad 
regime with its bombing, Russia has now made a joint statement 
with the U.S. that it will agree to a cessation of hostilities 
February 27.
    To me, the only thing Russia has been consistent with is 
failing to keep its word.
    Specifically, what consequences do you support imposing 
upon Russia if it violates the ceasefire agreement and it is 
just a smokescreen or some kind of charade?
    Secretary Kerry. Well, in answer to the question, what does 
John Kerry think he could achieve?
    Senator Barrasso. And the consequences for Russia, if they 
do violate.
    Secretary Kerry. Right.
    My job, the job of everybody in the State Department, is to 
try to--war is the absence or failure of diplomacy. And our job 
is to try to see if there is a way to bring this to an end. I 
am not sitting here naively vouching for the fact that this is 
going to work. But the alternative is that I sit in my office 
and I go visit a bunch of countries while the war rages on, and 
nobody makes an effort to stop it. That is the alternative.
    You would be criticizing me if I was doing that. You would 
be saying, why are you not doing something to end the war? Why 
is there not diplomacy to try to find a solution?
    Now, it is a well-known fact that I have also advocated for 
strong efforts to support the opposition, strong efforts to 
make sure we have the leverage that we need to be able to 
achieve something. And there is a significant discussion taking 
place now about plan B in the event that we do not succeed at 
the table.
    So, look, put yourself in President Putin's shoes. Yes, he 
can drop bombs, and he can move the battlefield, and he has 
changed it for Assad. No question about it. He has had a better 
impact for Assad. But is that going to end the war? The answer 
is no.
    I think President Putin is smart enough to understand that 
if he just sits there over a period of time, those people who 
have supported the opposition will get different weapons, more 
weapons, and they will continue this fight. And you can wind up 
with a Syria that is utterly destroyed without a capacity to 
put it back together again, which we have today.
    That has happened before. The Roman historian Tacitus wrote 
about Carthage, ``They make a desert and call it peace.''
    So you can make a desert in the desert and call it what you 
want. But I am telling you, this war will not end with Assad 
there. It just will not end as long as Assad is there.
    So President Putin can bring in more. He can start 
additional bombing. But I assure you that, because of the 
sectarian nature of this, if he thinks he is going to be better 
off fighting on behalf of a dictator who has driven most of his 
people out of the country or into refugee status, killed a 
bunch of them, if he thinks he is going to be better off 
supporting Hezbollah and the IRGC and Iran and Assad against an 
increasingly sectarian divide that is defined by Shia and 
Sunni, that is a very, very dangerous----
    Senator Barrasso. I am over my time, Mr. Secretary, but it 
does seem that there are no consequences for Putin's violation 
of a ceasefire. I have not heard one from you with regard to 
this administration.
    Secretary Kerry. Well, there are a number of things being 
talked about right now. I do not think it is the moment to be 
throwing--I think it is out there, and people know what they 
are. But I think this is a moment to try to see whether or not 
we can make this work, not to find ways to preordain its 
failure and start talking about all the downsides of what we 
are going to do afterward.
    Senator Barrasso. U.N. Ambassador Samantha Powers this past 
year talked about all of the failures of Russia to--all the 
violations of Russia with ceasefires in Ukraine. It just seems 
we are seeing this picture again.
    Secretary Kerry. Well, let us see if we do, and then let us 
see what plan B is or is not, if that is what it takes.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before going to Senator Kaine, I have had terse words with 
the Secretary in public before, and it is not my job, 
certainly, today to defend him. I think ever since August, 
September 2013, when we did not take the actions that this 
committee authorized against Syria, Russia and others have 
known we are not going to do those things to cause there to be 
a price.
    I think that the Secretary is negotiating in a situation 
where there is no plan B. Russia knows there will be no plan B.
    So in spite of his energetic efforts, unless the other side 
knows that there will be consequences--we know there are not 
going to be under this President. Secretary Kerry probably 
knows there are not going to be. And Russia knows that there 
are not going to be any consequences. And that is what makes it 
difficult, I think.
    Secretary Kerry. That would be, actually, Senator--I 
appreciate, honestly, I appreciate your comments. But it would 
be a mistake for anybody to calculate that President Obama is 
not going to decide that, if this does not work, there are not 
another set of options. I just do not buy that.
    I think anybody who presumes that is misjudging this 
President and his record of making tough decisions and doing 
what is necessary. The President's first choice is to try to 
see if this can be resolved diplomatically. It is my first 
choice. It is the first choice of the security team. But there 
are plenty of people who are thinking about, okay, if it does 
not work, then what, including the President of the United 
States who has the responsibility to make that choice.
    But anybody who thinks that there is impunity for just 
violating this and going forward is making a grave mistake, in 
my judgment.
    The Chairman. We have been thinking about it for 2.5 years.
    Senator Kaine?
    Senator Kaine. Thank you. I am way late for a meeting I was 
supposed to be at. I am going to save my questions for the 
Budget Committee hearing that we are going to have in 
subcommittee next week.
    Let me just offer a statement to you, Mr. Secretary.
    As a member of this committee, but really just as a 
citizen, we owe you a huge debt of thanks.
    As a Senator, you have played a major part in unfreezing 
three frozen relationships the United States has had 
bilaterally.
    As a Senator, working with Senator McCain, you unfroze a 
very painful relationship between the United States and 
Vietnam. There was controversy associated with that, and it 
could have failed. There was no guarantee it would work, but 
you played a major leadership role in doing that.
    Now, as Secretary of State, you played a major leadership 
role in taking two other relationships the United States has 
had that have been frozen, with Iran and Cuba, and putting them 
into a new chapter. Again, there is no guarantee that diplomacy 
works, but I think our experience shows that there is a 
guarantee that the lack of engagement fails.
    It will be a long time before we will know the outcome of 
Cuba and Iran and the work that you have done diplomatically, 
just like it took a number of years for us to realize a path 
forward with Vietnam, where they are now begging us to be their 
security partner, begging us to be their trade partner. That 
was not obvious when you did what you did back in the early 
1990s, yet that has been a path of progress, where even though 
we saw challenges with Vietnam, no one wants to go backward and 
go back to frozen relationship.
    I am not a historian, but if I think about what I know of 
American diplomacy, there have been achievements. Roosevelt 
brokering the end of the Russo-Japanese War, that was an 
achievement. Truman and Marshall and the Marshall Plan, that 
was an achievement. The Nixon opening to China, that was an 
achievement. The Northern Ireland Accords, that was an 
achievement.
    But I think the work that you have done on these three very 
tough, historically problematic and challenging relationships, 
working with Senator McCain and others, with the strong 
encouragement of President Obama, who cares about diplomacy, 
thanks goodness, I think it will rank in the very top ranks of 
American diplomatic achievements.
    Again, no guarantees of success, but the absence of 
diplomatic effort is almost a guarantee of failure. I just want 
to thank you for that.
    I will save my budget questions for next week.
    Secretary Kerry. Thank you very much.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Well, thank you, Mr. Chairman.
    Mr. Secretary, thank you. I do not have as broad of a 
perspective to provide thanks to you as Senator Kaine did, but 
I, certainly, appreciate your tireless efforts to promote 
American values around the world.
    I actually want to bring it back to a minute matter, as 
opposed to broad strategy. I think you have been very 
supportive of the special immigrant visa program, which has 
been designed to help those people who helped us on the ground 
in Iraq and Afghanistan.
    I think you may be aware that Senator McCain and Senator 
Reed from the Armed Services Committee and I sent you and 
Secretary Johnson a letter 2 weeks ago, asking you to 
reconsider the department's initial interpretation of the 
language from last year's defense authorization bill, because I 
believe the department's initial reading of that language was 
inconsistent with what our intent was when we passed that bill, 
that we have disqualified many Afghans applicants who really 
worked to serve this country and should not be disqualified 
because they face serious threats if they are disqualified.
    So I do not know if you have any update on where the 
department is on this, but I would urge you to take a hard look 
and reconsider the initial interpretation.
    Secretary Kerry. Well, we could not agree with you more, 
Senator. And thank you for your ongoing concern about this.
    We share that concern. We do not want people who had 
already received chief of mission approval before September of 
last year to suddenly be caught up in this change 
inadvertently. That would be grossly unfair and dangerous, 
obviously.
    So two things. One, we are reviewing it in the legal 
department, and we are trying to see whether or not in fact the 
law can be interpreted in a way that we can just make it happen 
appropriately. If that did not work or does not work, then we 
are going to work with you very clearly to quickly legislate a 
change that remedies this inadvertent problem.
    But I agree with you. We just do not want people treated 
that way. And it would be a gross miscarriage of justice, if 
that happened.
    Senator Shaheen. Thank you. I appreciate that.
    To stay on the subject of immigration, I think one of the 
most horrible outcomes of the civil war in Syria has been the 
refugee crisis that has been created by that, and the 
implications not just for Syria, for the Middle East, for so 
many of our allies, for Europe.
    And they have highlighted a growing refugee crisis around 
the world that is getting worse, not getting better. I was 
surprised to see that the budget reduces the migration and 
refugee assistance, and the international disaster assistance 
accounts, in the budget. Given the crisis that we are facing, 
it is hard for me to understand the rationale for that, so can 
you speak to that?
    Secretary Kerry. I think we feel as if we have, first of 
all, the money in the pipeline. But, secondly, I think we do 
not have a way of predicting exactly what the demand is going 
to be. We just committed another $925 million to deal directly 
with the refugee crisis. I think $600 million and some directly 
for aid, and then the difference would be for education and 
relocation, and so forth.
    But our sense is that, if we do not have enough, we are 
obviously going to have to come back and discuss that with you. 
But I think in the OCO, we have an ability to have some 
flexibility.
    Senator Shaheen. Since you mentioned it----
    Secretary Kerry. That is one of the reasons it is a double-
edged sword. We do not like OCO, because it got in the way of 
the budget baseline, and I agree with that. On the other hand, 
it gives us some flexibility to be able to respond to these 
kinds of crises. And there have been more of them, which is why 
OCO has sort of evolved the way it has.
    Senator Shaheen. And I appreciate that. But put me in the 
column with Senators Cardin and Corker that says that is not 
the way we ought to be solving our budget problems.
    Let me go to the EU because I mentioned the threat that has 
been posed by the Syrian refugees to the EU. It is obviously 
facing probably more threats than at any time since World War 
II, given Russian aggression in Ukraine, and other countries on 
the eastern border of the EU, given the threat from further 
terrorist attacks, the potential exit of the U.K. from the 
European Union.
    So can you talk a little bit about how we are trying to 
respond to some of those challenges, and how this budget 
strengthens our ability to do that, and what more we can do to 
support Europe?
    Secretary Kerry. Well, the first thing we have done most 
recently was agree to work with them on the NATO deployment, in 
order to try to prevent the flow of refugees coming across. We 
are talking with them now about what further extensions of the 
European border may or may not be needed in an effort to deal 
with this. I think the President is even having some 
discussions about that today.
    As I said earlier, we have plussed-up our budget to all of 
the frontline states. And in many ways, they are frontline with 
respect to this movement of refugees.
    In addition to that, we just pledged the $925 million I 
talked about in London for the refugees.
    But one of the things that has motivated our policy, 
Senator, has been this notion that we are the world's largest 
donor. We are at $5.1 billion now, and this thing can keep on 
going, and we can keep writing a check. But we do not want to. 
What we would rather do is try to push forward on this other 
front to see if we cannot get an end to the flow of refugees by 
the cessation of hostilities and legitimate diplomatic process.
    While I have said again and again here I am not going to 
vouch for the fact that this will work, we have to put it to 
the test. We have no alternative but to test this. With all the 
cynicism and all the doubts that each of us will carry to the 
table, we have to test it. Then we will know. If people are not 
serious, then that gives you a whole different set of choices.
    But that will have the most profound effect of all on 
Europe, and it is the one way, really, to deal with the issue 
in a more lasting and effective way.
    Senator Shaheen. Thank you. My time is up, and you have 
been here long enough. But I just want to add, as a postscript, 
that I support the efforts to counter violent extremism that 
the State Department has undertaken. I think that is absolutely 
critical, as we think about how we are going to fight back 
against terrorism and ISIS and other terrorist groups.
    I would hope that we are coordinating with the Department 
of Homeland Security, which has undertaken a new initiative 
around countering violent extremism. So I just would hope that, 
as the State Department is working on this issue, that we are 
working with Homeland Security to make sure that it is a 
coordinated effort across government.
    Secretary Kerry. Yes. We are working very closely with 
them, hand in hand.
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. I just want to make a comment. I was 
listening to some of my colleagues comment about U.S. 
involvement internationally.
    When I first came to the Congress, we could not pass a 
foreign assistance bill. It was just not a popular thing to do. 
Today, I do not think we have any trouble at all, Mr. 
Secretary, getting the political support for a $50 billion 
foreign ops appropriation bill based upon U.S. involvement 
globally. That is a credit to involving leadership in our 
country to explain the importance of our power.
    We are the only country in the world that has the military 
might. And I agree with you. President Obama will use that 
military might when it is needed, but it should be a matter of 
last resort.
    We have universal values. These are not American values; 
these are universal values that we are willing to get engaged 
internationally in order to promote. And we have the ability to 
accomplish some really good things for the world, because we do 
get involved in those issues.
    So I just really wanted to underscore your record, and the 
Obama administration, and what you have been able to do to 
advance the national security of America.
    We are proud to be your partners here. I think we have had 
a good relationship, and we have been able to get some things 
done together. When we work together, we get more done.
    Thank you, Mr. Secretary.
    Secretary Kerry. Let me just thank you. I thank you both. I 
mean, the committee has been just a terrific partner, and we 
really appreciate it. When we came up on the AUMF, you were 
there. You have taken the lead. I appreciate the chair and the 
ranking member's relationship. Thank you.
    The Chairman. Listen, we appreciate your indulgence. You 
have been here 2.5 hours.
    On a bipartisan basis, people have extended their 
appreciation for your tremendous effort on behalf of our 
country. I know the details of the budget we will get more into 
with staff. But we appreciate your appearance today. We 
appreciate your work on behalf of our country, and I look 
forward to seeing you in the next setting.
    Secretary Kerry. Thank you, sir.
    The Chairman. The meeting is adjourned. If you would answer 
questions, we are going to leave the record open until the 
close of business Thursday. We would appreciate it.
    With that, this hearing is adjourned.


                              ----------                              


      

              Additional Material Submitted for the Record

                              ----------                              


          Nuclear Proliferation--Preliminary Observations on 
             IAEA's Role in Verifying the Iran Agreement\1\
---------------------------------------------------------------------------

    \1\ Prepared for Congress by the GAO and submitted for the hearing 
record by Senator Robert Menendez.
---------------------------------------------------------------------------
                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Responses to Additional Questions for the Record Submitted to U.S. 
      Secretary of State John F. Kerry by Members of the Committee

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                   SECRETARY KERRY BY SENATOR CARDIN

    Question 1. With the lifting of sanctions, European and Asian 
businesses are flocking to Iran in order to take advantage of 
investment opportunities. However, Iran is still a major state sponsor 
of terrorism and perpetrates a variety of human rights abuses.


   What mechanisms do we have in place to ensure that other nations 
        and corporations continue to adhere to the variety of 
        international and U.S. sanctions that remain in place? Has our 
        leverage over international companies been weakened by the 
        lifting of nuclear-related sanctions and the implementation of 
        the JCPOA?


    Answer. We have been very clear in highlighting to the 
international community that the JCPOA was negotiated to address Iran's 
nuclear program only. All of our other sanctions programs not related 
to Iran's nuclear program, whether for its destabilizing activities 
within the region, human rights abuses, or ballistic missile programs, 
remain in place and continue to be enforced. The most recent example of 
our continued enforcement is the January 16 designation of three 
entities and eight individuals involved in a procurement network for 
Iran's ballistic missiles program. This designation was in response to 
Iran's October missile launch and cut these persons off entirely from 
the U.S. financial system. Additionally, any non-U.S. person who 
engages with these designees will also be subject to U.S. sanctions.
    Under the JCPOA, if there is a significant violation by Iran, the 
United States has the ability to quickly re-impose the multilateral 
sanctions that were lifted. United Nations Security Council Resolution 
(UNSCR) 2231 establishes an unprecedented mechanism under which we have 
the ability to re-impose U.N. sanctions on Iran--the sanctions that 
were the hardest to secure given the veto held by other permanent 
members of the Security Council. This new mechanism is not vulnerable 
to being blocked by any of the permanent members of the U.N. Security 
Council.
    Furthermore, the United States maintains the ability to 
unilaterally reinstate the sanctions lifted under the JCPOA following 
significant Iranian non-compliance. These are the sanctions that were 
the most powerful in driving Iran back to the negotiating table.


    Question 2. February 3 you said in a statement: ``The continued 
assault by Syrian regime forces--enabled by Russian airstrikes--against 
opposition-held areas, as well as regime and allied militias' continued 
besiegement of hundreds of thousands of civilians, have clearly 
signaled the intention to seek a military solution rather than enable a 
political one.'' This statement was made well after the passage of the 
U.N. Security Council Resolution in December that established a 
timeline for a political transition in Syria and called for end to the 
bombardment of opposition-held areas. Now, the deadline for a 
``cessation of hostilities' has passed and we are still not any closer 
to establishing conditions that could bring the parties back to the 
negotiating table.


   Mr. Secretary, is it still your view that Russia and the Assad 
        regime intend to seek a military solution rather than enable a 
        political one that can end the Syria civil war?


    Answer. While Russia wants to keep its only strategic ally in the 
region in power, it knows that its military support to the regime will 
not bring an end to the conflict. Knowing this, in November 2015, 
Russia signed onto the International Syria Support Group (ISSG) 
Statement reaffirming key Geneva Communique principles, most 
importantly, a commitment to a political transition, including agreeing 
to free and fair elections administered under U.N. supervision within 
18 months. In December, Russia also voted in favor of UNSCR 2254, which 
explicitly requested that the U.N. convene formal negotiations on a 
political transition process between the regime and the opposition. Per 
UNSCR 2254, the Syrian parties are supposed to reach agreement on the 
shape of a transition within six months.
    The United States is committed to seeing this process through to a 
political transition away from Bashar al-Asad. Discussions over the 
last several weeks have not been easy. Intensified military operations 
by Russia and the Asad regime have worsened an already-dire 
humanitarian crisis in Syria, but we are hopeful that the cessation of 
hostilities will reduce violence and allow for the freer movement of 
humanitarian goods and greater access throughout Syria.
    This is a moment for action. The world can see in writing what has 
been agreed. This will be a difficult deal to implement, and we know 
that obstacles abound. Setbacks will be inevitable. But it is in all of 
our interests, and especially the interests of the Syrian people, to 
give this process a chance. This is a real opportunity to reduce the 
violence the Syrian people have endured for far too long.
    We have been clear with all parties that the transition timeline in 
UNSCR 2254 must be adhered to, and we expect the U.N. Special Envoy to 
reconvene talks soon.


    Question 3. I am pleased by the President's request for robust 
funding for Ukraine. This body passed two pieces of legislation to 
support the Ukrainian government and Ukrainian civil society, and I 
believe we must continue to show our support for the reformers in the 
government who are desperately working to institutionalize rule of law, 
democracy, and good governance in the country. That said, the Ukrainian 
government must do more to tackle endemic corruption. Recent political 
turmoil in Kiev has raised concerns about the government's commitment 
to reform.


   What is the State Department doing specifically to bolster 
        Ukrainian reformers in the government during this challenging 
        period?


    Answer. Ukraine is working to resolve the current political 
impasse. We regularly underscore to Ukrainian officials at all levels 
that they must unite behind reforms that meet IMF preconditions, 
accelerate the implementation of reforms, and move forward on Minsk 
implementation.The wave of activism that emerged during the EuroMaidan 
protests is the engine that will propel the government towards reform. 
The Department of State and USAID have therefore continued to 
prioritize support for civic organizations that hold government 
accountable, protect citizens' rights, provide fact-based information 
and promote democratic reforms. Since the crisis began, we have 
provided over $760 million in assistance to Ukraine, as well as two $1 
billion sovereign loan guarantees. While some of our crisis-related 
assistance was targeted at meeting Ukraine's urgent humanitarian and 
security needs, the majority of U.S. assistance to Ukraine is helping 
to advance reforms and strengthen democratic institutions. We 
appreciate Congress's support for Ukraine's reform efforts.
    The Government of Ukraine's commitment to reform and European 
integration has renewed our ability to engage with government 
institutions, and U.S. assistance to Ukraine prioritizes fighting 
corruption and promoting the rule of law. U.S. programs have supported, 
and will continue to support new anti-corruption bodies; public 
administration, procurement, and justice sector reforms; transparency 
measures; civil society and independent media engagement; and the 
recovery of assets stolen by the previous government.


    Question 4. How much of this assistance will support human right 
defenders operating inside Russia? What is our strategy for helping 
HRDs improve the human rights situation inside the country?

    Answer. The United States is concerned about the Russian 
government's disregard for human rights and the increased restrictions 
the government has imposed on civil society, which impede the 
fundamental freedoms of those active in civil society and their ability 
to receive international support. We raise these concerns regularly in 
our dialogue with the Russian government.
    Our commitment to engage Russian civil society remains firm. The 
United States will continue to seek ways to foster links between the 
Russian and American people, as we do across the rest of the region and 
around the world. Although the traditional routes for support have been 
challenged, Russian human rights and civil society organizations 
continue to express a desire to engage with the United States.We no 
longer have a dedicated line item in the budget for bilateral 
assistance for Russia. However, to the extent we can productively use 
resources in support of Russian human rights and civil society and in 
support of multilateral settings to address shared global priorities, 
we will use funds from the Europe and Eurasia Regional budget and from 
global accounts.


    Question 5. When we add funds provided through the 150 and 050 
accounts, funding for security assistance in Africa has nearly doubled 
from FY 2013 to FY 2015, while resources for democracy assistance from 
over the same period have decreased by approximately 46 percent. Levels 
for FY 2016 have yet to be determined.


   How are you working with the interagency to ensure we are balancing 
        our security assistance with appropriate levels of DG funding 
        for key allies in the region?


    Answer. There is a critical link between democracy, human rights, 
and governance (DRG) programs and security sector assistance within 
Africa. Many of our security assistance accounts also fund activities 
that touch on rule of law and human rights concerns. This does not 
replace the need for core DRG funding, but it is important to note that 
some of our security assistance contributes to DRG objectives.
    The Departments of State and Defense work closely to formulate, 
plan and implement security assistance in Africa. The Presidential 
Policy Directive on Security Sector Assistance (PPD-23), released by 
the Administration in 2013, guides this process. The directive mandates 
an inclusive, deliberate, whole-of-government approach to U.S. security 
sector assistance, which aligns activities and resources with our 
national security priorities. The directive calls for transparency and 
coordination across the U.S. government to develop long-term strategies 
for security sector assistance, which build the capacity of our 
partners in a way that is strategic and sustainable.
    The Departments of State and Defense recognize that human rights-
sensitive security assistance is important to efforts to strengthen 
democracy and governance in Africa. In response to the increasing 
linkages between governance and security, the President's FY 2017 
Budget Request includes funds for the Sahel Development Initiative 
(SDI) and the Security Governance Initiative (SGI). SDI seeks to better 
link development and security efforts to effectively counter the 
increasing threat of violent extremism in the region. SGI is a 
collective approach to strengthen African partners' security 
institutions' capacity to protect civilians and confront challenges 
with integrity and accountability.
    The Department of State and USAID support democracy and governance 
programming in the region. Democracy, human rights, and good governance 
are fundamental objectives in and of themselves: a lack of democratic 
governance creates an enabling environment for instability, violent 
extremism, and humanitarian crises, which often are a result of 
corruption, poor governance, and weak or nonexistent democratic 
institutions. The U.S. government also recognizes the importance of DRG 
programing to achieving and sustaining global development goals, as 
well as key U.S. foreign policy objectives.
    While the President's request in recent years has included 
increasing support for DRG programs in Africa, in the past, annual 
appropriations bills have reduced funding for the key foreign 
assistance accounts that support DRG programs, which has made it 
difficult to fully fund DRG programs included within the President's 
request, including DRG programs in Africa.
    The FY 2017 request includes approximately $343.2 million for DRG 
programs in Africa--an increase over previous years--that will support 
programs focusing on transitions of power, reform, and civil society 
engagement. For many countries, the FY 2017 request reflects an 
increased level over the FY 2015 allocation and will offer a 
substantial boost to DRG work in those countries.


    Question 6. Secretary, at the release of the 2014 Trafficking in 
Persons Report, you noted that as the Chairman of the Human Trafficking 
Task Force, you would ``sit down on this, every single Cabinet officer 
who has a responsibility, whether it's DHS, Department of Justice, 
they're all there, all coordinating. And [you], as the chair, 
instructed this year that none of [them] should travel anywhere in the 
world and fail to raise this issue with our interlocutors, no matter 
what meetings, no matter where we are. This has to be on the agenda.''


   To what extent have you personally been able to raise human 
        trafficking in your meetings with representatives from India, 
        Uzbekistan, Malaysia, Thailand, Cuba, and Mexico? What efforts 
        have resulted from your efforts to address human trafficking 
        with your counterparts?


    Answer. The Department of State has engaged numerous governments on 
this issue directly, using bilateral meetings, multilateral venues, and 
media platforms to make clear that combating human trafficking is a 
priority for this Administration--and for me--and is a responsibility 
for all members of the international community. The governments of 
Cuba, India, Malaysia, Mexico, and Uzbekistan are among those I have 
engaged directly, and I will continue to directly engage with foreign 
governments regarding their efforts to combat human trafficking.
    I, and other senior Administration officials, continue to press the 
Government of Cuba to expand its anti-trafficking efforts to prohibit 
and combat labor trafficking, including indicators of forced labor 
within its overseas medical mission program. Cuba acceded to the 
Palermo Protocol in 2013 and is working to amend its criminal code to 
bring it into conformity. We are watching closely to see if Cuba lives 
up to those commitments. The government has reported efforts to address 
sex trafficking--including the conviction of traffickers and the 
provision of services to sex trafficking victims involved in the cases.
    I directly communicated the Department's top recommendations from 
the Trafficking in Persons (TIP) Report to the Indian government. Our 
Ambassador-at-Large to Monitor and Combat Trafficking in Persons, Susan 
Coppedge, is currently working with the Indian government to plan a 
visit, in support of greater anti-trafficking cooperation.
    I, and many others in the Administration, have had robust 
engagement with Malaysia on human trafficking. As the result of this 
engagement, the Malaysian government should be very clear on what it 
needs to do, both in the context of the TIP Report and its commitments 
under the Trans-Pacific Partnership. This consistent attention has led 
the government to consult international experts and NGOs in the process 
of developing implementing regulations for legal amendments to its 
anti-trafficking law. Malaysia still has a long way to go, and the 
Administration is working to maintain pressure and help ensure improved 
anti-trafficking efforts and protection of victims.
    In Mexico, we continue to highlight the government's commitments 
under the Palermo Protocol and have encouraged a victim-centered 
approach to human trafficking. Mexico has several challenges, such as a 
broad definition of trafficking at the federal level, inconsistent 
anti-trafficking laws among the federal and state governments, as well 
as a lack of funding for victim services. However, we have a great 
relationship with the Mexican government and regularly seek 
opportunities for collaboration, such as sharing best practices on 
prevention efforts, including across all of North America.
    We maintain high-level, consistent, and robust engagement with the 
Government of Thailand on human trafficking. The message has been 
clear: the government must improve its anti-trafficking efforts, 
especially in holding complicit officials accountable and significantly 
increasing its efforts to address labor trafficking. The concerns in 
Thailand are vast, but the government's level of attention to this 
problem is high. Thailand must ensure its efforts are effective and 
sustained.
    Finally, I directly discussed the trafficking problem in 
Uzbekistan, including state-sponsored forced labor. The government has 
made commitments to prohibit the mobilization of children for its 
cotton harvest and has allowed international monitors into the country. 
Unfortunately, forced labor of adults persists and we are very clear 
that forced labor should be prohibited completely.
    These engagements complement those undertaken across the globe 
every day by many Department officials. Ambassador Coppedge recently 
visited Cuba, Mexico, Botswana, and South Africa, and the staff in the 
Office to Monitor and Combat Trafficking in Persons has traveled to 
five continents and over 50 countries in the last six months alone. 
U.S. missions around the world have sustained and expert engagement 
that occurs every day in some of the most challenging environments in 
the world.In each of these cases, the Department has been unequivocal 
that human trafficking is a priority for which each of these 
governments must make appreciable progress.
    The annual TIP Report not only assesses these efforts, but provides 
the road map for progress through the country-specific recommendations, 
which the Department uses to guide year-round engagement and spur 
continual improvement in combating this crime. Each country is clear on 
these recommendations and that future tier rankings will be assessed 
objectively against them by our experts.


    Question 7. Senators Coons, Flake and I just returned from Southern 
Africa where we visited Mozambique, Zimbabwe, Botswana and Namibia to 
learn more about their efforts to conserve threatened species. We also 
saw the startling effects of the extreme and prolonged drought that 
have caused a water crisis in those countries. This drought is fueled 
by climate change.


   What are the concerns the State Department has with climate 
        change's impacts on agricultural production, natural disasters, 
        or water resource scarcity and the potential destabilizing 
        effects that these emergencies can have on a country and how 
        does the State Department's budget specifically address these 
        potential security risks?


    Answer. The Department of State supports sustainable, climate-
resilient development projects in vulnerable nations through the Global 
Climate Change Initiative (GCCI). By building resilience to the effects 
of increasingly harsh or unpredictable climatic conditions and extreme 
weather events, our programs reduce the risk of damage and prevent 
broader instability that can be exacerbated by lack of preparedness. 
Helping developing countries manage climate and weather-related risks 
protects decades of progress in reducing poverty and economic growth in 
vulnerable countries.
    For example, USAID Kenya supports the efforts of the Northern 
Rangelands Trust in developing community resilience strategies, 
mainstreaming climate adaptation, and increasing access to climate 
information and decision-making tools. The project has helped more than 
30 conservancies in northern Kenya include climate adaptation in 
conservation, management and planning, particularly under drought 
conditions. These interventions have led to better management and 
conservation of natural resources, which, in turn, has significantly 
reduced poaching and conflicts over land and water. The resulting peace 
dividend has had wide, positive repercussions in this historically 
volatile region.
    In addition, the President has also pledged $3 billion to the Green 
Climate Fund (GCF), which will speed low-cost financing and grants for 
low-carbon and climate-resilient work in threatened regions around the 
globe. Our GCF pledge has already leveraged over $7 billion in 
additional funding commitments from other donors which will support 
mitigation and adaptation projects. To ensure that especially 
vulnerable states are prioritized by the GCF, the GCF Board decided to 
allocate half of the adaptation support to the Least Developed 
Countries (LDCs), Small Island Developing States (SIDS), and African 
States.
    Finally, the 2015 Quadrennial Diplomacy and Development Review 
(QDDR) emphasizes strengthening climate diplomacy and development, 
integrating climate change into all of our diplomatic and development 
efforts, and expanding climate engagement internationally. The 
Department is also implementing Executive Order 13677, which focuses on 
integrating climate resilience considerations into all of our 
international development efforts. As a result of E.O. 13677, the 
Department will begin in the coming year to take climate risks into 
consideration when developing relevant programs.


    Question 8. What is your confidence level that Sunni communities 
will receive the necessary resources and support to rebuild and 
recover? Given the fiscal constraints on the Prime Minister Abadi's 
government, are there other donors that could help in Iraq?

    Answer. The economic crisis in Iraq, caused by volatility in the 
oil market, the significant costs of the counter-Da'esh fight, and the 
displacement of 3.3 million Iraqis severely restricts the ability of 
the Government of Iraq to finance the recovery and reconstruction of 
communities devastated by Da'esh. Oil price volatility also negatively 
affected the ability of Iraq's neighbors to provide assistance, while 
the unprecedented demands caused by other humanitarian crises on 
traditional donor countries has reduced their capacity to support Iraq. 
Our partners are making significant contributions to help Iraq, but we 
are concerned about the lack of resources available for immediate 
recovery and long-term reconstruction in Iraq, as well as the 
government's immediate cash-flow constraints, which could delay 
payments to security forces. We will continue our efforts to generate 
contributions from the international community to support Iraq as it 
recovers from destruction caused by Da'esh.
    The stabilization of liberated areas is the first step toward 
recovery. Seventeen international donors have contributed or pledged 
nearly $100 million to the U.N. Development Program (UNDP) Funding 
Facility for Immediate Stabilization (FFIS), which funds rapid projects 
to rehabilitate light infrastructure, provides grants to small business 
to help jump-start the local economy, provides technical support to 
local government, and supports community reconciliation. FFIS addresses 
immediate concerns in the first six months after liberation. FFIS was 
instrumental in the initial recovery of Tikrit, to which 95 percent of 
the residents have returned. FFIS money has also been approved for a 
number of liberated areas, including majority Sunni al-Dour, Baiji, and 
Ramadi.
    Stabilization is not possible without trusted local security. Italy 
is leading a Coalition police training program to build the capability 
of local police forces; several other partners are planning to join the 
program to double the training output. The U.N. has estimated that $15 
million will be needed to clear the recently liberated city of Ramadi 
of unexploded ordinance (UXO) and improvised explosive devices (IEDs). 
The United States is planning to contribute to this effort and several 
Coalition partners are prepared to do so as well. The United States is 
working with U.N. and the Coalition to develop a more comprehensive 
approach to funding the estimated $200 million needed for UXO/IED 
clearance across Iraq.
    Volatility in the oil market has severely cut Iraqi government 
revenues, resulting in significant challenges for the Government of 
Iraq to meet its budget obligations. The austere budget adopted by the 
Government of Iraq includes allocations for assistance for displaced 
Iraqis and reconstruction, which are in jeopardy due to lower than 
anticipated revenues. The United States is negotiating a $2.7 billion 
FMF loan with the Iraqi government, which will help ensure that Iraq 
has the necessary ammunition, equipment, and training it needs to 
combat Da'esh and free up Iraqi resources for other Iraqi domestic 
priorities. The United States is also leading an effort in the G7 and 
among other partners to generate immediate budgetary support. Kuwait 
has provided significant financial assistance to Iraq by suspending 
Iraq's obligation to pay 5 percent of Iraqi oil revenues as reparations 
due to Kuwait as a result of Iraq's 1990 invasion of Kuwait for 2015 
and 2016, freeing up billions for Iraq to spend on domestic priorities.
    The IMF will play an integral role in to helping keep Iraq solvent 
during the economic crisis. Iraq has entered into an IMF Staff-
Monitored Program (SMP), which requires the Iraqis to implement a 
series of fiscal reforms. If Iraq meets their obligations under the 
SMP, they can begin negotiations with the IMF to enter a Stand-by 
Arrangement, which could unlock billions of dollars to help finance its 
budget.
    The World Bank provided a $1.2 billion Development Policy Loan in 
late 2015, which the Government of Iraq intends to use for energy-
sector improvements, improving expenditure management, reforming state-
owned enterprises, and repairing Mosul Dam. The World Bank's 
International Bank for Reconstruction and Development has provided a 
$350 million loan for reconstruction; a significant portion of these 
funds will be directed toward re-establishing electricity and 
transportation infrastructure, housing, and health services in the 
Sunni areas of Tikrit, Dour, al-Dalooeyya, and al-Alam, and portions of 
the loan could also be directed toward Anbar reconstruction. The 
European Investment Bank and the Islamic Investment Bank are also 
potential sources of funds. The Government of Iraq intends to host a 
reconstruction donor conference in April, and Germany has already 
announced a 500 million euro loan for reconstruction.


    Question 9. The administration's long-term plan to support 
Afghanistan's economic sustainability appears to be the New Silk Road 
initiative, which was announced in 2011 and would promote the country's 
economic integration into the region. Since then, China has announced 
plans to invest significantly across the region.


   Is the U.S. coordinating with China on these efforts? Are there any 
        challenges associated with coordination with China on economic 
        development in the region?


    Answer. The Administration continues to work closely with the 
Government of Afghanistan and its international partners to promote 
long-term Afghan economic development. Our approach has been to support 
Afghanistan's own reform agenda, the development of strong Afghan 
institutions, and the growth of Afghan revenue so as to promote 
sustainability. A critical component of that long-term sustainability 
will be Afghanistan's continued integration into the regional economy.
    China's engagement with the Central Asian states, Afghanistan, and 
Pakistan has the potential to contribute significantly to regional 
prosperity. By addressing major infrastructure needs in the region, 
China's One Belt One Road (OBOR) Initiative could contribute to peace 
and stability in Afghanistan, stimulate economic growth in Pakistan and 
Central Asia, and complement the New Silk Road vision. At the same 
time, the United States continues to encourage China to adhere to 
international standards on governance, environment, debt 
sustainability, and social safeguards as it becomes more deeply engaged 
in development finance activities in third countries.
    In Afghanistan, we have three joint training projects for young 
Afghan diplomats, Afghan agricultural professionals, and Afghan health 
workers that emerged through trilateral U.S.-China-Afghanistan 
diplomatic engagement. More broadly, the United States and China are in 
the initial stages of coordinating overseas economic development 
activities as we build on a development MOU signed during President Xi 
Jinping's September 2015 state visit. We are also exploring with the 
Chinese government possible further development cooperation in 
Afghanistan, Pakistan, and Central Asia. The security situation in some 
parts of the region hampers both U.S. and Chinese economic development 
efforts.


    Question 10. Can you walk us through--very specifically--a case 
study of, say, Tunisia or Mali, of exactly what variety of civilian 
tools that are being used to prevent violent extremism and how we are 
measuring the results?


    Answer. The United States National Security Strategy (2015) calls 
for a sustainable approach to combat the persistent threat of 
terrorism. The United States will continue to take measures and engage 
in collective action with responsible partners to disrupt threats 
against the United States and our allies. At the same time, effectively 
addressing these threats requires simultaneous and complementary 
efforts to counter and prevent the spread of violent extremism. The 
Department of State leads the U.S. government's international efforts 
to counter violent extremism (CVE)--in close partnership with USAID--
and is elevating CVE as a top priority, as Deputy Secretary of State 
Blinken laid out in a February 16 speech at the Brookings Institution.
    Broadly speaking, our CVE effort aims to identify and address the 
specific societal dynamics and drivers of radicalization to violence 
and counter the ideology, messaging, and recruitment methods that 
extremist groups and propagandists employ to attract new recruits and 
foment violence.
    CVE also requires proactive efforts to engage key stakeholders and 
prevent support for violent extremism in areas where the threat is more 
nascent. We are focusing our CVE efforts in a few key areas, including 
analyzing drivers of violent extremism, assisting national governments 
in developing national CVE strategies, expanding engagement with sub-
national and local government authorities, and strengthening the roles 
of key non-governmental actors who can play important roles on the CVE 
front.
                         assisting governments
National CVE Action Plans:
    We are expanding technical support and assistance to governments as 
they design and implement national CVE action plans, with the 
involvement of civil society--in line with the U.N. Secretary-General's 
new Plan on Action on Preventing Violent Extremism and Hedayah's 
Guidelines and Good Practices for Developing National CVE Strategies.
    For example, we deployed a team of interagency advisors (e.g., 
State, DHS, and NCTC) last year to assist the Government of Albania in 
developing its national CVE strategy targeting the radicalization and 
recruitment to violence of foreign terrorist fighters. We are now 
developing a broader regional initiative for the Western Balkans to 
promote a range of CVE programs and activities involving governments 
and civil society. The process of developing a national CVE strategy 
can help governments to refine their understanding of the problem and 
commit to a holistic approach to addressing the problem, including 
committing new resources to at-risk communities and populations.
Strategic Communications:
    Working closely with the new Global Engagement Center, we are 
increasing our technical support and assistance to governments, as well 
as grassroots partners, as they undertake new efforts to counter 
violent extremist messaging and promote alternative narratives. For 
example, the United States has worked closely with the United Arab 
Emirates on the development of the Sawab Center.
    We have also funded Hedayah, the CVE center of excellence in Abu 
Dhabi, to provide training for governments and civil society on 
messaging strategies, including how to promote the narratives of 
disillusioned ``formers.'' We are providing specific technical 
assistance for national governments and law enforcement agencies as 
they develop their strategic communications capabilities.
Law Enforcement Community-Oriented CVE Strategies:
    We provide extensive training and advisory support for law 
enforcement officials on strategies to partner with communities on CVE 
initiatives and build trust between police and communities vulnerable 
to violent extremism. For example, in Indonesia we are implementing a 
program to institutionalize the role of Community Action Officers 
within the Indonesian National Police (INP). These officers work to 
promote positive police-community interactions and higher levels of 
trust between police and communities, with a goal of marginalizing the 
influence of extremists. In North Africa, we are providing support to a 
non-governmental organization to help national police in North African 
countries better understand and address local drivers of radicalization 
to violence.
Countering Prison Radicalization:
    We are also assisting governments in reducing the threat of prison 
radicalization, by helping corrections officials recognize and 
effectively manage violent extremists in their facilities. For example, 
we have funded Department of Justice advisors to help the Philippines 
develop new policies for assessing and managing terrorist inmates to 
impede recruitment of other prisoners. We are also working with 
governments on developing diversion and juvenile justice programs for 
low-risk offenders that can help promote rehabilitation and 
reintegration.
 expanding engagement with sub-national, local and civil society actors
Strong Cities Network:
    We are working closely with the new Strong Cities Network, an 
effort to assist mayors and sub-national authorities to share expertise 
and build capacity to develop localized CVE strategies. The Network 
already includes more than 25 cities from around the world and 
continues to grow. As a result of the Network, European cities are 
pairing with cities like Amman, Jordan, and Tunis, Tunisia, to help 
with CVE capacity-building.
Youth and Women Engagement:
    We will continue our efforts to engage and empower youth who may be 
susceptible to violent extremist radicalization and recruitment. We 
will also deepen our ongoing support for women as family and community 
actors in recognizing and preventing radicalization into violent 
extremism. Youth can also play a critical role in mobilizing public 
support against violent extremism, including in countering violent 
extremist messaging. In the past, we have funded non-governmental 
organizations in East Africa, South Asia and Southeast Asia that are 
mobilizing youth-led media campaigns against violent extremism in their 
communities.
Civil Society Rehabilitation/Reintegration Network:
    We are working with non-governmental organizations that have a 
critical role to play in the rehabilitation and reintegration of former 
violent extremists--both inside and outside of prison settings. For 
example, we are funding an effort to build the capacity of civil 
society organizations in East Africa, the Sahel-Maghreb, and Southeast 
Asia that are involved in rehabilitation and reintegration work, with a 
focus on returning foreign terrorist fighters. We are also funding a 
new training course for government and non-governmental actors on 
designing strategies to handle returning foreign terrorist fighters.
Researching Solutions to Violent Extremism (RESOLVE):
    We will expand our knowledge base by working with researchers 
around the world to better understand the local drivers of violent 
extremism and how communities can build resiliencies against it. 
Launched by the Bureau of Conflict and Stabilization Operations and 
USAID and guided by a steering committee composed of research 
institutions around the world, the RESOLVE Network will leverage local 
research to promote exchanges between researchers, practitioners, and 
policymakers to build effective and sustainable responses to the 
drivers of violent extremism. In the next few months, the network will 
launch an online platform and develop a shared research agenda to focus 
efforts and resources on the top CVE research questions.


    Question 11. The 2015 National Security Strategy, 2015 Quadrennial 
Development & Diplomacy Review, and the U.N. Secretary General's new 
report that came out last week on the forthcoming World Humanitarian 
Summit all make clear, stark calls for greater political leadership, 
investment and innovations to prevent and reduce violent conflict. 
However, the numbers aren't adding up. State and USAID's Democracy and 
Governance accounts have been cut roughly 23 percent in the last four 
years to make up for Presidential Initiatives and earmarks. A 2015 
USAID OIG audit found that Washington is not meeting USAID Mission 
Directors' requests for governance and conflict mitigation funding, and 
USAID's Office of Conflict Mitigation and Management has lost nearly 
all of its core funding despite being one of the most regularly 
endorsed offices by our civil society partners.


   Secretary Kerry, can you please explain to the Committee how your 
        FY17 budget improves US capacities to prevent and reduce 
        violent conflict?

   What are State and USAID tactically doing right now to rejigger our 
        foreign policy investments towards prevention?


    Answer. On May 18, 2016, the President signed Executive Order 13729 
and in so doing enshrined a comprehensive approach to atrocity 
prevention and response, including through the creation of the Atrocity 
Prevention Board (APB). As outlined in that E.O., the APB is an 
interagency body that seeks to ensure mass atrocities and the risk 
thereof are effectively considered and appropriately addressed by the 
U. S. government. The APB meets on a regular basis and coordinates the 
development and execution of policies and tools to prevent and respond 
to mass atrocities.
    The Department of State and USAID's FY 2017 Budget Request provides 
$5 million toward atrocity prevention programming. These funds will be 
used to support programming in places identified by the APB for the 
prevention and mitigation of atrocities, as well as post-atrocity 
activities.
    Alongside the establishment of the APB, State and USAID are also 
making great strides in creating the policy infrastructure necessary to 
make conflict prevention a clear priority. Unlike crisis response where 
the needs are great but the challenges are more self-evident, conflict 
prevention requires stronger analytical, planning, and learning 
capabilities to discern where conflicts will crop up, how they will 
impact U.S. interests, and what amount of U.S. and international 
intervention is required. The Under Secretary for Civilian Security, 
Democracy, and Human Rights (J) has tasked the bureaus in the ``J-
family'' of bureaus and offices to focus on conflict prevention. The 
Bureau of Conflict and Stabilization Operations (CSO) has moved 
conflict prevention to the heart of its mission and work, with the 
bureau's top three priorities comprising of: (1) preventing violent 
extremism; (2) preventing mass atrocities; and (3) preventing 
destabilizing violence around transitions like elections, ceasefires 
and peace agreements. To support this critical conflict prevention 
capacity in FY 2017, the President requested $39.5 million for CSO, 
including the $5 million for atrocity prevention mentioned above.
    The Department of State and UAID also recognize that countries with 
precarious justice institutions, poor governance, corruption, and human 
rights violations, create an environment in which instability, violent 
extremism, and humanitarian crises can flourish. Robust democracy, 
human rights, and governance (DRG) programming that supports the 
development of government institutions, the inclusion of citizen voices 
in the political process, and the promotion and protection of human 
rights is critical to strengthening and expanding our efforts to 
prevent--rather than react to--the next political crisis, violent 
episode, human rights violation or mass atrocity. As such, Department 
of State and USAID's FY 2017 Budget Request includes a robust $2.7 
billion for DRG programs, which is $411.8 million (18 percent) above 
the FY 2016 earmark level for democracy programs.


    Question 12. With the current length of displacement averaging 17 
years, refugees and internally displaced persons (IDPs) are 
increasingly in need of longer term assistance in addition in short-
term emergency aid. Given the protracted nature of many of the current 
crises (for example--Syria, Yemen, and South Sudan), it is apparent 
that these refugees and IDPs will not be returning home any time soon. 
86 percent of the world's refugees are hosted by developing countries, 
placing additional strain on countries that were already in need of 
development assistance. Appropriations for 2016 recognized the need to 
break down the silos between humanitarian assistance and development 
assistance by providing new transfer authorities from traditional 
development accounts to support countries affected by significant 
refugee flows.


   How are these new authorities being implemented to supporting host 
        communities, for example, in the Syria context?


    Answer. The administration appreciates Congress' recognition and 
support of the tremendous refugee need and the substantial strain 
placed on host communities. In the context of the Syrian refugee 
crisis, the Department of State and USAID provide significant 
development and economic assistance to support refugee-hosting 
countries and communities, primarily in Jordan and Lebanon, in 
responding to the refugee crisis by supporting essential services and 
infrastructure in host communities. In both Lebanon and Jordan, we have 
re-oriented development assistance to meet the increased needs in 
geographic areas and sectors where refugees are having the greatest 
impact on host communities. The United States also provides 
humanitarian assistance to non-governmental organizations and U.N. 
organizations delivering assistance to Syrians in Jordan, Lebanon, and 
Turkey.
    In Lebanon, U.S. development assistance primarily focuses on 
education, water, economic growth, and community resilience to support 
communities hosting large numbers of refugees from Syria. In education, 
our assistance has rehabilitated 183 school buildings, including 55 
schools in areas with large populations of displaced refugees. We have 
equipped classrooms, paid school fees for vulnerable children, and 
worked to enhance teaching methods and create quality learning 
opportunities. U.S. assistance has improved the availability of water 
services by increasing the efficiency of water management, improving 
water infrastructure and strengthening water governance. These efforts 
helped build financial management, planning and operations capacity; 
procure equipment and funding infrastructure for water; and develop 
customer service and outreach programs. More than 120,000 Syrian 
refugees are impacted by these interventions.
    In Jordan, U.S. development assistance focuses on the education, 
water, health and economic growth sectors to address the greater 
strains imposed by the refugee influx. The crisis is having a profound 
impact on the education sector, particularly public schools. To help 
meet this challenge, we are investing $231 million to expand 120 
schools, renovate 150 schools and build 25 new schools in areas with 
large numbers of Syrian refugees. In addition, USAID fast-tracked the 
expansion of 20 schools in overcrowded areas due to the refugee 
population. Workforce development programs are being reformulated to 
include Syrians as a result of the Government of Jordan's agreement to 
issue work permits to Syrians. Assistance will include vocational 
training and job placement. In the water sector, our assistance is 
supporting the construction of a new pipeline, pump station and waste 
water treatment plant that will increase water supply and waste 
treatment for 1.7 million people in northern Jordan, where a large 
number of refugees reside. Additionally, U.S. government assistance to 
the Jordanian health sector includes health facility expansions and 
renovations, particularly near the Syrian border in areas with large 
numbers of refugees; this assistance has improved Jordan's ability to 
deliver high quality reproductive, maternal, and newborn care in 
communities hosting refugees.
    The Department of State's Bureaus of Near Eastern Affairs (NEA) and 
Population, Refugees, and Migration (PRM), USAID and other appropriate 
parties closely coordinate both overseas and in Washington to ensure 
humanitarian and development assistance programs are complimentary. The 
Department has also been exploring options along with the World Bank 
and other donors to provide multi-donor mechanisms that can provide 
leveraged assistance to Syria's neighbors.
    Regarding the FY 2016 Appropriations bill, Section 7063 makes funds 
available to: expand and improve host government social services and 
basic infrastructure to accommodate the needs of such populations and 
persons; alleviate the social and economic strains placed on host 
communities; improve coordination of such assistance in a more 
effective and sustainable manner; and, leverage increased assistance 
from donors other than the United States government for central 
governments and local communities in such countries. This section does 
not, however, provide transfer authority between accounts.


    Question 13. Having traveled to Central America in recent months, I 
am deeply concerned about the situation in the region. As past strategy 
showed the limitations of solely focusing on security assistance, I 
support the Administration's new push for a comprehensive approach. 
However, I am concerned that we are over funding economic programs, 
without making necessary and critical investments in strengthening the 
rule of law, building democratic institutions, and combating 
corruption. These programs were the smallest part of the FY 2016 
request, and it appears the same in the FY 2017 request.


   Are we spending too little on strengthening democratic governance? 
        Can security take root or economic growth flourish without a 
        strong presence of the rule of law?


    Answer. Strengthening governance and democracy are critical 
priorities for the U.S. Strategy for Engagement in Central America. The 
Administration's FY 2017 Budget Request seeks $203 million to support 
governance in the region, an increase of $57 million from the 
allocation for governance support in FY 2015 ($146 million). Improving 
governance in Central America requires similar efforts to improve 
prosperity and security. The request therefore calls for increased 
commitment to all three of the Strategy's lines of action--security, 
prosperity, and governance--because advances in one line of action 
depend on advances in the others.
    Our efforts to strengthen democracy by implementing the Strategy 
have yielded successes, such as anti-corruption efforts that strengthen 
the rule of law, which will serve as the foundation for new governance 
programs supported by the request. The U.N. International Commission 
Against Impunity in Guatemala (CICIG), to which the U.S. government has 
contributed $37 million to date, pursued customs fraud investigations 
that led to the arrest of former-President Perez Molina, former-Vice 
President Baldetti, and 35 others, including current and former 
directors of the tax authority. Honduras signed an agreement with the 
Organization of American States (OAS) on January 19 to create the OAS 
Mission Against Corruption and Impunity in Honduras (MACCIH), which 
will also address high-level corruption. El Salvador's new attorney 
general, Douglas Melendez, is establishing a public integrity task 
force, supported by U.S. assistance and training, to investigate 
corruption cases.
    The request seeks to capitalize on and sustain these successes 
through new prosperity and governance programs, building upon the 
strong political will in the region to engage as active partners and 
commit to substantial reform. U.S. efforts will support improved tax 
administration and revenue collection and encourage the use of internal 
control systems and internal checks and balances. We will support 
professionalizing civil services and judiciaries and strengthen 
municipal governments. The request will also support civil society 
organizations and help build regional networks to promote civic 
engagement, the protection of human rights, and increased transparency.


    Question 14. During my travel to Honduras, I had the chance meet 
with at-risk youth and hear first-hand the threats of crime, violence, 
drugs and the lack of opportunity the faced in their communities. Mr. 
Secretary, I was pleased to hear you announcement in mid-January that 
the U.S.--in close cooperation with UNHCR--would expand refugee 
processing in the region.


   Given the urgent humanitarian situation in the region, what 
        concrete steps are we taking to launch this program and ensure 
        that eligible individuals have access to asylum screening? When 
        will it start?


    Answer. The new Central American Minors program will complement our 
existing initiatives designed to protect Central American minors from 
the dangers of unaccompanied migration. Unlike our existing Central 
American Minors program, individuals and families without relatives in 
the United States will be eligible. We have spoken to a number of 
partners in the region, including nongovernmental entities, about 
different aspects of this program. These discussions are ongoing. We 
hope to begin accepting referrals in the coming months.


    Question 15. The prospects of a peace deal in Colombia not only 
hold the potential to end 50 years of conflict, but also highlight the 
strategic contribution of U.S. foreign assistance. In the final weeks 
of negotiations, as some concerns remain over accountability and 
appropriate punishment for human rights violations. What can we do to 
support conditions for a sustainable and lasting peace in Colombia? How 
can the U.S. best use funding requested for the President's new 
initiative--Peace Colombia--to support implementation of a potential 
peace accord?

    Answer. During President Santos' February 2016 visit, President 
Obama announced a new framework for our bilateral cooperation known as 
Peace Colombia. U.S. assistance in support of Peace Colombia is an 
important expression of our commitment to supporting one of our closest 
allies as it builds a more secure and prosperous future. We will focus 
ongoing and future U.S. assistance under three pillars: consolidating 
and expanding Colombia's progress on security and counternarcotics, 
while reintegrating demobilized FARC combatants into society; expanding 
the Colombian state's presence and institutions to strengthen the rule 
of law and rural economies, especially in former conflict areas; and 
promoting justice and addressing rights and interests of conflict 
victims.
    The administration requested $391 million in FY 2017 bilateral 
foreign assistance for the Department of State and USAID, an increase 
from the FY 2015 level of $307 million for those accounts. The 
increased funding supports Colombia's efforts to implement a peace 
accord with the FARC. In addition to the $391 million, the 
Administration requested FY 2017 funds for other agencies; 
contributions to Peace Colombia goals, including $44.6 million in 
Department of Defense counternarcotics programs, for a total 
interagency peace implementation request of $450 million.
    Economic Support Funds (ESF) address rural development, support to 
victims, reintegration of ex-combatants, and land reform. Increased 
funding will support Colombia's efforts to bring public services, 
including justice, dispute resolution, and critical infrastructure, to 
the populations of former conflict areas. Increasing our support to 
rural road maintenance and construction is an important priority for 
the Colombian government; the United States has some ability to provide 
technical assistance in this area.
    In addition, funds will support integrating victims' needs and 
rights into peace accord implementation. Specifically, funds will 
support the search for missing persons and strengthen national 
reconciliation efforts by promoting truth, criminal accountability, 
reparations (including land restitution), and guarantees of non-
recurrence for conflict victims. ESF will also support human rights and 
judicial training programs.
    International Narcotics Control and Law Enforcement (INCLE) 
assistance will support Colombia's effort to implement its new 
counternarcotics strategy, which places greater emphasis on riverine, 
maritime, aerial, and land-based interdiction; manual eradication; 
seizing assets through anti-money laundering operations; and 
dismantling organized crime groups through complex criminal 
investigations. INCLE funds will help the Colombian authorities develop 
the intelligence to make manual eradication efficient and safe; enhance 
interdiction; and improve Colombia's ability to conduct complex 
investigations against criminal organizations. INCLE funding will also 
support extension of justice services to former conflict areas, a peace 
implementation priority.
    Requested Foreign Military Financing (FMF) will increase the 
Colombian military's ability to project the state's presence and 
provide security in former conflict areas. Support will focus on 
engineering units, counternarcotics battalions, aviation support, and 
other units that will extend the reach of the Colombian military to new 
areas. FMF will also support institutional reforms that will enhance 
the efficiency and flexibility of Colombia's armed forces.
    Requested Nonproliferation, Antiterrorism, Demining, and related 
program funding will support U.S. participation in the Global Demining 
Initiative for Colombia, co-led with Norway, which the President 
announced on February 4. The initiative seeks to marshal international 
resources and technical assistance for Colombia's pursuit of the goal 
to be landmine free by 2021. Landmines and improvised explosive devises 
kill or maim thousands of Colombians every year. Supporting Colombia's 
demining efforts will help the Colombian government deliver a concrete 
``peace dividend'' to the Colombian people; reinforce support for a 
peace accord; and provide a foundation for rural economic development 
by facilitating licit agriculture, investments in infrastructure, and 
access to markets.

            FISCAL YEARS 2015-2017 REQUESTS--STATE/USAID ONLY
                      $ in thousands for all items
------------------------------------------------------------------------
                                     FY 2015      FY 2016      FY 2017
                                      Actual      Request*     Request
------------------------------------------------------------------------
Columbia--State/USAID............      307,776      288,726      391,253
  Economic Support Fund..........      133,000      141,326      167,328
  Food for Peace Title II........        6,835           --           --
  Foreign Military Financing.....       27,000       25,000       38,525
  International Military                 1,446        1,400        1,400
   Education & Training..........
  International Narcotics Control      135,195      117,000      143,000
   and Law Enforcement...........
  Nonproliferation,                      4,300        4,000       21,000
   Antiterrorism, Demining and
   Related Programs..............
    of which, Antiterrorism......          800          500           --
    of which, Conventional               3,500        3,500       21,000
     Weapons Destruction
     (Demining)..................
------------------------------------------------------------------------
*FY 2016 levels are pending allocation by the Department and USAID



    Question 16. How does your budget request fund health worker 
training and health system strengthening priorities worldwide? What are 
the U.S. goals for the multilateral Global Health Security Agenda for 
improving the capacity of countries worldwide to detect, prevent, and 
respond to diseases with pandemic potential? Given the extraordinary 
challenges we've seen with global health security over the last couple 
of years; please explain your flat funding request.

    Answer. The Department advances our global health mission through 
diplomacy and robust foreign assistance programs. Healthy people make 
for stronger, more prosperous, and more stable nations; enhance 
international security and trade; and ensure a safer, more resilient 
America. The U.S.-launched Global Health Security Agenda (GHSA) is a 
multilateral, multi-sectoral initiative to prevent, detect, and respond 
to infectious disease threats, regardless of source. Advancing the GHSA 
is a key U.S. government priority, and the United States is committed 
to assist at least 30 countries to achieve GHSA targets over the next 
five years.
     The Department's extensive collaborations with partner 
governments, international organizations, other U.S. government 
agencies, and civil society contribute to implementation of these and 
other health system strengthening activities. Specifically the 
Department:


   Ensures successful country-level implementation of U.S. 
        programmatic activities; drives GHSA forward by assessing 
        progress, determining where more work is needed, and helps U.S. 
        technical agencies identify the partner(s) best placed to 
        improve performance.

   Leads diplomatic outreach at senior levels to build international 
        support for GHSA with current members, other countries, and 
        regional and multilateral bodies, including the G7, the G20, 
        and the World Health Organization.

   Manages relationships and builds partnerships with major non-
        governmental and philanthropic partners, especially 
        internationally.
    Through our interagency partners including USAID and the Centers 
for Disease Control and Prevention (CDC), GHSA promotes a strategic 
approach that fosters developing multi-sectoral collaboration with 
partners across public health/medicine, science, agriculture/
veterinary, interior (security), border and trade, and defense agencies 
to prevent, detect, and respond to threats posed by the natural 
emergence of new diseases, as well as the intentional or accidental 
release of dangerous pathogens that have the potential to jump from 
animals to humans. A core component within GHSA is expanding the 
capacity of health care workers to identify and respond to infectious 
disease threats, expand the capacity of veterinarians and others within 
the animal health community to prevent, detect and respond to 
infectious disease outbreaks that could spread to humans.
    The U.S. government--including PEPFAR, the President's Malaria 
Initiative, and the rest of the broad global health portfolio--puts a 
high priority on health worker training and health systems 
strengthening. Funding for these critically important activities are 
core components of our programs and, while not requested separately, 
are incorporated into each component of health programming. For 
example, since its founding, PEPFAR has worked to build health 
infrastructure and strengthen health systems capacity.
    To support PEPFAR's human resources for health (HRH) strategy, 
PEPFAR has committed significant resources to strengthen the capacity 
of health workers to address HIV/AIDS across Africa with a particular 
focus on some of the world's most fragile states. As of the end of FY 
2015, PEPFAR has trained more than 190,000 health care workers to 
deliver HIV and other health services. These efforts not only support 
patients living with HIV/AIDS but also provide essential health systems 
that are leveraged for malaria, immunizations, and other health needs.
    Additionally, PEPFAR's investments in health systems strengthening 
(HSS), including building laboratory capacity and creating and 
supporting strategic information systems, enabled countries with PEPFAR 
investments to respond to and contain Ebola outbreaks (e.g., Nigeria, 
Uganda, etc.). PEPFAR's health systems investments cover a wide range 
of structural and operational elements of a functioning health delivery 
system.
    All PEPFAR country programs include core systems investments in 
areas of laboratory strengthening, strategic information, HIV and other 
essential drug and supply chain procurement and management, the 
production and training of human resources for health (i.e., 
professional and community health care workers), expanding health 
financing opportunities through increasing domestic investments, 
developing and implementing essential policies and practices at the 
national and subnational and clinical levels, promoting capable and 
functioning governance structures, and numerous other elements of an 
effective health service program. For example, HRH investments ensure 
that health workers with the right skills are in the right places to 
scale up HIV services to achieve UNAIDS 90-90-90 targets.
    Our achievements within HRH include: rapid scale-up of highly 
trained providers to deliver services in health facilities and 
communities most affected by HIV/AIDS, major investments in future 
physicians and nurses, with HRH training and production capacities 
strengthened in 40 medical schools and 20 nursing schools across 14 
sub-Saharan African countries; and strengthened HRH data systems to 
drive decision making, improved HRH policies and regulations to support 
both HIV services scale up and quality of services provided, and 
support for increased HRH retention.
    The FY 2017 budget includes funding for continued implementation of 
GHSA activities in Asia and some African countries. This request 
complements FY 2016 Ebola emergency funding, which expanded the 
coverage of USAID's GHSA and emerging pandemic threats portfolio into 
West Africa, where activities had not been implemented.
    Over the last 15 months, USAID has initiated work in 15 of the GHSA 
designated countries in Africa using the Ebola emergency funding. 
Technical assistance has been provided in key areas, including risk 
communications, infection prevention control, and targeted 
surveillance. Building health system capacity to sustainably achieve 
GHSA objectives is core to the USG's approach.


    Question 17. Despite the threat that infectious diseases like TB 
pose to the world, the FY2017 budget request cuts funding for all USAID 
infectious disease programs, except malaria. How do you justify these 
substantial cuts in programs targeting such deadly diseases as TB?

    Answer. USAID takes its responsibility to combat infectious 
diseases extremely seriously even in a difficult budget environment. In 
the example of tuberculosis (TB) that you have highlighted, the FY 2017 
Budget Request for TB of $191 million is a reduction of $45 million 
from the FY 2016 appropriated level. Over the last five fiscal years 
(FY 2012-16), through USAID-Global Health Programs account funds, 
USAID's funding for TB reached $1.17 billion. However, these figures do 
not represent the totality of the U.S. government's response to TB. 
USAID collaborates with other programs including PEPFAR on TB/HIV co-
infection interventions, and the Global Fund to Fight AIDS, 
Tuberculosis and Malaria (Global Fund) to integrate and expand TB 
health services and strengthen delivery platforms.
    The Global Fund is a major donor for international TB control, and 
the U.S. government remains the largest donor to the Global Fund. In 
fact, the U.S. government is the world's leading donor to TB, and USAID 
is the lead agency for international TB. Furthermore, middle-income 
countries, which have higher burdens of TB and multidrug-resistant 
tuberculosis (MDR-TB), have a greater ability to pay for their programs 
and are increasingly stepping up to this responsibility by bearing a 
larger share of the costs. To further increase their share of 
resources, USAID is continuing its work with these countries on 
domestic resource mobilization.
    USAID will lead the international component of the National Action 
Plan for Combating Multidrug-Resistant Tuberculosis (National Action 
Plan) by introducing new point-of-care diagnostics, new MDR-TB drugs 
and regimens, and new approaches to improve adherence. USAID is already 
leveraging additional resources and creating efficiencies through 
innovative partnerships with two American companies and a global 
partnership to achieve more with existing resources, which include:


   Janssen Pharmaceuticals will provide $50 million for the National 
        Action Plan, through the donation of new drugs, strengthening 
        of surveillance systems, and improving adherence to MDR-TB 
        treatment;

   Through a partnership among Cepheid (the producer of the Xpert TB 
        and MDR-TB diagnostic), USAID, PEPFAR, UNITAID and the Bill & 
        Melinda Gates Foundation, Cepheid agreed to reduce the price of 
        the Xpert diagnostic cartridge from almost $17 to less than 
        $10.

   The Cepheid diagnostic test price reduction has already increased 
        our ability to accurately and quickly diagnose TB and MDR-TB, 
        and saved over $50 million in two years, including for 
        countries like South Africa's purchasing of tests with domestic 
        resources; and

   USAID has partnered with the Stop TB Partnership's Global Drug 
        Facility to achieve a 50 percent price reduction for MDR-TB 
        drugs, thereby stretching resources for the U.S. government, 
        Global Fund and country partners.


    Question 18. Nonproliferation, Anti-Terrorism, Demining and Related 
Programs (NADR) support a broad range of U.S. national interests 
through critical, security related programs that reduce threats posed 
by international terrorist activities; landmines, and nuclear, 
chemical, and biological weapons of mass destruction (WMD). It appears 
funding for these programs in the 2017 budget was reduced by $217m 
almost 25 percent of their total funding.


   Can you explain why funding for these vital programs was reduced in 
        the 2017 budget?


    Answer. The Department's total FY 2017 Request for the 
Nonproliferation, Anti-Terrorism, Demining and Related Programs (NADR) 
account, including Overseas Contingency Operations (OCO) funds, is 
$668.5 million, which is a reduction of $217.0 million (25 percent) 
below the level that Congress appropriated in FY 2016. The primary 
driver of the decrease in this account is the reduction of the 
Counterterrorism Partnerships Fund (CTPF) level. The FY 2017 Request 
for CTPF is $80 million, which is $95 million below the FY 2016 
appropriated CTPF level of $175 million.
    The Department's FY 2017 Request for CTPF is $80 million, comprised 
of $21 million in NADR OCO and $59 million in Economic Support Funds 
(ESF)--OCO for CTPF, which will build on the NADR funds Congress 
provided for CTPF in FY 2016. We expect that some FY 2016 CTPF-funded 
programs will be implemented over several years and therefore believe a 
smaller amount of NADR funding ($21 million requested) will suffice in 
FY 2017 to sustain and build on our FY 2016 investments, when combined 
with the request for ESF funding to support activities that will work 
to counter violent extremism.


    Question 19a. The FY17 Congressional Budget Justification for the 
Diplomatic Policy and Support category included a $1.4 million increase 
to support cyber security policy coordination. Can you provide for us a 
detailed summary of what the increase in funds will be used for?

    Answer. The Office of the Coordinator for Cyber Issues (S/CCI) FY 
2017 Request is $5.4 million in Diplomatic Engagement resources, which 
is $1.4 million and one additional Foreign Service domestic position, 
above the FY 2016 level of $4 million. These funds support contract 
personnel salaries and benefits, official travel, and professional 
services.


    Question 19b. Please provide a breakdown of the various specific 
programs under S/CCI and describe how they are connected to our larger 
strategic goals and objectives, especially as they pertain to the 
President's International Strategy for Cyberspace (``Strategy''). 
Please provide a historical breakdown of S/CCI's budget and programs 
since its creation in 2011.

    Answer. The Office of the Coordinator for Cyber Issues (S/CCI) 
coordinates with the many offices within the Department of State 
including functional bureaus (e.g. Economic and Business Affairs; 
Democracy, Human Rights, and Labor; Counter Terrorism; International 
Organizations Affairs; International Narcotics and Law Enforcement), 
geographic bureaus and across the U.S. government to advance an open, 
interoperable, secure and reliable Internet and information security 
policies and to implement the President's International Strategy for 
Cyberspace (``Strategy''). Priorities for the office include promoting 
norms of responsible state behavior, advancing cybersecurity, fighting 
cybercrime, promoting multi-stakeholder Internet governance, and 
advancing Internet freedom.
    Separately, S/CCI executes its own capacity building and training 
programs.
    Below is a breakdown of S/CCI's budget since its creation in 2011:

                        S/CCI'S BUDGET SINCE 2011
                        (in millions of dollars)
------------------------------------------------------------------------
                  Fiscal Year                      S/CCI  Budget Total
------------------------------------------------------------------------
  2011                                                             .400
  2012                                                                2
  2013                                                                4
  2014                                                                5
  2015                                                                7
  2016                                                                4
  2017                                                                5
------------------------------------------------------------------------



    Question 19c. How would the State Department evaluate its efforts 
to implement the President's International Strategy for Cyberspace?

    Answer. The Department of State leads the U.S. government's 
diplomatic and development engagement on cyberspace, and is a leading 
participant in the whole-of-government approach to achieve foreign 
policy and national security objectives. The Department has devoted 
significant effort and resources to mainstreaming cyberspace issues 
within the Department, into building robust foreign diplomatic 
engagements on cyber issues, as well as building the necessary internal 
capacity to formulate, coordinate, and implement cyber policy and 
execute U.S. cyber diplomacy.
    Developing and augmenting relationships with other countries using 
diplomatic and foreign assistance tools is our best means to implement 
the President's International Strategy for Cyberspace (``Strategy''). 
One metric to evaluate the Department's efforts is the number of 
countries we engage diplomatically on cyber policy and/or provide with 
technical assistance. The Department has steadily increased its 
diplomatic and development assistance reach and is on track to meet the 
goal of 50 countries on or before September 2017.
    At the same time, we have been successfully integrating cyber into 
State-USAID strategic plans and all of the core Department of State 
core strategic planning documents, targeting new resources, and 
increasing the capacity of our diplomatic corps. We have trained over 
150 officers, from more than 120 embassies and posts, on cyberspace 
policy via Department-led interagency regional workshops in 2014 and 
2015, and will train an additional 100 officers from embassies and 
posts in April 2016. Additionally, since 2011, we have trained over 200 
officers from more than 70 embassies and posts on Internet and 
telecommunications policy through an annual course at the Foreign 
Service Institute and through regional training in 2014 and 2015. These 
trainings ensure officers at posts are fluent in cyber issues and can 
persuasively engage and influence our international interlocutors.
    With consistent and expanded efforts, the number of like-minded 
countries will continue to grow, and the number of countries engaged 
with us in dialogues on cyber issues will increase.


    Question 19d. How has the State Department leveraged bilateral and 
multilateral partnerships; international and multi-stakeholder 
organizations; and private sector collaboration to advance the seven 
policy priorities enumerated in the Strategy?

    Answer. The Department of State, in partnership with other Federal 
departments and agencies, works bilaterally and multilaterally to lead 
and shape the international debate around achieving an open, secure, 
interoperable, and reliable Internet. The Department has leveraged the 
advent of cyberspace policy as a foreign policy imperative to create a 
broad range of new, cross-cutting bilateral and multilateral diplomatic 
engagements, and integrated cyber issues into numerous existing 
diplomatic processes and fora.
    We also leverage cyber policy to work closely on cross-cutting 
issues such as countering violent extremism online. Cyber issues have 
gained significant traction in virtually every regional and global 
venue, including the Organization for Security and Cooperation in 
Europe, the Organization of American States, the ASEAN Regional Forum, 
and the United Nations. The Department also plays a leading role in 
fostering collaboration between the public and private sector.
    Since early 2011, the Department has made significant strides in 
implementing the President's strategic goals across all of the 
priorities.
    Some specific accomplishments are:


   launching whole-of-government cyber policy dialogues with the 
        European Union, Germany, India, Japan and the Republic of 
        Korea, among others;

   launching a whole-of-government information and communication 
        technology (ICT) and Internet Working Group with Brazil, and 
        new digital economy policy dialogues with Colombia and Taiwan 
        as well as a dialogue partnership with ASEAN;

   negotiating the Organisation for Economic Co-operation and 
        Development (OECD) Principles for Internet Policymaking (2011), 
        as well as updates to the ``privacy guidelines'' (2013) and 
        ``security guidelines'' (2014) that advance strategies aimed at 
        promoting sound Internet policy practices and managing privacy 
        and digital security risk toward economic and social 
        prosperity;

   working with the Department of Commerce and other interagency 
        partners to facilitate the successful negotiation of the EU-
        U.S. Privacy Shield Framework with the European Commission (to 
        replace the U.S.-EU Safe Harbor Framework);

   collaborating with the United Kingdom to launch the Global 
        Conference on Cyberspace series in 2011, to expand the Strategy 
        vision among a like-minded community of governments, civil 
        society groups, and private sector entities;partnering with the 
        governments of Hungary, the Republic of Korea, and the 
        Netherlands to ensure additional successful Global Conferences 
        on Cyberspace in 2012, 2013, and 2015;

   achieving ministerial commitments, advance polices to increase 
        broadband access and facilitate the free flow of information 
        across borders, and developing global ICT standards through 
        engagements in international organizations, including the Asia-
        Pacific Economic Cooperation (APEC) and the International 
        Telecommunication Union (ITU);

   securing several key commitments from China on cyberspace issues 
        after several years of high-level bilateral engagements;

   advancing and preserving the multi-stakeholder approach to Internet 
        governance at key international negotiations including the U.N. 
        General Assembly's High Level Meeting on the Overall Review of 
        the World Summit on the Information Society and numerous other 
        global conferences and events;

   enlarging the Group of 7 (G7) 24/7 Network in partnership with the 
        Department of Justice, to 70 countries;

   launched the Freedom Online Coalition as one of 15 founding 
        countries in December 2011, and helped it expand to 29 
        countries;

   initiating two regional cyber consultations in Europe focusing on 
        cooperation in the Baltic countries and coordination in the 
        Nordic-Baltic countries;

   integrating cyber policy into existing mechanisms such as the North 
        American Leaders Summit and the Gulf Cooperation Council; and

   convening successful U.S.- GCC (Gulf Cooperation Council) Cyber 
        Working Group meetings in Riyadh in August 2015, which explored 
        the cyber security readiness of Gulf countries and possible 
        areas of cooperation in developing cyber policies.


    Taking into consideration the rapidly expanding environment of 
global cyber threats and the reality that many developing nations are 
still in the early stages of their cyber maturity, the Department of 
State anticipates continued expansion of our cyber-focused diplomatic 
efforts for the foreseeable future, which will require additional 
resources for diplomatic engagement.


    Question 19e. How has the State Department facilitated 
cybersecurity capacity-building abroad through building technical 
capacity, cybersecurity capacity, and policy relationships to advance 
the Strategy's development objectives?

    Answer. The Department of State, in partnership with the 
interagency, utilizes an active, ongoing, and longstanding series of 
capacity building programs and consultations to expand Internet access 
and build the capacity of foreign governments across a range of 
interconnected cyberspace policy issues to combat cybercrime, counter 
violent extremism online, improve cooperation with global partners to 
address shared threats, promote a culture of cybersecurity, develop 
cyber confidence building measures, promote freedom online, and help 
developing countries improve domestic market and regulatory conditions 
to catalyze private sector investment.
    The Department actively works to advance U.S. strategic interests, 
in coordination with like-minded partners. Many other foreign countries 
have followed our lead by drafting national cyber strategies, 
establishing cyber policy offices in their foreign ministries, and 
elevating cyber policy to a top diplomatic priority. Since early 2011, 
the Department has conducted a number of capacity building projects to 
support cybersecurity. Some specific accomplishments are:


   providing, in partnership with the interagency, cybercrime and 
        cybersecurity training to officials from 35 sub-Saharan African 
        nations;

   conducting cybercrime training for ASEAN countries and the Pacific 
        Islands;

   joining the Netherlands in founding the Global Forum on Cyber 
        Expertise as a global platform for countries, international; 
        organizations, and the private sector to exchange best 
        practices and expertise on cyber capacity building;

   partnering with Japan, Australia, Canada, the African Union 
        Commission, and Symantec on four cybersecurity and cybercrime 
        capacity building initiatives;

   helping launch the Alliance for Affordable Internet, a public-
        private partnership that works to catalyze policy change to 
        drive down the cost of broadband and unlock rapid gains in 
        Internet penetration rates around the world;

   investing $145 million in tools and technologies to promote freedom 
        online;

   launching the Global Connect initiative that seeks to help bring 
        1.5 billion people without Internet access online by 2020;

   launching global computer security incident response teams (CSIRT) 
        capacity building efforts via a Carnegie Mellon University 
        Software Engineering Institute program; and

   promoting the development of comprehensive national cyber policies 
        and strategies globally, in close partnership with regional 
        multilateral bodies such as the Organization of American States 
        (OAS) and the African Union Commission (AUC) through a MITRE 
        Corporation initiative for the State Department.


    Cyber is a relatively new policy area. As the number of countries 
connected to the Internet continues to grow rapidly, we expect cyber 
issues to expand at a steep rate, with an increase in areas of focus, 
and the State Department will continue to use resources made available 
to address emergent concerns.


    Question 19f. How has the State Department advanced the five 
``principles'' (upholding fundamental freedoms, respect for property, 
valuing privacy, protection from crime, right of self-defense) and the 
five ``emerging norms'' (global interoperability, network stability, 
reliable access, multi-stakeholder governance, cybersecurity due 
diligence) that the Strategy enumerates?

    Answer. As cyber issues have dramatically grown in global 
importance over the last five years, the Department has prioritized 
efforts to advance the principles and values described in the 
President's International Strategy for Cyberspace (``Strategy''). A key 
aspect of the Strategy is promoting stability in cyberspace through the 
identification and promotion of certain voluntary norms of state 
behavior in peacetime. Proceeding from the principles and ``emerging 
norms'' enumerated in the Strategy, significant progress has been made 
to develop international consensus around the concept of norms of state 
conduct in cyberspace. Specific accomplishments include:


   adoption of U.S.-championed framework of international cyber 
        stability through pivotal negotiations in the United Nations 
        Group of Governmental Experts on Developments in the Field of 
        Information and Telecommunications in the Context of 
        International Security in 2013 and 2015 that resulted, inter 
        alia, in the affirmation of the applicability of existing 
        international law, including the United Nations Charter, to 
        state conduct in cyberspace and the articulation of voluntary 
        peacetime norms of state behavior;

   reaching consensus at the 2014 North Atlantic Treaty Organization 
        (NATO) Wales Summit on a statement affirming that international 
        law applies to state behavior in cyberspace, and cyber defense 
        is part of NATO's collective defense mission; and

   achieving 2015 Group of 20 (G20) Leaders' commitments to affirm the 
        applicability of international law to state behavior in 
        cyberspace, refrain from conducting or supporting cyber-enabled 
        theft of intellectual property with the intent of providing 
        competitive advantage to companies or commercial sectors, and 
        endorse the view that all states should abide by norms of 
        responsible behavior.


    Additionally, the Department advances these principles, outside the 
framework of identifying voluntary peacetime norms of responsible state 
behavior, as part of our broader bilateral and multilateral diplomatic 
efforts to promote an open, secure, reliable and interoperable 
cyberspace. Noteworthy accomplishments include:


   helping to expand Budapest Convention membership by 17 countries 
        since 2011, and to recruit another 10 countries that are 
        actively working to become parties to the Convention. Promoted 
        the Convention as a framework for numerous other countries;

   working with partners to secure passage of the 2012 U.N. Human 
        Rights Council resolution affirming that people have the same 
        rights online as offline, and a 2014 resolution reaffirming the 
        same principle; and

   launching global computer security incident response team capacity 
        building efforts, partnering with the Department of Homeland 
        Security and the Forum of Incident Response and Security Teams.


    Despite this progress, substantial work remains to realize the 
vision articulated in the Strategy. Thus, the Department anticipates 
continued acceleration of our cyber-focused diplomatic efforts for the 
foreseeable future, which will require additional resources for 
diplomatic engagement.


    Question 20. Diversity Initiatives--I was pleased to see that the 
State Department Congressional Budget Justification included a request 
to pursue diversity initiatives that focus on recruitment and retention 
programs. In particular, it is great to see that many of the diversity 
reforms included in the ``Department of State Operations Authorization 
and Embassy Security Act, Fiscal Year 2016'' which passed unanimously 
by the Senate Foreign Relations Committee were specifically called for 
in the request.


   Can you provide for us a specific breakdown of how the $5.4 million 
        requested will be used for the new diversity initiatives? This 
        breakdown should include other diversity programs and 
        initiatives the State Department is currently pursuing. In 
        particular, will there be an increase in the Donald Payne 
        Fellowship for USAID? What other new initiatives is the State 
        Department considering implementing to boost its objectives in 
        having a diverse workforce?


    Answer. The $5.4 million requested would be spent as follows: 
Pickering and Rangel Fellowship Programs: $4.5 million, including one 
Civil Service USDH position; Paid Internships: $400,000; International 
Career Advancement Program (ICAP): $100,000; Diversity Outreach: 
$375,000.
    The Pickering and Rangel Fellowship programs are the Department's 
most significant tool for increasing diversity within the Foreign 
Service. These programs bolster the Department's ability to attract 
highly qualified and diverse candidates, at the graduate and 
undergraduate levels, who are interested in a career in the Foreign 
Service. The Department will expand partnerships with community based 
organizations such as Hispanic Association of Colleges and Universities 
(HACU) and Washington Internships for Native Students (WINS) to 
facilitate the provision of more internships to students from 
underrepresented groups.
    ICAP is a professional development and leadership program for mid-
career professionals in the U.S. international affairs sector. The 
program's tradition of assisting mid-career professionals advance to 
more senior positions in international affairs aligns well with the 
Department's goals to strengthen leadership and to retain and sustain 
its diverse talent pool. Our Diversity Outreach funding will enable 
Human Resources (HR) to recruit more effectively for diversity by 
enhancing the Department's advertising contract and recruitment travel. 
HR's advertising and marketing strategies contribute directly to 
identifying, attracting, and engaging with the most competitive and 
diverse prospects possible to Department of State Foreign Service and 
Civil Service careers.
    USAID's FY 2017 request for their Operating Expense (OE) account 
includes $850,000 for the Payne Fellowship program to support a total 
of seven students. This is consistent with their FY 2016 request, an 
increase of one to two fellows over their FY 2015 levels. The increase 
of $5.4 million in diversity funding came in State's Diplomatic and 
Consular Programs (D&CP) account. To further expand the Payne 
Fellowships, an increase would be needed in USAID's OE account.


    Question 21. During a recent CoDel to southern Africa, local 
government and nongovernmental leaders in several countries identified 
poor primary education systems as the number one constraint to 
governance and economic growth. According to the USAID FY17 budget 
request, FY17 basic education programming is estimated at $561.8 
million, $238.2 million (29.8 percent) below the FY15 directive of $800 
million, and $38.7 million (6.4 percent) below the FY16 request level 
of $600.5 million.


   Why the reduction in funds for FY17? How does FY17 programming for 
        basic education address key issues such as teacher training and 
        credentialing and curriculum development?


    Answer. At $562 million, the President's FY 2017 basic education 
request is a 6.4 percent decrease from the FY 2016 request, but an 
increase from the FY 2014 and FY 2015 requests. The request at this 
level is a result of a desire to strike a balance between support of 
basic education key priorities, such as democracy and human rights, 
food security, and assistance for sectors like health, water, and 
economic growth.
    We recognize that investments in inclusive, quality education play 
a critical role in promoting long-term economic growth, promoting 
participatory democracies, and in turn reducing poverty and inequality. 
To address profound global education challenges, USAID has focused its 
Education Strategy on ensuring that all children learn to read and that 
children in crisis situations have access to a quality education, in 
spite of their circumstances. As a result of focusing efforts, USAID 
successfully has reached 38 million students with reading programs and 
improved the quality of education of nearly 12 million children in 
conflict environments.
    FY 2017 programming, in line with USAID's Education Strategy, will 
continue to address key issues such as teacher training, credentialing 
and curriculum development. For example, in Malawi, through a 
partnership with Lakeland College in Wisconsin, USAID supports a 
teacher education program that emphasizes early grade reading. Teachers 
in Jordan will be trained on how to provide psycho-social support and 
use non-traditional learning techniques to better assist students who 
have been adversely impacted by the Syrian crisis. Mother tongue 
curriculum development will continue in Ethiopia, ensuring that a 
generation of students will have access to quality instruction.
    In addition to direct assistance for education, USAID prioritizes 
partnerships to leverage technical knowledge and financial resources, 
extending the influence of appropriated funds. For example, in the 
Democratic Republic of the Congo, USAID leveraged =36 million committed 
by the United Kingdom's Department for International Development (DFID) 
to jointly support increased access to primary school for out-of-school 
children; increased retention of children in schools; strengthening 
capacities of the parents committees and school management committees; 
and strengthening the Ministry for Primary, Secondary, and Vocational 
Education.


                               __________

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                    SECRETARY KERRY BY SENATOR RUBIO

    Question 1. It has been 48 days since North Korea's nuclear test 
and 16 days since its missile test, but the UN Security Council has not 
acted except for statements saying it would ``take further significant 
measures'' and ``adopt [a new Security Council resolution] 
expeditiously.'' Why has the UN Security Council not acted and what 
signal does that send to North Korea on the consequences (or lack 
thereof) for its provocations?

    Answer. In response to the North Korean's fourth nuclear test on 
January 6, 2016, and its launch using ballistic missile technology on 
February 7, 2016, the United States will propose to impose additional 
binding sanctions on North Korea (DPRK) as these actions are in clear 
violation of its U.N. obligations. We will push for the resolution to 
contain the toughest set of sanctions imposed by the Security Council 
in more than two decades. They will have broader scope and impact by 
targeting key economic activities that generate funds for the regime as 
well as further restricting DPRK access to commodities and technologies 
that support proscribed activities. The UNSCR will also incorporate 
unprecedented inspection and financial provisions, including mandatory 
inspections of cargo to and from the DPRK and a requirement to 
terminate banking relationships with DPRK financial institutions.
    For these new, as well as existing, U.N. sanctions to be effective, 
international cooperation is essential. We will continue to work 
closely with the Security Council's DPRK sanctions committee and its 
Panel of Experts, like-minded partners, and others around the globe to 
ensure the full and transparent implementation of new and all previous 
U.N. resolutions. We will also continue our outreach to countries that 
have diplomatic or trade relations with North Korea to prevent 
activities proscribed by U.N. resolutions or targeted by U.S. 
sanctions. We maintain regular contact and consultations with our 
allies and partners to counter--whether through persuasion or 
pressure--the threat to global security posed by the DPRK's nuclear and 
ballistic missile programs.


    Question 2. Following the President signing the North Korea 
Sanctions and Policy Enhancement Act of 2016 into law,


   What steps has the State Department taken encourage other countries 
        to adopt similar measures?

   Has the State Department warned countries on the types of 
        activities that could be sanctioned?


    Answer. The United States is actively engaged with our regional 
partners to coordinate bilateral sanctions aimed at encouraging North 
Korea to alter their strategic calculus in regards to the development 
of nuclear weapons. We work closely with our partners in the region to 
ensure that bilateral sanctions send a strong message to North Korea in 
the wake of recent violations of previous United Nations Security 
Council resolutions.
    The act requires sanctions on those who knowingly transfer 
significant amounts of certain metals, minerals, or software to or from 
North Korea for use by or in processes directly related to certain 
entities and activities, and we have added into our discussions with 
other countries guidance as to the types of activities that are 
sanctioned under the new law. Following the enactment of the act and 
the adoption of UNSCR 2270, the United States is engaging countries 
around the world to underscore the importance of vigorous sanctions 
enforcement.


    Question 3. The Islamic Revolutionary Guard Corps (IRGC) is an 
integral component of Iran's economy, terrorist activities and human 
rights violations, and remains sanctioned under the terms of the Joint 
Comprehensive Plan of Action. What steps have been taken to warn 
foreign governments, companies, and financial institutions of 
continuing engagement with IRGC or IRGC-affiliated companies?

    Answer. The Islamic Revolutionary Guard Corps (IRGC) remains firmly 
under U.S. sanctions for its support for terrorism and other 
activities. We have no intention of removing these sanctions until the 
IRGC ceases such activity. Executive Order (E.O.) 13224, which allows 
us to target terrorists of any stripe across the globe, is employed 
forcefully against Iran. The IRGC-Qods Force, the Iranian Ministry of 
Intelligence and Security, Iran's Mahan Air, Hizballah, and over 100 
other Iran-related individuals and entities remain subject to sanctions 
under this E.O. Further, under Iran sanctions statutes, foreign 
financial institutions may be subject to secondary sanctions for 
knowingly facilitating a significant financial transaction or providing 
significant financial services for any person on the Specially 
Designated National (SDN) List, which includes the IRGC and IRGC-
related officials, agents, and affiliates. These and other authorities 
allow us to continue to target the IRGC for any activities which 
threaten us or our allies.


    Question 4. The Wall Street Journal reported that the Obama 
administration agreed to talks with North Korea on a peace treaty just 
before North Korea's January nuclear test and asked that the 
discussions also address the nuclear program.


   Did the Obama administration agree to talks on a peace treaty 
        without any concessions on North Korea's nuclear program?

    If so, were South Korea and Japan on board with proceeding with 
        discussions on a peace treaty without any nuclear concessions?


    Answer. It was the North Koreans who proposed discussing a peace 
treaty. The United States carefully considered their proposal and made 
clear that denuclearization had to be part of any such discussion. 
North Korea rejected our response. Our response to North Korea's 
proposal was consistent with our longstanding focus on 
denuclearization.


    Question 5.  Mahan Air, an Iranian airline that was sanctioned in 
October 2011 for its activities with designated terrorist groups the 
IRGC Qods Force and Hizballah, continues to fly to Europe.


   What has the Obama administration done to prevent a U.S. 
        designated, terrorism-linked airline from continuing to fly to 
        Europe? Has the Obama administration considered using secondary 
        sanctions authorities against companies that provide services 
        to Mahan Air?

    Answer. We share your concerns about the activities of Mahan Air. 
The Departments of Commerce, Treasury, and State have a long history of 
working to thwart Mahan Air's activities. We share your commitment to 
enforcement of measures against denied persons and designated entities 
and will continue to vigorously employ our authorities as part of our 
broader efforts to counter Iran's support for terrorism and 
destabilizing regional activities. We have numerous domestic 
authorities--including sanctions--to counter Iran's support for 
terrorism or other destabilizing activities. The State Department, 
Treasury, Commerce and our partners in the Intelligence Community are 
constantly looking for solid evidence of such activity. When we see 
evidence, we will build a case, and we will take action.
    For years, Commerce's Bureau of Industry and Security (BIS) has 
investigated and targeted Mahan Air procurement activities using its 
unique administrative authorities. BIS maintains a Temporary Denial 
Order (TDO) against Mahan, and its procurement agents, that has been in 
place since 2008. This TDO is renewed every 180 days pursuant to 
renewed findings that Mahan Air continues to present an imminent threat 
of violating U.S. export control laws. BIS has added a number of Mahan 
front companies and procurement agents to the TDO, as well as to its 
Entity List, thus prohibiting engagement in transactions involving 
items subject to the Export Administration Regulations.
    Treasury's ongoing efforts to disrupt Mahan Air's ability to 
operate include numerous designations against the airline and its 
support networks since Mahan Air's designation in 2011. Treasury 
continues to vigorously enforce sanctions against this type of 
activity, designating 16 persons for their involvement with Mahan Air 
and identifying more than 50 Mahan Air planes as blocked property. 
Treasury also uses its authorities to disrupt Mahan Air's financial 
relationships.
    The State Department also plays a vital role in the 
administration's efforts to counter Mahan Air and its networks by 
engaging with foreign governments to seek their cooperation in 
disrupting or limiting the activities of Mahan Air abroad. Working 
together with its interagency colleagues, State's efforts have been 
successful in disrupting Mahan Air's activities on several occasions.
    The Departments will continue working together to actively 
investigate and aggressively enforce violations of sanctions on Iran to 
work together to counter Iran's and Mahan Air's malign activities. This 
effort includes ongoing exploration of options--including by working 
with friendly countries--to deprive Mahan Air of the use of its 
aircraft and its ability to engage in further illicit conduct.


    Question 6.  The politically driven manipulation of the State 
Department's 2015 Trafficking in Persons (TIP) Report is a major 
setback to U.S. efforts against human trafficking around the world. 
According to whistleblowers within the State Department, the 
administration has announced to the world that it will allow political 
considerations to trump real reform. The most glaring example is the 
politically driven improvement of Cuba from the ``Tier 3'' category to 
the ``Tier 2 Watch List.''


   Given the widely held perception that several countries were 
        undeservedly upgraded in this year's report for political 
        reasons, what will be done to rebuild the credibility of the 
        report?

   In regards to Cuba, will you be willing to place Cuba back on Tier 
        3 for its failure to combat human trafficking?


    Answer. Over the past 15 years, the Trafficking in Persons Report 
has consistently drawn public attention to the problem of modern 
slavery and foreign government efforts to address it. The report is 
widely regarded as the gold standard for anti-trafficking information. 
The Department strives to make the report as objective and accurate as 
possible, documenting the successes and shortcomings of government 
anti-trafficking efforts measured against the minimum standards 
established under U.S. law. The attention that the report generates 
demonstrates the impact and importance of addressing this crime and 
protecting trafficking victims. The Department will continue to use the 
report to elevate the issue on the global stage, to guide its anti-
trafficking programming around the world, and to encourage foreign 
governments to implement recommended improvements in their efforts.
    In the report, the Department evaluates government efforts to 
combat trafficking based on criteria established under U.S. law. I have 
made combating human trafficking a priority for the Department, and 
demonstrated this through consistent high-level outreach and dedication 
of resources.
    As of the writing of the 2015 Trafficking in Persons Report, Cuba 
did not fully comply with the minimum standards for the elimination of 
trafficking; however, it was making significant efforts to do so. A 
Tier 2 Watch List ranking indicates there is much room for improvement 
in the government's anti-trafficking efforts; an upgrade to the Watch 
List does not mean the government is doing enough to address human 
trafficking. Cuba was upgraded to Tier 2 Watch List in 2015 because it 
made significant efforts to comply with the minimum standards for the 
elimination of trafficking, but did not yet fully comply. In the same 
manner, the 2016 TIP Report will evaluate the government's efforts and 
assign Cuba a Tier ranking based on those efforts during the reporting 
period, regardless of where it was ranked the previous year.


    Question 7.  In the 2008 reauthorization of the TVPRA, the State 
Department was authorized to suspend certain categories of U.S. visas 
(A-3/G-5) used for guest workers at specific diplomatic missions or 
international organizations that have abused or exploited such workers 
in the past. Despite several cases, the State Department has yet to 
suspend any countries A-3/G-5 visa programs for abuse. Will you pledge 
to ensure that this portion of the TVPRA is enforced?

    Answer. The Department is committed to implementing all applicable 
provisions of the TVPA as reauthorized, including those relating to A-3 
and G-5 visas. Although there has not yet been a case of visa 
suspension under the William Wilberforce Act, the Department has seen 
that the law has been a factor in persuading foreign governments and 
their diplomats to address allegations of abuse made by domestic 
workers, and in some cases, to settle civil cases brought by former 
domestic workers. In addition, the suspension provision appears to have 
made foreign missions more attentive to the issue generally and more 
willing to cooperate with the Department when allegations of abuse are 
brought to their attention.


    Question 8.  During the 2013 Annual Meeting of the President's 
Interagency Task Force to Monitor and Combat Trafficking In Persons, 
you announced the launch of a new in-person registration process for 
foreign domestic workers to prevent trafficking by diplomats. What is 
the status of this program? Is every A-3 or G-5 visa-holder being 
served by this program?

    Answer. The In-person Registration Program for foreign domestic 
workers employed by foreign mission and international organization 
personnel launched in October 2015. The program currently covers 
foreign domestic workers employed by foreign mission and international 
organization personnel in the Washington, DC area. The program will 
continue to be expanded to cover foreign domestic workers employed by 
foreign mission and international organization personnel throughout the 
United States.


    Question 9.  As you know, Christians, Yezidis, and other religious 
minorities in Iraq and Syria have been deliberately and ruthlessly 
targeted by the Islamic State. This genocidal campaign threatens to 
wipe out these communities from the lands they've inhabited since 
Antiquity. The Omnibus bill required the Department, within 90 days of 
passage, to submit to the appropriate congressional committees and 
evaluation of the persecution endured by these groups and a 
determination of whether such attacks constitute genocide.


   Is the Department on track to make that determination in a timely 
        fashion?

   Apart from seeking input from outside groups has the Department 
        undertaken its own fact-finding assessment akin to what 
        Secretary Powell commissioned during the Darfur genocide?


    Answer. We are appalled by the horrific acts being committed by 
Da'esh and will seek accountability for those responsible. The United 
States is leading a coalition of 66 partners to degrade and ultimately 
defeat Da'esh.
    The Department of State is currently conducting an assessment of 
whether Da'esh's actions meet legal definitions of internationally 
recognized atrocity crimes. This effort includes collecting and 
evaluating available information regarding Da'esh atrocities from all 
sources. We are working on our response to the report tasked to us in 
Section 7033(d) of the FY 2016 Appropriations Law.
    Regardless of whether Da'esh's conduct satisfies certain legal 
definitions, including genocide and crimes against humanity, the U.S. 
government will continue to work to help prevent mass atrocities, 
particularly against vulnerable communities, and to support those 
victimized by Da'esh. This is why we have provided nearly $624 million 
since FY 2014 in humanitarian assistance for vulnerable Iraqis in Iraq 
and the region. As new areas are liberated from Da'esh's grasp, there 
will be a great deal more for us to do.


    Question 10. As of Thursday, Chinese lawyer Zhang Kai has been in 
detention for six months. As you know he was detained the day before he 
was supposed to meet with U.S. Ambassador for International Religious 
Freedom, David Saperstein. After a flurry of public advocacy on his 
behalf last fall, things seem to have quieted down. When was the last 
time the Department raised it with the Chinese government? Do you have 
any update on his case?

    Answer. The Department has been closely following developments in 
Zhang Kai's case since his detention last August just prior to a 
meeting with Ambassador-at-Large for International Religious Freedom 
David Saperstein. Ambassador Saperstein publicly called for Zhang's 
release immediately following his detention. In October 2015, Secretary 
of State John Kerry and Ambassador Saperstein again called for Zhang's 
release in their public remarks during the rollout of the 2014 
International Religious Freedom Report. In the February 26, 2016, daily 
press briefing, the Department spokesperson expressed concern about the 
airing of Zhang Kai's purported confession on state media prior to any 
indictment or judicial process.
    The Department will continue to press China, in public and private, 
to release Zhang Kai and to uphold its international human rights 
commitments and release all those seeking to peacefully uphold the 
freedom of religion.


    Question 11. Also in the realm of religious freedom, Pastor Gu 
Yuese, also known as Joseph Gu, was detained in China. He is the 
highest ranking Christian leader detained since the Cultural 
Revolution. Gu, who headed Hangzhou's prominent Chongyi Church, was 
reportedly removed from his post by China's Three-Self Patriotic 
Movement (TSPM), 10 days prior to his detention. He had been vocal in 
his opposition to the government's cross-removal and destruction 
campaign in the eastern province of Zhejiang.


   Do you have any update on this case? Has the Department raised it? 
        What do you think it represents in terms of the trajectory for 
        religious freedom?

    Answer. The Department has followed Pastor Gu Yuese's case since 
his detention by Chinese authorities earlier in this year. On February 
4, 2016, a State Department spokesperson in a statement to the press 
called on Chinese authorities to immediately release Pastor Gu and 
other detained religious leaders and activists, and to cease the 
apparent cross removal and church demolition campaign in Zhejiang 
province. In our high level engagements with China, including the 2015 
Human Rights Dialogue, we have called on China to release all prisoners 
of conscience, including those detained for peacefully expressing their 
religious beliefs. In that same dialogue, we also expressed concern 
about the ongoing and systematic religious freedom violations in China.


    Question 12. The Department was slow to register any sort of 
concern regarding the recent disappearances of the Hong Kong 
booksellers. Apart from urging China to ``clarify the current status'' 
of the individuals in questions, how else has the Department engaged? 
Department Spokesman John Kirby, in a daily press briefing, indicated 
that these cases ``raise serious questions about China's commitment to 
Hong Kong's autonomy under the `one country, two systems framework' ''

   Have these concerns been raised with Beijing directly and if so how 
        have they responded?


    Answer. The State Department and our Consulate General in Hong Kong 
have been closely following the bookseller disappearances, even before 
publisher Lee Bo went missing in December, and have made our concerns 
known, both publicly and in private exchanges with Hong Kong and 
mainland Chinese officials. In addition to our multiple public 
comments, the Department has repeatedly raised these cases, including 
at senior levels, in Washington, in Beijing, and in Hong Kong. Most 
recently, Deputy Secretary Blinken raised the issue before the Human 
Rights Council in Geneva on March 2. We do not accept Beijing's 
assertion that these cases are an internal matter, and we will continue 
to voice our concerns, shared by many in Hong Kong and the 
international community, that Beijing's actions contravene its 
commitment to Hong Kong's autonomy.


    Question 13.  U.S. law requires that foreign assistance may not be 
sent to Haiti unless the Secretary of State certifies and reports that 
the Government of Haiti has taken the steps to hold free and fair 
parliamentary elections and seat a new Haitian Parliament; strengthen 
the rule of law in Haiti, including by selecting judges in a 
transparent manner; respect the independence of the judiciary; and 
improve governance by implementing reforms to increase transparency and 
account ability.


   Can you please provide an update on the current political 
        structure, the process for the transitional government and the 
        plan to elect a new President?

    Answer. Elections in 2015 resulted in the seating of a new Haitian 
Parliament. The parliamentarians were sworn in January 12 and the first 
National Assembly took place in February. Due to the cancellation of a 
few of the first round races, there remain six (out of 30) Senate seats 
and 27 (out of 136) seats in the Chamber of Deputies for which a run-
off round of voting must take place. Under an agreement signed by 
outgoing President Michel Martelly and the presidents of both chambers 
of Parliament, the final round of presidential elections, as well as 
the final round for remaining parliamentary seats, is scheduled for 
April 24. The publication of final results is scheduled for May 6, and 
the installation of the newly elected president for May 14.
    On February 14, Haiti's National Assembly elected President of the 
Senate Jocelerme Privert to serve as interim president and to advance 
the February 5 political accord toward completion of the electoral 
process in Haiti. The interim president is charged with nominating a 
consensus prime minister and cabinet and replacing the nine-member 
Provisional Electoral Council (CEP), the body that will organize the 
final round of elections. Provisional President Jocelerme Privert 
issued a presidential decree February 25 appointing Fritz-Alphonse Jean 
as interim prime minister following meetings throughout the week with 
both houses of Parliament. Interim Prime Minister Jean will form a 
Cabinet and submit his government and statement of policies for review 
and approval/disapproval by the Parliament.
    The CEP has not yet been re-established. Although all nine social 
sectors were to nominate representatives to a newly configured CEP by 
February 24, several sectors are still working on their nominations. 
CEP members represent the media, unions, human rights, universities and 
educators, the religious community, business, and vodou sectors. 
Reconstituting the CEP is of utmost importance to keep with the 
schedule for the April 24 elections.
    The United States supports all efforts aimed at finding consensual 
and constructive solutions that will see the political accord 
implemented and the electoral process concluded April 24. The Haitian 
people deserve to have their voices heard and needs met through a 
democratically elected government. This ongoing effort is a Haitian-led 
process that must ultimately reflect the will and intent of the Haitian 
people.


    Question 14.  President Obama's FY 2017 request provides funds for 
the promotion of a stable and economically viable Haiti by continuing 
post-earthquake reconstruction and sustainable development programs. 
Please provide details of those programs.

    Answer. The FY 2017 request supports the Post-Earthquake U.S. 
Government Haiti Strategy, extended until 2018, with continued focus on 
four strategic pillars: Infrastructure and Energy; Food and Economic 
Security; Health and Other Basic Services; and Governance and Rule of 
Law in three geographic corridors, including the greater Port-au-Prince 
area, the St. Marc Corridor, and the Cap Haitien Corridor. U.S. 
assistance supports ongoing efforts for Haiti's reconstruction through 
a Haitian-led response in coordination with the international 
community. U.S. funding assists the Government of Haiti develop 
transparent and accountable institutions; make better informed 
strategic public investments; enforce security and the rule of law; 
provide energy, shelter, and other productive infrastructure especially 
for vulnerable groups; increase access to and quality of public 
services in health and education; improve potable water, sanitation, 
and hygiene (WASH) services; drive economic growth through increased 
labor income and workforce development; stabilize and secure natural 
resource management; and implement a country-led, comprehensive food 
security strategy. U.S. assistance programs emphasize country ownership 
as well as strengthening local institutions to help Haiti further chart 
its own development and promote sustainability.
    The United States is firmly committed to long-term support for the 
Haitian people. Working closely with other donors and the Government of 
Haiti, FY 2017 assistance will continue to foster credible and 
transparent electoral processes. A top priority is supporting the 
creation of a permanent electoral council responsible for building 
public trust in the integrity of the electoral process. U.S. assistance 
will support local capacity building by helping improve laws and 
policies in support of decentralization and de-concentration of central 
government services toward local governments in target communities.
    Stability in Haiti will undergird progress across all sectors, and 
the importance of improving the capacity of the Haitian National Police 
(HNP) to provide nationwide security will grow as the U.N. 
Stabilization Mission in Haiti (MINUSTAH) considers a possible further 
drawdown. FY 2017 assistance will continue to bolster HNP's 
administrative and operational capabilities through training, the 
embedding of subject matter experts in key HNP leadership offices, and 
continued support for incoming cadets. Activities will also support 
capacity building for the Haitian Coast Guard (HCG) unit, enabling it 
to enhance control of territorial waters, reduce illegal immigration, 
combat illicit trafficking, and build the leadership and maritime 
skills of the HCG through professional military education and technical 
training to support maritime security operations in Haiti.
    Assistance will also help strengthen local government capacity to 
sustainably increase local revenues and improve the service delivery of 
Haitian civil society and government institutions. Activities will 
assist the Government of Haiti to promote an efficient and fair 
judicial system by addressing pre-trial detention, promoting judicial 
independence, advancing penal code reform, training community leaders 
in alternative dispute resolution, and providing free legal aid to low-
income communities.
    U.S.-sponsored economic growth programs will help Haitian financial 
institutions create and improve financial products and will facilitate 
greater access to basic financial services and credit through the use 
of digital finance solutions that expand reach to underserved markets, 
thereby increasing financial inclusion and economic opportunity. U.S. 
assistance will continue to support private-sector capacity building to 
enhance job creation and improve the competitiveness of micro, small, 
and medium enterprises. Programs will engage the Haitian diaspora to 
unlock liquidity and spur private investment, provide technical 
assistance that expands enterprises and fosters innovation, and build 
and strengthen the Haitian workforce through targeted skills training 
for workers in select value chains, such as in agriculture, 
construction, and the garment industries.
    In terms of improving access to economic opportunity through 
education, U.S. assistance will address barriers to quality education 
with a new focus on out-of-school children and youth, including those 
with disabilities, and will continue to improve early grade reading 
outcomes. Activities will design and implement evidence-based reading 
programs for first through fourth grades and support the Ministry of 
National Education's development of strategies to build community 
support for improved literacy outcomes and increased access to 
education. U.S. assistance will also build the capacity of the Ministry 
of National Education at the national, departmental, and district 
levels.
    As part of the President's Global Hunger and Food Security 
Initiative, Feed the Future, we will support the efforts of the 
Government of Haiti to refine and implement a country-led comprehensive 
food security strategy to reduce hunger and increase economic growth 
through market-led agricultural development. These strategies aim to 
reduce hunger, improve nutrition, and promote broad-based economic 
growth through agricultural development. The program will train local 
enterprises, farmers, water-users associations, and other organizations 
and community groups to provide extension services at key points 
throughout targeted value chains. Moreover, the program will integrate 
WASH activities to reduce water-borne diseases and improve livelihoods.
    U.S. assistance will continue to support the provision of health 
services, including infectious disease prevention and integrated HIV/
AIDS services for approximately 45 percent of Haitians, as well as 
nutritional support for vulnerable populations. The U.S. government 
will continue to strengthen referral networks within the development 
corridors and rebuild and reform the management of essential health 
institutions affected by the 2010 earthquake. U.S. assistance will 
support the goals and principles of the Global Health Initiative to 
achieve major improvements in health outcomes in three globally shared 
goals: ending preventable child and maternal deaths, creating an AIDS-
free generation, and protecting communities from other infectious 
diseases.


    Question 15.  President Obama's FY 2017 budget request supports 
Central American governments for their progress on addressing the 
migration of unaccompanied, undocumented minors, including improving 
border security, combating human smuggling and trafficking, and 
supporting repatriation for migrants returning from the U.S.


   What progress been made on addressing these issues with prior year 
        funds?

   Please explain how have you been able to measure the success of 
        such progress.


    Answer. The U.S. Strategy for Engagement in Central America is 
addressing the underlying conditions driving migration from the region. 
FY 2015 funds are supporting efforts of the governments of El Salvador, 
Guatemala, and Honduras to reverse endemic violence and poverty, 
promote economic prosperity, crack down on criminal networks, and 
strengthen good governance and the rule of law.
    With State Department funding, the Department of Homeland Security 
(DHS) is deploying nine advisors to the region to provide the 
governments with technical assistance, mentoring, and training on 
border security issues.
    DHS has helped the Governments of El Salvador and Guatemala to 
establish Transnational Crime Investigative Units to combat 
transnational organized crime, including human smuggling and 
trafficking. In Honduras, U.S. sponsored and vetted Honduran units are 
conducting border enforcement operations to disrupt human, narcotics, 
currency, and weapons smuggling.
    With the financial support from USAID, the International 
Organization of Migration is helping the governments of El Salvador, 
Guatemala, and Honduras to improve their repatriation facilities, 
enhance their capacity to receive and assist their citizens, and to 
develop a data management tracking system on migration, child 
protection, and security related authorities.
    Our strategy is designed for long-term success, and recognizes that 
we must assist the Central American governments as they make systemic 
reforms. Part of our approach includes continuous monitoring and 
evaluation of our assistance in the short- and medium-term. Our 
ultimate vision for success is a safe and prosperous Central America 
with transparent, accountable, and capable governments.


    Question 16.  The administration included $3.8 million within their 
FY 2017 budget request from the Diplomatic and Consular Programs 
account (D&CP) for infrastructure improvements to convert the U.S. 
Interests Section to a U.S. Embassy in Havana.


   How does the State Department plan to spend that $3.8 million?

   What facility upgrades are required at the Embassy?

   Is the Castro regime placing any limits on the type of construction 
        or modifications that can be made?

   Will any foreign contractors be involved in any construction 
        efforts?

   What counterintelligence mitigation efforts have been made for any 
        construction activities at the Embassy?

   Has the USG been limited in the types of equipment and materials 
        that can be brought into Cuba to support the Embassy?

   What future plans, if any, are included in this budget in support 
        of the administration's new policy on Cuba?

   How will this budget request be used for democracy promotion and 
        efforts to reach the Cuban people including beyond the 
        geographic limits of Havana?

   How many locally employed staff are at the Embassy?

   What is the status of the State Department in implementation of the 
        reforms in the FY 2016 Intelligence Authorization Act to ensure 
        all supervisory positions are held by U.S. persons?

   Does the State Department believe it's consistent with the purpose 
        and intent of U.S. law, and in the foreign policy interests of 
        the United States, to allow U.S. companies to invest in 
        military owned companies that played a role in smuggling 
        weapons to North Korea?


    Answer. The Bureau of Overseas Buildings Operations (OBO) has been 
unable to correct long standing building deficiencies effectively and 
perform regular, routine maintenance and repairs on our facilities in 
Havana over the last 50 years, spanning the time when the United States 
had no formal diplomatic relations with Cuba. The Government of Cuba's 
restrictive import policies and limit on the number and availability of 
temporary duty (TDY) visas severely hampered OBO's access to Post and 
necessary materials for projects. The aging facilities thus need major 
rehabilitation, which would include upgrades to the Chancery's internal 
systems, security modifications, and other repairs and improvements. 
Major rehabilitation projects are planned, funded, and managed by the 
Bureau of Overseas Buildings Operations. The re-establishment of 
diplomatic relations has provided an easing of the Cuban government's 
strict import policies and an increase in the number of maintenance 
visas available. Funding caps or shortfalls would only complicate 
efforts to address years of neglect.
    Our $3.8 million FY 2017 Diplomatic and Consular Program (D&CP) 
funding request is for a mixture of communication and office 
infrastructure improvements and increases in staff, including 
improvements to our aging cabling and internet infrastructure in the 
Chancery and replacement of 20-year-old office furniture.
    The Government of Cuba does not place limits on the type of 
construction modifications the Department can make to our Embassy. 
Foreign contractors would not be involved in infrastructure 
improvements funded by the FY 2017 D&CP funding request. We welcome the 
opportunity to discuss the counterintelligence mitigation efforts taken 
for construction activities in a classified setting.
    Embassy Havana requires additional U.S. Direct Hire personnel to 
support an already overburdened platform. A mixture of reporting, 
public diplomacy, and support positions are required to deepen U.S. 
understanding of Cuba's political, social, and economic environment, 
oversee maintenance upgrades, conduct human rights monitoring and 
advocacy, and deepen law enforcement cooperation on issues such as 
fugitives and counternarcotics. Given the growing number of authorized 
American visitors to Cuba and the demand for visa services, we have 
also requested additional consular staffing. Additional staff will free 
up resources to conduct more trips outside of Havana to connect with 
average Cubans on a wide range of issues.
    The specific number of Cubans working at the U.S. Embassy in Havana 
varies from time to time. Currently, we have fewer than 300 Cuban 
nationals working in various administrative and support roles.
    We are preparing the report requested in the FY 2016 Consolidated 
Appropriations Act, Division M, Section 512, regarding the use of 
locally employed staff serving at a United States Diplomatic Facility 
in Cuba. This report will be submitted to Congress by the due date.
    The State Department does not believe it is in our foreign policy 
interest for U.S. firms to invest in any entity, Cuban or any other 
nationality, that would smuggle weapons to North Korea. The 
comprehensive embargo severely limits U.S. firms' commercial engagement 
in Cuba. We refer you to the Department of the Treasury's Office of 
Foreign Assets Control, which administers and enforces the Cuban Assets 
Control Regulations, for specific questions on U.S. financial 
transactions with Cuban entities.


    Question 17. As part of the administration's changes to Cuba policy 
regarding the opening of the U.S. Embassy, Cuba agreed to allow U.S. 
diplomats to travel throughout the island, albeit with prior notice.


   Has the Cuban regime upheld its commitment to allow travel?

   Please detail trips, including purpose, by U.S. diplomats outside 
        Havana since the Embassy opening.


    Answer. We were able to negotiate greater flexibility for our 
diplomats to travel outside of Havana during the negotiations to re-
establish diplomatic relations with the Cuban government. The previous 
policy required all U.S. diplomats to seek permission from Cuban 
officials ten days in advance of any travel outside of Havana. Now, 
four diplomats and their family members are permitted to travel freely 
without providing prior notification to the Cuban government. All 
others are required to notify the Cuban government four business days 
before travel. The new requirement is for notification, not approval of 
travel. Reciprocal restrictions apply to Cuban diplomats at the Cuban 
embassy in Washington, DC.
    U.S. officials at Embassy Havana have reported no difficulties 
regarding Cuban government interactions concerning travel outside of 
Havana or the notification process for this purpose.
    Embassy officials have traveled outside of Havana for a variety of 
purposes when schedules permit. For example, one embassy official 
traveled to Cuba's second and third largest cities--Santiago de Cuba 
and Camaguey--in a week-long over-land trip that facilitated contact 
with average Cubans. The official spoke with small business owners, 
church leaders, and municipal government officials, in addition to 
average Cubans he encountered in the streets and plazas. Another 
official accompanied a congressional staff delegation to Pinar del Rio 
to meet with local government officials, church representatives, and 
members of the Cuban private sector. There has also been some travel 
outside of Havana for personal travel, something previously not 
regularly permitted.


    Question 18.  President Obama had originally said that he will 
visit Cuba when ``the conditions are right, if in fact we've seen 
progress in the liberty and freedoms of the ordinary Cubans.'' ``He 
wasn't interested in validating the status quo.''


   What are the conditions the President was referring to? And do you 
        believe those conditions have been met?


    Answer. President Obama announced plans to travel to Cuba March 21-
22. In Cuba, the President will work to build on the progress we have 
made toward normalization of relations--advancing commercial and 
people-to-people ties that can improve the well-being of the Cuban 
people. The trip also provides an opportunity to engage the Cuban 
government directly on human rights.
    In addition to holding a bilateral meeting with Cuban President 
Raul Castro, President Obama will talk with members of civil society, 
entrepreneurs, and Cubans from different walks of life.
    Our policy of engagement has further empowered a Cuban private 
sector that now employs at least one in four Cuban workers. For 
example, people in the United States can send unlimited remittances in 
support of private businesses, provide microfinance and entrepreneurial 
training activities, and export a broad range of materials and supplies 
to Cuban entrepreneurs. The number of self-employed Cubans has grown 
remarkably, from 145,000 in 2009 to approximately 500,000 in 2015. Just 
as we are doing our part to remove impediments that have been holding 
Cuban citizens back, we are urging the Cuban government to make it less 
difficult for its citizens to start businesses, to engage in trade, and 
to access information online.
    The U.S. government has serious concerns about the human rights 
situation in Cuba and we regularly convey them to the Cuban government. 
We also consult with our allies in the region, and raise the human 
rights situation in Cuba at international fora.
    Our policy change has brought greater focus and more public 
discourse on human rights, both in Cuba and the United States. We speak 
to democracy and human rights activists on the island and with those 
who travel to Washington, DC, who regularly tell us that since the 
policy change they feel more emboldened to express their views, and 
they are doing so. We continue to see demonstrations on the island; 
many march peacefully--some on a weekly basis--to advocate for 
fundamental freedoms. We commend those who defend freedom of 
expression, assembly, and democratic values. We have not and will not 
defend the Cuban government's human rights record, nor its response to 
these demonstrations.


    Question 19.  The FY 2017 budget request includes support for the 
implementation of the pending peace agreement between the Colombian 
government and the FARC.


   What programs will be supported under this request?


    Answer. During President Santos' February 2016 visit, President 
Obama announced a new framework for our bilateral cooperation: Peace 
Colombia.
    U.S. assistance in support of Peace Colombia will focus ongoing and 
future U.S. assistance under three pillars: consolidating and expanding 
Colombia's progress on security and counternarcotics, while 
reintegrating demobilized FARC combatants into society; expanding the 
Colombian state's presence and institutions to strengthen the rule of 
law and rural economies, especially in former conflict areas; and 
promoting justice and addressing rights and interests of conflict 
victims.
    The administration requested $391 million in FY 2017 bilateral 
foreign assistance for the State Department and USAID, an increase from 
the FY 2015 level of $307 million for those accounts. The increased 
funding will support Colombia's efforts to implement a peace accord 
with the FARC. In addition to the $391 million, the administration 
requested FY 2017 funds for other agencies' contributions to Peace 
Colombia goals, including $44.6 million in Department of Defense 
counternarcotics programs, for a total interagency peace implementation 
request of $450 million.
    Economic Support Funds (ESF) address rural development, support to 
victims, reintegration of ex-combatants, and land reform. Increased 
funding will support Colombia's efforts to bring public services, 
including justice, dispute resolution, and critical infrastructure, to 
the populations of former conflict areas. Increasing our support to 
rural road maintenance and construction is an important priority for 
the Colombian government; the United States has some ability to provide 
technical assistance in this area. In addition, funds will support 
integrating victims' needs and rights into peace accord implementation. 
Specifically, funds will support the search for missing persons and 
strengthen national reconciliation efforts by promoting truth, criminal 
accountability, reparations (including land restitution), and 
guarantees of non-recurrence for conflict victims. ESF will also 
support human rights and judicial training programs.
    International Narcotics Control and Law Enforcement (INCLE) 
assistance will support Colombia's effort to implement its new 
counternarcotics strategy, which places greater emphasis on riverine, 
maritime, aerial, and land-based interdiction; manual eradication; 
seizing assets through anti-money laundering operations; and 
dismantling organized crime groups through complex criminal 
investigations. INCLE funds will help the Colombian authorities develop 
the intelligence to make manual eradication efficient and safe; enhance 
interdiction; and improve Colombia's ability to conduct complex 
investigations against criminal organizations. INCLE funding will also 
support extension of justice services to former conflict areas, a peace 
implementation priority.
    Requested Foreign Military Financing (FMF) will increase the 
Colombian military's ability to project the state's presence and 
provide security in former conflict areas. Support will focus on 
engineering units, counternarcotics battalions, aviation support, and 
other units that will extend the reach of the Colombian military to new 
areas. FMF will also support institutional reforms that will enhance 
the efficiency and flexibility of Colombia's armed forces.
    Requested Nonproliferation, Antiterrorism, Demining, and related 
program funding will support U.S. participation in the Global Demining 
Initiative for Colombia, co-led with Norway, which the President 
announced February 4. The initiative seeks to marshal international 
resources and technical assistance for Colombia's pursuit of the goal 
to be landmine free by 2021. Landmines and improvised explosive devises 
kill or maim thousands of Colombians every year. Supporting Colombia's 
demining efforts will help the Colombian government deliver a concrete 
``peace dividend'' to the Colombian people; reinforce support for a 
peace accord; and provide a foundation for rural economic development 
by facilitating licit agriculture, investments in infrastructure, and 
access to markets.

            FISCAL YEARS 2015-2017 REQUESTS--STATE/USAID ONLY
                      $ in thousands for all items
------------------------------------------------------------------------
                                     FY 2015      FY 2016      FY 2017
                                      Actual      Request*     Request
------------------------------------------------------------------------
Columbia--State/USAID............      307,776      288,726      391,253
  Economic Support Fund..........      133,000      141,326      167,328
  Food for Peace Title II........        6,835           --           --
  Foreign Military Financing.....       27,000       25,000       38,525
  International Military                 1,446        1,400        1,400
   Education & Training..........
  International Narcotics Control      135,195      117,000      143,000
   and Law Enforcement...........
  Nonproliferation,                      4,300        4,000       21,000
   Antiterrorism, Demining and
   Related Programs..............
    of which, Antiterrorism......          800          500           --
    of which, Conventional               3,500        3,500       21,000
     Weapons Destruction
     (Demining)..................
------------------------------------------------------------------------
*FY 2016 levels are pending allocation by the Department and USAID



    Question 20.  In the FY 2017 budget request, institutions funded by 
the State Department that support freedom and democracy around the 
world, including the National Endowment for Democracy, the Asia 
Foundation and other are getting cuts. The National Endowment for 
Democracy (NED) enjoys broad bipartisan and bicameral support in the 
U.S. Congress yet the administration's budget request calls for a cut 
of almost 40 percent in the NED's budget--from $170m to $103.5m.


   Can you explain why the administration would want to drastically 
        cut this critically important program at a time when democracy 
        is under attack around the world?

   In addition, the budget submission ``encourages NED to compete for 
        specific U.S. Government programs'' in order to make up for the 
        large cut in funding. Is the administration not aware that the 
        Congress, in the National Endowment for Democracy Act that 
        President Ronald Reagan signed into law in 1983, expressly 
        stipulated that the NED is an independent institution that 
        should be free of direction or interference from the executive 
        branch, which is why it is a separate line item in the budget.

   Does the administration not accept the status of NED as contained 
        in the NED Act?


    Answer. The Department of State strongly supports the work and 
mission of the National Endowment for Democracy (NED). While the FY 
2017 request of $103.45 million for NED is a reduction from the level 
appropriated by Congress in FY 2016, the request reflects a straight-
line of funding requested by the administration for NED in the FY 2016 
President's Budget.
    The Department of State does affirm that NED is an independent 
institution; however, the Department recommends that external 
organizations it supports, such as NED, compete for grants and seek 
additional funding to leverage program funds if they so desire.


    Question 21.  According to the FY 2017 Budget Request, public 
diplomacy (PD) spending, including exchange programs, has an increase 
of 5.4 percent under the FY 2017 request, to a total of $1.21 billion. 
How do you measure the success of these strategies? What are the 
taxpayers getting in exchange for this? Is the U.S. image in the world 
better as a result of this expenditure?

    Answer. Public diplomacy is essential to creating and sustaining 
support for U.S. foreign policy goals among key international 
audiences, including civil society leaders, journalists, youth, and 
religious leaders. These non-governmental actors, empowered by new 
digital technologies, play an increasingly important role in shaping 
the international system. With a backsliding in press freedoms around 
the world and countries spending billions of dollars to restrict 
information, our public diplomacy efforts are increasingly important to 
reach these audiences.
    PD funding enables the Department to regularly engage a vast and 
growing social media following, currently numbering close to 60 million 
people, on priority issues. The foreign media hubs successfully amplify 
U.S. foreign policy messages to upwards of 650 unique media outlets 
worldwide, ensuring accurate coverage of U.S. policy messages in 
influential foreign news coverage. Our global network of 700+ American 
Spaces hosts nearly 37 million visits annually, building and 
strengthening relationships with foreign audiences by showcasing 
American culture and values and providing accurate information about 
the United States. And our exchange programs annually bring more than 
55,000 promising future foreign leaders to the United States, and send 
more than 10,000 U.S. citizens abroad, to create enduring networks of 
personal relationships that promote U.S. values and national security 
interests.
    These programs have an immediate impact, but they also have a 
generational impact, because they create connections--with our country, 
with the American people--that last far into the future. For instance, 
395 alumni of our exchange programs are current or former heads of 
foreign governments, 77 are Nobel Prize winners, and thousands more are 
leaders of industry, academia, business, science, and the arts--the 
vast majority of whom have indicated they came away from their program 
with a greater understanding of the United States.
    Informing, engaging, and influencing foreign publics requires a 
long-term commitment and strategic investment of limited resources. 
Toward this end, the Department is making increased public diplomacy 
investments in analytics and evaluations to help us better identify key 
audiences, measure the impact of our engagement, and stay in front of 
an ever-changing world.


    Question 22. We understand that the administration and the 
Government of Israel are in the final stages of discussions on a new 
10-year Memorandum of Understanding agreement on aid. Can you update us 
on where talks with Israel stand on a new MOU that will meet Israel's 
growing threats?

    Answer. Our commitment to Israel's security is steadfast, and our 
close cooperation with the Israeli government on military and security 
issues continues. As Prime Minister Netanyahu recognized during his 
2015 speech to the U.N. General Assembly, ``we never forget that the 
most important partner that Israel has always been, and will always be, 
the United States of America.''
    Israel remains the leading recipient worldwide of U.S. Foreign 
Military Financing (FMF). The current ten-year $30 billion Memorandum 
of Understanding between the U.S. and Israel, under which Israel 
currently receives $3.1 billion per year, is just one example of our 
strong, enduring partnership and the U.S. commitment to Israel's 
security.
    During their meeting on November 9, the President and Prime 
Minister Netanyahu agreed to resume formal talks on a new MOU to 
succeed the current one, which expires at the end of 2018. Several 
rounds of talks with the Israelis have been held since then. We hope to 
reach a new MOU that will build on the United States' historic and 
enduring commitment to Israel's security, provide maximum benefit to 
both Israel and the United States and serve as the foundation for the 
bilateral security relationship well through the next decade. Even as 
we grapple with a particularly challenging budget environment, this 
administration's commitment to Israel's security is such that we are 
prepared to sign an MOU with Israel that would constitute the largest 
single pledge of military assistance to any country in U.S. history.


    Question 23.  The administration has estimated that Iran's 
sanctions relief windfall would be about $50 billion, while Iran has 
claimed that the figure is closer to $100 billion.


   Now that Implementation Day has passed, do you have a better 
        estimate of how much money Iran was able to gain access to?

   Do we have an indication of how Iran is using its windfall thus 
        far? Do we see evidence that they are paying down their debts, 
        or using some of the money to further increase support for 
        terrorism?

   Do you have figures for how much Iran provides Hezbollah, Hamas, 
        Palestinian Islamic Jihad, and Shi'a militias in Iraq? And for 
        how these figures are likely to increase as a result of 
        sanctions relief?


    Answer. On January 16, following the International Atomic Energy 
Agency (IAEA)'s verification that Iran had implemented key nuclear-
related commitments as specified in the JCPOA, the United States lifted 
nuclear-related sanctions on Iran. As part of the lifting of these 
sanctions, foreign financial institutions holding funds owed to Iran in 
accounts outside of the United States can release such funds to the 
Central Bank of Iran without being subject to U.S. secondary sanctions. 
As a result, we estimate that Iran now has access to approximately $50 
billion of its own funds.
    Iran's destabilizing activities in the region are a threat to us 
and our allies, and they are a top concern of the administration. We 
work intensively with our partners in the region, including the Gulf 
Cooperation Council (GCC) and Israel, to deter and disrupt Iranian 
threats. Iran's ongoing economic difficulties make it harder to divert 
large portions of its financial gains from sanctions relief away from 
its domestic economy and toward its regional activities. For example, 
we estimate that Iran needs about half a trillion dollars to meet 
pressing investment needs and government obligations.
    We have numerous domestic authorities--including sanctions--to 
counter Iran's support for terrorism and other destabilizing 
activities. We will continue to enforce aggressively our sanctions, 
including those related to Iran's support for terrorism, ballistic 
missile activities, destabilizing activities in the region, and human 
rights abuses. On March 24, the Treasury Department sanctioned two 
entities participating in the Islamic Revolutionary Guard Corps' 
ballistic missile program and six entities tied to Iranian airline 
Mahan Air, a Specially Designated Global Terrorist that provides 
significant support to the Iranian Revolutionary Guard Corps.
    The United States will also continue its efforts to disrupt 
Hizballah's financial and procurement networks, as it did in two 
separate actions in January when the Treasury Department designated 
five entities for providing material support to Hizballah. In addition 
to its longstanding efforts to combat Hizballah's facilitation network, 
the administration will utilize authority under the Hizballah 
International Financing Protection Act to target financial institutions 
that knowingly facilitate significant transactions or engage in money 
laundering activities on behalf of Hizballah. We have made significant 
progress and will continue to disrupt Hizballah's terrorist 
capabilities by targeting the group's financial support infrastructure. 
Treasury and State have consistently used and will continue to use our 
authorities to expose and target Hizballah's financial, commercial, and 
terrorist activities around the world.


    Question 24. During the IAEA's investigation of the possible 
military dimensions of Iran's nuclear program, the agency received 
environmental samples taken by Iran from the Parchin military facility. 
According to the IAEA, the samples Iran gathered revealed two uranium 
particles that appeared to be chemically man-modified. However, this 
small number precluded the IAEA from determining whether they were tied 
to a nuclear program.


   If the IAEA needs to return to Parchin for further inspections, 
        will it be able to?

   Would Iran be in violation of the JCPOA if it denied the IAEA 
        access to Parchin?

   Was a precedent set by allowing Iran to self-inspect Parchin? Or 
        will IAEA inspectors be granted full unfettered access to 
        suspect nuclear sites should the need arise, regardless of 
        their location on a military base?


    Answer. We are confident that the JCPOA gives the IAEA the tools it 
needs to effectively monitor Iran's nuclear commitments under the Joint 
Comprehensive Plan of Action (JCPOA). In accordance with its JCPOA 
commitments, Iran has taken on a legal obligation to apply the IAEA 
Additional Protocol, which provides the IAEA with a clear basis for 
access to investigate any indications of possible undeclared material 
and activities in Iran. In addition, should the IAEA receive credible 
information indicating that Iran is using Parchin or any other 
undeclared location for nuclear weapons-related work in the future, the 
JCPOA provides strengthened tools for the IAEA to demand timely access 
within a predetermined time period. In accordance with its JCPOA 
commitments, Iran has also taken on a legal obligation to apply the 
IAEA Additional Protocol which encompasses all sites in Iran, including 
military sites like Parchin.
    We retain a wide range of options to deal with any failure by Iran 
to fulfill its nuclear-related commitments under the JCPOA, including 
failure to provide the IAEA access. If there is a significant violation 
by Iran of its JCPOA commitments and the JCPOA processes do not lead to 
a resolution of the concerns, we can unilaterally snap back sanctions. 
The United States has the ability to re-impose at any time all of the 
unilateral and multilateral sanctions that have been lifted in response 
to a violation of the JCPOA.
    IAEA access to Parchin was conducted according to the IAEA-Iran 
Roadmap process, separate from the JCPOA. The IAEA confirmed that both 
the Director General himself as well as his head of Safeguards visited 
Parchin in September 2015. This was the first time that the IAEA had 
visited the location of interest. Before this visit, IAEA safeguards 
activities were carried out at the Parchin site, including the taking 
of environmental samples. Verification activities at the Parchin site 
were conducted in a manner consistent with the IAEA's safeguards 
practices, and we have full confidence in the IAEA to pursue only 
procedures that meet its independent verification requirements. We are 
confident that the IAEA will not depart from its longstanding approach 
of independent verification in Iran or anywhere else it implements 
safeguards.


    Question 25.  Mr. Secretary, what is the U.S. position on using 
international sanctions and boycotts to pressure our democratic ally 
Israel, on issues that need to be decided at the negotiating table?

    Answer. We have been very clear that boycotts of Israel are 
unhelpful, and we oppose them.
    The United States has worked in the three decades since signing the 
U.S.-Israel Free Trade Agreement--our first such agreement with any 
country--to grow trade and investment ties exponentially with Israel. 
As we advance our trade agenda, we will continue to strengthen these 
important economic ties.
    We will also continue to pursue policies aimed at preserving the 
prospect of a two-state solution to the Israeli-Palestinian conflict. 
We continue to believe that the preferred path to the resolution of 
this conflict is for the parties to reach an agreement on final status 
issues directly, and we will continue to work to advance the interest 
we all share in bringing about a lasting peace between the Israelis and 
Palestinians.


    Question 26. It has long been a congressional priority to see a 
U.S. consulate established in Lhasa.


   When was the last time this was raised with the Chinese government?

   Is the Chinese government presently pursuing any additional 
        consulates in the United States?

   Has the USG made it clear that any future expansion of their 
        consular presence would be contingent upon a U.S. consulate in 
        Lhasa?


    Answer. The Department continues to explore options to expand 
consular facilities in China. We have proposed a consulate general in 
Lhasa, Tibet, as well as in other cities in the People's Republic of 
China, in accordance with relevant statutes and reciprocity 
requirements. The Chinese have not responded to the Department's 
request.


    Question 27.  As you know Congress passed bipartisan legislation 
which created a Special Envoy for Religious Minorities in the Middle 
East position at the Department and the president signed the bill into 
law. After an extended delay the position was finally filled, albeit at 
a more junior level than was originally envisioned by Congress. The 
authorizing legislation provided $1 million for the envoy and support 
staff to accomplish its mandate.


   Has the Special Advisor for Religious Minorities been provided with 
        separate funding or is his budget being carved out of the 
        already limited budget of the International Religious Freedom 
        Office?


    Answer. The Department of State is complying with the earmarks 
contained in the FY 2016 Appropriations Law related to the Office of 
International Religious Freedom and the Special Advisor for Religious 
Minorities in the Middle East and South and Central Asia.
    In his first six months, Knox Thames, the Special Advisor for 
Religious Minorities in the Middle East and South and Central Asia has 
undertaken a robust agenda, including travel to Beirut, Baghdad, Erbil, 
Doha, Islamabad, Karachi, and elsewhere to advocate for the rights of 
religious minorities in these difficult regions. In addition to working 
with foreign governments in support of religious freedom, Mr. Thames 
has met with a broad spectrum of civil society groups representing the 
minority groups under threat. He has also launched an interagency 
initiative to protect religious and cultural heritage in the Middle 
East and South and Central Asia. Planning is underway for a series of 
multilateral conferences to address the plight of religious minorities 
under threat.


    Question 28. As Venezuela is facing food shortages and opposition 
lawmakers have recently declared a ``food emergency'', please provide 
details of the U.S. government assistance and involvement to respond to 
the current ?economic conditions in Venezuela.

    Answer. Venezuela faces serious economic challenges, including 
significant economic contraction, triple-digit inflation, widespread 
shortages of food and medicine, and depleted reserves. We remain in 
close communication with the contacts in Venezuela, international 
nongovernmental organizations, and multilateral organizations about the 
availability of food, medicines, and other essentials.
    We have expressed our concerns to governments in the region about 
the worsening political, economic, and social situation in Venezuela. 
We know that many others share these concerns and have communicated 
them to the Maduro government.
    We believe the only solution to these shortages and other economic 
issues in Venezuela is a meaningful dialogue among Venezuelans on 
sustainable policies that reverse years of economic mismanagement. We 
continue to call for dialogue in Venezuela.
    The United States frequently provides humanitarian assistance to 
countries around the world at the request of the executive branch of a 
receiving country. In addition, there are appropriate mechanisms by 
which the international community and multilateral institutions could 
consider support to Venezuela. The Maduro administration has made no 
such request.


    Question 29. Could you please provide an assessment of the Bahrain 
government's implementation of the Bahrain Independent Committee of 
Inquiry Report? Within the assessment please include a determination if 
each of the 26 recommendations has been fully implemented.

    Answer. Bahrain has implemented some important reforms, including 
key recommendations made by the Bahraini Independent Commission of 
Inquiry such as the establishment of the Ombudsman's Office, the 
Special Investigative Unit, and human rights training for police. The 
Government has investigated claims of torture, which have led to 
convictions in several cases; rebuilt demolished religious structures; 
reinstated employees who were wrongfully dismissed in 2011; and 
compensated families of victims of state violence.
    However, more work remains to be done. We remain concerned by the 
government's criminalization of freedom of expression, selective 
application of the law, denial of due process guarantees, and other 
issues relating to the detention process and prison conditions as 
specified in the BICI recommendations.
    We will continue to press the government on all of these issues of 
concern and urge it to work with opposition groups and civil society to 
continue pursuing full implementation of the BICI recommendations in a 
manner that meets international standards. Beyond just the BICI 
recommendations, additional progress is needed to build trust across 
Bahraini society.
    The Department's forthcoming report, ``Steps Taken by the 
Government of Bahrain to Implement the Recommendations in the 2011 
Report of the Bahrain Independent Commission of Inquiry (BICI)'' was 
requested by Congress and will provide a detailed analysis including an 
assessment of Bahrain's progress on each of the BICI report's 26 
recommendations.


                               __________

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                    SECRETARY KERRY BY SENATOR BOXER

    Question 1. With this legislation in mind, how is the U.S. 
government ensuring the Kurds have the support and supplies they need 
in the fight against ISIL?

    Answer. The FY 2015 Iraq Train and Equip Fund (ITEF) budget of $1.6 
billion is supporting training and equipment for two Peshmerga 
brigades, and additional FY 2016 ITEF programming totaling $715 million 
includes additional support for Iraqi Kurdish fighters. Nearly 10,000 
Peshmerga have already received basic and specialized training at the 
Build Partner Capacity (BPC) sites, and the first of two Peshmerga 
brigades selected for training with U.S. Special Operations Forces will 
begin training next month.
    These efforts have already shown success as U.S. and Coalition-
trained Peshmerga troops stationed on the Forward Line of Troops (FLOT) 
in northern Iraq have proved critical in maintaining the FLOT in Ninewa 
and elsewhere as these areas came under assault from Da'esh. The United 
States is committed to assisting all Iraqis in their mission to defeat 
Da'esh. As of February 7, 2016, the U.S. and the Coalition have 
provided the Peshmerga with more than 60 million rounds of rifle 
ammunition; more than 100,000 mortar rounds; tens of thousands of 
grenades and anti-tank rounds; tens of thousands of other weapons such 
as rifles and heavy caliber machine guns; counter-IED equipment; and 
vehicles, including ambulances and mine resistant vehicles. The 
Coalition is doing everything it can to provide the necessary weapons, 
munitions, and advisors to support the Peshmerga in the counter-Da'esh 
effort.


    Question 2. Specifically, are there any delays in the shipments of 
weapons and supplies from Baghdad to Erbil? If so, how is the State 
Department addressing these delays?

    Answer. There are no delays. The shipment of weapons and supplies 
provided by the Coalition through the Government of Iraq to the 
Kurdistan Regional Government is running smoothly and efficiently. 
Equipment transferred through Baghdad never leaves U.S. or Coalition 
custody, and we have assurances from U.S. personnel in Baghdad that the 
equipment destined for the Kurds is processed in the most expedient 
manner possible. KRG officials have confirmed to senior U.S. officials 
that they receive the equipment in full and without delay.


    Question 3. How is the State Department working with Afghanistan to 
preserve the gains that have been made in women's rights, specifically 
with respect to economic and political advancement?

    Answer. The United States has prioritized the promotion of gender 
equality and rights of women in all of our activities in Afghanistan. 
As a result, Afghanistan has adopted some of the most expansive 
protections of women's rights anywhere in the region, and the Afghan 
government has taken steps to ensure that women are represented at all 
levels of government. The U.S. Embassy in Kabul consults closely with 
government leaders, parliamentarians, and provincial officials as they 
work to increase women's participation in all levels of the government. 
We are also advocating for the full implementation of the Law on 
Elimination of Violence Against Women.
    In addition to our political engagement, our development and 
assistance programs complement and underpin our advocacy for the rights 
of women and girls in Afghanistan. The Afghan Women's Leadership in the 
Economy (AWLE) project, which is part of USAID's Promote program for 
Afghanistan, will provide thousands of women with the skills, and 
resources to contribute to Afghanistan's economic development and 
poverty reduction goals as well as to influence service delivery, 
education, and workplace policies. AWLE also supports educated women 
between the ages of 18 and 30 in finding new or better jobs by 
providing them with knowledge, skills, networks, and support. In April 
2016, the USAID Financial Access for Investing in the Development of 
Afghanistan (FAIDA) project and the Afghanistan Institute of Banking 
and Finance recognized 100 professional women who successfully 
completed a six-month ``Women in the Financial Sector'' Internship 
Program. The internship program provided participants with the 
knowledge and networking opportunities needed to succeed in 
Afghanistan's private financial sector. Fifty percent of the 
participants have already secured employment in various financial 
institutions. Employment negotiations are underway for the rest of the 
graduates.


    Question 4. What is the State Department doing to help Afghan women 
assume leadership roles in the political and security sectors?

    Answer. In addition to broad support provided by the United States 
to support opportunities for women in the private and public sectors, 
we also have specific programs targeted on the justice and security 
sectors. We have also continually advocated for Afghan women to be 
represented at all levels of government.
    For example, USAID is working to close the gender gap in the 
ministries by training 3,000 young women interested in joining the 
Afghan civil service. This past February, the Afghan government, in 
coordination with USAID, placed 17 female interns in government 
ministries after they completed a six-month classroom-based training at 
the Afghanistan Civil Service Institute (ACSI). The Bureau for 
International Narcotics and Law Enforcement Affairs (INL), in order to 
decrease the gender disparities within the Ministry of Counter-
Narcotics (MCN), supports an annual fellowship and internship program 
at the MCN for female Afghan students. In FY 2015, there were six 
undergraduates with summer internships and three graduates with one-
year paid fellowships. In late August 2015, another 13 recent graduates 
began fellowships with the Ministry. In addition, our Bureau of 
Democracy, Human Rights, and Labor (DRL) provides tuition and fees for 
20 young women to attain an undergraduate education coupled with human 
rights-focused training and skill-building through specific coursework, 
internships, and post-graduate fellowships. Through coursework, 
leadership positions in extracurricular activities, and internships 
with civil society organizations, these women are gaining the skills to 
become Afghanistan's next generation of women leaders and human rights 
advocates.
    Since 2012, INL's Justice Training Transition Program (JTTP), 
implemented by the International Development Law Organization (IDLO) 
has built the capacity of women working in the Afghan justice sector 
through training and coaching. Over the life of the program, JTTP has 
transitioned from an externally provided training service into an 
Afghan government-owned continuing legal education program. In April 
2016, IDLO and INL launched a follow-on program which will assist the 
ministries to further operationalize the training units and ensure the 
success of continuing legal education efforts. In FY 2015, women 
comprised 10 percent of all Advanced Continuing Legal Education for 
Afghanistan (ACLEA) participants and 12 percent of all Continuing Legal 
Education (CLE) participants. Additionally, 118 women legal 
professionals were provided 765 hours of one-on-one coaching on legal 
substance.
    The Resolute Support (RS) Gender Advisor's office reports a 
significant increase in the recruitment of women into the Afghan 
National Army (ANA) as a result of offering scholarships as a 
recruitment incentive. According to the RS Gender Advisor, as of late 
April the ANA had recruited 193 women since mid-February, a figure that 
surpasses ANA recruitment of women over the past three years. There are 
now also 69 female members of the ANA's officer corps. Additionally, 
the Ministry of Interior (MoI) recently recruited 250 women to begin 
police training in Turkey starting this summer. While increased 
recruitment is a definite sign of progress, the Afghan government, with 
the support of the State Department and other international partners, 
is taking steps to ensure the successful integration of women into the 
security sector. For example, the Women, Peace, and Security Working 
Group, co-chaired by the United Nations and the Finnish Embassy in 
Kabul, reports that the Afghan Independent Human Rights Commission 
(AIHRC) is spearheading an initiative to establish an Ombudsman Office, 
which will be a joint agreement between the Ministry of Defense (MoD), 
MoI, and the Directorate of Security (NDS), giving the AIHRC access and 
opportunity to monitor and address gender based violence and other 
forms of harassment and violence committed against women in the 
security institutions.
    Department and USAID programs enjoy the strong support of the Ghani 
administration, which is strongly committed to gender equality in 
Afghanistan. In addition to increased numbers of women in the security 
sector, we have seen the appointment of two women to senior leadership 
positions within the High Peace Council. Notably, Afghan women's rights 
civil society groups were reportedly invited to meet informally with 
representatives of the Gulbuddin Hekmatyar-led Hezb-i-Islami 
Afghanistan (HIA), which is currently engaged in peace negotiations 
with the Afghan government. Such interactions, even informal, are vital 
to ensuring women have a voice in the peace process and to guard 
against any erosion of the rights they have gained since 2001.


    Question 5. Based on the results of the comprehensive review of the 
National Action Plan (NAP) on Women, Peace, and Security in 2015, what 
impact has the NAP had on our efforts to promote women's participation 
in peace and security processes worldwide?

    Answer. In accordance with E.O. 13595, ``Instituting a National 
Action Plan on Women, Peace, and Security,'' the U.S. Departments and 
Agencies--in particular the Department of State, the Department of 
Defense (DoD), and the U.S. Agency for International Development 
(USAID), in coordination with the National Security Council staff--
conducted a review of policy, programming, challenges, and lessons 
learned in the first three years of implementing the NAP. In 2015, 
during the course of the review, the State Department, USAID, and DoD 
conducted consultations with partner governments, multilateral 
organizations, and civil society. These efforts were undertaken with a 
view toward updating the NAP based on findings from the first three 
years of implementation.
    The Department of State's review identified several key findings 
related to the impact of the NAP on the Department and its operations. 
In brief, these successes include appreciable impact in several areas.
    First, the NAP and its implementation plan have provided a coherent 
framework, and common language, for pursuing the many gender issues 
that cut across policy, public diplomacy, and foreign assistance.
    Second, as a framework for accelerating progress, the NAP gave life 
to several new initiatives. Catalytic outcomes include the Africa--
Women, Peace, and Security Initiative and the Global Women, Peace, and 
Security Initiative, both of which are small grant programs that 
enhance security through the political and economic empowerment of 
women. In the realm of public diplomacy, the NAP inspired an ongoing 
series of exchanges through the Bureau of Educational and Cultural 
Affairs' (ECA) flagship Women, Peace, and Security (WPS) program, 
``Women Leaders: Promoting Peace and Security.'' In a select set of 
specific contexts, the NAP implementation process sparked policy 
commitments, reinforced by parallel foreign assistance allocations, for 
women-led civil society. A survey of key NAP stakeholders revealed that 
95 percent of respondents indicated that the NAP has at least 
incrementally influenced U.S. policy in conflict-affected areas.
    Lastly, in addition to spurring new action, the NAP expanded 
ongoing efforts. Where existing work was already underway on WPS-
related topics prior to the NAP's 2011 release--such as in Afghanistan, 
Bosnia and Herzegovina, Liberia, and Sierra Leone--the NAP has offered 
a high-level policy mandate for further elevating issues affecting 
women in war, conflict, violence, and insecurity. In Afghanistan, for 
instance, women's empowerment was a United States government policy 
priority for over a decade, but the emergence of the U.S. NAP has 
helped provide an overall framework for action and a common language to 
discuss women, peace, and security with Afghan government and civil 
society leaders, including women's inclusion in peace and 
reconciliation processes and development of laws that protect women's 
rights. Within the U.S. mission, the U.S. NAP helped to cement the 
rationale for establishing internal coordination processes and an 
embassy-specific gender strategy. The NAP also helped to inform key 
indicators to measure progress on the rights of Afghan women and girls 
through multilateral agreements within the international donor 
community and Afghan government. In the embassy's work with donors and 
international organizations, the NAP has appreciably strengthened U.S. 
credibility and leverage, especially in efforts to promote better 
cooperation.
    In summary, we have seen impressive short-term successes, and while 
transformative change takes time, we have found that progress is often 
a function of leadership, political will, and resources. As we look to 
the future, it will be important to bear in mind that regardless of an 
update, the NAP remains one tool among many (e.g. leadership, political 
will, and resources) necessary to bring women into decision making 
about peace and security issues.


    Question 6. What have been the biggest challenges to the NAP's 
implementation?

    Answer. Challenges associated with the implementation of the NAP 
stem from both external and internal factors. Often, the most important 
areas for promoting Women, Peace, and Security (WPS) are those 
characterized by the insecurity that limits the scope of United States 
government efforts. These insecure local backdrops for NAP 
implementation can be exacerbated by additional barriers, including 
cultural perspectives that limit the full participation of women across 
political, economic, and societal spheres. In addition, limited 
capacity among government counterparts can undercut the political will 
necessary to convert international commitments into action and 
continues to preclude the development of budgets and institutional 
capabilities that drive local implementation and enforcement. At the 
civil society level, partners' limited capacity can at times pose 
challenges to sustainability.
    Internally, resource and staffing limitations, limited training 
opportunities on gender-sensitive policy and programming, insufficient 
funding for WPS-oriented initiatives, uneven political will, and 
differentiated monitoring practices can limit the Department of State's 
ability to more fully integrate WPS goals.


    Question 7. As we move forward, how will the United States update 
the NAP to meet emerging security threats, such as violent extremism?

    Answer. The NAP review reflects agencies' commitment to relevant 
implementation and rigorous learning of how to best optimize women's 
participation, and protection, in the prevention and resolution of 
conflict. During the review process, agencies identified successes, 
opportunities, and challenges associated with NAP implementation and 
recommended several changes to the NAP to accelerate implementation. 
Any update to the NAP should lay a foundation for long-term NAP 
implementation, meet emerging security threats, and reflect shifting 
policy priorities. This includes strong interest in devoting increased 
attention to the intersection of the WPS agenda and transnational 
challenges, including countering violent extremism, displacement and 
migration, natural disaster response, atrocity prevention, and climate 
change.


    Question 8. In November, 2015, I wrote to President Obama urging 
him to draft and implement a new Foreign Military Financing Memorandum 
of Understanding (MOU) with Israel to help address the serious and 
ongoing threats to Israel's security. In its response to my letter, the 
State Department mentioned that formal talks between the U.S. and 
Israel would begin in December. What is the current status of those 
negotiations?

    Answer. The administration is engaged in discussions with Israel 
regarding a new, ten-year memorandum of understanding (MOU) on security 
assistance that would replace the current MOU when it expires at the 
end of fiscal year 2018. An interagency delegation traveled to Israel 
to begin discussions on the MOU in early December 2015. In the ensuing 
months, we have held additional rounds of talks in Israel and 
Washington.
    We hope to conclude a new MOU that will build on the United States' 
historic and enduring commitment to Israel's security, provide maximum 
benefit to both Israel and the United States and serve as the 
foundation for the bilateral security relationship well through the 
next decade. Even as we grapple with a particularly challenging budget 
environment, this administration's commitment to Israel's security is 
such that we are prepared to sign an MOU with Israel that would 
constitute the largest single pledge of military assistance to any 
country in U.S. history.


                               __________

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                       SECRETARY BY SENATOR FLAKE

    Question 1. The State Department's Trafficking in Persons (TIP) 
report is an important tool that can provide us with leverage to push 
other countries that have real problems with human trafficking into 
taking action against it. But in order for that leverage to be 
effective, it is important for our reports, their recommendations, and 
the criteria against which a country's progress in combatting 
trafficking is measured, all be very precise.
    The TIP report's authorizing statute includes four minimum 
standards a country should meet for the elimination of trafficking, and 
progress toward meeting these standards serves as the basis for 
determining a country's ranking. One of these minimum standards is 
whether a government has made ``serious and sustained efforts to 
eliminate severe forms of trafficking in persons.'' A list of very 
broad criteria are then listed in the authorizing language as factors 
that should be taken into account when determining a country's 
``serious and sustained efforts'' to eliminate trafficking.


   How do you ensure that the same metrics to weigh a country's 
        ``serious and sustained efforts'' to eliminate trafficking, or 
        lack thereof, are applied evenly and precisely? Who makes the 
        final determination as to whether a country has made ``serious 
        and sustained efforts'' to eliminate trafficking?

    Answer. The annual TIP Report reflects the State Department's 
assessment of foreign government efforts in 188 countries and 
territories during the reporting period to comply with the minimum 
standards for the elimination of trafficking in persons established 
under the Trafficking Victims Protection Act (TVPA). The TVPA spells 
out four minimum standards, and breaks the fourth standard down into 12 
indicia that guide our assessment on whether or not a government has 
undertaken ``serious and sustained efforts'' to eliminate human 
trafficking during the reporting period. Department staff consider 
whether a government's efforts satisfy each of the relevant indicia. 
That judgment is then factored into our overall assessment of the 
country's efforts against all four minimum standards across the 
``3Ps''--prosecution, protection, and prevention. This final assessment 
is the basis of all tier ranking recommendations made to me. I assign 
the final tier rankings.
    The country narratives in the Report include facts collected by the 
Department throughout the year and an analysis of how a country has or 
has not taken action with respect to the relevant TVPA minimum 
standards. Collecting and verifying these facts is a whole-of-
Department effort involving experts in Washington and U.S. missions 
overseas. The Department strives to make the report as accurate and 
objective as possible, documenting the successes and shortcomings of 
government anti-trafficking efforts. The report applies the criteria 
and requirements as statutorily required. These criteria and 
requirements are comprehensive and therefore the Department's process 
to produce the annual Report is both extensive and rigorous. The 
assessments contained in the TIP Report reflect each government's 
efforts in addressing human trafficking problems during the current 
reporting period, compared to that government's own efforts in the 
prior year.


    Question 2. How does the J/TIP office work with the governments of 
countries on the margins to help them understand what our metrics are 
and how we define various terms of significance in this process?

    Answer. The Department works year-round to encourage progress by 
foreign governments to combat modern slavery, as well as to explain the 
TVPA's minimum standards and international legal standards. This occurs 
at all levels, both in Washington and overseas. I have engaged numerous 
governments on this issue directly in many forums, using bilateral 
meetings, multilateral venues, and media platforms to make clear that 
combating human trafficking is a priority for this Administration and 
is a responsibility for all members of the international community. My 
efforts are supported by robust engagements by many Department 
officials, such as Ambassador Coppedge's recent trips to Cuba, Mexico, 
Botswana and South Africa. In addition, working-level travel by the 
Office to Monitor and Combat Trafficking in Persons has covered five 
continents and more than 50 countries in the last six months. These 
efforts complement the sustained and expert engagement that occurs 
every day through our missions abroad.
    Although this engagement is not always easy, our professional staff 
and their ability to encourage countries to pursue recommendations in 
the TIP Report have contributed to the Report's 15-year legacy of 
progress and to the United States' leadership on this issue. We have 
Congress to thank for its vision in the passage of the TVPA and its 
continued interest in making sure all governments, including our own, 
are working to eliminate the scourge of modern slavery.


    Question 3. The Bipartisan Budget Act from last year sets 
``targets'' on OCO funding of $14.9 billion for each fiscal year 2016 
and 2017 for the international affairs budget function. These targets 
are not caps, and there is nothing that would prevent Congress from 
appropriating additional OCO funds beyond these targets. The 
Administration's OCO request for international affairs for FY 2017 is 
$14,894,989,000.


   Do you see any reason why OCO funding for State and Foreign 
        Operations accounts should be increased beyond what you've 
        requested in this fiscal year?


    Answer. The FY 2017 Request is in line with the OCO levels set in 
the Bipartisan Budget Agreement (BBA) of 2015. This agreement provided 
a higher percentage of the Department's resources in OCO than has been 
the case in recent years. Consequently, the Department shifted a number 
of programs into OCO that were traditionally supported with enduring 
funds. In the FY 2017 Request, OCO funds support programs that will 
allow the Department of State and USAID to prevent, address, and 
recover from man-made crises and natural disasters and secure State and 
USAID global operations. While the Department acknowledges the current 
challenging fiscal climate which necessitated this shift from base to 
OCO, an appropriation that increases OCO above the FY 2017 request 
would prove challenging to accommodate, given the limited number of 
programs remaining in the Enduring request that could not fit an OCO 
definition.


    Question 4. What challenges does it present to the State Department 
from a budgeting perspective when Congress appropriates more in OCO 
funds than the Administration requested?

    Answer. The BBA level of OCO funding also complicates budget 
execution because OCO funding must be managed separately from enduring 
funds. OCO and enduring funds must be kept separate and therefore 
accounting procedures must be employed to avoid comingling of funds. 
Additionally, OCO funding is intended for use in specific situations. 
This reduces the resources available to the Department of State and 
USAID when unexpected contingencies arise in programs and regions that 
do not generally program OCO funds.
    Base funds are critically important to ensuring long term support 
for critical Department of State and USAID programs. We look forward to 
working with Congress to re-establish the Department's enduring base 
funding as we move toward the FY 2018 budget.


                               __________

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                   SECRETARY KERRY BY SENATOR SHAHEEN

    Question 1. The JCPOA has resulted in Iran slashing its stockpile 
of enriched uranium by at least 97 percent and surrendering most of its 
uranium enrichment capacity, disabling more than 13,000 uranium 
enrichment centrifuges and ceasing all uranium enrichment activities at 
its underground Fordow facility. Iran also modified its Arak heavy 
water reactor to prevent the production of weapons-grade plutonium.


   Does the administration's budget request ensure the IAEA has the 
        funding necessary to fulfill its role and hold Iran 
        accountable?


    Answer. Yes. Resources requested in the administration's FY2017 
budget, together with international extrabudgetary support already 
pledged, will fully cover IAEA costs in fiscal year 2017.
    The IAEA's monitoring role is essential to the success of the 
JCPOA. Costs associated with the IAEA's role in the years to come will 
need to be met through a combination of assessed dues toward the IAEA's 
regular budget (paid through the Contributions to International 
Organizations account) and extra-budgetary contributions (paid through 
the Nonproliferation, Antiterrorism, Demining, and Related programs 
account). The FY2017 budget request includes resources for U.S. 
contributions through both of these mechanisms.
    Thanks to sustained and strong Congressional support for the U.S. 
voluntary contribution to the IAEA, we have maintained the ability 
every year to support urgent, high-priority projects like IAEA 
monitoring of the JCPOA.
    We will continue to work with international partners and with 
Congress to ensure that necessary resources are made available to the 
IAEA throughout the duration of the JCPOA.


    Question 2. What are we doing to push back against Iran's continued 
destabilizing activities, including its support to Hezbollah? How is 
the Administration using the new authorities in the Hezbollah Sanctions 
Act passed by this Congress last year?

    Answer. Iran's destabilizing activities in the region threaten our 
interests and our allies. They are a top concern of the Administration, 
and we are working intensively with our partners in the region to deter 
and disrupt Iranian threats. The September 25, 2015 seizure of a dhow 
carrying Iranian weapons that were likely bound for the Houthis in 
Yemen is a recent example. 
    Additionally, we have expanded our security engagement with Gulf 
partners following the President's summit at Camp David last May 
through the establishment of six U.S.-GCC working groups on ballistic 
missile defense, military preparedness, counterterrorism, arms 
transfers, cybersecurity, and intelligence sharing.
    While Iran received relief from nuclear-related sanctions under the 
Joint Comprehensive Plan of Action, our sanctions to counter Iran's 
destabilizing activities, support for terrorism, ballistic missile 
development, and human rights abuses remain in place and we will 
continue to enforce them.
    The administration fully supports the Hizballah International 
Financing Prevention Act of 2015 (HIFPA) as a valuable tool in our 
overall strategy to dismantle Hizballah's global financial network. 
Before the passage of this legislation, we targeted the nodes of 
Hizballah's international financing by designating 99 Hizballah-
affiliated individuals and entities, and we sanctioned five more 
individuals and entities in January 2016 alone.
    We will use our authority under HIFPA to target financial 
institutions knowingly facilitating significant transactions or engaged 
in money-laundering activities on behalf of Hizballah. The State 
Department, Treasury, and our partners in the Intelligence Community 
are constantly looking for solid evidence of such activity. When we see 
evidence, we will build a case, and we will take action.
    We have made significant progress and will continue to further 
disrupt Hizballah's terrorist capabilities by targeting the group's 
financial support infrastructure. Treasury and State have consistently 
used and will continue to use our authorities to expose and target 
Hizballah's financial, commercial, and terrorist activities around the 
world.


    Question 3. Secretary Kerry, according to the Drug Enforcement 
Administration's most recent National Drug Threat Assessment Report, 
Mexico and Colombia continue to supply almost all of the heroin that 
reaches U.S. markets. As you know, the number of heroin-related 
overdose deaths in the U.S. have more than doubled in the past five 
years. The President's request for International Narcotics Control and 
Law Enforcement assistance to Mexico is reduced when compared to the 
current budget by more than 25%.


   Given that the DEA Threat Assessment report concluded that 
        ``Mexican traffickers are making a concerted effort to increase 
        heroin availability in the U.S. market,'' shouldn't the State 
        Department be looking for ways to deepen our joint efforts with 
        Mexico to combat drug trafficking?


    Answer. Our bilateral dialogue with the Government of Mexico on 
counternarcotics, and specifically on heroin, has led to enhanced 
collaboration on this critically important issue. The Bureau of 
International Narcotics and Law Enforcement (INL), under the Merida 
Initiative, is working with the Government of Mexico to help build the 
capacity of Mexico's law enforcement and rule of law institutions to 
disrupt drug trafficking organizations (DTOs) and to stop the flow of 
heroin and other drugs from Mexico to the United States. Beyond 
financial support, we are providing training and capacity building for 
police, enhancing Mexico's interdiction capabilities through the 
donation of non-intrusive inspection equipment (NIIE) and support for 
canine units, and assisting Mexico's transition to an accusatory 
justice system. We are also augmenting Mexico's capacity to identify 
and dismantle clandestine heroin and methamphetamine labs.
    The United States and Mexico are working to increase communication 
and information sharing on the topic of heroin and methamphetamine. In 
the last year, we funded bilateral heroin and methamphetamine seminars, 
which brought together leading experts from both countries to share 
information and strategies. We will provide additional programming as 
needs are identified through our partnership with the Government of 
Mexico.


    Question 4. This budget would increase assistance to Colombia by 
$100 million. What portion of that funding will go towards counter-drug 
efforts?

    Answer. Of the total FY 2017 budget requested by the Department of 
State for assistance in Colombia, $95 million in International 
Narcotics Control and Law Enforcement (INCLE) funds and $90.46 million 
in Economic Support Funds (ESF) will support counter-drug efforts. 
Compared to the FY 2016 budget request, this represents an overall 
increase of $23.115 million; a decrease of $350,000 to INCLE and an 
increase of $23.465 million to ESF, which correlates to the Government 
of Colombia's increased emphasis on alternative development as a 
counter-drug tactic.
    INCLE funds will support the Government of Colombia's effort to 
implement its new counternarcotics strategy. In October 2015, the 
Government of Colombia issued regulations halting all aerial 
eradication. Going forward, Colombian efforts will place a greater 
emphasis on interdiction operations, manual eradication, seizing assets 
through anti-money laundering efforts, and complex criminal 
investigations to dismantle organized crime groups. Sustained levels of 
assistance will be required to support Colombia's continued commitment 
to our shared counter-drug objectives.
    ESF funds will help Colombian authorities improve the quality and 
volume of licit crops; strengthen the competitiveness of rural 
producers to respond to new and expanding market opportunities; 
leverage private investment to generate business opportunities; promote 
the provision of market-based rural financial services for micro-, 
small- and medium-sized producers and businesses; address the 
challenges of illegal and informal mining; and provide support to 
Colombia's rapid response programming for peace accord implementation.
    Question 5. The President's budget has requested that Congress 
restore two-year appropriations for Diplomatic & Consular Programs 
funding. Could you outline how this change would improve Departmental 
function and efficiency?

    Answer. The Department seeks two-year authority for the Diplomatic 
and Consular Programs (D&CP) appropriation to facilitate implementation 
of interagency funding agreements and enable efficiencies in executing 
annual appropriations. The Department would capitalize on the following 
benefits:


   Make better use of GSA Reimbursable Work Authorizations (RWA) for 
        construction projects that extend beyond one year. GSA recently 
        prohibited the use of ``incremental funding'' for most multi-
        year projects, meaning that State can no longer fund a GSA-
        managed project by applying appropriations from a current year 
        and a subsequent year. State will have to break projects into 
        phases with a single-year RWA for each phase, which will 
        increase costs. Each RWA will incur a GSA project management 
        fee of up to $30,000, and savings achieved during any phase on 
        an RWA can no longer be spread to related activities, resulting 
        in lost opportunities to utilize savings. With two-year 
        funding, State could avoid the extra costs and inefficiencies 
        associated with creating multiple one-year RWAs, and could 
        apply savings before they expire.


   Facilitate financial arrangements with foreign governments and 
        international organizations that do not operate on the U.S. 
        fiscal calendar. Some bureaus use D&CP funds to pay for 
        expenses of U.S. participation in international organizations, 
        which implemented through agreements that may cross over into 
        the next fiscal year. Two-year authority would prevent D&CP 
        funding from expiring at the end of the first fiscal year, and 
        thus being unavailable to meet U.S. commitments.
          For example, State regularly enters into memorandums of 
        understanding (MOU) with the Community of Democracies (CD)--a 
        coalition of democratic nations promoting representative 
        government--under which D&CP funds are used to pay the U.S. 
        costs of participating in the CD. CD bases its financial 
        planning on calendar years, but State's obligations are based 
        on the fiscal year. As a result, the Department cannot obligate 
        expired funding for expenses incurred by the CD between the end 
        of the fiscal year and the calendar year, even when such 
        expenses were budgeted for.
          In 2015 CD incurred significant expenses related to U.S. 
        participation from October to December, a period the 2015 MOU 
        with State was meant to cover. CD could not access the funding 
        provided by that MOU after the U.S. fiscal year ended on 
        September 30th. Securing FY 2016 funds to fulfill State's 2015 
        agreement with CD required revisions to the MOU, and a lengthy 
        funds recovery and reallocation process. This disrupted CD's 
        work. Absent a last-minute year-end contribution from Poland, 
        CD may not have been able to continue operating while waiting 
        to receive the full funding promised by the United States.


   Eliminating the requirement for two Treasury accounts for each 
        period of D&CP availability. The current process for carrying 
        over a percentage of D&CP funds into the two-year appropriation 
        is highly complex, involving numerous time-consuming steps that 
        require OMB and Treasury approval. In FY 2015, up to $650 
        million were made available for two fiscal years. The following 
        steps were required to extend those FY 2015 D&CP funds into FY 
        2016.


         1. Unobligated balances were identified as the end of FY 2015 
        was drawing to a close;

         2. Balances were withdrawn from the FY 2015 account and 
        prepared for transfer;

         3. New FY 2015/2016 accounts were created for the transfer;

         4. New apportionment document submitted to OMB for approval;

         5. New transfer document submitted to Treasury for approval;

         6. Upon receipt of approval from OMB and Treasury funds are 
        available for obligation;

         7. New allotments documents were created to allocate funding 
        to various bureaus/programs


   As expired FY 2015 D&CP balances become available, all of these 
        steps (except #3) are being repeated to transfer expired FY 
        2015 balances into the FY 2015/2016 account during FY 2016.


                               __________

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                   SECRETARY KERRY BY SENATOR PERDUE

    Question 1. Looking at your overall budget request for the 
International Affairs budget for FY 2017, it represents a 25 percent 
increase since FY 2008 in constant dollars.


   Can you help me understand what accounts for this increase in the 
        budget since FY 2008? The rest of the accounts that make up our 
        budget certainly haven't increased by this amount.


    Answer. Increases in spending by the Department of State and USAID 
since 2008 are primarily due to greater investments in humanitarian aid 
and the rising costs of maintaining the safety of our employees 
stationed overseas.
    The Department and USAID have expanded foreign assistance programs 
in recent years to address increasing global challenges, including 
addressing conflict and insecurity in Syria, Iraq, South Sudan, Central 
African Republic, the Democratic Republic of the Congo, and elsewhere. 
As part of this effort, humanitarian assistance needs have greatly 
increased, and we have responded robustly. In recent years, we have 
also expanded resources to address global health needs and the 
underlying causes of the migration crisis in Central America, and to 
invest in Asia's part of the Administration's Asia Rebalance effort.


    Question 2. Overall, this budget request appears to have some 
shifting priorities since FY 2016. The overall request has gone down by 
about 1 percent. The request for diplomatic engagement, however, has 
gone up 4 percent (background: diplomatic engagement includes worldwide 
security protection, embassy construction and maintenance, staffing and 
HR, the regional bureaus in DC, contributions to international 
organizations, public diplomacy and exchanges). However, the overall 
foreign assistance request has decreased by 3 percent.


   Is that the right direction we should be going in? How do you 
        account for spending more here in DC and less on foreign 
        assistance?


    Answer. The increase in the Diplomatic Engagement portion of the 
State Department budget from FY 2008 to the FY 2017 request is largely 
attributable to an increase in funding for security projects over this 
timeframe. Authority for non-security spending has remained essentially 
flat, while security related spending has more than doubled.
    There are three major factors which have contributed to the 
increase in security related authority:
    First, the Department's priority on maintaining a presence in 
conflict areas has required funding to protect our persons and assets 
in those areas. The Department sees great value in having Americans 
observing at the ground level in conflict areas worldwide. This is true 
of our missions in Iraq, Afghanistan, and Pakistan. America needs a 
diplomatic presence in conflict areas to counter terrorism, sectarian 
violence, and the spread of conflicts beyond borders.
    Second, the military draw-down in Iraq and Afghanistan has required 
that security of American persons and assets be provided by State 
resources. As the military presence has been reduced in these two vital 
missions, the State Department has taken on the role of maintaining a 
secure environment from which United States government personnel can 
operate. The security situation in these two countries is not only very 
different now than it was in 2008, but the number of military personnel 
is far smaller than in 2008.
    Third, internal reorganizations have moved security-related 
spending to a handful of accounts, increasing these security accounts 
and reducing the administrative accounts from which the funds were 
moved. In FY 2008, much of the funding for Diplomatic Security was in 
the Diplomatic and Consular Programs (D&CP) ongoing operations account. 
Over time this funding has been moved to the Worldwide Security 
Protection (WSP) account. Similarly, security-related funds in the 
Embassy Security, Construction, and Maintenance (ESCM) account have 
moved into the Worldwide Security Upgrades (WSU) account.
_______________________________________________________________________

    The table below groups Diplomatic Engagement budget authority into 
four categories:

 
 
 
 
D&CP Ongoing Operations            The non-security portions of the D&CP
                                    (19-0113) account
 
Other Diplomatic Engagement        All other non-fee, non-security
                                    appropriated accounts except
                                    International Organizations (IO)
 
Security Programs                  WSP, WSU, Protection of Foreign
                                    Missions and Officials
 
International Organizations        Contributions to International
                                    Organizations (CIO), Contributions
                                    to International Peacekeeping
                                    Activities (CIPA)
 

_______________________________________________________________________
      

                      COMPARISON OF APPROPRIATED BUDGET AUTHORITY FOR DIPLOMATIC ENGAGEMENT
                                     (FY 2008 Actual Versus FY 2017 Request)
----------------------------------------------------------------------------------------------------------------
                                                                                                 Percent  Change
                                                       FY 2008       FY 2017    Percent  Change      (Constant
         Non-Adjusted Dollars in Millions              Actual        Request    (Non- Adjusted)     Dollars) *
 
----------------------------------------------------------------------------------------------------------------
Diplomatic and Consular Programs..................        5,639         4,957              -12              -21
Other Non-Security Diplomatic Engagement..........        1,439         1,852               29               16
----------------------------------------------------------------------------------------------------------------
Security Related Programs.........................        1,949         5,332              174              146
  Worldwide Security Protection...................        1,179         3,715              215              183
  Worldwide Security Upgrades.....................          747         1,587              112               91
  Protection of Foreign Missions and Officials....           23            30               30               17
----------------------------------------------------------------------------------------------------------------
International Organizations.......................        3,473         3,932               13                2
  Contributions to International Organizations....        1,409         1,387               -2              -12
  Contributions to International Peacekeeping             2,064         2,545               23               11
   Activities.....................................
================================================================================================================
Total Administration of Foreign Affairs...........       12,500        16,073               29               15
----------------------------------------------------------------------------------------------------------------
* Dollars adjusted using CPI-U BLS full year average for CY 2008 and OMB President's Budget FY 2017 Assumptions
  for FY 2017.



    Question 3. The two-year budget deal reached late last year 
increased the International Affairs Overseas Contingency Operations 
(OCO) budget by approximately 60 percent compared to FY 2015. The 
growth in OCO has also made the International Affairs Budget 
dangerously dependent on a funding mechanism that was originally 
intended only to cover temporary, generally war-related programs. The 
use of OCO for the State Department Budget has shifted from being 
exclusively for ``frontline'' states, like Afghanistan and Iraq, and is 
now to be used to quote ``respond to, recover from, or prevent, 
including armed conflict as well as human-caused and natural 
disasters,'' according to your FY 2017 Congressional Budget 
Justification.


   Can you explain the expansion of the use of OCO beyond 
        ``frontline'' states? (frontline being Afghanistan, Iraq, 
        Pakistan traditionally)

   Isn't responding to and recovering from international crises a 
        normal part of State department and USAID operations?
   What are the short-and long-term implications of this growing 
        dependence on OCO, and how does the Administration propose to 
        strengthen the ``base'' or long-term international Affairs 
        funding in the future?


    Answer. The OCO portion of the FY 2017 request for the Department 
and USAID is $14.9 billion, consistent with the Bipartisan Budget Act 
of 2015. The OCO request will support Department of State and USAID 
efforts to prevent, address, and recover from man-made crises and 
natural disasters and secure State and USAID global operations. The 
United States is currently simultaneously engaged in more places with 
more issues of consequence than in recent history.
    In support of this increased engagement and assistance, the FY 2017 
request includes OCO increases for several major programs. For Embassy 
Security, Construction, and Maintenance, we will be relying more 
heavily on OCO to construct more safe and secure diplomatic facilities 
in India, Kenya, Uganda, and Afghanistan. It will also enable us to 
contribute to peacekeeping mission, shield allies and partners from 
potential threats, aid Afghanistan and Pakistan, step up our efforts to 
destroy Da'esh, and confront and recover from other crises in the 
Middle East and Africa.
    While we appreciate that the OCO increase was instrumental to 
securing an overall increase in funding for FY 2016 and FY 2017 above 
levels included in the Budget Control Act, the Department is concerned 
about the shift in balance between base and OCO funding. Programs 
supported with base funding serve as the foundation of core, ongoing 
Department operations and assistance programs. Base funds support vital 
development and diplomacy programs, including health, democracy, and 
diplomatic security.
    The Department looks forward to working with Congress to restore 
the Department's enduring funding levels for long-term programs as we 
move toward the FY 2018 budget. The President's Budget anticipates this 
by planning for the restoration of $8.7 billion to the International 
Affairs base budget in FY 2018.


    Question 4. The growing dependence on OCO to fund America's 
development and diplomacy programs means that a broad range of programs 
and accounts that are designed to meet long-term commitments, and 
historically were funded in the base budget, now receive a significant 
share of their funding through a temporary funding mechanism. Given the 
strain on discretionary resources, this flexibility is important in the 
short-term but has led to a significant shift in funding from base to 
OCO for certain programs. For example, nearly 100 percent of U.S. 
assistance to Jordan is funded through the OCO account in this year's 
budget request. In another example, the line item for ``Contributions 
for International Peacekeeping'' went from being fully base-budget 
funded in FY15 to now 66 percent of the amount has been shifted to OCO 
in FY 2017. Could you expand on the Administration's thinking behind 
these major shifts in funding for long-term programs specifically?

    Answer. The OCO portion of the FY 2017 request for the Department 
and USAID is $14.9 billion, consistent with the Bipartisan Budget Act 
of 2015. The Department is also concerned about the shift in balance 
between base and OCO funding, particularly the substantial increase in 
OCO funds as compared to base. The Department looks forward to working 
with Congress to restoring enduring funding levels as we move toward 
the FY 2018 budget. The President's Budget actually anticipates this by 
planning for the restoration of $8.7 billion to the International 
Affairs base budget in FY 2018.


    Question 5. The world is facing unprecedented humanitarian crises--
conflict and disaster have displaced millions of people. In June 2015, 
the U.N. High Commissioner for Refugees (UNHCR) reported that 
worldwide, nearly 60 million persons were forcibly displaced--the 
highest number on record. Despite these record highs, the total U.S. 
humanitarian assistance request is $6.156 billion--that's 20 percent 
less than FY 2016. Further, the amount in the Migration and Refugee 
Assistance account in this year's request decreased by $267 million.


   What accounts for this significant decrease? Particularly when the 
        causes of this mass migration have yet to be solved?


    Answer. Humanitarian assistance remains a top priority for the 
Administration. The United States continues to be the largest bilateral 
contributor of humanitarian assistance funding.
    The FY 2017 request includes $6.2 billion in humanitarian 
assistance, which is over $500 million above the FY 2016 Request of 
$5.7 billion.
    In concert with the significant resources provided by Congress in 
FY 2016, the funding included in the FY 2017 request will help to meet 
humanitarian assistance needs globally over the next two years.


    Question 6. Can you describe State's strategies for delivering 
assistance to these areas? Approximately, in what percentage of the 
country have State and USAID been able to operate?

    Answer. There are 13.5 million people in need of humanitarian 
assistance inside Syria; 6.4 million are IDPs, 1.3 million people are 
hosting IDPs, and nearly 4.5 million people are living in hard-to-reach 
locations, including 360,000 people in besieged areas. Priority 
humanitarian needs for 2016 include emergency food assistance, health 
care, shelter, and water, sanitation and hygiene (WASH) assistance.
    We cannot provide a percentage of the country in which State and 
USAID have been able to operate in delivering humanitarian assistance. 
However, we work closely with countries in the region--mainly Turkey 
and Jordan--as well as with the United Nations and our NGO partners to 
get assistance into Syria through all possible means. Approximately 
half of the more than $5.1 billion of humanitarian assistance that we 
have provided has gone to humanitarian needs inside Syria. Our 
international organization and NGO partners hope that the cessation of 
hostilities in Syria will allow for more systematic access to the 
besieged areas and hard-to-reach locations. As the cessation of 
hostilities holds we continue to work with the U.N. and members of the 
International Syria Support Group (ISSG), particularly Russia, to 
expand access and assistance to more priority areas inside the country.
    Since the cessation of hostilities in Syria came into effect on 
February 27, humanitarian access has significantly improved for many of 
the hard-to-reach and besieged locations prioritized by the ISSG. As of 
March 8, 10 interagency convoys comprised of nearly 300 trucks have 
provided emergency relief assistance to more than 225,000 people, or 
approximately 46 percent of the estimated 486,700 people living in 
U.N.-identified besieged areas.
    Approximately 500 U.N. interagency trucks crossed into northern 
Syria via the Bab al Salaam and Bab al Hawa border crossings, providing 
emergency relief supplies to people in Afrin, Azaz, and Mar'a sub-
districts in Aleppo, as well as Harim and Idlib sub-districts, Idlib 
Governorate. The Turkish Red Crescent, which facilitates NGO 
utilization of the humanitarian lanes at the borders, also reported an 
uptick in NGO cross-border deliveries, noting that an estimated 800 
trucks passed through the Atmeh, Bab al Hawa, Bab al Salaam, Kobane, 
and Yamadiah border crossings in February.


    Question 7. Due to restrictions in place, aid is often delivered 
using networks of volunteers in Syria


   What requirements or specific policies does State and USAID have in 
        place to vet volunteers or networks that assist in the delivery 
        of this humanitarian aid?

   What types of monitoring activities do State and USAID implement to 
        ensure accountability of assistance delivery?

   What percentage of deliveries in Syria has been affected by fraud 
        or diversion? How does the U.S. track this?


    Answer. The State Department and USAID vet beneficiaries of Syria 
assistance as part of our strategy to mitigate the risk that U.S. 
government non-lethal assistance could benefit groups or individuals 
associated with terrorism. Further, the vetting process is intended to 
ensure that U.S. government assistance is not provided to individuals 
or entities that are human rights violators:


   Vetting coordinators from each implementing office coordinate with 
        the Intelligence Community to identify derogatory or 
        potentially derogatory information.

   In addition to vetting, we closely monitor and evaluate our 
        assistance through a network of Syrian in-country monitors who 
        interface directly with beneficiaries to ensure assistance is 
        delivered, hand receipts, photographs, and tracking devices.
State Department:
   There are unique challenges to working in Syria, given the ongoing 
        conflict, the range of actors on the ground including 
        designated terrorist organizations, and the lack of U.S. 
        presence on the ground. However, we have a range of monitoring 
        procedures in place to help mitigate the risk that assistance 
        falls into the wrong hands and ensure that the assistance is 
        used appropriately by recipients. These efforts include:


   Meetings with the recipients of State Department assistance in 
        Turkey or Jordan to ensure they know the responsibilities of 
        accepting U.S. assistance.

   Having recipients sign a letter of assurance before receiving 
        support that details the responsibilities of accepting U.S. 
        assistance and declare that they will not use the assistance 
        for any other than its intended purpose or divert equipment to 
        designated terrorist organizations.

   Follow up meeting with beneficiaries to assess the usefulness of 
        the assistance to further refine their needs assessments and 
        target the appropriate assistance

   Survey reports from recipients via email/phone to report on the use 
        of the assistance.

   Syrian field monitors are contracted to observe and survey 
        beneficiaries for the provision of heavy equipment. When 
        security allows, photographs are taken of in-kind assistance. 
        When the security situation cannot allow monitors, phone calls 
        are used to query the recipients on the current location and 
        status of equipment.
USAID
    USAID works closely with partners to ensure that its assistance is 
reaching the intended beneficiaries. USAID exercises considerable 
oversight over our programs, and our partners have developed a variety 
of multi-layered monitoring and tracking mechanisms to make sure that 
our assistance gets to those it is intended to reach.


   Partners are required to provide prompt, regular updates on the 
        progress of their activities and any security concerns. USAID 
        staff closely and systematically track the reports, are in 
        regular direct communication with partners, and immediately 
        follow up on any reported issues.

   USAID works closely with all its partners to collect performance 
        and situational data to monitor activities and gather enough 
        information from different sources to verify assistance is 
        reaching targeted areas and beneficiaries, including through 
        geo-tagged photos and videos of distributions, independent 
        field monitors, and feedback hotlines for beneficiaries. 
        Partners are required to provide regular program updates on the 
        progress of their activities and any security concerns, and we 
        require them to report any diversions, seizures, or losses 
        immediately, without exception, for immediate follow-up and 
        investigation.

   The USAID Disaster Assistance Response Team (DART) in Jordan and 
        Turkey meets regularly with partners to discuss programming, 
        issues that impede humanitarian activities, and partners' risk 
        mitigation mechanisms. The DART also meets with the broader 
        humanitarian community, and communicates directly and 
        indirectly with Syrian organizations that provide added layers 
        of ground-truth to partner reporting. The DART also attends 
        cluster and donor coordination meetings, which provide an 
        opportunity to triangulate information about partners' 
        performance.

   In addition, USAID utilizes a third-party monitoring system to 
        verify and provide independent confirmation of a number of 
        USAID programs. By providing independent, field-based 
        monitoring of activities and verification of outputs, as well 
        as monthly progress reporting, third party mechanisms supply 
        USAID with the level of assurance that comes from field visits 
        that are the basis of USAID monitoring in more stable 
        environments, but also contribute to program learning.

   USAID staff in Washington also maintains regular contact with all 
        humanitarian partners, including U.N. agencies, other 
        international organizations, and NGOs, concerning their 
        assistance activities in Syria. The U.S. government 
        humanitarian response inside Syria is coordinated by the Middle 
        East Crisis Response (MECHR) Management Team, which is 
        inclusive of both USAID's Office of Food for Peace and USAID's 
        Office of U.S. Foreign Disaster Assistance. USAID leadership 
        also regularly engages with U.N. agency emergency directors and 
        other senior U.N. staff in a variety of forums, including 
        Emergency Directors Group meetings, Syria Top Donor Group 
        meetings, and other events.

   As part of its mandate, the OIG writes a quarterly Operation 
        Inherent Resolve (OIR) report detailing events of the quarter. 
        The investigators explore a variety of issues to help 
        understand and review USAID/OFDA and USAID/FFP operating 
        principles, methods for ensuring accountability of funding, and 
        efficacy of programming.


    Known losses comprise less than 4 percent of State Department non-
humanitarian assistance provided through the START and SSAP platforms. 
To date, less than 0.05 percent of USAID program funds for the Syria 
humanitarian crisis response has been lost to fraud or diversion. 
Approximately 0.04 percent of total Office of Transition Initiatives 
funded non-humanitarian assistance is known to be lost or diverted.
    We take all battlefield losses of U.S.-provided equipment very 
seriously and have a range of risk mitigation steps in place to limit 
these losses. However, given that Syria is an active war zone, some 
losses are unavoidable. It is important that we maintain our commitment 
to supporting the moderate opposition in Syria as they seek to counter 
extremists and defend against the regime, with the goal of ultimately 
creating the conditions for a negotiated political solution. Losses 
accounting is a joint effort between START and SSAP, USAID and State 
Department, implementing partners, and grantees. As losses come to 
light, START and SSAP staff work closely with implementing partners and 
grantees to confirm all relevant details, which are then tracked in 
Washington.


    Question 8. ISIS's branch in Libya is expanding its reach across a 
broadening area of Africa. They are taking advantage of the chaos and 
security vacuum in Libya to expand territory, and grow. CIA Director 
John Brennan told the Senate earlier this month that quote, ``Libya has 
become a magnet for individuals not only inside Libya, but from the 
African continent as well as from outside,'' in terms of terrorist 
recruitment. This year's budget request focuses most of its counter-
ISIS measures at Iraq and Syria, as well as immediately neighboring 
countries like Jordan and Lebanon. While ISIS in Iraq and Syria is 
certainly the more immediate threat, we should work to prevent this 
emerging threat in Libya from getting out of hand.


   Could you outline for me what State plans to do to counter this 
        developing threat in Libya?

    Answer. The United States remains committed to supporting the 
Libyan people in their fight against Da'esh. We are actively supporting 
the U.N.-facilitated Libyan political process to form the Government of 
National Accord, putting Libya on the path to regaining control of the 
country's ungoverned space. We and our international partners will work 
together with the Government of National Accord to counter the growing 
threat from violent extremists and Da'esh-aligned groups and rebuild a 
national security force to restore stability in Libya.
    To that end, we are committed to providing the Government of 
National Accord technical, economic, humanitarian, security, and 
counter-terrorism assistance, as requested. We are pursuing our 
counterterrorism and governance efforts so that they proceed in 
parallel and are mutually reinforcing. A unified, capable national 
government is our best hope for a sustainable effort to counter Da'esh 
and other extremists.
    At the same time, we will not ignore immediate threats from Da'esh 
or other extremists. As President Obama has made clear, we will not 
hesitate when it comes to defending U.S. national security interests 
and to taking direct action when necessary. Actions like the U.S. 
strike on a Da'esh facility in Sabratha, Libya, which we announced on 
February 19, are part of our comprehensive approach to degrading and 
ultimately destroying Da'esh. Last November, the United States 
conducted an airstrike against Abu Nabil, an Iraqi, who was at the time 
the leader of Da'esh in Libya. These actions show our commitment to 
dislodging Da'esh from Libya.


    Question 9. I, and many of my colleagues, disagree with the U.S. 
peacekeeping assessment level set by the U.N. General Assembly. Since 
FY1992, with few exceptions, Congress has enacted a cap on U.S. 
payments to U.N. peacekeeping at levels below the established U.N. 
assessment. Your budget request this year is based on the U.N. 
peacekeeping assessment for the U.S. of 28.56 percent, rather than the 
amount recognized by U.S. law, which is 27.14 percent.


   What is the Administration's position on this issue?

   How has the cap impacted recent budget requests and appropriations?

   More broadly, what impact, if any, has this issue had on U.N. 
        peacekeeping operations?


    Answer. The U.S. role as a global leader demands that we continue 
to pay our U.N. peacekeeping assessments in full, at the rate assessed, 
so U.N. peacekeeping missions have appropriate resources available to 
carry out their life-saving mandates. While Congress passed legislation 
in 1994 (P.L. 103-236) capping our use of appropriated funds for 
peacekeeping assessments at a rate of 25 percent, Congress also raised 
the cap for calendar years 2001 through 2012 to authorize the use of 
appropriated funds to pay U.S. assessed peacekeeping expenses in full.
    The current U.S. peacekeeping assessment rate for calendar year 
2016 is 28.57 percent. However, the Department only has the authority 
for fiscal year 2016 to make payments from appropriated funds at the 
calendar year 2012 assessed rate of 27.14 percent. Because of the 
Administration's commitment to paying U.S. treaty obligations in full 
and on-time, the President's request is based on the current U.N. 
peacekeeping assessment rate, and accordingly requests raising the 
statutory cap so that the United States can pay our assessments in 
full.
    If the funds are appropriated without an associated cap lift, the 
United Nations may apply U.N. peacekeeping credits to pay the 
difference, to the extent such credits are available. If there are not 
adequate credits to address the difference, the cap will cause the 
United States to accrue new arrears. The reliance on credits is not a 
sustainable practice as there may not be sufficient peacekeeping 
credits to address future shortfalls caused by the statutory cap.
    The gap between the actual U.S. assessment rate and the amount of 
the U.S. payment will deprive the United Nations of the full amount of 
funding that the General Assembly appropriated for peacekeeping 
missions. Reductions in U.S. payments can strain important U.N. 
peacekeeping operations or cause delays in reimbursements to troop 
contributing countries, which can affect future troop rotations. Timely 
and full U.S. payment has helped to solidify the U.N.'s ability to 
attract and retain peacekeeping forces, strengthened U.S. leverage with 
troop contributing countries, and allowed us to more effectively shape 
and reform peacekeeping operations to deliver maximum impact. For 
example, in September 2015, President Obama convened the Leaders' 
Summit on Peacekeeping, which resulted in new and significant pledges 
of troops, police, and enabling capabilities to U.N. peacekeeping from 
over 50 countries and regional organizations. Paying late and accruing 
arrears undermines U.S. credibility and influence at the U.N., 
particularly on matters dealing with budget, finance, and management 
reform. In the past, this has affected world opinion regarding U.S. 
commitment to multilateral engagement and respect for the role of 
multilateral organizations, and has diminished our own U.S. influence 
even with our closest allies.


    Question 10. The State Department, as requested, has been provided 
by the Congress with a substantial influx of additional resources since 
FY 2013 to address global diplomatic security needs.


   How are these resources contributing to the security of our 
        diplomats abroad?

   To what extent are the requests for higher levels of spending 
        likely to persist into future years?

   How are you balancing funding for and attention to securing high 
        threat posts against the possibility that less threatened posts 
        will be targeted--bearing in mind that Kenya and Tanzania were 
        not considered high threat when they were bombed in 1998?


    Answer. Diplomatic Security programs protect thousands of Chief of 
Mission (COM) personnel, and the facilities and data systems on which 
these personnel rely, at 275 overseas posts and 125 domestic offices. 
The Department's budget request reflects the Administration's 
commitment to:


   Prepare U.S. government personnel posted overseas under COM 
        authority for assignments to critical and high threat posts. 
        Manage a full spectrum of counterterrorism, criminal, and 
        special investigations to include violations of laws regarding 
        U.S. passports and visas, defensive counterintelligence 
        programs, and interagency liaison functions. Investigations 
        include analysis involving terrorist threats, incidents, and 
        hostile activities directed against U.S. government personnel, 
        facilities, and interests around the world:


 1. Provide robust and nimble information security protection that 
        keeps pace with changing technology.

 2. Leverage the latest physical and technical countermeasures for use 
        worldwide.

 3. Conduct initial and periodic vetting of all employees and 
        contractors in positions that require security clearances, 
        access to sensitive intelligence, or public trust 
        certifications.


    The Bureau of Diplomatic Security conducts regular, integrated 
budget and performance reviews over the course of the fiscal year. 
These reviews inform resource requirements, and provide for the 
informed and accountable development of future budgets. Resources are 
finite. Therefore, the Department carefully manages its resources to 
ensure that emergent priorities are addressed as quickly as possible in 
order to keep our people safe at all of our posts worldwide. We apply 
the lessons learned from previous attacks to all of our facilities.
    Although the unique conditions at each post dictate a specific 
approach to providing security for facilities and personnel, such as a 
post-specific travel policy, there are a number of programmatic 
commonalities that apply worldwide, regardless of threat levels and 
local security environments, including:


   The need for construction of hardened, secure facilities with 
        setback where older facilities fall short.

   The use of appropriate technical and physical security technologies 
        and countermeasures.

   The development and maintenance of a well-trained, well-equipped 
        and flexible cadre of security professionals across a variety 
        of disciplines.

   Training to deal with enhanced-risk environments: the Foreign 
        Affairs Counter Threat (FACT) course will be required for all 
        Chief of Mission employees serving overseas by January 1, 2019.

   The deployment of a wide range of technical security equipment 
        needed to protect our facilities and people.

   Close cooperation with interagency partners and host country 
        security agencies to detect, deter and disrupt threats directed 
        against U.S. interests abroad.

   Soft target funding for physical and technical security 
        improvements at international schools.


    While risk can never be completely eliminated from our diplomatic 
duties, we work to constantly mitigate it, regardless of the threat 
level. The Bureau of Diplomatic Security is also fortunate to retain 
no-year availability authority on Worldwide Security Protection 
funding. Continuation of this authority provides the Department 
essential flexibility to sustain complex, global security programs, and 
to adjust mitigation responses as security threats evolve, not only at 
high threat posts, but at all diplomatic locations.
    Additionally, the Department prioritizes the construction of safe 
and secure embassy and consulate facilities to replace those that are 
most vulnerable. Under the direction of the Bureau of Overseas Building 
Operations, 129 projects have been completed since the 1999 enactment 
of the Secure Embassy Construction and Counterterrorism Act--moving 
more than 35,000 people into safer and more secure facilities. Funding 
in Fiscal Years 2013-2015 has allowed us to move forward with the 
following projects:


   FY 2013--New Embassy Compounds (NEC) in N'Djamena, Chad; 
        Nouakchott, Muaritania; Paramaribo, Suriname; and The Hague, 
        Netherlands; as well a new office annex in Amman, Jordan and 
        new housing in Karachi, Pakistan.

   FY 2014--NECs in Ankara, Turkey; Ashgabat, Turkmenistan; Harare, 
        Zimbabwe; Maputo, Mozambique; and Pristina, Kosovo; as well as 
        New Consulate Compounds (NCC) in Erbil, Iraq and Nuevo Laredo, 
        Mexico. In addition, Marine Security Guard Residences were 
        funded in Belmopan, Belize; Guayaquil, Ecuador; and Tijuana, 
        Mexico.


    Question 11. Operations in the challenging environments of the 
three countries termed ``frontline states''--Afghanistan, Pakistan, and 
Iraq--continue to rightly be a focus of attention by the Department. 
Together, these three countries (at a total of $2.62 billion) make up 
roughly 22 percent of the State Department's overall request for 
operational funding. NEA and SRAP:


   Please describe your long-term plans for presence in the frontline 
        states.

   Does the significant investment of resources necessary to maintain 
        a full presence in these challenging conditions come at an 
        opportunity cost elsewhere?

   What lessons from the Iraq transition (from military to civilian 
        lead) are being applied to our presence in Afghanistan?

    Answer. First, as laid out in the U.S.-Afghanistan Strategic 
Partnership Agreement and the Bilateral Security Agreement, the United 
States maintains a long-term commitment to support Afghanistan's social 
and economic development, security, and institutions so that 
Afghanistan may never again serve as a safe haven for terrorists who 
would attack the United States and its allies. The Department is 
continuing the consolidation of security, development, and diplomatic 
activities in Kabul to allow the U.S. to ensure that as few people as 
necessary remain in harm's way, and that remaining staff have the 
security and resources they require to do their jobs.
    From more than 1,200 U.S. direct-hire staff at the peak of the 
surge, the Department is working toward a steady state of roughly 500 
direct hires (supported by about 4,000 contractors providing life 
support and security). This number will provide sufficient U.S. staff 
to enable core diplomatic activities and ensure proper implementation 
and oversight of approximately $1 billion in annual civilian 
assistance.
    The current presence in Iraq consists of Embassy Baghdad, Consulate 
General Erbil, Consulate General Basrah, and the Baghdad Diplomatic 
Support Center at the Baghdad International Airport. The current policy 
priority in Iraq is degrading and defeating Da'esh. As the Iraqis, with 
Coalition support, continue to liberate territory from Da'esh, the 
Department will maintain a significant presence there in order to 
prevent the spread of violent extremism and help the Iraqis rebuild 
their country.
    As set forth by the Strategic Framework Agreement, the United 
States has an enduring partnership with the Government of Iraq to 
support its democratic institutions, enhance its regional and 
international status, promote cultural and social exchanges, facilitate 
growth of education and scientific institutions, promote human rights, 
support economic growth, and strengthen its defense and security 
forces. Toward that end, the Department expects to maintain the current 
presence for the foreseeable future, with construction of a New 
Consulate Compound (NCC) in Erbil slated to begin the end of this year, 
and a site search for a Basrah NCC in progress.
    As demonstrated by U.S. engagement under the U.S.-Pakistan 
Strategic Dialogue, the United States will stay engaged with Pakistan 
to advance shared interests in regional stability and security, to 
include countering terrorism and violent extremism; strategic stability 
and non-proliferation; defense and military-to-military cooperation; 
economics and finance; education; and energy. The completion of the new 
chancery in Islamabad in 2015 and the scheduled completion of the 
entire New Embassy Compound project in FY 2018 will ensure that the 
Department has safe and secure facilities to support these shared 
interests.
    Second, FY 2017 priorities, such as the normalization of Iraq, 
Afghanistan, and Pakistan ongoing operations into the base budget, have 
necessitated constraints to other program and management priorities in 
order for the FY 2017 request to fit within the spending caps set by 
the Bipartisan Budget Act. The annual State Department budget is spread 
across missions and programs worldwide, requiring trade-offs during the 
budgeting process.
    FY 2017 Diplomatic Engagement trade-off assumptions include:


   Reduced operational spending by embassies and Washington bureaus to 
        ensure payroll obligations are met for hiring to attrition;

   Holding funding for independent commissions and foundations to 
        levels previously requested by the Administration;

   Increased reliance on a projected surge in consular fee collections 
        to fund IT investments;

   Budgeting for reduced peacekeeping assessments based on the 
        anticipated drawdown of selected missions.


    Third, while the Iraq transition experience has been instructive in 
our planning for our diplomatic presence in Afghanistan, sustaining an 
enduring presence in Afghanistan will present a number of challenges 
distinct from those encountered in Iraq relating to security, 
geography, and overall development levels. The U.S. military and NATO 
partners also will maintain a presence in Afghanistan through the end 
of 2016, which will require continuing coordination.
    The Department has, however, benefitted from political and 
practical lessons learned in Iraq, to include:


   Planning based on expectations of the bilateral relationship, not 
        the military model.

   Recognition of the political capital and trade-offs required in 
        negotiating an enduring platform.

   Holding realistic assumptions about host country's capacity to 
        complete new tasks.


    Question 12. As this administration contemplates the way forward in 
Afghanistan, I hope that we have learned the lessons of Iraq, and don't 
find ourselves with another power vacuum. The intelligence community 
testified earlier this month that, quote, ``Afghanistan is at serious 
risk of a political breakdown in 2016.''


   To what extent does the aid request (of $1.25 billion) for FY 2017 
        seek to prevent or mitigate the effects of such a potential 
        breakdown?

   What criteria will the administration use to determine whether the 
        Afghan government is meeting the conditions to receive the 
        total amount of the aid?

   With the U.S. presence in Afghanistan diminishing, how is the use 
        of U.S. economic assistance monitored?

   What programs have been most successful in promoting governance 
        reform and economic growth?

   How flexible are U.S. programs to augment those that are working 
        and phasing out those that are not?


    Answer. The FY 2017 foreign assistance request and already-
appropriated resources at work in Afghanistan are essential to the 
success of our strategy to help Afghanistan build sustainable 
stability. A main focus of our assistance programs is to improve the 
functioning of the Afghan government. It is in our interest that the 
Afghan government be able to meet the needs of the people who elected 
it. Our programming enhances the effectiveness of Afghan governance in 
many ways. For example, we are implementing programs focused on 
improving the delivery of education and health services, which has an 
immediate impact on all Afghans and impacts local perceptions of the 
credibility of the government. We are working in a similar fashion to 
improve the functioning of the Afghan justice and correctional systems.
    In 2017, we expect to continue the innovative New Development 
Partnership (NDP) that was initiated during the visit of President 
Ghani and Chief Executive Abdullah in 2015. The NDP will provide up to 
$800 million to the Afghan government through 2019 if it meets 
specific, pre-determined reforms and development results. The NDP 
conditions the provision of full U.S. assistance on Afghan government 
progress in addressing corruption, improving the government's fiscal 
sustainability and management, reducing poverty, and empowering women. 
Incentive funds are released only after the government has demonstrated 
that they have met pre-determined benchmarks established at the outset 
of the partnership. In 2015, the government achieved most of the NDP 
result targets agreed upon for the calendar year and qualified for $180 
million of the $200 million that was available.
    Since 2001, U.S. assistance to Afghanistan has had a significant 
and positive impact:


   The average number of years that Afghan children attend school has 
        risen from 2.5 years to 9.3 years since 2000, and 67 percent of 
        Afghans are satisfied with the education that their children 
        receive. In 2002, roughly 900,000 boys and zero girls were 
        enrolled in school; by 2014, nearly eight million children 
        attended school, with girls comprising one-third of the student 
        population.

   With help from USAID and other donors, the government provides 
        basic health services to 2.3 million Afghan citizens a month. 
        Since 2002, infant mortality has decreased 53 percent; child 
        mortality rate has decreased 62 percent; and maternal mortality 
        has decreased 77 percent. Furthermore, the Government of 
        Afghanistan--in conjunction with the Department of State--
        reaches approximately 28,000 patients per year in more than 100 
        drug treatment centers.

   Women hold 27 percent of seats in Parliament, three cabinet 
        positions, and 165 judicial positions.

   We have also helped the Afghan government and private sector spur a 
        communications revolution with nearly 90 percent of Afghan 
        households owning a cell phone, and fostered the birth of a 
        vibrant, free media.


    While there is still much to work to be done, particularly with 
regard to sustainability, we continue to achieve significant gains. For 
instance, in 2015, after years of targeted assistance from USAID, the 
Afghan government successfully acceded to the World Trade Organization, 
and the Parliament is on track to ratify the accession agreement by 
summer 2016. WTO membership will anchor Afghanistan in a rules-based 
trading system, and foster regional trade. Also in 2015, USAID 
completed the last segment of paved highway in eastern Afghanistan from 
Gardez to Khost. This road will link to another road under construction 
to the Pakistan border and open another strategic trade route for 
Afghan and transit goods.
    In addition, the Department continues to support the Counter 
Narcotics Justice Center (CNJC), which tries all high-level and 
government official narcotics cases. With support from specialized 
enforcement units mentored by the Drug Enforcement Administration, and 
operations and maintenance support from the Department of State and the 
Government of Britain, the Afghan government has arrested and the CNJC 
has successfully prosecuted a U.S-designated drug king pin and 
provincial officials implicated in the drug trade.
    We have established an innovative multi-tiered monitoring approach 
for all of our programs in Afghanistan that draws on information from 
multiple sources and allows us to assess in real-time how our programs 
are functioning and whether they are achieving the intended results. 
This monitoring information allows the United States to expand programs 
that are working well and terminate programs that are not achieving 
results. We have learned, to date, that most of our programs are 
working well.
    On rare occasions, we have changed course to refocus our resources 
on more productive programs that have greater impact on Afghanistan's 
development. For example, referring to the aforementioned Gardez-Khost 
road, USAID originally contracted with an external firm on the project; 
however, after monitoring efforts revealed the contractor was 
struggling to build community support for the project, which was 
causing delays, USAID turned project implementation over to a local 
firm. As a result, the project proceeded much faster and was recently 
completed.
    As we fine tune our development activities, we also recognize that 
progress on many issues takes many years and sustained effort, and we 
employ multi-year, national-scale projects to maximize impact. The key 
is to monitor these programs closely to ensure results are being 
achieved and refinements are made to address identified issues.


    Question 13.  We're seeing some troubling developments in Ukraine--
earlier this month, Ukraine's economic minister and his full team, 
resigned citing ingrained corruption as their reason for stepping down. 
A major focus of our assistance to Ukraine has been centered around 
countering this rampant corruption.


   Is Ukraine making sufficient efforts to fight corruption and 
        enhance the rule of law? If so, how?


    Answer. The Ukrainian government is implementing an ambitious anti-
corruption and rule of law reform agenda. Although Kyiv has made 
tremendous progress, much more must be done. Our highest priorities for 
rule of law reforms are focused on improving the effectiveness of the 
operations of the new anti-corruption institutions; reform of the 
prosecutorial and judicial system; and police reform.
    Regarding the new anti-corruption institutions, the National Anti-
Corruption Bureau (NABU) has been established with a special anti-
corruption prosecutor, and is currently conducting investigations. The 
PGO's new Inspector General Unit is also now functioning, and we are 
hopeful that the prosecutorial reform process will be rejuvenated now 
that the Prosecutor General, Victor Shokin, has resigned.
    In 2015, the Rada passed legislation to reform judicial self-
governance, change the processes for appointments, discipline, 
qualifications, and training for judiciary members. Constitutional 
amendments required to bolster judicial independence are moving through 
the Rada now.
    The most visible and celebrated reform has been the establishment 
of the new patrol police that replaced the notoriously corrupt traffic 
police. In 2016, the new patrol police will be expanded to all oblast 
capitals. Government transparency will be enhanced by new laws on e-
procurement, public official's asset disclosures, and openness on media 
companies' ownership.
    These reforms will be critical to Ukraine's future and have been 
valiantly fought for by ordinary Ukrainians. The United States will 
continue to encourage further reforms during this critical time in 
Ukraine's history.


    Question 14. Ukraine is still facing Russian aggression--both 
militarily and via propaganda.

   Is U.S. aid helping Ukraine's armed forces enhance its 
        capabilities?

   Is non-lethal aid sufficient to help deter Russian aggression, or 
        is some level of lethal aid needed?


    Answer. In response to the crisis, we have committed over $266 
million in training and equipment to help Ukraine's forces better 
monitor and secure their borders, operate more safely and effectively, 
and preserve Ukraine's sovereignty and territorial integrity. Our 
security assistance has saved lives while helping to build Ukraine's 
long-term defense capacity. We have delivered non-lethal defensive 
equipment, including counter-battery radars, secure communications, 
Humvees, and medical equipment to help Ukraine protect its forces while 
defending against Russian aggression.
    We have stood up a multinational joint commission to better 
understand Ukraine's defense requirements, and have embedded advisors 
to promote long-term defense reform. In November 2015, we completed a 
$19 million train and equip program for Ukraine's National Guard 
utilizing the Global Security Contingency Fund (GSCF). In addition, we 
are providing training and equipment to the Ministry of Defense.
    We have not ruled out sending lethal weapons to Ukraine. We 
continue to believe that there is no military resolution to this 
crisis, but Ukraine has the right to defend itself.


    Question 15.  What is the U.S. doing to help Georgia to hold free 
and fair elections later this year? Are there concerns about Georgia's 
democracy and adherence to the rule of law?

    Answer. In FY 2015, the U.S. government allocated more than $20 
million to promote democracy in Georgia. These programs work to advance 
democratic political processes, strengthen civic participation, bolster 
independent media, and support the rule of law. The October 2016 
parliamentary elections will represent another key moment in the 
consolidation of Georgia's democracy, which has made significant 
progress since independence. Moving toward the elections, it will be 
important for Georgia to maintain media freedom, promote political 
pluralism, and ensure independence of the judiciary.
    We are currently assessing the electoral environment to identify 
any unmet needs in advance of the elections. We will fund observation 
missions by international and local NGOs and plan to contribute 
observers to the OSCE observation mission. Electoral reform and 
safeguarding media freedom, civil society and political pluralism 
during the election season will be a key focus of the upcoming U.S.-
Georgia Democracy Working Group.


    Question 16. President Obama's budget is set to provide additional 
assistance to Georgia to combat Russian aggression, but beyond military 
concerns, there are also opportunities to further link Georgia and the 
United States through trade. In fact, a U.S. company, Conti, is now 
leading efforts to develop a new multi-billion deep water port in 
Georgia. Will you support intensifying discussion related to a U.S.-
Georgia Free Trade Agreement?

    Answer. The United States is committed to maximizing economic 
cooperation with Georgia, including by strengthening our bilateral 
trade relationship and encouraging reforms that create a welcoming 
investment environment for American businesses. We also advocate 
vigorously for U.S. businesses at every opportunity. The deep water 
port that you cite is a good example of recent progress on this front. 
We will continue to engage with Georgia and discuss ways to strengthen 
trade and investment between our countries, including the possibility 
of a free trade agreement. A successful U.S.-Georgia High-Level 
Dialogue on Trade and Investment was held in Washington in October 
2015, and the Strategic Partnership Commission's Economic Working Group 
will convene in Tbilisi in April this year.


    Question 17. In June 2015, the U.N. High Commissioner for Refugees 
(UNHCR) reported that, worldwide, nearly 60 million persons were 
forcibly displaced, the highest number on record. As violent conflict 
continues, humanitarian needs of those affected by natural disasters 
have also increased. In addition to responding to conflict in Iraq, 
Syria, South Sudan, and Yemen, the U.S. and the humanitarian community 
is responding to other conflicts and natural disasters such as the 
earthquake in Nepal, floods in Burma, and the typhoon in Micronesia. 
The total U.S. humanitarian assistance request is for $6.156 billion, 
which is about 20 percent less than the FY 2016 estimate (a decline 
that may be attributed to relatively high funding levels in FY 2016 and 
to high-level responses to crises in Yemen and South Sudan, which are 
expected to be scaled back in FY 2017). State Department officials have 
also suggested that the proposed funding reduction assumes an increased 
share of the humanitarian assistance burden will be taken on by other 
donors.


   Is responding to humanitarian needs brought on by political crisis, 
        such as in Syria and Iraq, different from those brought on by a 
        natural disaster, such as the earthquake in Nepal or typhoon in 
        Micronesia?

   Does the cause of the suffering come into play when the United 
        States prioritizes recipients of humanitarian assistance?

   How do you respond to critics who argue that humanitarian 
        assistance may actually prolong political crisis?


    Answer. While there are some similarities in the response to 
natural disasters and complex emergencies--including addressing 
immediate humanitarian needs such as access to temporary shelter, food, 
clean water and sanitation--there are important differences in 
response. For example, the Government of Nepal generously welcomed 
international assistance after the 2015 earthquake. But the politics of 
humanitarian aid are starkly different in a case like Syria, where the 
government is a party to ongoing conflict that is displacing large 
numbers of people and is the primary cause of growing humanitarian 
needs.
    Despite differences in response, the United States prioritizes 
humanitarian assistance based on need, whether that need arises from a 
man-made or natural disaster. While natural disasters often lead to 
quick responses, complex disasters caused by conflict may continue for 
years. Long-term, unceasing violence or oppression may mean that 
uprooted people are not able to return home. For example, some 45 
percent of refugees today have been displaced for five years or more. A 
child born in a refugee camp at the start of a crisis will often spend 
his or her entire childhood away from home.
    In addition to the United States, other traditional humanitarian 
donors include Western European governments, Canada, Japan, Australia, 
New Zealand and, more recently, Korea. At critical junctures in the 
past few years, the Saudis, Kuwaitis and Emiratis also have given 
hundreds of millions of dollars to help cope with the emergencies in 
Syria, Iraq, and Yemen. We are working to expand cooperation with India 
in this area and to encourage China to become more engaged on 
humanitarian issues.
    Our efforts to increase engagement on humanitarian issues include 
diplomacy in addition to assistance programs. The United States is a 
leader in diplomatic efforts to resolve the conflicts at the root of 
humanitarian suffering, and we pursue political solutions both 
bilaterally and multilaterally. Humanitarian assistance does not 
prolong conflict, although it can sometimes distract leaders from 
focusing on political engagement.
    Humanitarian programs save lives, reduce suffering, and work toward 
durable solutions for those displaced by conflict and natural disaster. 
U.S. humanitarian assistance strives to advance America's humanitarian 
values, maximizing diplomatic and programmatic efforts to provide 
effective protection and assistance worldwide. The FY 2017 humanitarian 
assistance budget request seeks to balance rising humanitarian 
requirements and a difficult budget reality in order to meet basic 
needs and sustain ongoing programs.


    Question 18.  Do you anticipate that the outbreak of the Zika virus 
in Latin America, which came to international attention after this 
budget request was formulated, will impact plans for global health 
assistance allocations in FY2017?

    Answer. At this time, there are no changes to the FY 2017 Global 
Health request. The response to Zika requires immediate action. The 
FY2016 emergency supplemental appropriations request would be our 
primary response to Zika. We are also exploring additional authorities 
to use available funds, including remaining funds in the Ebola 
supplemental appropriations.
    We should not divert funding from other important Global Health 
challenges for Zika. This would undermine our ability to achieve 
important global goals--such as ending child and maternal deaths and 
protecting communities from infectious diseases, including completing 
the response to Ebola, building global health security capacity, and 
addressing tuberculosis. These issues currently claim millions of lives 
each year--and most of these deaths are preventable, and doing so has 
been a priority of the U.S. government for many years. The experience 
over the last several years with outbreaks of Ebola, SARS, MERS-CoV, 
avian influenza and Zika has underscored the point that infectious 
disease outbreaks will happen and they can have devastating impacts 
locally and globally if they are not prevented and mitigated.
    Ensuring effective prevention, detection and response of such 
outbreaks is at the heart of global health security. If Zika continues 
to spread around the world, and response needs exceed the emergency 
funding capacity we have requested, we will have to explore and review 
the options available to address the changing epidemic.


    Question 19. Budget documents suggest that the proposed boost in 
malaria program funding would come in part from unobligated emergency 
funds to counter Ebola, if authorized by Congress.


   What is the status of emergency Ebola funds?

   Why are the funds no longer needed to address Ebola?

   If not necessary for Ebola programs, why did the Department choose 
        not to apply them to addressing the Zika virus instead of 
        seeking an emergency supplemental?


    Answer. The Department of State and USAID were appropriated $2.5 
billion in Ebola emergency funds. As of December 1, $1.2 billion in 
foreign assistance and $34.3 million in Diplomatic Engagement funding 
has been obligated for the State-USAID Ebola emergency response and 
recovery efforts. There is nearly $1.3 billion in unobligated foreign 
assistance and $2.1 million in unobligated Diplomatic Engagement 
balances. The bulk of the unobligated funding is planned for our 
ongoing Ebola response and recovery efforts in West Africa; for 
activities to support the Global Health Security Agenda; and to ensure 
our ability to rapidly and effectively respond in the event of a new 
Ebola outbreak and tackle the effects of Ebola.
    While the height of the Ebola epidemic is over, we are continuing 
to support Ebola recovery efforts and survivor issues in the affected 
countries and stand ready to respond to flare-ups as they occur. While 
we do plan to maintain some resources to ensure we can meet ongoing 
Ebola needs, we anticipate some flexibility with remaining Ebola funds.
    Malaria remains a major cause of morbidity and mortality in Sub-
Saharan Africa, with a number of high burden countries in West and 
Central Africa. Malaria globally infects over 200 million people and 
kills over 400,000 people annually. As such, the FY 2017 Budget 
proposes to allocate approximately $129 million from remaining USAID 
Ebola funds to fight malaria. The Administration believes that this is 
an appropriate use of remaining Ebola emergency funds because malaria 
is a dangerous infectious disease that continues to kill many, 
particularly children under five.
    While we anticipate some flexibility with remaining Ebola funds, a 
majority of the funds are still needed to sustain our ability to 
support Ebola recovery efforts and maintain our readiness to respond to 
flare-ups as they occur. The FY 2016 Zika supplemental request of $376 
million reflects our best estimate, given current information, of 
potential State and USAID needs for the Zika response at this time; 
however, there remains significant uncertainty around the scope of the 
Zika challenges we will face.
    As such, the President's FY 2017 Budget and the FY 2016 Zika 
supplemental request authority to use unobligated Ebola funds for other 
infectious diseases, such as Zika, in addition to Ebola. This authority 
would allow us to consider the use of Ebola funds to address Zika and 
other future infectious disease outbreaks, if needed, beyond the 
currently identified needs. We should not short-change our ability to 
address either of these important health challenges.


    Question 20. How does the current allocation of foreign assistance, 
both regionally and by sector, reflect larger U.S. foreign policy 
priorities?

    Answer. The President's FY 2017 request for the Department and 
USAID includes $34 billion for foreign assistance programs. This 
request supports key national security, foreign policy, and development 
mission objectives. Regionally, the request includes $4 billion to 
counter Da'esh, respond to the crisis in Syria, and support 
humanitarian needs in the region. It requests $750.6 million to bolster 
the U.S. Strategy for Engagement in Central America and $873 million to 
support economic development and security efforts as part of the Asia 
Rebalance effort. It also requests $7.1 billion to support our goals in 
Africa, including advancing democracy, health, education, economic 
growth and security throughout the region.
    As part of these regional efforts, the Department and USAID are 
also requesting funds to support important investments in critical 
sectors across the globe. The request includes $2.7 billion for 
democracy, human rights and governance programming, one of the core 
strategic goals of this Administration. It also includes $983.9 million 
to support the Global Climate Change Initiative and $561.8 million for 
basic education. These are just examples of the important cross-cutting 
programs requested as part of the FY 2017 Request. All of these 
investments, plus many others, are critical to ensuring the success of 
our broader foreign policy and development goals.


    Question 21. How could aid, as a tool for foreign policy, be 
allocated to more effectively address strategic priorities?

    Answer. The Department of State and USAID always work to ensure the 
funds are allocated to address strategic priorities. The development of 
the President's annual budget request for the Department of State and 
USAID begins at embassies and USAID missions around the world. These 
requests are based on country-specific priorities and strategies and 
are organized by mission objectives when they are submitted to the 
Department of State and USAID in Washington, DC.
    Department and USAID leadership then review the submissions from 
the embassies and missions overseas, and make tough decisions to ensure 
the request supports the most critical regional and global strategic 
priorities. In coordination with the Office of Management and Budget, 
this results in a final budget request that advances the U.S. 
government's most important foreign policy, national security, and 
development objectives. The President's request reflects these 
priorities when it is submitted to Congress each year.
    Once an appropriation bill is passed, the allocation of funds must 
abide by funding directives included in the bill as well as the 
Statement of Managers, as required. Within these guidelines, the 
Department and USAID work to ensure the best allocation of resources in 
support of strategic foreign policy priorities.


    Question 22. How will you manage foreign assistance programs 
differently, if at all, in the absence of congressional directives?

    Answer. The Department of State and USAID have many shared 
priorities with Congress. While many congressional funding directives 
support these shared goals, including advancing democracy or education 
across the globe, we must be able to respond to changing circumstances 
and adapt as needed. Often, the world looks different between the time 
we submit our request and the time we receive our final appropriation. 
We need to remain nimble.
    In the absence of congressional directives, we would allocate 
funding according to the President's request, which sustains projects, 
programs, and activities supported by Congress, taking into account 
changing circumstances, prior year funding availability, and any new 
needs that have emerged since the request was submitted. This would 
reduce our dependence on transfer authorities, which, while incredibly 
valuable, can be time consuming to execute and thus hinder our ability 
to move funds and respond quickly.


    Question 23. The President's Emergency Plan for AIDS Relief 
(PEPFAR) is one of the most effective initiatives of its kind. But I am 
concerned about how long the United States is going to have to keep 
serving as the world's number-one source of finance for HIV care and 
prevention.


   What is the United States doing to help developing countries take 
        on more of a leadership role in serving their own citizens, to 
        make sure that the countries we are trying to help have all the 
        tools they need to manage their way to an AIDS-free generation?


    Answer. PEPFAR is committed to the end goal of country-led 
sustainable responses, where partner countries will lead, manage, 
coordinate, and increasingly finance the efforts needed to achieve an 
AIDS-free generation and an effective, efficient, and durable response. 
First and foremost, PEPFAR is focused on supporting countries to ensure 
viral load suppression within their populations to stop transmission of 
the AIDS virus, which is key to the ability of countries to reach 
sustained epidemic control and reduce the costs of the epidemic.
    As part of this process, PEPFAR has prioritized helping governments 
understand the use of program and epidemiological data to inform where 
to invest resources to have the greatest programmatic impact. It is 
essential that governments be able to evaluate cost data and evolve 
their service delivery models to become more efficient in the 
implementation of HIV/AIDS programs.
    New game changing guidelines from the World Health Organization 
(WHO) in the fall of 2015 provide tremendous opportunities to prevent 
and treat HIV/AIDS immediately. Policy changes are essential to the 
elimination of HIV as a public health threat and we have worked with 
countries to encourage them to exhibit leadership on changing their 
policies and adopting WHO guidelines when they are released within 
weeks and months instead of years.
    The new guidelines related to ``Test and Start'' treatment, service 
delivery guidelines that will reduce the number of clinical 
interventions needed, and guidelines related to pre-exposure 
prophylaxis (PrEP) can change the course of the epidemic. Nearly two-
thirds of the cost of treatment is service delivery, not the cost of 
drugs. Additionally, a change in policy to having stable patients 
switching to having medical appointments every 6 months and facilities 
tendering 3-6 month supply of drugs will allow each treatment site to 
add 75 percent more clients on treatment with the same facility 
personnel and cost.
     One of the five pillars of PEPFAR 3.0 is the Sustainability Action 
Agenda, whereby the U.S. government aims to engage both partner 
governments and civil society in service and systems strengthening. 
PEPFAR's Sustainability Agenda focuses on:


   The policy, administrative, and legal environment that would ensure 
        access to services and social protection for vulnerable 
        populations.

   Rapid adoption of the 2015 World Health Organization guidelines 
        that will substantially increase the effectiveness of PEPFAR 
        investments.

   The financing and delivery of necessary HIV/AIDS services and what 
        can be done to support increased domestic investment in these 
        areas.

   The systems and capabilities to facilitate the strategic use of 
        data.

   The accountability of partner country governments to be responsive 
        to stakeholders for achieving results and to be good stewards 
        of HIV/AIDS funding.


    A key component of the Sustainability Action Agenda is the 
development and use of the Sustainability Index and Dashboard (SID), a 
measurement tool that provides a periodic snapshot of the elements 
central to a sustained and controlled epidemic. The implementation of 
the SID, in collaboration with country stakeholders, allows PEPFAR and 
its partners to objectively track progress toward sustainability goals. 
These goals are ``owned'' by the country and have been supported by 
PEPFAR. The Index targets 15 elements organized under four overarching 
domains:


   Governance, Leadership, and Accountability;

   National Health System and Service Delivery;

   Strategic Investments, Efficiency, and Sustainable Financing; and

   Strategic Information


    The SID was implemented for the first time in 33 countries in 2015 
and has been revised and refined for implementation during COP 2016 
(``SID 2.0''), the results from which are intended to serve as the 
baseline going forward. The findings from periodic implementation of 
the SID will contribute to a shared understanding of each country's 
sustainability landscape, help identify strengths, gaps, and weaknesses 
within the national HIV response, and inform the annual planning of 
PEPFAR investments.
    Recognizing the importance of full participation by non-
governmental partners, including the private sector to the success and 
sustainability of efforts to combat HIV, the revised SID more 
explicitly reflects and assesses the role these groups play in national 
HIV responses. In addition, to further ensure increased participation 
and integration of civil society in HIV/AIDS planning and 
implementation, all PEPFAR countries were directed to actively involve 
civil society throughout the development of their annual Country/
Regional Operational Plans.
    During the COP 2015 in-person reviews, each country was empowered 
to invite members of civil society, host country governments, 
multilaterals and other stakeholders to participate in high-level 
discussions with Ambassador Birx around the annual PEPFAR planning 
process.


    Question 24. I certainly appreciate the steps this administration 
has taken to make U.S. foreign assistance more transparent. One of 
these steps was the creation of the foreign aid dashboard, managed by 
the State Department, where American taxpayers can review how and where 
the U.S. is spending foreign aid dollars. Every federal agency that 
provides foreign assistance funding is required to share its 
information on this website


   What is the agency participation rate for the site?

   What agencies lag behind in sharing their data, and what is the 
        reason for the delay in sharing this information with U.S. 
        taxpayers?

   What is the status of the State Department's own data on this site?


    Answer. ForeignAssistance.gov contains data from 10 agencies 
representing 98 percent of the U.S. foreign assistance portfolio. These 
10 agencies are: the Department of State; USAID; the Millennium 
Challenge Corporation; the Departments of Agriculture, Defense, Health 
and Human Services, and the Treasury; the African Development 
Foundation; the Inter-American Foundation; and the Peace Corps.
    The Department is engaged with non-reporting agencies and working 
to improve the quantity and quality of data reported by agencies. 
Progress is being made incrementally; however, there are a number of 
challenges to reporting including that agencies are often compiling and 
reconciling data from multiple systems that were not designed to 
collect or report on the detailed level of reporting currently 
requested.
    The Department of State chartered a Foreign Assistance Data Review 
(FADR) working group to understand and document issues related to 
managing and tracking foreign assistance within the Department and 
recommend a path forward. The first phase of the FADR produced a report 
that examines the current foreign assistance data environment and 
recommends improvements. The full report is available online at http://
www.state.gov/documents/organization/250931.pdf.


    Question 25. I was disappointed that the State Department did not 
meet its international commitment to post its own foreign assistance 
data online by December 2015.


   Do you have a plan for the State Department to comply with this 
        commitment? And would you please share it with the Committee?


    Answer. The Department of State has been reporting core data fields 
to the International Aid Transparency Initiative (IATI) standard since 
2012. While we are not reporting every one of the IATI fields, the 
Department has made great progress in opening up and publishing its 
foreign assistance financial records, performance data, evaluations, 
and budget planning data over the last few years.
    To improve its IATI data reporting, the Department chartered a 
Foreign Assistance Data Review (FADR) working group to understand and 
document issues related to managing and tracking foreign assistance 
within the Department and recommend a path forward. The first phase of 
the FADR produced a report that examines the current foreign assistance 
data environment and recommends improvements. The full report is 
available online at http://www.state.gov/documents/organization/
250931.pdf. The FADR group is continuing its work to carry out these 
recommendations.


    Question 26. U.S. development assistance should foster long-term 
self-sufficiency and ultimately support partner countries transition 
from foreign aid. The FY 2016 Omnibus Appropriations bill included an 
important provision requiring all future country development strategies 
to include a plan for transitioning over time away from foreign 
assistance.


   How are you approaching these transition plans?

   Have you considered developing clear, measurable, and realistic 
        benchmarks for country transition, such as benchmarks for 
        social and economic progress across social groups, public 
        sector capacity, or the enabling environment for civil society 
        and the private sector?


    Answer. Transition planning is already being incorporated into 
USAID's Country Development Cooperation Strategies (CDCS). Decisions 
about the necessary scope of transition planning for a particular 
mission are made during the early stages of strategy development, 
including the type of transition a mission is planning and over what 
timeframe. For example, transition could include phasing out of a 
particular sector, planning to transition assistance from programmatic 
to advisory, or phasing out of a country entirely. Development 
strategies, including any transition planning, are cornerstones of our 
whole-of-government Integrated Country Strategies (ICS) and we will be 
requiring all of our missions to consider foreign assistance transition 
planning more broadly in ICS development going forward.
    As part of its efforts to transition away from historic levels of 
assistance, USAID recently has reduced its Full Mission presence to 
either a non-presence status or a smaller office in the following 
countries: Mongolia, Namibia, Benin, Albania, and Macedonia.
    Setting end goals for foreign assistance and benchmarks toward 
achievement of those goals are integral to our approach to transition 
planning for development. These goals and benchmarks will be dependent 
on particular country contexts, rather than set at a corporate level. 
Given the variety of contexts in which we work, and the range of U.S. 
government interests in those countries, our approach is to develop 
broad guidelines while preserving adaptability so that it may be 
responsive to local and U.S. government realities.


    Question 27.  In order to support implementation of its new Cuba 
policy, $3.8 million is requested within the Diplomatic and Consular 
Programs account for infrastructure improvements to the U.S. embassy in 
Havana (converted from an interests section last year), and additional 
funds are requested for additional staffing at the embassy.


    Could you describe what impact, if any, that the conversion of the 
        Interests Section to an Embassy has had on our bilateral 
        relationship?

    What further steps, if any, are contemplated in the context of 
        this budget in support of the new Administration's Cuba policy?


    Answer. U.S. Embassy officials are able to travel more freely in 
Cuba since the re-establishment of diplomatic relations. For the first 
time in decades, some Embassy staff can travel throughout the island 
without providing advance notification to Cuban government officials. 
Free travel allows us to make contact with average Cubans.
    U.S. officials at the U.S. Embassy in Havana are also able to more 
effectively engage with a broad range of Cuban government counterparts 
since the re-establishment of diplomatic relations. As a result, U.S. 
and Cuban officials, with participation from U.S. Embassy officials, 
were able to negotiate an arrangement to restore scheduled air service 
between the United States and Cuba, sign a joint statement on 
environmental protection cooperation, and agree on a pilot program for 
the direct transportation of mail between the United States and Cuba. 
These instruments, as well as others we are negotiating related to 
counternarcotics cooperation, law enforcement cooperation, and oil 
spill prevention and response, put in place the mechanisms for 
bilateral cooperation on these issues going forward.
    Additionally, re-establishing diplomatic relations has facilitated 
bilateral dialogues with Cuban government officials in important areas 
in which we had not previously engaged, such as U.S. claims against the 
Cuban government.
    The FY 2017 budget request for Diplomatic and Consular Programs 
would allow U.S. Embassy Havana to increase staff and improve the 
embassy's unsafe and aging facilities. At present, our diplomats work 
in poor and deteriorating conditions, and the budget request would 
support basic repairs. The U.S. Embassy requires additional American 
personnel to support an already overburdened platform. A mixture of 
reporting and support positions are required to deepen U.S. 
understanding of Cuba's political, social, and economic environment, 
oversee maintenance upgrades, conduct human rights monitoring and 
advocacy, and deepen law enforcement cooperation on issues such as 
fugitives and counternarcotics. Adding these positions is vital to U.S. 
national security.


    Question 28. Could you describe the department's public diplomacy 
strategies in countering Russian propaganda efforts in Europe? How do 
you measure the success or failure of these strategies? To what extent 
do the BBG's broadcasting efforts contribute to their success? Is the 
budget request adequate to ensure the strategy's success?

    Answer. The Kremlin is rapidly disseminating disinformation, part 
of a concerted effort to undermine trust in Western institutions and 
erode freedom of the press. Research shows that despite Moscow's 
efforts and resources devoted to this objective, they have limited 
effectiveness abroad: less than one third of Europeans polled outside 
of Russia are confident that Putin will do the right thing in world 
affairs or see Russia favorably. In these same European countries, 
views of the United States are much more positive; 69 percent viewed 
the U.S. favorably.
    Capitalizing on this public goodwill, the State Department is 
leading a coordinated effort to support the free flow of information, 
expand independent media, root out corruption, and refute Russian 
government disinformation. Our efforts extend across a range of 
diplomatic tools as we proactively amplify key U.S. government 
messages, correct disinformation, engage opinion leaders, encourage 
independent voices, and forge and maintain people-to-people ties.
    The Department employs a combination of short-term messaging 
strategies with medium- and long-term programs to boost resilience and 
build capacity to recognize and reject Russian government 
disinformation. The State Department supports our overseas posts in 
times of heightened Kremlin messaging. Armed with the facts, our 
missions abroad are able to adapt the content and materials we supply 
to their own audiences and rapidly amplify the truth. We have also 
increased our capacity to proactively deliver our messages in Russian 
by forming a cadre of Russian-speaking officers to engage with the 
media and introducing a Russian-language, policy-oriented Twitter 
handle. We augment this messaging activity by providing foreign 
audiences with opportunities to engage directly with experts, opinion 
leaders, and third party groups.
    The State Department is implementing programs that support 
independent media and investigative journalists in countries throughout 
the region, including Azerbaijan, Georgia, Macedonia, Moldova, Serbia, 
Ukraine, and the Baltics. We have developed exchanges to encourage 
independent media voices, including workshops on digital skills and 
investigative journalism, and support for a Digital Communicators 
Network of more than 1,000 members who bring accurate, objective 
information to regional audiences.
    At the same time, we are supporting efforts to engage ethnic 
Russian populations by expanding our English language training programs 
and professional exchanges. These cost-effective programs create 
lasting educational and professional linkages and increase English 
proficiency of students and educators, helping remove language as a 
barrier for thought leaders to understand U.S. policy and culture.
    U.S. public diplomacy also includes NATO and U.S. military outreach 
and media engagement. These high visibility engagements help dispel the 
Russian government's anti-NATO messages and serve as opportunities to 
explain our security partnerships. Last year the Under Secretary for 
Public Diplomacy and Public Affairs provided a new fund to support 
embassy public affairs teams in developing new, innovative public 
outreach projects pegged to U.S. military exercises in Europe. These 
interactions between people are the cornerstone of our strategy and 
absolutely essential in refuting disinformation.
    We continue to use our public diplomacy tools to deepen people-to-
people ties in an admittedly challenging political environment. In the 
past year, the State Department has designed and implemented a range of 
programs in the region that build relationships based on common 
interests and perceptions. Based on participant feedback, we know these 
programs are having a positive net effect. In addition to anecdotal 
evidence, we also conduct evaluations of our programs to ensure impact.
    The Broadcasting Board of Governors receives steady input from the 
Undersecretary of State for Public Diplomacy and Public Affairs, who 
serves on the BBG to ensure its strategic planning is aligned with 
broader U.S. foreign policy goals. The BBG is an active participant in 
an ongoing working group at State, through which it apprises the 
Department of its efforts and provides analysis of current media 
trends. In its own work, the BBG maintains a robust response to Russian 
disinformation through the combined work of Voice of America and Radio 
Free Europe/Radio Liberty, which employ flexible, innovative, and 
cross-platform programming around the world to counter the Kremlin's 
strident anti-American messaging with fact-based journalism.
    The bureaus undertaking this important work ensure that our limited 
resources are directed, in the most effective way, toward implementing 
priority programs focused on countering Russian government 
disinformation.


    Question 29. As Iran is receiving billions in sanctions relief and 
oil funds in the wake of the nuclear deal, I'm concerned that they are 
seeking to expand their aggressive behavior. The press has reported 
that Russia is planning to sell fighter jets, comparable to American F-
15E fighter bombers, to Iran. As you know, the sale of combat aircraft 
to Iran would violate the U.N. arms embargo, but the U.N. Security 
Council could approve the sale in advance.


   Do you plan to raise the issue of this proposed sale with Russia?

   How can this sale be stopped?

   What would the U.S. do in reaction, should Russia go ahead with the 
        sale?

   Since Russia is a member of the U.N. Security Council, would any 
        repercussions from the U.N. be blocked?


    Answer. We have seen the reports of a possible sale of Russian 
combat aircraft to Iran but have no confirmation of such an intention. 
If we saw indications that such a sale was moving forward, we would, of 
course, raise it.
    The United States would be able to block U.N. Security Council 
approval of any such sale while the restrictions under UNSCR 2231 
remain in force. We do not see a circumstance in which we would 
consider allowing the Council to approve such a transfer.
    Whenever the United States has information about any country taking 
actions prohibited by UNSCRs, we treat it as a very serious matter. 
Such a violation would become a serious issue in our bilateral 
relationship and affect our cooperation on a range of issues, including 
Iran. As we have in the past, we would raise any reported violation 
directly in the U.N. Security Council to emphasize the degree to which 
such actions are unacceptable.
    As a permanent member of the Security Council, Russia can block the 
Council from taking any substantive decision in response to such a 
violation. However, Russia could not prevent us from reporting the 
matter to the Council, and could not prevent the Council from 
discussing it. By shining an unwelcome spotlight on such actions in the 
Security Council, we can expose the irresponsibility of any country 
that violates U.N. Security Council resolutions, especially a permanent 
member of that Council. Russia would also be unable to prevent us from 
taking appropriate domestic measures, unilaterally or in coordination 
with multilateral partners.


    Question 30. I'm also very concerned by Russia's delivery of 
advanced S-300 air defense missile systems to Iran.


   Can you confirm if this transfer has taken place?

   What impact might this defense system have on Iran's behavior?


    Answer. We do not have information indicating the transfer of an S-
300 missile system from Russia to Iran has taken place. On numerous 
occasions, we have strongly urged Russia not to proceed with the sale 
of an S-300 system to Iran as the transfer of advanced surface-to-air 
weapons systems to Iran would add to instability in the region and be 
clearly inconsistent with our common nonproliferation goals.
    We remain concerned that introduction of any advanced defensive 
weapons system such as the S-300 into Iran's inventory would further 
raise tensions in the region. We will continue to work intensively with 
our partners in the region to deter and counter any Iranian 
destabilizing activities.


    Question 31. Mr. Secretary, there is a long history of nuclear and 
missile cooperation between Iran and North Korea. North Korea has 
already demonstrated its capability to explode a nuclear device. 
Iranian officials reportedly traveled to North Korea to witness each of 
its three nuclear tests--in October 2006, May 2009, and February 2013. 
Just before North Korea's third test, a senior American official said 
that, quote, ``it's very possible that the North Koreans are testing 
for two countries.'' And, Director of National Intelligence Clapper's 
2016 Worldwide Threat Assessment stated that Pyongyang's ``export of 
ballistic missiles and associated materials to several countries, 
including Iran and Syria, and its assistance to Syria's construction of 
a nuclear reactor . . .  illustrate its willingness to proliferate 
dangerous technologies.'' This is truly alarming.


   How confident are you that if Iran were to use North Korean nuclear 
        facilities, we would know about it?

   If we did, would that lead to a full snapback of sanctions?

   Can you inform me of the State Department's current efforts to halt 
        this sharing of nuclear technology between North Korea and 
        Iran? What more can be done?


    Answer. The United States closely monitors and reviews all 
available information on the DPRK's dealings related to its WMD 
programs and its proliferation activities worldwide, as well as any 
efforts by Iran to acquire proliferation-sensitive materials or 
technologies. We continue to take concerted efforts, both nationally 
and multilaterally, to impede the DPRK's proliferation activities, 
including through the full suite of relevant U.S. unilateral sanctions 
measures and by urging all countries to implement relevant U.N. 
Security Council resolutions concerning the DPRK.
    We also continue to do the same with respect to Iran, both 
unilaterally and multilaterally, in accordance with UNSCR 2231 (2015) 
and the provisions of the Joint Comprehensive Plans of Action (JCPOA). 
We are committed to ensuring that Iran fulfills all of its nuclear-
related commitments in a verifiable and complete manner. Because there 
is comprehensive IAEA monitoring of the entire fuel cycle within Iran, 
we are confident we will know if Iran attempts to cheat, including 
through the introduction of foreign technology or material into Iran's 
nuclear fuel cycle that is contrary to the JCPOA.
    Should Iran violate its commitments under the JCPOA, we retain a 
wide range of options to respond, whether in the case of significant 
non-performance by Iran or more minor instances of noncompliance, 
including the ability to snapback both national and multilateral 
nuclear-related sanctions. This provides us with significant leverage 
to deter Iranian noncompliance and allows us to respond appropriately 
and proportionately to any Iranian violations.


    Question 32. Today in Syria, we have a humanitarian crisis of epic 
proportions. Millions have been displaced from their homes and tens of 
thousands are dead from violence--not only from violent extremists, but 
also at the hands of President Asad. Russia's support for President 
Asad has truly served as a game-changer in international negotiations 
on Syria. While I applaud your efforts, Secretary Kerry, for coming to 
an agreement on a ``cessation of hostilities'' to begin later this 
week, I have some concerns. Russia is the key player in this ceasefire, 
and yet their recent track record is marred. Multiple ceasefires have 
been negotiated for Ukraine, which Russia continues to violate on a, 
quote, ``daily'' basis, according to U.S. Ambassador to the U.N., 
Samantha Power.


   I'd like to ask you, Secretary Kerry, what are the consequences for 
        Russia, should they violate this ceasefire, as they have 
        violated over and over the ceasefires in Ukraine?


   How does this cessation of hostilities take into account non-state 
        actors, such as ISIS or Jabhat al Nusra?


    Answer. We are committed to seeing this process through and are 
pressing hard to keep the Cessation of Hostilities on track. We have no 
illusions about activities by Russia and the regime to date in Syria 
and will judge their commitment to the Cessation of Hostilities by 
their actions. The discussions over the last several weeks have not 
been easy, and this will continue to be a challenging process. Thus far 
the cessation of hostilities has reduced the violence while allowing 
for the freer movement of humanitarian goods and greater access to 
besieged communities throughout Syria.
    In the initial days of the cessation of hostilities, the emphasis 
has been on getting the cessation to take hold and defusing tensions as 
we see reports of violations. Given the intensity of fighting and the 
number of actors involved, putting this cessation fully into effect is 
going to take time.
    If the COH should break down due to Russian actions, the U.S. will 
consider a range of options to advance our objectives of countering 
Da'esh and ending the conflict in Syria through a process that includes 
a political transition from Asad.
    As announced in Munich, this cessation of hostilities applies to 
all parties in Syria except for Da'esh, al-Nusrah, and other terrorist 
groups designated by the U.N. Security Council.


    Question 33. According to the State Department, Iran continues to 
be the world's leading state sponsor of terrorism. In its quest to 
dominate the Middle East and expel American influence, Iran has 
exploited terrorism as a tool of statecraft to oppose U.S. interests 
and objectives in Iraq, Bahrain, Yemen, Lebanon, and the Palestinian 
territories. All restrictions preventing Iran from repatriating its 
foreign held oil revenues have now been lifted since Implementation 
Day.


   How have Iran's terrorist activities been affected by the JCPOA and 
        the subsequent lifting of sanctions?


   Has Iranian support for terrorism increased or decreased?

   Does the U.S. have an estimate of the amount of funding Iran 
        provides to Hezbollah?

   How are these funds being transferred?

   If we see an Iranian bank transfer funds for the benefit of 
        Hezbollah, will the U.S. immediately sanction that bank?


    Answer. Over the past three decades, Iran has used some of its 
resources to support terrorism. For that reason, Iran is and remains a 
designated State Sponsor of Terror. This is also why our non-nuclear 
related sanctions on Iran remain in place, and why we will continue to 
work with our partners in the region to counter Iran's malign 
activities, regardless of the source of funds for those activities.
    After the IAEA verified that Iran had met key nuclear-related 
commitments as specified in the JCPOA, the United States lifted 
nuclear-related sanctions on Iran. As part of the lifting of these 
sanctions, foreign financial institutions holding funds owed to Iran in 
accounts outside of the United States can release such funds to the 
Central Bank of Iran without being subject to U.S. secondary sanctions. 
We estimate that, as a result, Iran now has access to approximately $50 
billion of its own funds.
    Iran's ongoing economic difficulties make it harder to divert large 
portions of its financial gains from sanctions relief away from its 
domestic economy and toward its regional activities. For example, we 
estimate that Iran needs about half a trillion dollars to meet pressing 
investment needs and government obligations.
    We have numerous domestic authorities--including sanctions--to 
counter Iran's support for terrorism and other destabilizing 
activities. We will continue to enforce aggressively our sanctions 
related to Iran's support for terrorism, ballistic missile activities, 
regional destabilization, and human rights abuses.
    We will use our authority under the Hizballah International 
Financing Protection Act to target financial institutions that 
knowingly facilitate significant transactions or engage in money 
laundering activities on behalf of Hizballah. The State Department, 
Treasury, and our partners in the Intelligence Community are constantly 
looking for solid evidence of such activity. When we see evidence, we 
will build a case, and we will take action.
    We have made significant progress and will continue to further 
disrupt Hizballah's terrorist capabilities by targeting the group's 
financial support infrastructure. The U.S. government has consistently 
used and will continue to use our authorities to expose and target 
Hizballah's financial, commercial, and terrorist activities around the 
world.
    I would be happy to discuss more details regarding Iran's funding 
Hizballah in a classified setting.


    Question 34. Since implementation day of the JCPOA went into 
effect, any hope that Iran would somehow moderate its malign behavior 
has been dashed. If anything, Iran has become more aggressive in 
preserving the regime of Syrian dictator Bashar al-Assad, has become 
more confrontational against America's presence in the Persian Gulf, 
and has escalated its threatening rhetoric against the U.S. and Israel. 
The administration repeatedly promised during the Congressional review 
of the JCPOA that the U.S. would continue to confront Iran in the 
region. In response to Iranian illegal ballistic missile tests, the 
U.S. imposed sanctions on 11 entities and individuals for the provision 
of missile related technology to Iran. The Iranians paid for that 
technology, but no financial institution was sanctioned for the 
transaction. The technology arrived in Iran by boat or plane, yet no 
shipping line or airline was sanctioned.


   Mr. Secretary shouldn't we be going after the infrastructure that 
        allows Iran to continue its missile program? Do you have any 
        plans to do so?

   Beyond the 11 entities sanctioned for supporting Iran's missile 
        program, has the administration imposed any sanctions targeting 
        Iran non-nuclear activities since the JCPOA was reached? Any 
        sanctions for supporting terrorism? Any sanctions for 
        supporting the Assad regime? Any sanctions for human rights 
        violations? Any sanctions for supporting Shiite militias in 
        Iraq?

   What is the U.S. doing to prevent Iran from transferring advanced 
        weaponry to non-state actors in the region who might use those 
        weapons against our allies?


    Answer. We continue to deploy a wide range of multilateral and 
unilateral tools to address Iran's ballistic missile development 
efforts. Iran's efforts to develop increasingly capable ballistic 
missile systems are a significant nonproliferation challenge and a very 
real threat to regional and international security.
    In response to Iran's ballistic missile launches, the U.S. 
Department of the Treasury's Office of Foreign Assets Control on 
January 17 designated three individuals and eight entities, including 
five Iranian officials, involved in the procurement of materials and 
equipment for Iran's ballistic missile network.
    Additionally, the United States is constantly working with partners 
to interdict missile-related transfers to Iran and target Iranian 
missile proliferation activities in third countries, including Iran's 
procurement of equipment related to building a domestic infrastructure 
for missile development.
    Finally, in addition to enforcing measures on Iran's ballistic 
missile activities, we will continue to enforce our sanctions related 
to Iran's support for terrorism, destabilizing activities in the 
region, and human rights abuses. We will continue to act on any 
information of sanctionable activity.
    Regarding Iran's transfer of weapons to groups in the region, we 
continue to work intensively with our partners, especially Israel and 
the Gulf states, to deter and disrupt Iranian threats and 
proliferation. Examples of such cooperation include diplomatic and 
sanctions pressure on Mahan Air, ongoing security cooperation with the 
GCC following the Camp David summit, sanctions on a range of Iranian 
entities for actions in Syria, Israel's seizure of the Klos C vessel 
carrying weapons bound for Gaza in 2014, military and diplomatic 
efforts to prevent an Islamic Revolutionary Guard Corps (IRGC) naval 
flotilla from docking in Yemen in April 2015, and the September 25, 
2015, seizure of the Nasir dhow carrying weapons from Iran that we 
assess were bound for Yemen.


    Question 35. Since the JCPOA went into effect, Iran's hard-liners 
have taken pains to consolidate their economic and political power and 
to sideline would-be reformists who are more amenable to a 
rapprochement with the West. It was hoped that the openings created by 
the JCPOA would engender Iranian moderation, but instead, extremists 
have reaped the benefits while tightening their grip and escalating 
their malign behavior.


   Does the U.S. have a strategy to combat the retrenchment we see on 
        the part of Khamenei, his allies, and the IRGC?

   What will the long-term repercussions be as the JCPOA progresses, 
        particularly with regard to Iran's foreign policy, if extremist 
        elements continue to dominate Iran's economic and political 
        scene?


    Answer. The Islamic Revolutionary Guard Corps (IRGC) remains firmly 
under U.S. sanctions, which we have no intention of removing until the 
IRGC ceases the activities for which it has been sanctioned, including 
its support for terrorism. Executive Order (E.O.) 13224, which allows 
us to target terrorists and those who support them across the globe, is 
employed forcefully against Iranian entities that provide support to 
terrorism. The IRGC-Qods Force, the Iranian Ministry of Intelligence 
and Security, Iran's Mahan Air, Hizballah, and over 100 other Iran-
related individuals and entities remain subject to sanctions under this 
E.O. Further, under Iran sanctions statutes, foreign financial 
institutions may be subject to secondary sanctions for knowingly 
facilitating a significant financial transaction or providing 
significant financial services for any person on the SDN List, which 
includes the IRGC and IRGC-related officials, agents, and affiliates. 
These and other authorities allow us to continue to target the IRGC for 
any activities which threaten us or our allies.
    The Joint Comprehensive Plan of Action (JCPOA) was never intended 
to resolve all our issues with Iran. It is about eliminating the 
biggest and most imminent threat--a nuclear-armed Iran. Our governments 
have significant disagreements, but our experience on the nuclear deal 
demonstrates that engaging directly with the Iranian government on a 
sustained basis created a window to try to resolve important issues. 
This engagement is clearly in our interest. Iran has a choice about how 
it moves forward. If Iran chooses to build on the constructive outcomes 
of the nuclear deal reached with the international community, it would 
lead to a better future for the Iranian people.


    Question 36. The administration has estimated that Iran's sanctions 
relief windfall would be about $50 billion, while Iran has claimed that 
the figure is closer to $100 billion.


   Now that Implementation Day has passed, do you have a better 
        estimate of how much money Iran was able to gain access to?

   Do we have an indication of how Iran is using its windfall thus 
        far? Do we see evidence that they are paying down their debts, 
        or using some of the money to further increase support for 
        terrorism? You indicated during the hearing that you would get 
        back to me in a classified setting on this issue. I would like 
        to request a follow-on briefing in a classified setting.

   Do you have figures for how much Iran provides Hizballah, Hamas, 
        Palestinian Islamic Jihad, and Shi'a militias in Iraq? And for 
        how these figures are likely to increase as a result of 
        sanctions relief?


    Answer. After the IAEA verified that Iran had met key nuclear-
related commitments as specified in the JCPOA, the United States lifted 
nuclear-related sanctions on Iran. As part of the lifting of these 
sanctions, foreign financial institutions holding funds owed to Iran in 
accounts outside the United States can release such funds to the 
Central Bank of Iran. We estimate that, as a result, Iran now has 
access to approximately $50 billion of its own funds.
    Iran's ongoing economic difficulties make it harder to divert large 
portions of its financial gains from sanctions relief away from its 
domestic economy and toward its regional activities. For example, we 
estimate that Iran needs about half a trillion dollars to meet pressing 
investment needs and government obligations.
    I would be happy to discuss your question of Iran's funding of 
groups in the region and our assessment of Iran's use of released 
assets in a classified setting.


    Question 37. As you know, the State Department went ahead with the 
purchase of land last summer at Ft. Pickett and awarded a contract 
while there was a great deal of questions and opposition coming from 
Congress. In fact, we did not have an independent cost benefit of 
analysis on the project until December of last year. The State 
Department then halted the contract, upon reviewing language in the 
State Authorization Act passed out of SFRC and the SFOPs appropriations 
bill calling for the independent cost-benefit analysis. As a result of 
halting the contract, we were told that State paid a $10,000 per day 
penalty. I'm concerned about the lack of disregard for Congressional 
intent shown by this process. Why did State not wait to move ahead 
until the known Congressional requirements were satisfied? How much did 
the penalties on the contract at Ft. Pickett cost the taxpayer to date?

    Answer. Beginning in 2009, the Department and U.S. General Services 
Administration (GSA) conducted an extensive site selection process, 
reviewing over 70 sites before selecting Fort Pickett as the preferred 
site for FASTC. The Department and the Federal Law Enforcement Training 
Center (FLETC), working with the Office of Management and Budget (OMB), 
also extensively reviewed the FLETC site in Glynco, GA. The 
Administration ultimately relied on the Department's unique 
understanding of diplomatic missions abroad and its training needs, 
which led to the selection of Fort Pickett in April 2014.
    The Government Accountability Office (GAO), the principal 
investigative arm of Congress, unofficially advised in May 2015 that 
the Fort Pickett alternative was the only site that fully supported the 
FASTC functional requirements and was fiscally the best course of 
action. Based on the cumulative results of these multiple reviews and 
to avoid further delays, particularly in light of the increased 
security training implemented following the Benghazi Accountability 
Review Board, the Department determined that moving forward with 
construction at Fort Pickett was a logical course of action.
    However, in response to additional Congressional concerns about the 
project, the Department halted construction in July 2015 in order to 
conduct additional due diligence. GSA contracted with Deloitte to 
conduct an independent ``apples to apples'' Cost Benefit Analysis (CBA) 
of Fort Pickett, FLETC, and the Bill Scott Raceway in Summit Point, WV. 
In December 2015, the CBA confirmed that Fort Pickett would be less 
expensive, could be completed sooner and presented less risk than any 
other option. The finalized GAO report also agreed with this finding. 
The Department and GSA have since discussed the CBA results with 
Congress. On February 25, 2016, the Department restarted construction 
activities for FASTC at the Fort Pickett site.
    The CBA cost $527,000 and supported previous results in the 
Department's, OMB's and GAO's separate analyses. Prior to the restart 
date of February 25, GSA estimated that delay costs would accrue at the 
rate of $620,000 per month when the construction hold was issued in 
August 2015. Now that all project phases are proceeding, GSA will 
continue coordinating with contractors to determine actual delay costs. 
GSA estimates it will be at least several more weeks before a final 
delay cost is known.


                               __________

                  RESPONSES TO QUESTIONS SUBMITTED TO 
                  SECRETARY KERRY BY SENATOR BARRASSO

    Question 1. Does your budget eliminate any program? Please provide 
a complete list of programs eliminated in the administration's FY 2017 
budget for State and USAID?

    Answer. The Department does not propose the elimination of any 
Diplomatic Engagement programs in the Fiscal Year 2017 Request.
    In the five-year period between FY 2012 and FY 2016 the non-OCO 
portion of the non-security D&CP operations account has been reduced by 
19 percent. The Department's FY 2017 Request includes a recommendation 
to increase funding in this account for the first time in five years. 
This request would still remain 11 percent below the FY 2012 level.
    The D&CP account is the primary source of funding for all of the 
administrative functions, excluding buildings and security, performed 
by State. The Department considers all of these functions to be 
essential to the security and diplomatic presence of the United States. 
At the same time the Department looks for every opportunity to reduce 
the cost to the taxpayer through rightsizing, identifying greater 
operational efficiencies, and having no tolerance for waste.


    Question 2. In November 2014, President Obama unilaterally pledged 
$3 billion for the U.N. Green Climate Fund. Congress has not authorized 
or appropriated any money for it. According to the Congressional 
Research Service, Congress did not appropriate any funding for fiscal 
year 2016. A few media reports indicate that you plan to divert funds 
from other line items in order to pay for the United Nations Green 
Climate Fund.


   Does the Fiscal Year 2016 appropriation bill specifically provide 
        funding for the U.N. Green Climate Fund? If yes, what 
        appropriations were funded specifically to the U.N. Green 
        Climate Fund and to what accounts? If no, what accounts are you 
        planning to divert and reprogram funds from in order to meet 
        this unilateral commitment?


    Answer. The Green Climate Fund (GCF) is an independent institution 
and not part of the United Nations. The GCF is governed by an 
independent Board that has full authority over funding decisions. The 
United States has a seat on the Board.
    The Department of State, Foreign Operations, and Related Programs 
Appropriations Act, 2016 (Div. K, P.L. 114-113) did not earmark funds 
specifically for the GCF, but it also did not contain any restrictions 
on the use of FY 2016 funds for the GCF. The administration plans to 
provide funding to the GCF from the Economic Support Fund (ESF) account 
that is available for this purpose.


    Question 3. What is the process through which the administration 
determines appropriate commitments to multilateral funds such as the 
Green Climate Fund? What consultation with Congress is involved when 
commitments to multilateral funds are being considered?

    Answer. The administration undertook an interagency discussion to 
determine the amount of the first U.S. funding to the GCF in light of 
the U.S. pledge to provide up to $3 billion to the GCF not to exceed 30 
percent of total confirmed pledges during the initial resource 
mobilization period of the GCF. The administration consulted with 
Congress before the GCF pledge was announced and discussed the FY 2016 
request for the GCF in the course of conference negotiations regarding 
the Department of State, Foreign Operations, and Related Programs 
Appropriations Act, 2016.
    Question 4. President Putin is attempting to change the battlefield 
dynamics to bolster the Assad regime and weaken the opposition in any 
negotiations for a peace deal. Russia continues to support the Assad 
regime but is now bombing civilians and opposition groups in Syria. The 
most recent example is the Russian bombings in Aleppo.


   What leverage does the international community have to pressure 
        Assad to leave when he is currently winning the civil war on 
        the battlefield with the assistance of Russia?

    Answer. Bashar al-Asad continues to be the President of Syria 
because he is being propped up by Iran and Russia. While Russia wants 
to keep its only strategic ally in the region in power, it knows that 
its military support to the regime will not bring an end to the 
conflict. In November 2015, Russia signed onto the International Syria 
Support Group (ISSG) Statement reaffirming key Geneva Communique 
principles, most importantly, a commitment to a political transition, 
including agreeing to free and fair elections administered under U.N. 
supervision within 18 months. In December, Russia also voted in favor 
of U.N. Security Council Resolution 2254, which explicitly requested 
that the U.N. convene formal negotiations on a political transition 
process between the regime and the opposition.
    The United States is committed to seeing this process through to a 
political transition away from Asad; that is what the upcoming 
negotiations in Geneva under the auspices of the U.N. are supposed to 
do, and UNSCR 2254 provides a timetable for it. We are pressing hard to 
support implementation of the cessation of hostilities and get greater 
humanitarian access throughout Syria which will help to support 
negotiations between the Syrian opposition and Regime.
    The ISSG is made up of over 20 other countries and entities. As a 
result of our ongoing diplomatic exchange with Russia, Russia has 
pressured the regime to agree to the cessation of hostilities, as well 
as allowing more humanitarian aid into besieged areas of Syria, but 
more needs to be done.


    Question 5. How will the ceasefire affect the rules of engagement 
for our special operations forces that currently operate in Syria?

    Answer. The cessation of hostilities will not affect the rules of 
engagement for U.S. special operations forces in Syria. I direct you to 
the Department of Defense for a more detailed response about the rules 
of engagement for U.S. special operations forces in Syria.


    Question 6. Is Russia in violation of the political agreements and 
ceasefire commitment in Ukraine?

    Answer. Russia continues to arm, train, direct, and fight alongside 
separatist forces in eastern Ukraine. The number of ceasefire 
violations in eastern Ukraine is at the highest level since September 
2015, and according to reporting from the Organization for Security and 
Cooperation in Europe's Special Monitoring Mission (OSCE SMM) a 
majority of ceasefire violations originate from separatist-controlled 
territory. Attacks by combined Russian-separatist forces have often 
involved prohibited heavy artillery, mortars, and multiple-rocker 
launchers, including a confirmed March 3 use of 40 Grad rockets fired 
on Ukrainian positions. The SMM reports also make clear that Russia-
backed separatists continue to obstruct its mission by delaying or 
blocking monitors, jamming OSCE unmanned aerial vehicles, and, in some 
cases, directly intimidating and even firing at monitors to threaten 
their safety.
    Russia is a party to but has not implemented the Minsk agreements, 
which it signed in February 2015 and in September 2014. Under the Minsk 
agreements, Russia and the separatists it backs have committed to a 
series of steps including: abide by the ceasefire; permanently withdraw 
heavy weapons from the line of contact; allow OSCE monitors full access 
throughout areas under separatist control, including up to the 
international border; hold local elections in areas of Donetsk and 
Luhansk oblasts in keeping with Ukrainian law and OSCE standards and 
observed by the OSCE Office for Democratic Institutions and Human 
Rights; withdraw foreign forces and equipment from eastern Ukraine; and 
return control of Ukraine's international border to the Ukrainian 
government. Russia has not fulfilled these commitments.
    As President Obama stressed to President Putin in their 
conversations, the United States expects Russia to fully implement the 
Minsk agreements, and until it does, sanctions will remain in place. 
Separate Crimea-related sanctions will remain in place as long as 
Russia occupies that piece of Ukrainian land.


    Question 7. What does Russia's repeated violations of its ceasefire 
commitments in Ukraine say about the prospects of Russia abiding by and 
the international community enforcing a ceasefire in Syria that was 
just announced?

    Answer. Our diplomacy in both Ukraine and Syria is focused on 
supporting ceasefires in order to advance political negotiations to end 
the conflicts. In Syria, we are committed to implementing the cessation 
of hostilities (COH) in Syria announced on February 22 because it 
represents the best chance for stability, humanitarian access, and a 
resumption of negotiations in pursuit of a political solution to end 
the Syrian civil war. The COH offers a visible international platform 
so that the international community can see what Russia has agreed to 
do.
    Our emphasis is on getting the cessation to take hold and defusing 
tensions as reports of violations inevitably surface. Given the 
intensity of fighting and the number of actors involved, putting this 
cessation fully into effect is going to take time. Nevertheless, as of 
March 11 we have seen a marked reduction in violence, corroborated by 
local reporting from within Syria.
    Once the cessation of hostilities is on solid footing, the focus 
will shift to monitoring and reporting on compliance. As co-chairs of 
the COH Task Force, we are in contact with the Russians to report and 
de-escalate COH violations. We are also in touch daily with the U.N. 
Office of the Special Envoy (OSE), based in Geneva, which maintains a 
small in-country presence in Syria. The OSE will serve as secretariat 
of the Task Force and a conduit and hub of information for all.
    In Ukraine, our clear message to Russia is the importance of 
implementation of the ceasefire. As President Obama told President 
Putin in their February 22 phone conversation, we expect Russia to 
implement the Minsk agreements fully, including the ceasefire and heavy 
weapons withdrawal, and sanctions will remain until place until Moscow 
does so.


    Question 8. What is your plan to ensure Russia keeps its word and 
is held accountable for any ceasefire violations in Syria? What 
consequences and sanctions should Russia face for targeting Syrian 
civilians and members of the opposition?

    Answer. We are committed to implementing the cessation of 
hostilities (COH) in Syria announced on February 22 because it 
represents the best chance for stability, humanitarian access, and a 
resumption of negotiations in pursuit of a political solution to end 
the Syrian civil war. The world can see what Russia has agreed to and 
is watching very closely for any sign that Russia will try to 
manipulate the situation further or renege on its commitments under the 
COH.
    As we have said from the beginning of this process, challenges are 
to be expected. We are closely monitoring reports of COH violations by 
all parties. We are treating such allegations seriously and continue to 
urge all parties to practice restraint. We anticipate obstacles, but as 
of March we have seen a marked reduction in violence, corroborated by 
local reporting from within Syria. Dedicated teams in Washington, 
Geneva, and the region have been and will continue coordinating closely 
with the U.N., Russia, and other International Syria Support Group 
partners to defuse violence where it arises and prevent any violations 
to the COH. It is in Russia's interest and indeed the interest of all 
who seek an end to the violence--especially the Syrian people--to 
ensure this process succeeds.
    Should the Syrian regime and Russian forces precipitate the failure 
of the COH, the United States will consider all available options to 
advance our goals of a political process in Syria away from Asad and 
defeating ISIL.


    Question 9. What consequences and sanctions do you support in order 
to pressure Russia to meet its international commitments in Ukraine?

    Answer. Our sanctions related to Russian aggression in Ukraine are 
strong and strategic. They are carefully calibrated to impose maximum 
pressure on the Russian government, while safeguarding, to the extent 
possible, global financial markets and the global economy.
    We will continue to coordinate our sanctions with the EU, the G7, 
and other international partners to maintain pressure on the Russian 
government for its destabilizing activities in Ukraine, including its 
occupation and attempted annexation of Crimea.
    Sanctions will remain in place until Russia fully implements its 
commitments under the Minsk Agreements, and we are prepared to impose 
additional costs if Russia escalates its destabilizing activities in 
eastern Ukraine. Our Crimea sanctions will remain as long as Russia 
continues its occupation of that piece of Ukraine.


    Question 10. Do you agree with Admiral Haney's assessment? Are you 
aware of support from the Department of Defense for this treaty?

    Answer. The administration, including the Department of Defense, 
supports the full implementation of the Open Skies Treaty. The images 
taken by Treaty sensors are similar in quality to images available 
through other sources, such as commercial satellite imagery, and are 
available to all Treaty parties. The Treaty is designed to enhance 
confidence and transparency by allowing its 34 member states to obtain 
information on the military forces and activities of other Treaty 
partners through aerial observation flights.
    The Treaty contributes to European security by providing images and 
information on military forces and activities, and by permitting 
observation flights to verify compliance with arms control agreements. 
The Treaty establishes procedures for certifying sensors to confirm 
that they are compliant with Treaty limits on resolution for image 
quality and data processing. Moreover, the Treaty permits inspections 
prior to each flight as well as on-board observers during each 
observation mission to verify that requirements are being met.


    Question 11. Do you believe that this treaty has out lived its 
original intention and the United States should withdraw?

    Answer. No. The purpose of the Open Skies Treaty is to promote 
transparency and confidence-building among the 34 parties. The 
observation flights conducted under the Treaty are as important now as 
they were when the Treaty was signed in 1992. The Treaty continues to 
play an important role in European security and the administration 
believes we should continue to be an active party to the Treaty.


    Question 12. How would an Iraq government without Prime Minister 
Abadi affect the U.S. led coalition against ISIS?

    Answer. Abadi and his government have proven to be key partners in 
the fight against Da'esh, and we continue to support his efforts to 
promote reform and a more inclusive society. We believe Prime Minister 
Abadi retains the support of a sufficiently broad coalition to continue 
to govern. The U.S. Embassy in Baghdad maintains relationships with 
nearly every political party and constituent group involved in Iraqi 
national politics. Iraqi leaders are aware of the benefits and the 
importance of a relationship with the United States.
    If there were a new Prime Minister, which we would not expect 
before the next parliamentary elections in 2018, it would in all 
likelihood be someone we already have a relationship with and would be 
able to work with to defeat Da'esh. A sustainable military victory is 
not possible without the support of the Government of Iraq.


    Question 13. Do you believe that Prime Minister Abadi will be 
inevitably forced out of office? If so, what do we believe Iran will do 
in reaction if Prime Minister Abadi is forced out?

    Answer. Prime Minister Abadi was selected as a consensus candidate 
after the 2014 elections, and we believe he retains the support of a 
sufficiently broad coalition to continue to govern. We do not expect a 
new Prime Minister before the next parliamentary elections in 2018.
    Iran has a great deal of influence in Iraq, but does not control 
its neighbor. Since the collapse of the Saddam regime, Iran has worked 
assiduously to increase its influence in Iraq through political and 
military support, first to former Shia resistance forces against 
Saddam, and later to Shia militia groups countering the U.S. military 
presence in the last decade. We expect Iran will continue to use its 
considerable influence to empower Iraqi politicians whose agenda aligns 
with Iran.


    Question 14. What does the United States government know about 
those responsible for kidnapping the Americans? Was Iran involved in 
the kidnapping?

    Answer. The United States worked closely with the Government of 
Iraq to secure the safe release of the kidnapped individuals, including 
information sharing about the perpetrators. There is no indication that 
Iran was involved in the kidnapping. The State Department is happy to 
provide more information in a classified setting.


    Question 15. As part of the administration's Iran nuclear deal, 
Iran was granted over $100 billion in frozen assets. You have 
previously acknowledged that some of the money received through 
sanction relief will go to terrorist groups. In January, you stated, 
``I think that some of it will end up in the hands of the IRGC or other 
entities, some of which are labeled terrorists.'' How much of the 
windfall in cash is being used by Iran to pay down their debts, 
modernize their military, increase support for terrorist groups and 
fund destabilizing activities in the region?

    Answer. Iran has, over the past three decades, used some of its 
resources to support terrorism. That is why Iran is and remains a 
designated State Sponsor of Terror. And that is why our non-nuclear 
related sanctions on Iran remain, and why we will continue to work with 
our partners in the region to counter Iran's malign activities, 
regardless of the source of funds for those activities.
    After the IAEA verified that Iran had met key nuclear-related 
commitments as specified in the JCPOA, the United States lifted 
nuclear-related sanctions on Iran. As part of the lifting of these 
sanctions, foreign financial institutions holding funds owned by Iran 
in accounts outside of the United States can release such funds to the 
Central Bank of Iran. We estimate that, as a result, Iran now has 
access to approximately $50 billion of its own funds.
    Iran's ongoing economic difficulties make it harder to divert large 
portions of its financial gains from sanctions relief away from its 
domestic economy and toward its regional activities. For example, we 
estimate that Iran needs about half a trillion dollars to meet pressing 
investment needs and government obligations.
    I would also note that we have numerous domestic authorities--
including sanctions--to counter Iran's support for terrorism and other 
destabilizing activities. We will continue to aggressively enforce our 
sanctions, including those related to Iran's support for terrorism, 
destabilizing activity in the region, ballistic missile development, 
and human rights abuses.


    Question 16. What additional sanctions do you suggest imposing on 
Iran due to its support of terrorist groups and destabilizing 
activities in the region including in Lebanon, Syria, Yemen, Iraq, and 
the Palestinians territories?

    Answer. We are deeply concerned about Iran's support for terrorism, 
destabilizing activities in the region, ballistic missile development, 
and human rights abuses. Powerful non-nuclear sanctions, including 
those targeting Iran's support for terrorism, destabilizing activities 
in the region, ballistic missile development, and human rights abuses 
remain in effect, and we will not hesitate to use these sanctions when 
called for.
    The U.S. Department of the Treasury's Office of Foreign Assets 
Control on January 17 designated three individuals and eight entities, 
including five Iranian officials, involved in the procurement of 
materials and equipment for Iran's ballistic missile network. These 
designations effectively cut these entities off from the U.S. financial 
system, and any non-U.S. person who engages with these designees may 
also be subject to U.S. secondary sanctions.
    Anyone worldwide who transacts with or supports individuals or 
entities sanctioned in connection with Iran's support for terrorism or 
development of WMD and their means of delivery, including missiles--or 
who does the same with any Iranian individual or entity who remains on 
Treasury's Specially Designated Nationals and Blocked Persons List--may 
put themselves at risk of being sanctioned.


    Question 17. What is the administration doing to prevent Iran from 
transferring advanced weaponry to non-state actors in the region who 
might use those weapons against our allies?

    Answer. Regarding Iran's transfer of weapons to groups in the 
region, we continue to work intensively with our partners, especially 
Israel and the Gulf states, to deter and disrupt Iranian threats and 
proliferation. Examples of such cooperation include diplomatic and 
sanctions pressure on Mahan Air, ongoing security cooperation with the 
GCC following the Camp David summit, sanctions on a range of Iranian 
entities for actions in Syria, Israel's seizure of the Klos C vessel 
carrying weapons bound for Gaza in 2014, military and diplomatic 
efforts to prevent an Islamic Revolutionary Guard Corps (IRGC) naval 
flotilla from docking in Yemen in April 2015, and the September 25, 
2015, seizure of the Nasir dhow carrying weapons from Iran that we 
assess were bound for Yemen.


    Question 18. Following the outbreak of Ebola in West Africa, 
Congress provided $5.4 billion in emergency appropriations to combat 
the outbreak, of which roughly $2.5 billion was directed to the 
Department of State and USAID. The administration recently requested an 
additional $1.8 billion in emergency appropriations for efforts related 
to the Zika virus. The request included $335 million for USAID and $41 
million for the Department of State. The White House's funding fact 
sheet also requested flexibility in the use of the remaining USAID 
Ebola funds.


   How much did USAID and the Department of State spend on Ebola and 
        from what accounts? How much money remains unobligated?


    Answer. As of January 1, $1.2 billion in foreign assistance and 
$34.3 million in diplomatic engagement funding has been obligated for 
State-USAID Ebola emergency response and recovery efforts. There is 
approximately $2.1 million in unobligated diplomatic engagement Ebola 
funding and nearly $1.3 billion in unobligated foreign assistance. The 
bulk of this unobligated funding is, however, planned for critical 
ongoing Ebola response and recovery efforts in West Africa, including 
ensuring our ability to rapidly and effectively respond to new Ebola 
cases as well as addressing the needs of the survivor population, and 
activities to support the Global Health Security Agenda over the next 
five years.


    Question 19. How much of the unobligated money would the Department 
of State and USAID recommend repurposing to help with the international 
Zika efforts? Would giving USAID and the Department of State the 
flexibility to use these funds for Zika reduce the administration's 
emergency funding request?

    Answer. The FY 2016 Zika supplemental request of $376 million 
reflects our best estimate, given current information, of potential 
State and USAID needs for the Zika response at this time; however, 
there remains significant uncertainty around the scope of the Zika 
challenges we will face. As such, the President's FY 2017 Budget and 
the FY 2016 Zika supplemental request authority to use unobligated 
Ebola funds for other infectious diseases, such as Zika. This authority 
would allow us to consider the use of Ebola funds to address Zika and 
other future infectious disease outbreaks, if needed, beyond the 
currently identified needs. This request for additional authority for 
Ebola funds does not change the funding requested in the Zika 
supplemental.
    While we anticipate some flexibility with remaining Ebola funds, a 
majority of the funds are still needed to sustain our ability to 
support Ebola recovery efforts and maintain our readiness to respond to 
flare-ups as they occur. We should not short-change our ability to 
address either of these important health challenges.


    Question 20. What efforts has the Department of State taken to 
protect embassy staff, employees, and Americans living in impacted 
areas? Does the Department of State currently have a policy in place 
for employees to defer travel or leave countries with the virus?

    Answer. The State Department's Office of Medical Services works 
with U.S. government employees in areas with active Zika transmission 
to inform them of the risks and to help them determine appropriate 
action given their individual situations. The Department is working 
with U.S. missions in the region to ensure that mosquito control 
measures are in place and that effective mosquito repellants are 
available to mission employees. Our medical personnel at embassies are 
identifying and counseling pregnant U.S. Government employees or their 
pregnant spouses who are covered under the Department of State Medical 
Program and currently posted in a country with a CDC travel alert for 
Zika. Pregnant women in this group are offered the option of voluntary 
medical evacuation or curtailment (reassignment).
    The health and safety of U.S. citizens living and traveling abroad 
is a top priority for the State Department. Through a variety of 
outreach tools, the Bureau of Consular Affairs ensures that U.S. 
citizens have access to the information they need about the Zika virus, 
as well as information about steps they can take to protect themselves, 
based on the latest public health guidance from the CDC. We send 
messages to U.S. citizens in countries listed in the CDC travel alerts, 
provide information on our travel information website, Travel.State.Gov 
and post links to CDC information from U.S. Embassy websites and 
through social media.


    Question 21. The Ebola outbreak certainly highlighted the need for 
a robust international response to global disease outbreaks. According 
to the Department of State spokesperson, the Department of State 
created a Zika coordination team to help lead the U.S. international 
response to Zika.


   Please provide details on the teams' leadership structure and 
        personnel, their mission and authorities, and current funding 
        sources.


    Answer. Deputy Secretary for Management and Resources Heather 
Higginbottom established a Zika Coordination Team under the leadership 
of the Acting Assistant Secretary for the Bureau of Oceans and 
International Environmental and Scientific Affairs (OES) to ensure a 
robust and coordinated State Department response and rapid engagement 
with our interagency partners. In our response to Ebola last year, we 
learned important lessons about how best to establish a robust 
coordination mechanism, and we are putting those lessons into practice.
    The Zika Coordination Team leverages existing staff and expertise 
within OES' Office of International Health and Biodefense (OES/IHB) and 
is led by the director of that office. OES/IHB also manages Department 
engagement on other priority health issues, including Ebola response 
and the Global Health Security Agenda. The Zika Coordination Team's 
funding and authorities are derived from those of OES/IHB.
    The Team's mission is to 1) ensure Department activities are fully 
coordinated; 2) serve as the main point of contact for external 
coordination, including with the interagency, foreign countries, and 
non-governmental entities; and 3) provide strategic advice and 
direction to senior Department leadership. As the central node for 
Department activities on Zika, the Team works in close coordination 
with bureaus across the Department, including the Bureau of Western 
Hemisphere Affairs, the Bureau of International Organizations Affairs, 
the Bureau of Consular Affairs, the Office of Medical Services, and the 
Office of the Director of U.S. Foreign Assistance, among others.


    Question 22. What is the Department of State doing to prepare for 
the massive influx of passport renewals in order to prevent long delays 
and massive backlogs?

    Answer. Since 2007, the Department has improved significantly its 
physical capacity to meet the expected increased passport demand. We 
added 11 new passport facilities, increasing the number nationwide to 
29. These additions serve key population centers and border-crossing 
areas. The Department also now has four ``mega-adjudication centers'' 
capable and prepared to adjudicate high volumes of applications. In 
this same time frame, the Department increased its passport staff by 
more than 34 percent and continues to increase its adjudication staff 
by another 20 percent beyond current levels.
    The Department continues to proactively reach out to U.S. citizens 
to encourage them to apply for passports well in advance of travel. We 
expect this to help disperse seasonal application spikes. Additionally, 
we recently increased the number of contractors at our national call 
center and expanded its hours to better accommodate anticipated 
increases in call volume. We also worked with the Department of 
Treasury and its lockbox contractor to expand capacity and create 
redundancy in our application intake.
    All of these improvements support our tiered, trigger system 
designed to prevent, identify, and address backlogs through a variety 
of methods. These include increased overtime, dedicated passport 
application adjudication task forces, and transferring work to less-
burdened passport agencies.
    Our continued goals are to manage our workload proactively, to 
retain as little work on hand as possible, and to ensure applicants 
receive their travel documents in a timely manner.


    Question 23. What funding resources do you intend to shift around 
to ensure that staff at the Department of State is equipped to 
effectively process the high volume of passport requests?

    Answer. In FY 2016, we project to receive 17.4 million applications 
and in FY 2017, we expect to receive approximately 20 million 
applications. Our budget requests are tied to forecasted passport 
demand and increases in high-volume years. The FY 2017 President's 
Budget Request includes $991.7 million to address passport 
requirements; this is $459.3 million (86 percent) above the actual 
spending level for FY 2015. Because consular services, including 
passport adjudication, are funded fully by consular fees, the portion 
of the passport fee retained by the Department will help fund the 
increased workload associated with the passport surge.
    The FY 2017 President's Budget Request supports the Department's 
plans to increase staff by 283 positions over FY 2015 staffing levels 
to meet growing demand. These employees are dedicated to adjudicating 
passport applications and providing essential and reliable service to 
the U.S. traveling public. This funding level also supports the 
purchase of supplies and inventory for the production of U.S. travel 
documents. We also are developing contingencies within our fee-based 
operations to assign consular staff to adjudicate applications on a 
temporary basis, should the need occur.


    Question 24. What outreach to travel groups, schools, tourist 
organizations, national media outlets, and local officials, including 
postmasters, is the Department of State doing to get the word out to 
the American people about this looming problem?

    Answer. Since the end of the passport application busy season in 
fall 2015, the Department has conducted intensive outreach to inform 
the U.S. traveling public of expected high demand for passports. In all 
outreach, we promote key messaging that encourages U.S. citizens to 
apply early in order to avoid delays and receive their passports in 
time for travel.
    The Department's efforts include concerted engagement with the 
press, conducting interviews with, and providing information to, 
national and local media outlets. For example, coverage during the last 
week of January 2016 resulted in more than 250 news articles and 
sizeable television coverage promoting Department messaging. During 
this period we reached more than 39.5 million people.
    The Department also utilizes social media and our website to inform 
U.S. citizens of current processing times and to apply early. We have 
more than 500,000 Twitter followers, allowing us to connect and inform 
daily.
    We have presented information about the upcoming surge to external 
stakeholders including A4A (Airlines for America), ASTA (American 
Society of Travel Agents), ACTE (Association of Corporate Travel 
Executives), AARP (American Association of Retired Persons), and AAA 
(The American Automobile Association). These stakeholders have in turn 
relayed our messages to their members.
    The United States Postal Service (USPS) is a valuable partner and 
the Department has engaged USPS through various means. We notified USPS 
senior management of the expected increased demand, and communicated 
the same messages to local post office acceptance facilities through 
information notices, newsletters, and an online question-and-answer 
session.
    The Department also reaches out to colleges and universities 
throughout the year regarding travel safety and passport messages. For 
example, during 2015 International Education Week, 23 passport agencies 
and centers interacted with 6,000 students at 57 passport fairs at 
colleges and universities across the nation.
    Finally, passport agencies and centers conduct local outreach to 
inform local officials and U.S. citizens of the upcoming surge. Local 
outreach includes participation in travel shows, naturalization 
ceremonies, and community organization meetings.


    Question 25. Why hasn't the United Nations been able to solve the 
terrible problem of sexual exploitation and abuse of U.N. peacekeepers? 
Which countries have been objecting to reforms? What steps are you 
taking to counter the objections and resolve the problem?

    Answer. We share your profound concern about the persistent, 
appalling reports, particularly from the Central African Republic 
(CAR), of sexual exploitation and abuse (SEA) of vulnerable people by 
both U.N. and non-UN forces. While the United Nations has taken a 
number of steps over the past decade to enforce its policy of zero 
tolerance for SEA by U.N. personnel serving around the world, that 
effort has clearly fallen short.
    The United States has taken every opportunity to express its 
concern about these recurring allegations with U.N. leadership, 
including the Secretary-General, and has pushed for urgent action. We 
anticipate the release in the coming days of the Secretary-General's 
annual report on SEA in U.N. peacekeeping, and expect that report to 
include identification of stronger and more effective mechanisms to 
reduce the risk of SEA, and recommendations to better protect 
vulnerable populations and hold perpetrators accountable for their 
actions. For the first time, the report will also identify the 
nationalities of U.N. uniformed peacekeeping personnel against whom 
there were allegations of SEA during 2015.
    This report follows measures launched by the Secretary-General last 
year to strengthen enforcement of the U.N.'s policy of zero tolerance 
for SEA, including the establishment of immediate response teams in 
peacekeeping missions to gather and preserve evidence for use in 
investigations within 72 hours of an allegation. He is also holding 
troop- and police-contributing countries more accountable by 
withholding payments to governments for their personnel against whom 
there were credible allegations of SEA. Just last month, with 
encouragement from the United States and like-minded countries, the 
Secretary-General ordered the repatriation of the entire Democratic 
Republic of the Congo contingent from CAR, largely because of a pattern 
of such allegations. Earlier, in August 2015, he demanded the 
resignation of the head of the U.N. peacekeeping mission in CAR, during 
whose leadership many of these egregious offenses were committed.
    The United States applauds such steps, and will push for their 
assertive, consistent application. We will also expand our outreach to 
troop- and police-contributing countries to take immediate, necessary 
actions to enforce good discipline and to complement the U.N.'s 
efforts, particularly regarding ensuring appropriate justice and 
accountability measures.


    Question 26. What specific proposals is the administration 
suggesting the United Nations implement in order to end this abuse and 
misconduct by U.N. peacekeepers as well as preventing further 
situations in the future? What measures should the U.S. government take 
to pressure the United Nations to take the needed reforms?

    Answer. The United States is actively engaged with the U.N. 
leadership to underscore our profound concern about the appalling 
pattern of sexual exploitation and abuse (SEA) by some U.N. 
peacekeepers in the Central African Republic and elsewhere, who tarnish 
the reputation and undermine the work of U.N. peacekeepers everywhere. 
By their very definition, peacekeeping missions are intended to protect 
populations at risk, communities under threat, and families in peril. 
Exploiting or abusing these same vulnerable people is inexcusable.
    For its part, the United States will redouble its diplomatic 
engagement with troop- and police-contributing countries to urge them 
to enforce good discipline on their peacekeeping personnel, and to take 
appropriate action, particularly on justice and accountability. That 
effort will benefit from the Secretary-General's decision to identify 
alleged perpetrators by nationality--information that was previously 
unavailable but that we will now employ in our outreach to track cases, 
press for full investigations, and insist on prosecution when crimes 
have been committed. We intend to use a range of diplomatic tools in 
Washington and abroad to pressure countries to do the right thing.
    Last year the U.N. Secretary General launched an effort to 
strengthen enforcement of the U.N.'s zero tolerance policy for SEA. The 
United States asked for and welcomes the following actions by the U.N.:


   steps to speed and improve investigations;

   improved systems for victims and communities to report allegations 
        against U.N. personnel;

   suspending reimbursement to troop- and police-contributing 
        countries for uniformed personnel against whom there are 
        credible allegations;

   repatriating individuals and contingents where there is a pattern 
        of allegations;

   identification by nationality of those alleged to have committed 
        SEA; and

   establishment of SEA taskforces in all missions to provide 
        operational and strategic advice to the head of the mission.


    The United States applauds these efforts but will continue to press 
the U.N. and troop- and police-contributing countries to do more to end 
SEA.


    Question 27. Is the Department of State considering or willing to 
withhold funds until it is satisfied that effective safeguards have 
been implemented to prevent similar conduct in the future?

    Answer. While we share your concerns about the shocking allegations 
of sexual exploitation and abuse by both U.N. and non-UN forces in the 
Central African Republic, we have found that withholding funds is 
counterproductive to our efforts to promote U.N. reform. What we have 
seen again and again is that U.N. reforms are more effectively achieved 
when the United States is in good standing, has a seat at the table, 
and pursues robust, long-term, sustained engagement, not by withholding 
funds in contradiction of our treaty obligations.
    For example, the withholding of funds to the U.N. in the 1990s 
almost led to the United States losing its vote in the U.N. General 
Assembly. When we were in arrears, even our closest allies were less 
willing to work with us, including on reform issues.
    While we do not support withholding funds we have obligations to 
pay, in 2011 we proposed and the General Assembly approved a historic, 
first-ever prohibition on payments for troops sent home for 
disciplinary reasons, including SEA, and strengthened the U.N.'s ``zero 
tolerance'' policy for SEA. The U.N. began withholding payments in 2015 
to countries whose personnel had been credibly alleged to have engaged 
in SEA or repatriated for this misconduct.


    Question 28. What is the rationale for absolving UNESCO and the 
Palestinians of the consequences of undermining the peace process? If 
we do not attach consequences to the Palestinians bypassing the peace 
process, doesn't that fundamentally undermine the peace process?

    Answer. The administration continues to oppose unilateral actions 
in intergovernmental bodies that circumvent outcomes that can only be 
negotiated between Israel and the Palestinians, including Palestinian 
statehood. However, it does not serve the U.S. national interest to 
respond to Palestinian efforts or those of their allies by withholding 
our contributions to U.N. specialized agencies.
    Withholding of U.S. contributions could hinder the U.N. specialized 
agencies from carrying out work we value highly, limit U.S. influence 
in these organizations, and undermine our ability to pursue important 
U.S. objectives--such as working against anti-Israeli resolutions and 
initiatives.
    U.S. leadership in the United Nations Educational, Scientific, and 
Cultural Organization (UNESCO) is critical in combatting anti-Israel 
bias, promoting freedom of expression, countering and preventing 
violent extremism, and supporting implementation of the 2030 Agenda for 
Sustainable Development, including in the areas of education, gender 
equality, promoting the health of our oceans and improving weather 
forecasting, leveraging traditional donor resources by driving 
innovation and science and technology, and protecting fundamental 
freedoms and promoting the rule of law.
    Because of specific benefits of full participation in UNESCO, the 
Department seeks Congressional support for legislation that would 
provide the administration with the authority to waive restrictions 
that currently prohibit paying U.S. contributions to UNESCO.
    Over our objections, the member states of UNESCO voted to admit the 
Palestinians as a member state in 2011. The United States has not paid 
any part of the U.S. assessments to UNESCO for calendar years 2011 
through 2016 as required by current law. As a result of our arrears, 
the United States lost its vote in the UNESCO General Conference in 
2013. The FY 2017 request includes transfer authority to pay up to $160 
million (approximately two-year's worth) of outstanding assessments to 
UNESCO, should such a waiver be enacted.


    Question 29. At a July 28, 2015 hearing before the House Foreign 
Affairs Committee, you testified that it is a ``prerequisite'' for 
sanctions relief under the Iran nuclear agreement that Iran resolve 
issues related to the possible military dimensions of its nuclear 
program. More clearly and forcefully, you said on July 24, 2015: ``PMD 
has to be resolved before they get one ounce of sanctions relief.'' 
Wendy Sherman as the Under Secretary of State for Political Affairs 
testified to this Committee on February 4, 2014 that Iran will have to 
``come clean on its past actions as part of any comprehensive 
agreement. We will work with the IAEA to facilitate resolution of past 
and present issues of concern. And that is a formula used by the IAEA 
in addressing possible military dimensions, including Parchin.''
    In its report on Iranian compliance with the initial requirements 
of the nuclear agreement, the IAEA described how Iran had in the past 
installed a large cylinder/chamber at Parchin in which to conduct high 
explosives testing. When the IAEA went to inspect the facility on 
September 20, 2015, the chamber was gone. The IAEA went on to say it 
could not conclude exactly what had happened at Parchin, but it knew 
that Iran's explanation was false. It further concluded that Iran's 
sanitization behavior at Parchin ``seriously undermined the Agency's 
ability to conduct effective verification.''


   Did we know the explosives testing chamber would not be there when 
        the IAEA inspectors visited Parchin on September 20, 2015? If 
        not, what does that have to say about our capabilities to 
        monitor Iranian compliance with the Iran nuclear agreement?


    Answer. When IAEA Director General Amano visited Parchin as a part 
of the Road Map between the IAEA and Iran, he noted that there was no 
longer an explosives chamber at Parchin. As to how the chamber was 
removed and what we knew or assessed when, I would have to direct you 
to my colleagues in the intelligence community for further information.
    What I can say is that, as confirmed in the IAEA's December report, 
we know the chamber is no longer at Parchin. If the IAEA receives 
credible information indicating that Iran is using this or any chamber 
for any nuclear weapons related work in the future, the JCPOA provides 
strengthened tools for the IAEA to demand timely access to any such 
site.


    Question 30. What does this matter have to say about the IAEA's 
ability to conduct effective verification of the Iran nuclear 
agreement?

    Answer. We are confident that the JCPOA gives the IAEA the tools 
that it needs to effectively monitor Iran's nuclear commitments under 
the Joint Comprehensive Plan of Action with Iran (JCPOA). In 
particular, the IAEA has the tools necessary to investigate any 
indications of possible undeclared material and activities, and, with 
the cooperation of other States, to uncover any future Iranian attempt 
to establish a covert nuclear program.
    The IAEA concluded that the information available to it, including 
the results of the visit, does not support Iran's statements on the 
purpose of the Parchin facility. This information is consistent with 
what we have long said: that Iran was covering up its past nuclear 
weapons work at Parchin. This is not new information for us, but it was 
important to have the IAEA confirm it.
    Significantly, the IAEA received access to the particular area of 
interest at the Parchin facility--access it had been trying to get for 
years. That access helped lead to the IAEA's assessment as to the past 
nature of the Parchin site, which did not support Iran's claims about 
the facility.


    Question 31. Where is the explosives testing chamber today and when 
will the IAEA get access to it?

    Answer. I cannot comment on what is known specifically about the 
location of the chamber and would direct you to my colleagues in the 
intelligence community for additional information.
    What I can say is that, as confirmed in the IAEA Director General's 
December report, we know the chamber is not at Parchin. If the IAEA 
receives any credible information indicating that Iran is using such a 
chamber at this or any other site for any nuclear weapons related work 
in the future, the JCPOA provides strengthened tools for the IAEA to 
demand timely access to any such site.


    Question 32. Why did you give sanctions relief to Iran when the PMD 
issue was not resolved?

    Answer. From the start, we have consistently said that we know that 
Iran had pursued an illicit nuclear program and that we know that it 
was engaged in activities prior to 2003 and subsequently on occasion.
    The JCPOA is a forward-looking arrangement, but addressing 
questions about what Iran did in the past has always been an important 
part of this process for the international community. For this reason, 
we and our P5+1 partners insisted Iran work with the IAEA to address 
the issue of possible military dimensions to Iran's nuclear program 
(PMD).
    The IAEA and Iran together developed and agreed on a time-limited 
process for Iran to address the IAEA's outstanding questions, and this 
process laid out a path for closure of the PMD issue at the IAEA. The 
IAEA Director General's December report--which was an independent 
assessment based on nothing but the facts--echoes our longstanding 
assessment about Iran's pre-2003 weaponization work and its halt in 
2003.
    The timing of Implementation Day, and the associated lifting of 
U.S. nuclear-related sanctions, was dependent on Iran completing its 
key nuclear-related commitments, and the IAEA verifying that Iran had 
completed each and every one of those requirements as detailed in the 
JCPOA text.
    The key issue here is to make certain that those past activities do 
not take place again as we go forward into the future. And that is why 
the implementation of the JCPOA is so critical. Our primary goal has 
been and continues to be ensuring that Iran's nuclear program is and 
will remain peaceful.



                                  <all>
</pre></body></html>
